SIGAR                  Special Inspector General for
                       Afghanistan Reconstruction
                                                       JAN 30
                                                        2012




QUARTERLY REPORT TO THE UNITED STATES CONGRESS
Cover Captions (clockwise from the left):
An Afghan girl attends a class at a camp
in Kabul on October 11. Since the Taliban
were ousted, girls’ schools have opened,
women are no longer banned from working
outside the home, and women are not
forced to wear a burqa. Increased access
to education and gender equity are major
goals of the U.S. and coalition reconstruc-
tion strategy. (© AFP 2012, Adek Berry)
A village elder watches ANA engineers and
U.S. soldiers with the 1st Stryker Brigade
Combat Team work together to improve
roads in Kandahar province on October 22.
Upgrading Afghanistan’s transportation
system is crucial to enhance security, trade,
and governance throughout the country.
(U.S. Army photo, SSG Lindsey Kibler)
Reintegrees’ surrendered weapons
are collected in Badghis province on
December 14. More than 650 insurgents
formally renounced their opposition this
quarter—mostly in the north and west.
Reintegration is a major focus of ISAF’s
counter-insurgency campaign. (ISAF photo)
SIGAR                                                 Special Inspector General for
                                                      Afghanistan Reconstruction
                                                                                      JAN 30
                                                                                       2012




The National Defense Authorization Act for FY 2008 (P.L. 110-181)
established the Special Inspector General for Afghanistan
Reconstruction (SIGAR).

SIGAR’s oversight mission, as defined by the legislation, is to provide for the indepen-
dent and objective:
•	 conduct and supervision of audits and investigations relating to the programs and
   operations funded with amounts appropriated or otherwise made available for the
   reconstruction of Afghanistan.
•	 leadership and coordination of, and recommendations on, policies designed to pro-
   mote economy, efficiency, and effectiveness in the administration of the programs
   and operations, and to prevent and detect waste, fraud, and abuse in such programs
   and operations.
•	 means of keeping the Secretary of State and the Secretary of Defense fully and
   currently informed about problems and deficiencies relating to the administration of
   such programs and operation and the necessity for and progress on corrective action.
Afghanistan reconstruction includes any major contract, grant, agreement, or other
funding mechanism entered into by any department or agency of the U.S. government
that involves the use of amounts appropriated or otherwise made available for the
reconstruction of Afghanistan.
Source: P.L. 110-181, “National Defense Authorization Act for FY 2008,” 1/28/2008.
SIGAR RESULTS TO DATE
AUDITS
•	   53 reports completed, 10 audits ongoing.
•	   171 recommendations made.
•	   up to $259.9 million identified in funds that should be returned to the U.S. government.
•	   3 forensic audits under way of $39 billion in reconstruction funds managed by DoD, DoS, and USAID.
•	   4 inspections initiated.

INVESTIGATIONS
•	 $52,014,850 recovered since November 2010.
•	 125 ongoing investigations, 74 involving procurement and contract fraud.
•	 17 convictions, 19 arrests, 9 indictments.
•	 81 referrals for suspension or debarment that have resulted in 3 finalized debarments, 20 suspensions, and
   33 proposals for debarments by the Army and USAID.
•	 716 Hotline complaints received; 306 referred to SIGAR and other agency investigators.




                                               JOWZJAN                      KUNDUZ              BADAKHSHAN
                                                             BALKH                    TAKHAR


                                                               SAMANGAN
                                   FARYAB                                     BAGHLAN
                                               SAR-E PUL                          PANJSHIR
                         BADGHIS                                                       NURISTAN
                                                                       PARWAN   KAPISA      KUNAR
                                                             BAMYAN                 LAGHMAN
                                                                             KABUL
             HERAT
                                                                    WARDAK
                                                                                      NANGARHAR
                                   GHOR                                    LOGAR
                                                DAYKUNDI
                                                                                      PAKTIYA
                                                                   GHAZNI                 KHOWST

                                             URUZGAN
              FARAH
                                                                            PAKTIKA
                                                           ZABUL




             NIMROZ                                                                                    Current SIGAR offices
                         HELMAND
                                          KANDAHAR                                                     Provinces where SIGAR has conducted
                                                                                                       audit and investigation work
                                            SPECIAL INSPECTOR GENERAL            FOR

                                           AFGHANISTAN RECONSTRUCTION


January 30, 2012

   I am pleased to submit SIGAR’s quarterly report to the Congress on U.S. reconstruction in Afghanistan. The United
States has seen reconstruction as critical to achieving the principal U.S. objective of defeating terrorism and denying
al-Qaeda a safe haven in Afghanistan. This quarter marks 10 years since the United States and other international
donors began committing resources to rebuild the country. During this period, the Congress has appropriated more
than $85.5 billion for the reconstruction effort, an unprecedented sum for one country in such a short period of time.
    This report offers a 10-year retrospective on the reconstruction effort and oversight of it. Section 1 of this report
summarizes the evolution of reconstruction over three main phases, identified on the basis of funding levels, changing
strategies, and evolving objectives: the Bonn Process (2001–2005), the Reconstruction Surge (2006–2011), and
Transition (2011–2014). The section describes achievements and persistent challenges and discusses how SIGAR
is focusing its audits and investigations on the programs most critical to the reconstruction effort. Section 1 also
provides a snapshot of the oversight community’s work in Afghanistan over the last decade.
   Section 2 of this report presents details on SIGAR’s oversight work this quarter. We completed three audits,
launched a new inspections program, and led a new initiative to strengthen oversight of reconstruction in Afghanistan.
Our audit of the Department of Defense’s accountability for vehicles provided to the Afghan National Security Forces
(ANSF) resulted in about $5 million in annual savings. Through our inspections program, we will be conducting
quick-impact assessments to determine whether infrastructure projects have been properly constructed, are being
used as intended, and can be sustained. We have begun inspections of four ANSF facilities in three provinces. Also
this quarter, SIGAR and the other Inspectors General responsible for reconstruction oversight formed a new strategic
planning group to develop a more integrated audit plan for fiscal year 2013.
   During this reporting period, SIGAR played a key role in investigations that resulted in two sentences and three
guilty pleas. One of the individuals sentenced was ordered to pay restitution of $115,000. SIGAR also made 40 referrals
for the suspension and debarment of individuals and companies for fraud, other illegal activity, or poor performance.
SIGAR has the largest investigative presence focused on fraud in Afghanistan; we have established strong
relationships with a wide range of U.S. agencies and Afghan law enforcement officials. Because many contractors
are not U.S. citizens, these relationships have enabled our investigators to develop a broad range of cases and hold
individuals and companies accountable.
   Section 3 provides an update of the U.S. reconstruction effort in the security, governance, and development
sectors. Throughout this section, we have included some 10-year metrics to show where key areas of reconstruction
are today relative to where they were in 2002.
  As this historic reconstruction effort begins its second decade, SIGAR will continue to work closely with the
Congress and other oversight agencies to provide robust and strategic oversight that deters criminal activity,
encourages efficiency, identifies waste and abuse, and evaluates program implementation to help inform the Congress
and the U.S. public about how these significant taxpayer dollars are being spent.

Very respectfully,




Steven J Trent
Acting Special Inspector General for Afghanistan Reconstruction


                                    400 ARMY NAVY DRIVE   ARLINGTON, VIRGINIA 22202
                                   EXECUTIVE SUMMARY




SIGAR ACTIVITIES Q1, FY 2012
This quarter, SIGAR launched two new initiatives to improve oversight of Afghanistan reconstruction.
To enhance coordination and oversight of U.S. activities, it created a joint strategy group with three
other oversight agencies. To provide more timely assessments of U.S.-funded construction projects,
SIGAR also established an inspections program.


Other accomplishments during this reporting period        three principal implementing agencies involved in
included the following:                                   reconstruction in Afghanistan. In addition, SIGAR
 •	 completed three audits, including one that pro-       auditors continued to analyze forensic data from three
    duced $5 million in savings; initiated 2 audits,      major reconstruction funds.
    bringing the number of ongoing audits to 10.
 •	 participated in investigations that resulted in two   NEW STRATEGIC PLANNING GROUP
    individuals sentenced for bribery—one ordered to      This quarter, SIGAR and the other Inspectors General
    pay $115,000 in restitution—and three guilty pleas.   with oversight responsibility in Afghanistan agreed
 •	 referred 40 individuals and companies for suspen-     to form a strategic planning group that will develop a
    sion and debarment.                                   more comprehensive and integrated audit plan for
 •	 opened 20 new investigations, bringing the total      FY 2013. SIGAR, whose legislative mandate requires it
    number of ongoing cases to 125.                       to coordinate with other oversight agencies, is leading
                                                          this effort to provide the Congress with more effective
COMPLETED AUDITS                                          assessments of reconstruction programs.
This quarter, SIGAR completed three audit reports:
a review of the Department of Defense’s (DoD)             NEW INSPECTIONS PROGRAM
accountability for vehicles provided to the Afghan        This quarter, SIGAR launched an inspections program
National Security Forces (ANSF), an evaluation of the     to assess the quality of construction of U.S.-funded
Afghan First Initiative, and one that examined a U.S.     infrastructure projects and determine if the facili-
implementing agency’s use of private security con-        ties are operated and maintained for the purposes
tractors. At the request of the agency, SIGAR is not      intended. SIGAR initiated four inspections of projects
publicly releasing the third audit report. The vehicle    contracted by the U.S. Army Corps of Engineers for
accountability audit resulted in projected savings        ANSF facilities in Kunduz, Nangarhar, and Wardak.
of $5 million a year. The audit of the Afghan First
Initiative found that since January 2008, the United
States has awarded about $654 million in contracts to
                                                          INVESTIGATIONS
                                                          During this reporting period, SIGAR’s participation in
Afghan companies, but that it is not possible to deter-
                                                          criminal investigations resulted in two sentences and
mine the degree to which this initiative is achieving
                                                          three guilty pleas. One of the sentenced was ordered
its intended objectives of creating employment and
                                                          to pay restitution of $115,000 and serve a 15-month
supporting economic growth.
                                                          sentence for soliciting bribes; the other was sen-
    SIGAR also began work on two new audits, bring-
                                                          tenced to 22 months in prison. This quarter, SIGAR
ing the number of ongoing audits to 10. These audits
                                                          opened 20 new cases. It also received 37 Hotline com-
are assessing contracts and programs funded by
                                                          plaints; since 2009, the SIGAR Hotline has received
DoD, the U.S. Agency for International Development
                                                          716 complaints. SIGAR also worked with Afghan law
(USAID), and the Department of State (DoS)—the



                                     iv
                                  EXECUTIVE SUMMARY




enforcement entities to develop a case against Afghan    in currency. This case grew out of a project SIGAR
contractors, who were convicted this quarter for         started in November 2010 to assess and evaluate the
stealing fuel from a forward operating base.             use of postal money orders to convert and transfer
                                                         currency from Afghanistan to the United States.
Former U.S. Army National Guard Captain                  Sentencing is scheduled for March 26, 2012.
Sentenced and Ordered To Pay $115,000 in
Restitution                                              DoD Employee Pleads Guilty to Bribery
On December 12, 2011, John Mihalczo, a captain in the    On December 21, 2011, Desi Wade, the former chief
Army National Guard, was sentenced to 15 months          of Fire and Emergency Services with U.S. Forces -
in prison for receiving bribes from military contrac-    Afghanistan, pled guilty to one count of 18 U.S.C. 201,
tors in return for the award of DoD contracts during     bribery of a public official, in U.S. District Court for
his deployment to Bagram Airfield. In addition to his    the Northern District of Georgia. In August 2011,
prison term, he was ordered to pay DoD $115,000 in       Wade was arrested after accepting a $100,000 payoff
restitution. Mihalczo is the ninth defendant sentenced   from a government contractor during a sting opera-
in this investigation, which SIGAR supported. Nine       tion in an investigation supported by SIGAR.
more defendants remain to be sentenced.
                                                         Afghan Contractors Sentenced for Theft of Fuel
Australian Citizen Sentenced to 22 Months for Theft      On November 29, 2011, an Afghan court convicted
and Bribery                                              five Afghan citizens for their involvement in a scheme
On December 20, 2011, Neil Patrick Campbell, an          to steal fuel from a forward operating base in Kunar
Australian citizen who formerly worked as a senior       province. Two were sentenced to five years and one
construction manager for a nongovernmental orga-         month in prison for stealing fuel. These convictions
nization in Afghanistan, was sentenced by the U.S.       resulted from a SIGAR investigation.
District Court in the District of Columbia to 22
months of incarceration and 24 months of super-          $887,835 Recovered for Afghan Company
vised release. Campbell had pled guilty to charges       During this reporting period, SIGAR and the Afghan
of bribery on October 4, 2011. In July 2010, an          Attorney General’s Office investigated a complaint
International Contract Corruption Task Force investi-    that a U.S. company contracted by the Air Force
gation led by the USAID Office of Inspector General,     Center for Engineering and the Environment to build
with assistance from SIGAR and the Federal Bureau        an ANA barracks had not paid its Afghan subcontrac-
of Investigation, had developed information that         tor. SIGAR helped negotiate an amicable settlement,
Campbell had solicited a bribe from a subcontractor      and the Afghan subcontractor received the $887,835 it
to inappropriately award contracts funded by USAID.      was owed.

U.S. Army Sergeant Pleads Guilty To Stealing More        Suspensions and Debarments
than $200,000                                            This quarter, SIGAR made 40 referrals for suspen-
On December 13, 2011, Philip Stephen Wooten, a U.S.      sion and debarment of individuals and companies
Army sergeant, pled guilty to conspiracy to commit       for fraud, other illegal activity, or poor performance.
fraud and theft of approximately $210,000 in govern-     SIGAR’s aggressive suspension and debarment
ment property. Wooten agreed to forfeit all assets       program focuses on making all contractors—
derived from his illegal activities—jewelry with an      U.S., Afghan, and third-country nationals—more
appraised value of $88,500, real property, and $62,419   accountable.



                                                                          v
                  TABLE OF CONTENTS




           OF
              RECONS          SECTION 1
                              AFGHANISTAN OVERVIEW
                   TR
   YEARS




                     UCTION
                              	 4	 2001–2005: The Bonn Process
                              	 10	 2006–2011: The Reconstruction Surge
10




     20                       	 19	 2011–2014: The Transition
            0 1 –2011
                   •
   •




                              SECTION 2
                              SIGAR OVERSIGHT
                              	 33	 Audits
                              	 42	 INVESTIGATIONS
                              	 47	 Sigar Budget
                              	 47	 SIGAR Staff




                              SECTION 3
                              RECONSTRUCTION UPDATE
                              	 51	 Overview
                              	 55	 Status Of Funds
                              	 71	 Security
                              101	 Governance
                              125	 Economic and Social Development
TABLE OF CONTENTS




  SECTION 4
  OTHER AGENCY OVERSIGHT
  149	 Completed Oversight Activities
  154	 Ongoing Oversight Activities




  SECTION 5
  APPENDICES
  166	 Appendix A: Cross-Reference of Report to
                   Statutory Requirements
  170	 Appendix B: U.S. Government
                   Appropriated Funds
  172	 Appendix C: SIGAR Audits
  174	 Appendix D: SIGAR Investigations and Hotline
  175	 Appendix E: Abbreviations and Acronyms
1   AFGHANISTAN
    OVERVIEW




        1
                                        AFGHANISTAN OVERVIEW




               R E C ONS
          OF
                       TR
Y E ARS




                           U C T IO N
 10




     20
           01–2011
                       •
   •




                       “The people of Afghanistan have
                     endured so much, and over and over
                      again they ask me, they ask others,
                    to ensure that they don’t lose the gains
                        that they have made in this last
                        difficult decade. I think we have
                        a strategy that gives us the best
                           chance to achieve a stable,
                       prosperous, and peaceful future.”
                                                                                        —U.S. Secretary of State
                                                                                        Hillary Rodham Clinton




                                        Source: U.S. Secretary of State Hillary Rodham Clinton, “Remarks at the Bonn Conference Center,” 12/5/2011.




                                             2                         SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                      RECONSTRUCTION 2001– 2011

Section 1
AFGHANISTAN OVERVIEW



This quarter, representatives from the Afghan govern-
ment and the international community gathered in Bonn,
Germany, to chart the next phase of the reconstruction
effort in Afghanistan: the transition of responsibility to the
Afghan government to secure and sustain the nation for
the long term. The conference on December 5 took place
exactly 10 years after the 2001 Bonn Conference, which
marked the beginning of the largest U.S. reconstruction
effort since the Marshall Plan.
   Since 2002, the United States has provided more than $85.5 billion in
reconstruction assistance to strengthen the Afghan security forces, improve
governing capacity, and promote long-term economic development. During this
period, non-U.S. donors have contributed more than $29 billion in reconstruc-
tion assistance. 1
   Although reconstruction goals and the strategies employed to achieve them
have evolved, the United States and its international partners have remained
focused on the overall objective of defeating terrorism and denying al-Qaeda a
safe haven in Afghanistan. They have been committed to the idea that a stable
and prosperous Afghanistan—with a government able to defend itself, provide
essential services to its citizens, and foster economic development—would be
inhospitable terrain for terrorists. Reconstruction has been a critical tool in the
effort to build such a state.
   From the beginning, poor security has been the biggest obstacle to rebuild-
ing Afghanistan; more than 60% of all U.S. reconstruction dollars have gone to
develop the Afghan National Security Forces (ANSF). Other issues have also
limited the success of reconstruction, such as Afghanistan’s shortage of skilled
workers and financial resources. At the same time, the Afghan government’s
inability to stem rampant corruption has undermined its legitimacy in the eyes
of its citizens and caused donors to question whether the country’s leadership
has the political will to implement the reforms necessary to develop a represen-
tative government that protects and serves its citizens.
   This section summarizes the evolution of the reconstruction effort over
three main phases: the Bonn Process (2001–2005), the Reconstruction Surge
(2006–2011), and Transition (2011–2014). It describes achievements and notes
persistent challenges. It also discusses SIGAR’s conduct of audits and investi-
gations to protect this significant U.S. investment. The highlight pages provide
more detail on the oversight community’s role in Afghanistan since 2002.




            REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2012       3
                                       AFGHANISTAN OVERVIEW
                                        2001
                                           Troops in country: U.S.—Operation Enduring Freedom begins




                RECONS
           OF                          2001–2005: THE BONN PROCESS
                         TR
10 YEARS




                           UCTION


                                       The first phase of the reconstruction effort began after the fall of the Taliban
                                       when the other major Afghan groups gathered in Bonn, Germany, to design a
      20
            01–2 011
                          •




                                       political process that would achieve a representative, democratically elected gov-
   •




                                       ernment. On December 5, 2001, the Afghan parties signed the Bonn Agreement,
                                       a political roadmap for reaching that goal. The process included drafting and
                                       ratifying a constitution, establishing various government offices, and holding
                                       elections for the president and a national assembly. The parties to the agreement
                                       also asked the international community to guarantee security and to support the
                                       recovery and rehabilitation of the country.
                                          Throughout this phase, Afghan authorities faced enormous challenges as they
                                       struggled to build governing institutions from scratch—a humanitarian crisis,
                                       lack of financial resources, an extreme shortage of skilled staff, and continually
                                       deteriorating security. The Bonn Process was characterized by an emphasis on
                                       humanitarian assistance and a modest U.S. investment, but was limited by the
                                       slow international response to the impact that the lack of security had on the
                                       effort to establish an effective government, the dramatic growth of the illicit drug
                                       trade, and creeping corruption.
                                          In 2002, Afghanistan faced a humanitarian crisis. More than two decades of
                                       war had left 2 million dead, 700,000 widows and orphans, an estimated 4 mil-
                                       lion refugees, and another 1 million internally displaced. Life expectancy was
                                       42–45 years, over a quarter of the children died before reaching age 5, and 1 of
                                       every 12 women died in childbirth. 2 About 1.2 million students were enrolled
                                       in schools under the Taliban; fewer than 50,000 were girls. 3 With a per capita
                                       income of about $280 a year, Afghans had the world’s lowest individual caloric
                                       intake. Afghanistan had the highest per capita number of amputees. An estimated
                                       5–7 million land mines contaminated 724 million square meters of the country—
                                       more than half of the country’s high-priority land for agriculture. 4 Only 16% of
                                       Afghanistan’s roads were paved. 5
                                          The initial U.S. investment in reconstruction was just over $1 billion in 2002
                                       and another $1 billion in 2003, most of which went to humanitarian assistance.
                Bonn Process           According to the Government Accountability Office (GAO), one of the three
                2001 to 2005

                Reconstruction Surge
                2006 to 2011

                Transition
                2011 to 2014




                                        2001


                                          4                 SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                      RECONSTRUCTION 2001– 2011
                                                  2002
                                                    FY 2002 appropriation for reconstruction: $1.06 billion. Appropriations to ESF and INCLE begin.
                                                    Troops in country: U.S.—5,200; coalition—4,700




existing oversight agencies that performed audits during this period, those funds
amounted to one-third of the international funding distributed in Afghanistan in
2002 and 2003. 6 The U.S. aid helped avert a famine, significantly reduced the suf-                             2002 AFGHANISTAN
fering of the most vulnerable Afghans, and assisted the return of refugees from                                 FREEDOM SUPPORT ACT
neighboring countries. However, the GAO noted that longer-term reconstruction                                   U.S. policy, as articulated in the 2002
efforts had achieved limited results in infrastructure rehabilitation, financial                                Afghanistan Freedom Support Act, was
management, governance, education, health, and agriculture. 7                                                   to firmly establish Afghanistan as a
   The GAO also observed that in the first two years of the reconstruction effort                               democratic nation that is inhospitable
Afghanistan received far less international assistance per capita than any other                                to international terrorism and drug
post-conflict country over a similar period. For example, aid to East Timor in                                  trafficking and cultivation, at peace
1999–2001 had amounted to $256 per capita; however, Afghanistan received only                                   with its neighbors, and able to provide
about $67 per capita in 2002–2003. Toward the end of 2003, the Afghan govern-                                   for its own internal and external
ment warned the international community that without additional support the                                     security.
reconstruction effort could fail. 8
   To address the security, governance, and development challenges, U.S. fund-                                  Source: P.L. 107-327, 12/4/2002.
ing for reconstruction climbed to $2.6 billion in 2004 and $4.9 billion in 2005,
when the United States began providing a greater share of its funding to address
Afghanistan’s security needs.

SECURITY
During the Bonn Process, the humanitarian situation was dire, but the most press-
ing concern was security. The long-term objective of both the Afghan government
and the international community was to develop security forces capable of guar-
anteeing the “national sovereignty, territorial integrity, and unity of Afghanistan.” 9
In the interim, the Afghan authorities relied on the International Security
Assistance Force (ISAF), which was composed of forces from 17 nations under
the leadership of the United Kingdom. The UN Security Council authorized ISAF
to provide security for Kabul and the surrounding areas for six months, extending
this period until the North Atlantic Treaty Organization (NATO) took command
of international forces in August 2003. ISAF deployed about 5,000 troops to
Afghanistan in early 2002. 10 Separate from ISAF, about 7,000 U.S. military per-
sonnel were in the country as part of Operation Enduring Freedom, engaged
primarily in logistics, airlifts, and intelligence and counter-terrorism activities. 11

                                                                                               April–May LOTFA established;
                                                                                               National Development Framework presented
                                                    January ISAF deployment begins;
                                                    Tokyo Conference                                          May ISAF mandate extended to December 2002
      October Operation Enduring Freedom begins
                                                                     February First security                                   June Transitional Administration begins
                                    December Bonn Agreement;         force training begins
                                    Interim Authority established                                                                                  July ARTF established




                                                  2002



         REPORT TO THE UNITED STATES CONGRESS               I   JANUARY 30, 2012                5
                                                                AFGHANISTAN OVERVIEW
                                                              2003
                                                                FY 2003 appropriation for reconstruction: $1.01 billion (cumulative total: $2.08 billion).
                                                                Troops in country: U.S.—10,400; coalition—5,000




                           RECONS
                      OF                                           From the beginning, Afghan authorities and the United Nations (UN) con-
                                      TR
           10 YEARS




                                                                sidered these forces insufficient to overcome the challenges confronting
                                         UCTION

                                                                Afghanistan. In his address to the UN Security Council in January 2002, Hamid
                                                                Karzai—then chairman of the Interim Afghan Administration—asked for multi-
                                                                national forces to expand from Kabul to other major cities. Two months later, the
                 20                                             UN Secretary-General observed that the situation outside Kabul was “very wor-
                       01–2 011
                                        •
              •




                                                                rying” and urged the international community to send additional forces to bridge
                                                                the gap until an effective Afghan force could be deployed. He called for a rapid
                                                                effort to train and equip the ANSF. 12
                                                                   The effort to rebuild the ANSF began slowly. Over the four years of the Bonn
  “[P]roper management of                                       Process, the United States assumed more and more responsibility for developing
      the security sector                                       the Afghan National Army (ANA) and the Afghan National Police (ANP), steadily
  is the necessary first step                                   increasing its funding for this purpose from $57.2 million in 2002 to $1.7 billion in
    towards reconciliation                                      2005. From 2002 to 2005, the United States provided nearly $2.5 billion to recruit,
                                                                train, and equip Afghan security forces; international partners contributed about
      and reconstruction;                                       $439 million. 13
       indeed, managing
       this sector may be                                       Afghan National Army
      considered the first                                      The international community agreed to create an ethnically balanced and volunteer
                                                                army of 70,000 personnel, with 43,000 combat troops and 27,000 support person-
   reconstruction project.”                                     nel, Ministry of Defense staff, and air wing personnel. By March 2005, the United
                      —UN Secretary-General                     States had established programs to recruit, train, and mentor ANA personnel and
                                 Kofi Annan                     planned to reach the 70,000 end-strength goal within four years. More than 18,300
                                                                Afghan troops had completed combat training and been deployed—over 42%
Source: UN Secretary-General, “The Situation in Afghanistan
and Its Implications for International Peace and Security,”
                                                                of the projected combat strength. The U.S. Army Corps of Engineers (USACE)
3/18/2002.                                                      had begun building ANSF facilities. However, development of support personnel
                                                                lagged: only 1,300 had been assigned to the sustaining commands. 14
                                                                   In a 2005 audit of the efforts to build the ANA and ANP, the GAO identified
                                                                several challenges to establishing a self-sustaining army. Although the United
                                                                States had accelerated the training and successfully deployed more soldiers to
                                                                strategic locations, efforts to equip those troops had fallen behind. Moreover, not
                                                                enough attention had been paid to developing the capacity of key institutions—
                                                                such as the Ministry of Defense—to support the troops.



                                                                                                                                                         July Joint Electoral
                                                                                                                                                         Management Body
                                                                                                                                                         established

                                                                                                           April Constitutional Commission inaugurated




                                                              2003



                                                                     6                   SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                   RECONSTRUCTION 2001– 2011
                                 2004
                                    FY 2004 appropriation for reconstruction: $2.60 billion (cumulative total: $4.68 billion).
                                    Appropriations to CERP and DoD CN funds begin.
                                    Troops in country: U.S.—15,200; coalition—8,000



Afghan National Police
In February 2002, the international community agreed to establish a multi-ethnic
police force of 62,000; Germany led this effort, concentrating first on training
police officers. In 2003, the United States launched a program to establish a
national police presence for the 2004 presidential elections. 15 From 2003 through
2006, the U.S. Department of State’s (DoS) Bureau of International Narcotics
and Law Enforcement Affairs (INL) managed this effort through a contract to
train and equip the police, advise the Ministry of Interior (MoI), and build police                     “The Afghan army
training centers. 16 The Department of Defense (DoD) provided infrastructure
and equipment to police in border areas. 17 To cover the costs of police salaries
                                                                                                     currently consists almost
and capacity building, the UN Development Programme established the Law and                             entirely of infantry
Order Trust Fund for Afghanistan, to which 10 nations pledged contributions                             forces that cannot
totaling nearly $240 million during the Bonn Process. The United States provided                       sustain themselves.”
$60 million of this amount.
                                                                                                                                  —Government
   By early 2005, Germany and the United States had trained more than 35,000
                                                                                                                             Accountability Office
officers and expected that number to reach 62,000 by the end of the year. A GAO
audit identified a number of interrelated factors constraining the development
                                                                                                   Source: “Afghanistan Security: Efforts To Establish Army and
of the ANP, including low salaries, illiteracy, lack of equipment, lack of support                 Police Have Made Progress, but Future Plans Need To Be
                                                                                                   Better Defined,” GAO-05-575, 6/2005.
from the MoI, and corruption. Moreover, the police facilities that existed were
dilapidated; DoD estimated that more than 800 police stations needed renova-
tion. The GAO noted that DoS had not deployed enough staff to oversee the
police program contract and had not developed a plan to address the require-
ments of equipping and fielding the ANP by a specific date. 18
   Most important, the GAO pointed out that neither DoS nor DoD had clearly
defined the long-term costs of developing and sustaining the ANA and the ANP.
The GAO estimated that the two forces could cost up to $7.2 billion to complete
and $600 million a year to sustain. These numbers would grow dramatically over
the next six years. 19

ECONOMIC AND SOCIAL DEVELOPMENT
In 2002 and 2003, most U.S. funding supported humanitarian assistance and
quick-impact projects to benefit the most vulnerable Afghans. 20 In fall 2003, the
U.S. government announced a $1.76 billion “Accelerating Success in Afghanistan



                                    January New Constitution approved;
                                    GIRoA’s Security, Stabilization, and
                                    Reconstruction Program launched

                                                                      March Berlin Conference




                                 2004



         REPORT TO THE UNITED STATES CONGRESS      I   JANUARY 30, 2012                     7
                                                          AFGHANISTAN OVERVIEW
                                               2005
                                                 FY 2005 appropriation for reconstruction: $4.82 billion (cumulative total: $9.50 billion). ASFF established.
                                                 Troops in country: U.S.—19,100; coalition—10,500




                          RECONS
                     OF                                   Initiative” to support elections, road construction, health and education pro-
                                                          grams, economic and budget aid for the government, the provision of advisors
                                   TR
          10 YEARS




                                      UCTION

                                                          and technical experts, and private-sector initiatives. About $700 million was
                                                          committed for expanding the counter-narcotics program, establishing rule of
                                                          law, and assisting efforts to build the security forces. Nevertheless, in 2004, the
                                                          GAO reported that the post-conflict environment “threatened progress toward
                20
                      01–2 011
                                      •
             •




                                                          U.S. policy goals, and poor security, increasing opium cultivation, and inadequate
                                                          resources impeded U.S. reconstruction efforts.” 21
                                                             From 2002 to 2006, the number of hectares of poppy cultivation had more than
                                                          doubled, to 165,000. Afghanistan accounted for 82% of the world’s opium produc-
                                                          tion, and the UN Office on Drugs and Crime (UNODC) estimated that revenue
                                                          from the 2006 harvest would be $3 billion. The UNODC’s executive director said
                                                          the narcotics trade was dragging Afghanistan “into a bottomless pit of destruc-
                                                          tion and despair.” 22 He called on the Afghan government and the international
                                                          community to forcefully implement a national drug control strategy based on
                                                          development, security, law enforcement, and good governance.
                                                             To counter the illicit drug trade, the United States adopted a five-pronged
                                                          strategy, which included investing in alternative agriculture, eradication, interdic-
                                                          tion, justice reform, and public information campaigns. From FY 2002 through
                                                          FY 2006, the United States spent about $1.7 billion on counter-narcotics pro-
                                                          grams—most of it on eradication, interdiction, and law enforcement. 23 In early
                                                          2005, USAID awarded a four-year, $108 million contract for a program to provide
                                                          economic alternatives to growing poppy. A USAID audit in 2007 found that the
                                                          program’s slow start meant that it did not have a significant impact on the 2005
                                                          opium planting season. 24 A GAO audit in late 2006 cited insecurity as the biggest
                                                          impediment to counter-narcotics programs. 25
                                                             Of the nine U.S. departments and agencies implementing reconstruction
                                                          programs during the Bonn Process, USAID provided the largest amount of non-
                                                          security-related assistance in the key areas of infrastructure, education, health,
                                                          economic governance, and agriculture. Audits by the USAID Office of Inspector
                                                          General (OIG) illustrated both progress and enormous challenges. For example,
                          Bonn Process                    by the end of 2005, a USAID contractor had completed a 302-km stretch of
                          2001 to 2005
                                                          highway linking Kandahar to Herat. However, increased security costs and the
                          Reconstruction Surge            constant turnover of USAID staff in Afghanistan had caused cost overruns and
                          2006 to 2011

                          Transition
                          2011 to 2014


October First presidential election              January Independent Electoral Commission established
                                   December Karzai inaugurated                                             May U.S. and Afghanistan strategic partnership established




                                               2005



                                                                 8                  SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                                 RECONSTRUCTION 2001– 2011
                                         2006
                                             FY 2006 appropriation for reconstruction: $3.49 billion (cumulative total: $12.99 billion).
                                             Troops in country: U.S.—20,400; coalition—18,000




        project delays. Other USAID OIG audits found delays caused by poor subcon-
        tractor performance, questionable site selection, and overly ambitious U.S.
        government expectations. 26

        GOVERNANCE
        With the inauguration of the National Assembly on December 5, 2005,
        Afghanistan completed its commitments under the Bonn Agreement. Supported
        by the international community, it had established key governing institutions,
        adopted a constitution, and held two elections—one for the presidency in 2004
        and one for the National Assembly in 2005. It had issued some 200 laws and
        decrees that addressed everything from human rights and gender equity to
        security, justice, and civil administration reform. It had made some progress in
        strengthening public-sector accountability and met most of the benchmarks for
        fiscal management set by the World Bank and the International Monetary Fund.
           Nevertheless, the foundations of the state remained extremely fragile, and the
        country faced an uncertain future. The government had no capacity to project its
        authority or deliver many basic services. Human rights and the status of women
        remained grave concerns. Most Afghans had no access to the formal justice
        system. Increasing corruption in the civil service and the police force had alien-
        ated large sections of the population and was undermining the legitimacy of the
        government. The illicit narcotics industry dominated the economy, exacerbated
        corruption, and was beginning to fuel the insurgency.

        INCREASING FOCUS ON RECONSTRUCTION
        As the Bonn Process drew to a close, security remained the foremost challenge
        facing the country, and the situation continued to worsen. The Taliban and other
        extremist groups had reorganized, and their tactics had become more brutal.
        The number of improvised explosive device attacks, suicide bombings, kidnap-
        pings, and attacks on schools had increased. As much as a third of the country
        had become off-limits to Afghan government officials and relief workers because
        they had become targets of a growing insurgency. The narcotics trade had
        expanded rapidly, spawning criminal networks that linked with the insurgents.
        The UN Secretary-General reported, “Afghanistan today is suffering from a level

                                             January London Conference;
                                             Afghanistan Compact launched
                                                                                                       May–June Disbandment of Illegal Armed Groups
September First parliamentary and                           February National budget                   (DIAG) program launched
provincial elections                                        submitted to Wolesi Jirga                                                                 August Temporary
                                                                                                                      June 86 one-star generals       auxiliary police force
                               December National Assembly inaugurated                                                 appointed to ANP                approved




                                         2006



                       REPORT TO THE UNITED STATES CONGRESS        I   JANUARY 30, 2012                 9
                                                          AFGHANISTAN OVERVIEW
                                              2007

                                                FY 2007 appropriation for reconstruction: $10.03 billion (cumulative total: $23.02 billion).
                                                Troops in country: U.S.—23,700; coalition—26,043




                          RECONS
                     OF                                   of insecurity, especially in the south and parts of the east, not seen since the
                                                          departure of the Taliban. The growing influence of non-Afghan elements in the
                                     TR
          10 YEARS




                                     UCTION

                                                          security environment is of particular concern.” 27 In the face of these enormous
                                                          challenges, the United States and its international allies changed tactics and
                                                          dramatically escalated support for reconstruction.
                20
                      01–2 011
                                     •
             •




                                                          2006–2011:
                                                          THE RECONSTRUCTION SURGE
                                                          This phase saw a surge of U.S. money, civilians, and troops into Afghanistan to
                                                          quell the insurgency and build a state that could withstand the threat of terror-
                                                          ist groups. In 2008, the Congress established SIGAR to provide oversight of the
                                                          rapidly expanding reconstruction effort.
                                                              During the Reconstruction Surge, the United States and its international allies
                                                          endorsed ambitious development plans. President George W. Bush gradually
                                                          deployed more troops and at his administration’s request, the Congress appropri-
                                                          ated more funding for reconstruction from 2006 to 2009. In 2009, the new U.S.
                                                          President, Barack Obama, announced policies that significantly increased U.S. fund-
                                                          ing for the reconstruction effort, sent additional troops to stabilize the country, and
                                                          deployed more civilians to help the Afghan government strengthen its institutional
                                                          capacity and provide essential services. President Obama also set an end-date for
                                                          this phase of reconstruction, stating that the United States would begin withdraw-
                                                          ing troops and transitioning responsibility for security to the Afghan government
                                                          in summer 2011. With an eye toward this transition, the Afghan government and
                                                          the international community refocused reconstruction goals toward the end of this
                                                          phase and began to support a peace process with the Taliban.
                                                              From FY 2006 through FY 2011, U.S. appropriations totaled more than
                                                          $63 billion—nearly seven times the amount the United States provided for




October NATO-led ISAF assumes                                                                                                          July Rome Conference
                                                                                                                                       on Rule of Law
nationwide security responsibility

                 November Second Regional Economic                                                                                      August Wolesi Jirga approves UN
                 Cooperation Conference on Afghanistan;                                                                           Convention on Corruption; Independent
                 Good Performance Fund established                          March Amnesty law adopted                       Directorate for Local Governance established




                                              2007



                                                            10                   SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                  RECONSTRUCTION 2001– 2011
                          2008
                             FY 2008 appropriation for reconstruction: $6.19 billion (cumulative total: $29.21 billion).
                             Troops in country: U.S.—30,100; coalition—29,810




reconstruction during the Bonn Process. More than $38 billion (about 60%) went
to build the ANSF, and more than $15 billion (nearly 25%) supported governance
and development programs. The United States also provided almost $4 billion
for counter-narcotics programs. The remainder funded humanitarian assistance,
operations costs, and oversight.

THE AFGHANISTAN COMPACT
The Afghanistan Compact marked the beginning of the reconstruction surge.
Under the Compact, the international community and the Afghan government
agreed to work in partnership to establish conditions for sustainable economic
growth and development, strengthen state institutions and civil society, remove
remaining terrorist threats, and meet the challenge of counter-narcotics with
good governance and human rights protection for all under the rule of law. The
international community pledged to provide more resources for reconstruction,
and the Afghan government committed to achieve a set of outcomes within a
specific time frame. The Afghan government presented an interim Afghanistan
National Development Plan with 40 benchmarks in three main sectors: security;
governance, rule of law, and human rights; and economic and social develop-
ment. It also agreed to produce a comprehensive plan that established goals,
described specific projects, and provided estimated costs.

AFGHANISTAN NATIONAL DEVELOPMENT STRATEGY
From 2006 to 2008, in consultation with Afghan communities and with the
assistance of the international community, the Afghan government prepared the
Afghanistan National Development Strategy (ANDS) to guide the reconstruction
effort. Elaborating on the interim strategy laid out in the Afghanistan Compact,
the ANDS established goals in the three main development sectors and for six
cross-cutting issues: regional cooperation, counter-narcotics, anti-corruption,
gender equality, capacity development, and the environment. The ANDS empha-
sized building Afghan capacity to sustain the achievements of reconstruction.
The Afghan government estimated that this aggressive five-year plan would cost
about $50 billion and called on the international community to contribute most
of that amount—$43 billion—to help it achieve the ANDS goals.



                                                                                       May National Action Plan for                   August ANSF assumes
                                                                                       Women of Afghanistan adopted                   security lead in Kabul

                                                                                                       June Paris Conference; Afghanistan
                                                                                                       National Development Strategy presented




                          2008



        REPORT TO THE UNITED STATES CONGRESS     I   JANUARY 30, 2012                  11
                                            AFGHANISTAN OVERVIEW
                                  2009
                                   FY 2009 appropriation for reconstruction: $10.39 billion (cumulative total: $39.60 billion).
                                   Troops in country: U.S.—33,000; coalition—36,230




                RECONS
           OF                                   In June 2008 at a conference in Paris, the international community endorsed
                                            the ANDS as the new reconstruction roadmap. The Afghan government agreed to
                     TR
10 YEARS




                         UCTION

                                            pursue political and economic reform; donors pledged to provide more resources
                                            and improve the coordination of aid delivery. A joint declaration stressed the
                                            importance of seven key efforts:
                                             •	 holding the next round of presidential and parliamentary elections.
      20
            01–2 011
                         •
   •




                                             •	 giving priority to the agriculture, irrigation, and energy sectors.
                                             •	 strengthening governing institutions.
                                             •	 supporting private-sector growth.
                                             •	 combating corruption.
                                             •	 intensifying counter-narcotics efforts.
                                             •	 improving regional cooperation.

                                            NEW U.S. AND INTERNATIONAL STRATEGY
                                            To respond to the growing insurgency, the international community’s strategy
                                            for stabilizing Afghanistan evolved during 2009, culminating in the agreement
                                            reached at the January 2010 London Conference to expedite the development
                                            of the ANSF and to begin transferring responsibility for security to the Afghan
                                            government in 2011.
                                               The evolution began shortly after President Obama took office in January 2009
                                            and requested a complete review of U.S. policy in Afghanistan. In March, he pre-
                                            sented a new U.S. strategy to “disrupt, dismantle, and defeat al-Qaeda in Pakistan
                                            and Afghanistan, and to prevent their return to either country in the future.” 28
                                            The strategy initiated a regional approach, for the first time explicitly linking
                                            Afghanistan and Pakistan in a common fight against extremists. The President
                                            deployed an additional 17,000 U.S. troops to fight insurgents, accelerated the
                                            training of the ANSF, and dispatched civilian experts to help the Afghan govern-
                                            ment strengthen its institutional capacity and provide essential services.
                                               In fall 2009, continuing insecurity and growing concerns about governance
                                            prompted the Obama administration to conduct a second policy review. It
                                            found that the situation had deteriorated: the Taliban and al-Qaeda were begin-
                                            ning to control swaths of territory, and the Afghan government was “hampered



                                                                                            May MCTF established
                                                                                                            June CERP funds authorized for
                                                                                                            reintegration effort

                                                 February Special Representative                                                           August Second
                                                 for Afghanistan and Pakistan appointed                                                presidential election




                                  2009



                                               12                     SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                   RECONSTRUCTION 2001– 2011
                          2010
                             FY 2010 appropriation for reconstruction: $16.65 billion (cumulative total: $56.25 billion).
                             Troops in country: U.S.—87,000; coalition—41,389




by corruption, the drug trade, an under-developed economy, and insufficient
security forces.” 29 President Obama announced the rapid deployment of another
30,000 troops to “reverse the Taliban’s momentum” and also an increase in the
U.S. civilian presence to help build Afghan government institutions and rehabili-
tate key economic sectors.
   In what was dubbed a “civilian uplift,” to complement the troop surge, U.S.
agencies more than tripled the number of civilians assigned in Afghanistan—
from 320 to 1,040. A joint audit by SIGAR and DoS OIG found that from January
2009 to June 2011, the civilian uplift cost nearly $2 billion and that the cost of
sustaining the civilian presence would likely increase. The audit noted that bud-
get uncertainty and the absence of policy decisions about the ultimate size and
duration of the uplift complicated efforts by DoS to determine future costs. 30
   The surge was intended to increase the U.S. ability to train competent
Afghan security forces and create the conditions to transfer responsibility for
security to the Afghans. President Obama said U.S. forces would begin with-
drawing in July 2011.

THE LONDON CONFERENCE AND THE KABUL PROCESS
At a January 2010 conference in London, the Afghan government and the
international community agreed that the Afghan government would begin to
progressively assume more responsibility for the country’s security in late 2010
or early 2011. As part of the transition strategy, the parties agreed to intensify
efforts to increase the capabilities of the ANSF and to develop more effective
and accountable civilian institutions. Participants also agreed to support an
Afghan-led reconciliation and reintegration process for any insurgents willing to
renounce violence and respect the Afghan Constitution. At a conference in Kabul
in July 2010, the Afghan government pledged to provide a phased plan for the
transition and detailed descriptions of re-prioritized reconstruction programs. 31
   Participants at the Kabul Conference endorsed transitioning security to the
Afghan government by the end of 2014. They also approved another development
plan—the Afghan government’s new three-year Prioritization and Development
Plan—that scaled back the ANDS agenda. The international community agreed



                                                                                                     June ISAF anti-corruption
                                                                                                     task force established

                                                                                                                     July Kabul Conference

                                                                                                                                   September Second
                             January London Conference                                                                             parliamentary elections




                          2010



         REPORT TO THE UNITED STATES CONGRESS    I   JANUARY 30, 2012                  13
                                                  AFGHANISTAN OVERVIEW
                                    2011
                                         FY 2011 appropriation for reconstruction: $16.65 billion (cumulative total: $72.90 billion).
                                         Troops in country: U.S.—110,325; coalition—42,457




                RECONS
           OF                                     to realign its assistance to advance Afghan-identified priorities in five critical
                                                  areas—security, governance, development, reconciliation and reintegration, and
                         TR
10 YEARS




                           UCTION

                                                  regional cooperation. Donor nations also committed to channel at least 50% of
                                                  their aid through the Afghan national budget to build governing capacity and to
                                                  help the government extend its authority on the condition that the government
                                                  successfully implement reforms to strengthen public management systems,
      20
            01–2 011
                          •
   •




                                                  improve budget execution, increase revenue collection, and reduce corruption.

                                                  SECURITY
                                                  During the reconstruction surge, the United States and its allies deployed about
                                                  100,000 more troops. Total NATO/ISAF and other U.S. forces on the ground
                                                  quadrupled—from about 38,000 in 2006 to more than 152,000 in 2011. U.S.
                                                  soldiers accounted for nearly 102,000 of these troops at the beginning of 2011.
                                                  Most U.S. troops operated under the command of NATO/ISAF, but about 9,000
                                                  served in a separate U.S. anti-terrorism mission. From 2006 to 2011, end-strength
                                                  targets for the ANSF climbed steadily from 132,000 to 305,600. The United States
                                                  provided more than $38 billion to train, equip, and house the ANSF.
                                                     From 2006 to 2009, U.S. efforts to accelerate the building of the ANSF faced
                                                  formidable challenges, including recruiting and retaining qualified personnel,
                                                  training personnel in critical functions, and rooting out corruption. The devel-
                                                  opment of the ANSF suffered from a shortage of trainers, a lack of qualified
                                                  candidates for leadership and specialized skill positions, and the weak judicial
                                                  system, which hindered effective policing and rule of law. 32
                                                     A SIGAR audit found that the system DoD was using to evaluate the ANSF
                                                  was not providing reliable or consistent assessments of the forces’ capabilities. 33
                                                  In April 2010, ISAF replaced this system with the Commander’s Unit Assessment
                                                  Tool. At the same time, the training and mentoring effort increasingly focused on
                                                  (1) building a more professional cadre of officers and non-commissioned officers
                                                  and (2) developing the capacity of the ministries of Defense and Interior to cre-
                                                  ate the systems required to support professional military and police forces. U.S.
                Bonn Process                      military officials have told SIGAR that to build ministerial capacity they must
                2001 to 2005
                                                  overcome resistance to removing unqualified or corrupt personnel, redesign
                Reconstruction Surge
                2006 to 2011

                Transition
                2011 to 2014                                                                       May Osama bin Laden killed

                                                                                                                  June U.S. troop drawdown announced;
       November NATO Summit;                                                                                      Special elections fraud tribunal unseats
       Transition timeline established                                                                            62 Assembly members

                                         January Lower House inaugurated                                                          July Security transition begins




                                    2011



                                                     14                    SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                 RECONSTRUCTION 2001– 2011
                                          2012
                                                FY 2012 appropriation for reconstruction: $12.64 billion (cumulative total: $85.54 billion).
                                                Troops in country as of 12/31/2011: U.S.—98,933; coalition—40,313




        overly centralized decision-making, and streamline a dearth of acquisition sys-
        tems and processes.
           In 2011, SIGAR also reported that the United States does not have a long-
        range construction plan for the nearly 900 ANSF facilities it is building. SIGAR
        concluded that the entire $11.4 billion construction program was at risk because
        it may be providing facilities that are inadequate for the projected ANSF force
        levels or do not meet ANSF’s strategic and operational needs. 34 Moreover, the
        United States is providing up to $800 million to operate and maintain ANSF facili-
        ties over the next five years because the Afghan government does not have the
        capacity to do so. Operations and maintenance continues to be a challenge, and
        SIGAR has an audit under way assessing the program.

        ECONOMIC AND SOCIAL DEVELOPMENT
        During the Reconstruction Surge, the United States provided more than $15 billion
        to fund a broad spectrum of development and governance programs. U.S. develop-
        ment priorities included a mix of short-term projects supporting the U.S. military’s
        counter-insurgency strategy and longer-term projects for sustainable development.
        The United States continued to implement projects to expand the availability of
        education and health. It sought to improve roads, restore agriculture, and extend
        delivery of electricity. It also funded programs to improve the Afghan government’s
        ability to manage its finances with accountability and transparency.
           The most striking accomplishments occurred in education and health. More
        than 8 million students—nearly eight times the number in 2001—had enrolled
        in primary and secondary schools, and about 40% were female. Starting in 2001,
        USAID built 614 schools, trained more than 53,000 teachers in 11 provinces,
        and printed more than 97.1 million textbooks for grades 1 through 12. 35 USAID
        funded 27 health projects, which helped expand access to primary health care
        from 8% to 60% of the population. Infant mortality decreased 22%, from 257
        deaths per 1,000 live births to 77; maternal mortality dropped 20%, from 1,600
        deaths per 100,000 births to 327. 36 USAID’s recent Afghanistan Mortality Survey
        reported that as result of sustained international assistance, adult life expectancy
        has increased by 15–20 years. 37




September New Silk
Road initiative proposed

                 November Istanbul Conference                                                             May NATO summit in Chicago
                               December Bonn Conference                                                                                July Japan donor conference




                                          2012



                     REPORT TO THE UNITED STATES CONGRESS           I   JANUARY 30, 2012                  15
                                  AFGHANISTAN OVERVIEW
                   2013




                RECONS
           OF                        In addition, Afghanistan’s economic indicators steadily improved. In 2011, the
                                  Afghan government collected $1.7 billion in revenue, up from about $120 million
                     TR
10 YEARS




                         UCTION

                                  in 2002. Since 2003, Afghanistan’s GDP has grown an average of about 9% per
                                  year, with wide fluctuations because the agriculture sector is so dependent on
                                  weather. Since the end of the Bonn Process, the service sector had accounted for
                                  about half of the country’s output. Between 2010 and 2011, communications grew
      20
            01–2 011
                         •
   •




                                  by 65%, transport by 23%, and finance and insurance by 14%. 38
                                     Growth in the private sector has been slow and difficult. The World Bank’s
                                  Doing Business Index 2011 ranked Afghanistan lowest in its region and 167th of
                                  the 183 countries surveyed. Constraints hampering local businesses included red
                                  tape, lack of protections for investors, corruption, and difficulties transporting
                                  goods across borders. The Kabul Bank crisis highlighted the limited capacity of
                                  the central bank to oversee financial institutions, enforce regulations, and detect
                                  and deter financial crimes. 39
                                     Throughout the Reconstruction Surge, the United States continued to work
                                  with the international community to restore critical infrastructure, including
                                  roads, power plants, and transmission lines. USAID funded the rehabilitation
                                  of more than 2,000 km of regional, national, provincial, and rural roads. In its
                                  signature project, it collaborated with other international donors to finish the
                                  rebuilding of the 1,866-km Ring Road, which connects large cities around the
                                  country and intersects with major roads linking Afghanistan to its neighbors. The
                                  United States funded the construction of 831 km of this critical highway. 40 DoD
                                  used the Commander’s Emergency Response Program (CERP) to fund the recon-
                                  struction of an additional 1,600 km of other roads. 41
                                     Despite this progress, GAO and SIGAR audits raised questions about U.S.
                                  road-building efforts. In 2008, the GAO found that neither USAID nor DoD had
                                  conducted evaluations to determine whether road construction was achieving
                                  the goals of promoting trade and supporting economic development. The GAO
                                  also expressed concern that USAID had not established a sustainable road main-
                                  tenance program. A SIGAR audit of CERP projects in Laghman province found
                                  that the CERP investment there, much of which funded asphalt roads, was at risk
                                  because of the lack of maintenance plans. 42
                                     By 2010, the United States had provided more than $1 billion to develop the
                                  agriculture sector. Starting in 2009, the U.S. strategy placed greater emphasis
                                  on improving this sector to boost economic growth and reduce drug produc-
                                  tion. Agriculture accounts for more than a third of the country’s gross domestic




                    2013



                                    16               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                   RECONSTRUCTION 2001– 2011
                2014




product—excluding opium production—and 65–80% of Afghans depend on agri-
culture for their livelihood. 43 However, over the last four decades, Afghanistan’s
agricultural output has declined; in contrast, that of its neighbors—Iran and
Pakistan—has increased five-fold. 44
   During this phase, the United States shifted its counter-narcotics strategy from
eradication toward supporting alternative livelihoods, because the eradication
program had alienated Afghans and done little to curtail opium production. By
2007, Afghanistan had 193,000 hectares under poppy cultivation, and more than
509,000 families depended on growing poppy for their livelihoods. From FY 2007
through FY 2011, the United States provided nearly $3.6 billion for counter-
narcotics programs, an investment that had some success. By 2011, Afghanistan
had 131,000 hectares of poppy fields, and 191,500 families were involved in
their cultivation. The UNODC, which monitors the counter-narcotics effort in
Afghanistan, reported that half of the country’s 34 provinces were poppy-free. 45
   To help develop the financial sector and the Afghan government’s capacity
to sustain a market economy, U.S. agencies implemented programs to increase
the capacity of Afghanistan’s central bank to regulate financial institutions and
strengthen U.S. and Afghan controls over the flow of U.S. aid through the Afghan
economy. A SIGAR audit identified two challenges that limited the effectiveness
of the U.S. effort. First, U.S. agencies had not coordinated their implementa-
tion of financial sector development programs. Second, and perhaps even more
important as the United States enters the third phase of reconstruction, Afghan
ministries have not cooperated consistently, thereby delaying or impeding the
success of U.S. programs. 46

GOVERNANCE
From 2006 to 2011, the United States funded a number programs to advance the
rule of law, promote accountability, deter corruption, and support local gover-
nance. These programs built judicial capacity, improved the administration of
several ministries and provincial offices, and helped the Afghan government to
hold presidential and provincial elections. However, the crisis resulting from
fraud in the 2009 presidential elections and 2010 parliamentary elections—
coupled with the deleterious effects of the lack of qualified civil servants,
assassinations of government officials, and rampant corruption—offset limited
progress toward improved governance at the ministerial, provincial, and district
levels.


                   2014 Third presidential election scheduled




                2014



         REPORT TO THE UNITED STATES CONGRESS           I   JANUARY 30, 2012   17
                                  AFGHANISTAN OVERVIEW
           2015




                RECONS
           OF                     Elections
                     TR
                                  The United States viewed the 2009 presidential and provincial council elec-
10 YEARS




                         UCTION

                                  tions—the first post-Taliban elections run by the Afghan government—as critical
                                  in the development of a sustainable, accountable government and as a barometer
                                  for gauging reconstruction progress in governance. The United States contrib-
      20                          uted $263 million of the $489 million that the international community spent
            01–2 011
                         •
   •




                                  to support the elections. 47 Widespread ballot stuffing and other forms of fraud
                                  marred the elections, tarnishing President Karzai’s image at home and abroad.
                                     SIGAR audits found that Afghanistan’s Independent Electoral Commission
                                  (IEC), which was charged with managing the elections, had neither the resources
                                  nor the expertise to sustain the electoral process and recommended urgent
                                  capacity-building efforts for the IEC before the 2010 parliamentary elections. 48
                                  The parliamentary elections in 2010, which also suffered from extensive fraud,
                                  severely strained relations between President Karzai and the National Assembly
                                  and increased growing doubts in the international community about the Afghan
                                  commitment to developing democratic institutions.

                                  Corruption
                                  During the reconstruction surge, corruption posed one of the biggest threats to
                                  the U.S. investment in Afghanistan; it remains a serious obstacle to reconstruc-
                                  tion. At the end of the Bonn Process, Afghanistan ranked 117 of 159 countries
                                  on Transparency International’s 2005 Corruption Perception Index. By 2011,
                                  Afghanistan was tied for third as the world’s most corrupt country. A survey
                                  released by Integrity Watch Afghanistan in 2010 showed that Afghans considered
                                  corruption—particularly in the justice sector and the ANP—the third-largest
                                  problem in the country, following security and unemployment. 49
                                     Because corruption corrodes the government’s legitimacy and undermines
                                  the reconstruction effort, SIGAR conducted audits to assess the Afghan govern-
                                  ment’s ability to deter corruption and to manage and account for donor funds.
                                  SIGAR’s audits of the High Office of Oversight for Anti-Corruption (Afghanistan’s
                                  principal organization for combating corruption) and of the Control and Audit
                                  Office found that these organizations needed significantly more authority, inde-
                                  pendence, and donor support. 50
                                     A 2010 SIGAR audit of U.S. efforts to build the capacity of the Afghan govern-
                                  ment to deter corruption found that although the U.S. government was working
                                  on developing an integrated anti-corruption strategy, it did not have one at the




       2015



                                    18               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                    RECONSTRUCTION 2001– 2011
      2016




time of the audit. 51 The United States has since adopted a four-pronged strategy
to improve the transparency and accountability of Afghan institutions, improve
financial oversight, build judicial capacity, and help civil society organizations to
educate the public. In 2011, as the United States prepared to fulfill its commit-
ment to withdraw troops, corruption remained a major concern.

PREPARING FOR THE U.S. TROOP DRAWDOWN
At a NATO summit in November 2010, the 48 nations contributing to the NATO/
ISAF mission and the Afghan government established a timeline for the govern-
ment to take full responsibility for security by the end of 2014. The United States
and its coalition partners also vowed to continue their support long after the
transition. In December 2010, a U.S. policy review concluded that the surge of
U.S. and international military and civilian resources was quelling the insurgency
and had created the conditions “to begin a responsible reduction of U.S. forces in
July 2011.” 52
   At the end of June 2011, President Obama announced that the United States
would pull out 10,000 troops by the end of 2011 and another 33,000 troops by
summer 2012. “Our mission will change from combat to support,” he said. “By
2014, this process of transition will be complete, and the Afghan people will be
responsible for their own security.” 53




2011–2014: THE TRANSITION
During this third phase, the official transition of security to Afghan security
forces began, and the international community and the Afghan government
marked the end of a decade of reconstruction at an international conference in
Bonn. At the conference, participants stressed the need for continuing interna-
tional support for security, development, and governance programs through the
Transition phase and beyond and pledged to support Afghanistan through the
Transformation Decade of 2015–2024.
   During the Transition, U.S. reconstruction programs will be characterized by
a race to ensure that the ANSF is capable of providing security in 2014, a grow-
ing emphasis on development initiatives to help the Afghan government generate




      2016



         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2012            19
                                         AFGHANISTAN OVERVIEW
2017




                       RECONS
                  OF                     the revenues required to sustain itself, a push to improve governance and stem
                                         corruption, and greater support for peace and reconciliation efforts. Secretary
                            TR
       10 YEARS




                                UCTION

                                         of State Hillary Rodham Clinton said the United States would continue its “fight,
                                         talk, build” policy of “increasing pressure on the insurgents while supporting
                                         inclusive reconciliation and sustainable development.” 54
             20
                   01–2 011
                                •
          •




                                         SECURITY
                                         In July 2011, the Afghan government began the first stage of the security transi-
                                         tion and announced that a second stage would start in early 2012. During the
                                         first stage, the ANSF took lead responsibility for security in seven areas where
                                         U.S. officials estimated that about 25% of the Afghan population lives. NATO/
                                         ISAF expected to complete the transition in these areas by November 2013. The
                                         Afghan government announced it will begin transitioning cities and districts in 18
                                         provinces in early 2012. Afghan officials estimated that when this stage is com-
                                         plete, more than 50% of the population will live in areas under transition. 55
                                             A successful transition will depend on the development of capable security
                                         forces. At the end of November 2011, the Afghan government and the interna-
                                         tional community agreed to expand the ANA from 171,000 to 195,000 and to
                                         expand the ANP from 134,000 to 157,000, a 15% increase over the current com-
                                         bined strength of the two forces. In December 2011, the Congress appropriated
                                         an additional $11.2 billion to train, equip, mentor, house, and sustain the ANSF.
                                         Key challenges remain: improving ANSF logistics, enhancing the capacity of the
                                         ministries of Defense and Interior, and sustaining infrastructure.
                                             Because of the importance of the ANSF to the achievement of U.S. policy
                                         goals and the significant funding involved, SIGAR is conducting six audits and
                                         inspections of U.S. support for the ANA and ANP. One is looking at an $800 mil-
                                         lion contract to provide operations and maintenance for more than 660 ANSF
                                         facilities. SIGAR is planning to begin 14 additional audits and inspections in the
                                         security sector during 2012. These audits will address the critical issues of capac-
                                         ity building and sustainment. They will assess ANSF capabilities to maintain
                                         equipment, supply food and fuel, and sustain infrastructure. SIGAR will also be
                                         evaluating U.S. efforts to build ministerial capacity, including the development
                                         of internal controls and systems to increase accountability and deter corruption.
                                         In addition, SIGAR is conducting an inspections program to determine whether
                                         infrastructure projects were constructed properly, are being used for the intended
                                         purposes, and are being maintained. The first four inspections are of ANSF
                                         facilities.




2017



                                           20                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                     RECONSTRUCTION 2001– 2011
2018




   ECONOMIC AND SOCIAL DEVELOPMENT
   Despite important improvements across all development sectors, Afghanistan
   faces enormous economic challenges during the transition. It remains one
   of the world’s poorest countries: an estimated 9 million people—about 36%
   of the population—are unable to meet their basic needs. Nearly every sector
   depends on donor funding to some extent for growth. International contributions
   support health, education, transport, communications, and agriculture, as well
   as providing seed money for the expansion of telecommunications. Demand by
   the international and Afghan security forces—for everything from goods and
   services to equipment and operations and maintenance—underpins the recent
   growth of the Afghan economy. 56
      U.S.-funded development projects have helped the Afghan government
   increase revenues and build the capacity to deliver essential services; however,
   the government remains overwhelmingly dependent on foreign assistance. From
   2010 to 2011, Afghanistan’s budget totaled about $17.2 billion; the international
   community provided $15.7 billion—more than 90% of that amount. This depen-
   dence will continue for the foreseeable future. 57
      As the transition proceeds, the Afghan government and the international
   community have identified two sectors with the potential to sustain economic
   growth: mining and agriculture. U.S.-funded surveys have mapped extensive
   untapped mineral resources with the potential to anchor future development.
   The Ministry of Mines recently awarded two contracts to develop oil and iron ore
   reserves. One, the Hajigak iron ore mining project, is one of the largest invest-
   ments in Afghanistan’s history. The World Bank’s preliminary analysis suggests
   that the Afghan government could collect as much as $208 million a year in rev-
   enues from its mineral resources in the near term, if security increases and the
   mining sector is developed appropriately.
      The United States has also been promoting a “New Silk Road” initiative to
   underpin long-term growth and to build a regional commercial and transit net-
   work with Afghanistan as its crossroads. Secretary of State Clinton has said that
   such a network would help Afghanistan and its neighbors maximize the value
   of their natural resources, create jobs, and generate revenue. Like development
   in the mining and agriculture sectors, the creation of a New Silk Road depends
   on security and making significant improvements in the country’s infrastructure,
   from transportation and logistics to electricity and irrigation.




2018



           REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2012        21
                                    AFGHANISTAN OVERVIEW
2019




                  RECONS
             OF                        SIGAR is conducting two audits of U.S.-funded development projects, one of
                                    a $450 million agriculture program being implemented by USAID, and one that
                       TR
  10 YEARS




                           UCTION

                                    is assessing the implementation of the Afghanistan Infrastructure Fund. The
                                    Congress has provided $800 million for this fund to build critical infrastructure.
                                    The United States is placing a high priority on increasing the power supply in
        20                          Afghanistan; in FY 2012, SIGAR will begin an audit to assess U.S. efforts. As part
              01–2 011
                           •
       •




                                    of its inspections program, SIGAR will be conducting on-site assessments of
                                    infrastructure projects. SIGAR is also evaluating USAID’s efforts to perform the
                                    required financial audits of its project awards.

                                    GOVERNANCE
                                    Since 2002, improving governance has been the most difficult and critical chal-
                                    lenge. U.S. policymakers have consistently identified building the capacity of and
                                    reforming Afghan governance as the key to success in Afghanistan. There has
                                    been widespread recognition that lagging progress puts the entire reconstruction
                                    effort in jeopardy. In testimony before the Senate Armed Services Committee
                                    in March 2011, General David Petraeus, then commander of NATO/ISAF forces,
                                    identified the risks confronting the U.S. effort, using so called “cloud slides.” He
                                    told the committee, “There is no question that governmental capacity is an area
                                    of…strategic risk.” He added that “there’s a double thunderbolt coming out of
                                    that cloud.” 58
                                       At the second Bonn Conference, participants emphasized that the Afghan
                                    government must do more to strengthen state institutions at all levels. The con-
                                    ference conclusions noted that “the protection of civilians, strengthening the rule
                                    of law, and the fight against corruption in all its forms remain key priorities.” 59
                                       During the Bonn Process and throughout the Reconstruction Surge, the
                                    Afghan government has struggled to extend its authority to the provincial and
                                    district levels. U.S. policy has aimed to encourage the development of local
                                    government and foster links between local authorities and Kabul. SIGAR is con-
                                    ducting an audit of USAID’s $373 million project to help the Afghan government
                                    extend its reach into remote districts, encourage local communities to take an
                                    active role in their own development, and create incentives for stability in critical
                                    border provinces.




2019



                                      22                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                    RECONSTRUCTION 2001– 2011
2020




 LOOKING BEYOND 10 YEARS
 The U.S. government and its international partners in Afghanistan are increas-
 ing their focus on finding ways to sustain the progress that has been achieved
 over 10 years of reconstruction efforts. In May 2012, NATO will hold a summit
 in Chicago to evaluate the status of the security transition and present a plan for
 continued funding of the ANSF. The NATO summit should provide a clearer idea
 of what these forces will require.
    At the 2011 Bonn Conference, the international community committed to
 continue providing support for security, governance, and development. During
 the conference, the Afghan government unveiled an economic transition strat-
 egy: “Toward a Self-Sustaining Afghanistan.” The document reiterates the Afghan
 government’s plan to implement national priority programs in key sectors. It
 describes how the Afghan government intends to improve revenue collection,
 including through taxes on the growing private investment in the mining sec-
 tor. Nevertheless, the Afghan government said it must look to donors to finance
 about 47% of GDP—approximately $10 billion in 2015. The World Bank estimates
 that by 2022 domestic revenues will still cover only about half of the govern-
 ment’s operating expenses. 60
    The Afghan government’s economic transition strategy thus depends on donor
 support for the foreseeable future. In its new strategy, the government said, “a
 long-term funding commitment by the International Community, declining over
 time and ending in 2030, would provide the necessary stability in financing to
 allow Afghanistan to arrive at a stable and prosperous future.” 61




2020



          REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2012         23
                                    10-YEAR HIGHLIGHT




THE AUDIT COMMUNITY
IN AFGHANISTAN
As the reconstruction effort has evolved over the last      and equipping the Afghan National Security Forces.
10 years, the depth and breadth of the audit commu-         DoD OIG was the first oversight agency to establish
nity’s work has also evolved. The number of audits,         a permanent presence in Afghanistan, opening a
inspections, and evaluations has grown significantly;       three-person office at Bagram Airfield in September
there has also been a growing interest in how the           2007. At first, the agency produced only one or two
audit community operates in complex contingency             reports on reconstruction each year; in FY 2009, it
environments.                                               produced 12.
BONN PROCESS                                                   As of January 2012, the audit community had
During the Bonn Process (2001–2005), the U.S.               produced more than 170 audit, inspection, and evalu-
government’s investment was relatively small, and           ation reports on reconstruction, made more than 800
the audit community focused on other issues. Only           recommendations, and identified an estimated mini-
12 reports related to reconstruction were published,        mum of $800 million in questioned costs and savings
most of them by the U.S. Agency for International           for the U.S. taxpayer.a
Development Office of Inspector General (USAID                 The acceleration in audit work during the
OIG). (USAID OIG’s dominance at the time reflected          Reconstruction Surge was driven not only by these
the U.S. government’s emphasis on economic                  organizations but also by Congress’s recognition
development and humanitarian assistance.) The               that the significant investment of U.S. dollars war-
Government Accountability Office—the only oversight         ranted stronger oversight activity. In 2008, the
body with jurisdiction over multiple agencies—also          Congress established the Special Inspector General
made contributions, most notably by warning that            for Afghanistan Reconstruction (SIGAR)—charging it
deteriorating security conditions were likely to            with the responsibility to conduct oversight of recon-
threaten the U.S. government’s ability to achieve its       struction programs and giving it the authority to look
strategic objectives.                                       at programs funded and operated by multiple agen-
                                                            cies. SIGAR opened its offices in Kabul, Bagram, and
RECONSTRUCTION SURGE                                        Kandahar at the beginning of 2009 and has since
During the Reconstruction Surge (2006–2011), as             produced almost a quarter of the audit community’s
U.S. appropriations and programs expanded, the              work on reconstruction. The Congress also signaled
audit community experienced its own surge, as               its interest in oversight by taking two additional
shown in Figure 1.1. The numbers of completed               actions in 2008. First, it mandated the creation of
audits, inspections, and evaluations skyrocketed—           a Coordinated Oversight Plan for Southwest Asia to
from 6 in FY 2006 to 49 in FY 2011. More audit              improve the coordination of oversight work. Second, it
organizations added Afghanistan-related work                established the Commission on Wartime Contracting
to their portfolios, including the Department of            to use oversight work to assess and improve the
Defense Office of Inspector General (DoD OIG), the          contracting process.
Department of State Office of Inspector General                This extensive body of work has identified sys-
(DoS OIG), and the U.S. Army Audit Agency (USAAA).          temic problems—such as a lack of acquisition and
DoD OIG, in particular, accelerated its oversight           oversight personnel with experience working in
efforts after the Afghanistan Security Forces Fund          contingency environments, and insufficient atten-
was created and as the international community              tion to long-term sustainment costs. It has also led
increasingly recognized the importance of training          to improvements in how the U.S. government man-




                                    24               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                10-YEAR HIGHLIGHT



                     As of January 2012, the audit community had produced more
                         than 170 audit, inspection, and evaluation reports on
                      reconstruction, made more than 800 recommendations, and
                    identified an estimated minimum of $800 million in questioned
                                costs and savings for the U.S. taxpayer.
FIGURE 1.1                                                                       ages and implements reconstruction programs. For
                                                                                 example, as a result of problems identified by SIGAR
U.S. APPROPRIATIONS FOR RECONSTRUCTION                                           and others regarding cost-plus contracts, contracting
BY YEAR, FY 2002–2011 ($ BILLIONS)                                               authorities have stated that they are shifting to firm-
                                                                                 fixed-price contracts in Afghanistan.
20                                                                               TRANSITION
                                                                                 As the reconstruction effort enters the Transition
                                                                                 phase (2011–2014), the audit community is examin-
15
                                                                                 ing more carefully how it should function in contin-
                                                                                 gency environments in general and in Afghanistan in
10                                                                               particular. Although certain implementing agencies
                                                                                 have expressed “audit fatigue,” the Congress and
                                                                                 others have called for stronger oversight. Some have
  5                                                                              proposed creating a permanent Special Inspector
                                                                                 General for Overseas Contingency Operations, spark-
                                                                                 ing debate about how best to ensure timely, targeted,
  0
      2002 03       04     05    06     07     08     09     10     11           and efficient oversight. The audit organizations have
                                                                                 taken the initiative to approach oversight more strate-
                                                                                 gically, moving beyond simply de-conflicting audit work
                                                                                 to focusing on the issues most important to policy
U.S. OVERSIGHT: AUDITS, INSPECTIONS, AND                                         and decision makers. In November 2011, SIGAR
EVALUATIONS BY YEAR, FY 2002–2011                                                hosted the first meeting of a joint strategic planning
                                                                                 subgroup for Afghanistan reconstruction, which will
                                                                                 issue a joint strategic plan this year and plans to
60                                                                          60   release capstone reports synthesizing the audit com-
50                                                                               munity’s findings on key areas.
                                                                            50
                                                                                    Although the U.S. military’s combat role is set to
40                                                                          40   end by the close of 2014, reconstruction will con-
                                                                                 tinue, as will the audit community’s examination of its
30                                                                          30   role, achievements, and challenges in Afghanistan.

20                                                                          20   a. Estimate based on review and analysis of publicly available audit, inspection, and evalu-
                                                                                 ation reports on Afghanistan reconstruction issued by SIGAR, GAO, USAID OIG, DoD OIG,
                                                                                 DoS OIG, and the USAAA since 2003.
10                                                                          10

  0                                                                          0
      2002 03      04     05    06     07     08    09     10      11

Notes: Data as of 1/8/2012. Oversight agencies include SIGAR, DoD OIG,
DoS OIG, USAID OIG, GAO, and USAAA.
Source: SIGAR Information Management Directorate.




             REPORT TO THE UNITED STATES CONGRESS            I    JANUARY 30, 2012                        25
                                    10-YEAR HIGHLIGHT




THE LAW ENFORCEMENT                                          including 74 contract and procurement fraud cases
                                                             and 35 public corruption and bribery cases.
COMMUNITY                                                       With more money at risk and more law enforce-

IN AFGHANISTAN                                               ment agencies pursuing fraud and corruption in
                                                             Afghanistan, the need for enhanced coordination and
                                                             cooperation became increasingly apparent. This mir-
Over the 10 years of the reconstruction effort, the law
                                                             rored the experience in Iraq, where the law enforce-
enforcement community has progressively dedicated
                                                             ment community jointly created the International
more resources to investigations of fraud and cor-
                                                             Contract Corruption Task Force (ICCTF) in 2006 to
ruption associated with reconstruction contracts
                                                             improve interagency cooperation and coordination,
and programs. It has also developed strategies for
                                                             assist in de-conflicting cases, share intelligence,
addressing the formidable challenges of operating
                                                             and support investigative operations overseas.
in Afghanistan: the constant threat of hostile action,
                                                             The ICCTF’s initial members included the Federal
logistical problems such as over-stretched supply
                                                             Bureau of Investigation (FBI), the Special Inspector
lines, procedural and jurisdictional hurdles posed by
                                                             General for Iraq Reconstruction (SIGIR), the Army
differing legal systems and cultural norms, and dif-
                                                             Criminal Investigation Command (Army CID), the
ficulties communicating with U.S.-based prosecutors.
                                                             Department of State Office of Inspector General
BONN PROCESS                                                 (DoS OIG), DCIS, and USAID OIG. SIGAR joined the
Like the audit community, law enforcement agencies           ICCTF in 2009, along with the Air Force Office of
largely focused their efforts elsewhere during the           Special Investigations (AF OSI) and the Naval Criminal
Bonn Process (2001–2005). Although a few organiza-           Investigative Service (NCIS).
tions conducted investigations involving reconstruc-         FIGURE 1.2
tion funds, none had agents stationed in Afghanistan.
The U.S. Agency for International Development Office         U.S. OVERSIGHT: INVESTIGATORS IN AFGHANISTAN,
of Inspector General (USAID OIG) reported recover-           2002–2011
ies of about $11 million, and the Defense Criminal
Investigative Service (DCIS) reported one arrest in           60
2004—figures that would increase significantly as
more agencies entered the Afghan arena.                       50

RECONSTRUCTION SURGE                                          40
During the Reconstruction Surge (2006–2011), the
law enforcement community substantially ramped up             30
its efforts to root out fraud and abuse, not only of the
                                                              20
reconstruction funding, but also of the much larger
sums being spent on contracts to support the U.S.
                                                              10
military effort. The number of agents stationed in
Afghanistan grew from 2 in 2006 to 56 in 2011, as              0
shown in Figure 1.2.                                               2002 03         04       05     06     07      08     09      10     11a
   Much of this increase resulted from the Congress’s
                                                             Note: includes investigators from sigar, dcis, fbi, dos oig, usaid oig, army cid,
decision to create SIGAR in 2008—the only law                af osi, and ncis.
enforcement agency focused exclusively on recon-             a. Two additional dcis agents stationed in kuwait support afghanistan opera-
                                                             tions. Two additional sigar agents were assigned in january 2012.
struction. By the end of 2011, SIGAR agents
                                                             Source: sigar investigations directorate.
accounted for more than a third of the fraud investiga-
tors in Afghanistan; they had 125 open investigations,



                                     26               SPECIAL INSPECTOR GENERAL         I   AFGHANISTAN RECONSTRUCTION
                                    10-YEAR HIGHLIGHT




   During this phase, U.S. law enforcement agen-                  in cooperation with the ANP Criminal Investigation
cies also began to coordinate investigations with the             Division and Afghan prosecutors, led to the arrest
Afghan government to fight corruption, a problem that             of an Afghan contractor who had tried to bribe a
was pervasive, entrenched, and systemic. In 2009,                 USACE contract specialist at Kandahar Airfield. And
the Afghan government created the Major Crimes                    in November 2011, SIGAR investigations resulted
Task Force (MCTF). The FBI has mentored the MCTF,                 in the arrest and conviction of five Afghans for their
helping to build the capacity of the task force to                involvement in a scheme to steal fuel from a forward
investigate crimes and develop cases for prosecution              operating base in Kunar province.
by the Afghan Attorney General’s Office. The U.S. gov-
ernment provided at least $15.5 million to assist the             TRANSITION
MCTF, including refurbishing and maintaining its facili-          Despite the law enforcement community’s com-
ties and training and mentoring its investigators. As             mitment of resources, improved coordination, and
of November 2010, the FBI had 14 staff assigned to                increasing cooperation with the Afghan government,
the MCTF; they had mentored Afghan investigators in               corruption will continue to pose a significant risk
handling organized crime and public corruption cases,             to the U.S. investment in Afghanistan during the
developing sources, and improving general investiga-              Transition phase (2011–2014). Prosecuting Afghan
tive techniques.                                                  nationals for fraud and corruption involving U.S. funds
   The law enforcement community—through its                      has been and will continue to be particularly difficult.
increased presence, improved coordination, and adap-              SIGAR reported in July 2011 that the Afghan Attorney
tation to the Afghan environment—produced note-                   General’s Office pursued only 4 of 21 alleged finan-
worthy results during the Reconstruction Surge. A                 cial crimes forwarded to Afghan law enforcement
prime example is a SIGAR-initiated investigation that             organizations. Successful prosecution of financial
resulted in the successful prosecution of the largest             crimes is also hampered by the difficulty of obtaining
bribery case from Afghanistan since the reconstruc-               banking records from overseas financial institutions
tion effort began. In September 2011, a U.S. District             and the widespread use of hawalas (informal money
Judge sentenced Sidharth (“Tony”) Handa to 10 years               service providers) to transfer funds within and outside
in prison and ordered him to pay $315,000 in restitu-             Afghanistan.
tion. Since 2009, SIGAR and other law enforcement                    Some law enforcement organizations—including
agencies have participated in cases resulting in 17               SIGAR—are increasing their use of suspension and
convictions, 19 arrests, and 9 indictments. Since                 debarment as tools for ensuring that only responsi-
November 2010, SIGAR investigations have assisted                 ble, reliable U.S. and Afghan companies receive U.S.
in the recovery of more than $52 million.                         reconstruction contracts. These administrative proce-
   The law enforcement community’s commitment                     dures enable U.S. agencies to prevent individuals and
to mentoring Afghan law enforcement agencies and                  companies (including Afghan individuals and compa-
working with Afghan police, investigators, and pros-              nies) that have engaged in misconduct or performed
ecutors is also beginning to produce results. In the              poorly from receiving U.S. contracts, without resorting
last year, Afghan authorities arrested and prosecuted             to prosecution of such individuals and companies. By
Afghan citizens for bribery and corruption related to             the end of 2011, SIGAR’s 81 referrals for suspension
U.S. reconstruction dollars. In June 2011, a joint                or debarments had resulted in 20 suspensions, 33
operation between members of the Afghan Shafafiyat                proposals for debarment, and 3 finalized debarments.
(Transparency) Unit, the ICCTF, and SIGAR resulted in
the arrest of an Afghan citizen who had demanded
a $15,000 bribe from a contractor who supports
USACE at Kabul International Airport. Another joint
operation between SIGAR and members of the ICCTF,



         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2012             27
                                                          ENDNOTES




1. 	    CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” 12/21/2011, p. 65.
2. 	    CRS, “Afghanistan’s Path to Reconstruction: Obstacles, Challenges, and Issues for Congress,” 9/20/2002, pp. 5–6.
3. 	    ISAF, “Spokesman Discusses Progress in Afghanistan,” 7/25/2011.
4. 	    CRS, “Afghanistan’s Path to Reconstruction: Obstacles, Challenges, and Issues for Congress,” 9/20/2002, pp. 6–13.
5. 	    GAO, GAO-08-689, “Afghanistan Reconstruction: Progress Made in Constructing Roads, but Assessments for Determining Impact and a
        Sustainable Maintenance Program are Needed,” 7/2008.
6. 	    GAO, GAO-04-403, “Afghanistan Reconstruction: Deteriorating Security and Limited Resources Have Impeded Progress; Improvements in U.S.
        Strategy Needed,” 6/2004.
7. 	    GAO, GAO-04-403, “Afghanistan Reconstruction: Deteriorating Security and Limited Resources Have Impeded Progress; Improvements in U.S.
        Strategy Needed,” 6/2004.
8. 	    GAO, GAO-04-403, “Afghanistan Reconstruction: Deteriorating Security and Limited Resources Have Impeded Progress; Improvements in U.S.
        Strategy Needed,” 6/2004; USAID, “Afghanistan Mortality Survey 2010,” 11/2011; USAID, “Afghanistan Mortality Survey,” website, accessed
        1/5/2012.
9. 	    Bonn Conference, “Agreement on Provisional Arrangements in Afghanistan Pending the Re-establishment of Permanent Government
        Institutions,” (Bonn Agreement), 12/5/2001.
10. 	   UN Security Council Resolution 1386.
11. 	   CRS, “Afghanistan’s Path to Reconstruction: Obstacles, Challenges, and Issues for Congress,” 9/20/2002, p. 4.
12. 	   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/18/2002.
13. 	   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 8/12/2005.
14. 	   GAO, GAO-005-575, “Afghanistan Security: Efforts to Establish Army and Police Have Made Progress, but Future Plans Need to Be Better
        Defined,” 6/2005.
15. 	   GAO, GAO-005-575, “Afghanistan Security: Efforts to Establish Army and Police Have Made Progress, but Future Plans Need to Be Better
        Defined,” 6/2005.
16. 	   DoD OIG and DoS OIG, “DoD and DoS Need Better Procedures to Monitor and Expend DoD Funds for the Afghan National Police Training
        Program,” D-2011-080, 7/7/2011.
17. 	   GAO, GAO-005-575, “Afghanistan Security: Efforts to Establish Army and Police Have Made Progress, but Future Plans Need to Be Better
        Defined,” 6/2005.
18. 	   GAO, GAO-005-575, “Afghanistan Security: Efforts to Establish Army and Police Have Made Progress, but Future Plans Need to Be Better
        Defined,” 6/2005.
19. 	   GAO, GAO-005-575, “Afghanistan Security: Efforts To Establish Army and Police Have Made Progress, but Future Plans Need to Be Better
        Defined,” 6/2005.
20. 	   GAO, GAO-05-742, “Afghanistan Reconstruction: Despite Some Progress, Deteriorating Security and Other Obstacles Continue To Threaten
        Achievement of U.S. Goals,” 7/2005.
21. 	   GAO, GAO-04-403, “Afghanistan Reconstruction: Deteriorating Security and Limited Resources Have Impeded Progress; Improvements in U.S.
        Strategy Needed,” 6/2004.
22. 	   UNODC, “Afghanistan Opium Survey 2006,” 9/2006.
23. 	   GAO, GAO-07-78, “Afghanistan Drug Control: Despite Improved Efforts, Deteriorating Security Threatens Success of U.S. Goals,” 11/2006.
24. 	   USAID OIG, Audit Report No. 5-306-07-002-P, “Audit of USAID/Afghanistan’s Alternative Livelihoods Program-Eastern Region,” 2/13/2007.
25. 	   GAO, GAO-07-78, “Afghanistan Drug Control: Despite Improved Efforts, Deteriorating Security Threatens Success of U.S. Goals,” 11/2006.
26. 	   USAID, Audit Report No. 5-306-06-008-P, “Audit of USAID/Afghanistan’s School and Health Clinic Reconstruction Activities,” 8/18/2006.
27. 	   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 8/12/2005.
28. 	   White House, Prepared Remarks of President Barack Obama, “A New Strategy for Afghanistan and Pakistan,” 3/27/2009.
29. 	   White House, “Remarks by the President in Address to the Nation on the Way Forward in Afghanistan and Pakistan,” 12/1/2009.
30. 	   SIGAR, Audit 11-17, “The U.S. Civilian Uplift in Afghanistan Has Cost Nearly $2 Billion, and State Should Continue to Strengthen Its
        Management and Oversight of the Funds Transferred to Other Agencies,” 9/8/2011.
31. 	   Communiqué, “Afghanistan: the London Conference,” 1/28/2010.
32. 	   GAO, GAO-09-473SP, “Afghanistan: Key Issues for Congressional Oversight,” 4/2009.
33. 	   SIGAR, Audit 10-11, “Actions Needed To Improve the Reliability of Afghan Security Force Assessments,” 6/29/2010.
34. 	   SIGAR, Audit 11-6, “Inadequate Planning for ANSF Facilities Increases Risks for $11.4 Billion Program,” 1/26/2011.
35. 	   ISAF, “ISAF Spokesman Discusses Progress in Afghanistan,” 7/25/2011; USAID/Afghanistan, “Education,” 6/2011, accessed 1/19/2012.




                                                    28                  SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                                                          ENDNOTES




36. 	 USAID, “Afghanistan Mortality Survey 2010,” 11/2011; USAID, “Afghanistan Mortality Survey,” website, accessed 1/5/2012.
37. 	 USAID, “Afghanistan Mortality Survey 2010,” 11/2011, accessed 1/5/2012; USAID, response to SIGAR data call, 1/4/2012; Foreign Policy, “On
      the Road to Recovery,” 12/9/2011, accessed 1/18/2012.
38. 	 World Bank, “Afghanistan Economic Update, October 2011,” accessed 1/19/2012.
39. 	 World Bank, “Afghanistan Economic Update, October 2011,” accessed 1/19/2012.
40. 	 USAID, “Infrastructure Snapshot,” 6/2011,” accessed 1/19/2012.
41. 	 GAO, GAO-08-689, “Afghanistan Reconstruction: Progress Made Constructing Roads, but Assessments for Determining Impact and a
      Sustainable Maintenance Program are Needed,” 7/2008.
42. 	 SIGAR, Audit 11-7, “Commander’s Emergency Response Program in Laghman Province Provided Some Benefits, but Oversight Weaknesses
      and Sustainment Concerns, Led to Questionable Outcomes and Potential Waste, 1/27/2011.
43. 	 SIGAR, Audit 12-1, “Actions Needed To Better Assess and Coordinate Capacity-building Efforts at the Ministry of Agriculture, Irrigation, and
      Livestock,” 10/20/2011.
44. 	 World Bank, “Afghanistan Economic Update, October 2011,” accessed 1/19/2012.
45. 	 UNODC, “Afghanistan Opium Survey 2006,” 9/2006.
46. 	 SIGAR, Audit 11-13, “Limited Interagency Coordination and Insufficient Controls over U.S. Funds in Afghanistan Hamper U.S. Efforts To
      Develop the Afghan Financial Sector and Safeguard U.S. Cash,” 7/20/2011.
47. 	 SIGAR, Audit 09-06, “Strategy and Resources Needed to Sustain Afghan Electoral Capacity,” 9/22/2009.
48. 	 SIGAR, Audit 10-1, “Barriers to Greater Participation by Women in Afghan Elections,” 10/28/2009.
49. 	 IWA, “Afghan Perceptions and Experiences of Corruption: A National Survey 2010,” 7/7/2010, pp. 10, 14, 23.
50. 	 SIGAR, Audit 10-2, “Afghanistan’s High Office of Oversight Needs Significantly Strengthened Authority, Independence, and Donor Support To
      Become an Effective Anti-Corruption Institution,” 12/16/2009.
51. 	 SIGAR, Audit 10-15, “U.S. Reconstruction Efforts in Afghanistan Would Benefit from a Finalized Comprehensive U.S. Anti-Corruption Strategy,”
      8/5/2010.
52. 	 White House, “Afghanistan and Pakistan Annual Review: Overview,” 12/2010.
53. 	 White House, “Remarks by the President on the Way Forward in Afghanistan,” 11/22/2011.
54. 	 DoS, “Remarks at the Bonn Conference Center, Secretary of State Hillary Rodham Clinton,” 12/5/2011.
55. 	 OSD, response to SIGAR data call, 1/5/2012.
56. 	 World Bank, “Afghanistan Economic Update, October 2011,” accessed 1/19/2012.
57. 	 World Bank, “Transition in Afghanistan: Looking Beyond 2014,” 11/21/2011.
58. 	 General David Petraeus, Testimony before the Senate Armed Services Committee, 3/2011.
59. 	 Bonn Conference, “Conference Conclusions,” 12/5/2011.
60. 	 World Bank, “Transition in Afghanistan: Looking Beyond 2014,” 11/21/2011.
61. 	 Bonn Conference, “Conference Conclusions,” 12/5/2011.




       REPORT TO THE UNITED STATES CONGRESS         I   OCTOBER 30, 2011                  29
Building Capacity
New Afghan police vehicles are ready to roll. CSTC-A has pro-
vided more than 52,000 vehicles valued at $4 billion for the
ANSF. A SIGAR audit this quarter examined CSTC-A’s account-
ability and oversight for the vehicles provided. (ISAF photo)
Section 2
SIGAR OVERSIGHT




  2         SIGAR
            OVERSIGHT




                  31
              SIGAR OVERSIGHT




“SIGAR has a tremendous responsibility…
      to ensure that the significant [U.S.]
  investment in the future of Afghanistan
    is not lost to fraud, waste, and abuse.
   We are committed to providing timely,
   targeted audits that identify problems
  and help implementing agencies design
 and execute sustainable projects. We are
  committed…to ensure that contractors
     are held accountable and bad actors
           removed from the Afghan
        theater as quickly as possible.”
                                  —Steven J Trent
                  Acting Special Inspector General
                   for Afghanistan Reconstruction




              Source: House Subcommittee on National Security, Homeland Defense and Foreign Operations, “Written Testimony of Acting Inspector
              General for Afghanistan Reconstruction,” 12/7/2011.




                  32                         SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                                          SIGAR OVERSIGHT




                                                                                    COMPLETED AUDITS
                                                                                    ··Audit 12-4: Accountability of ANSF
                                                                                     Vehicles.
                                                                                    ··Audit 12-5: Private Security Contract.
SIGAR OVERSIGHT                                                                     ··Audit 12-6: Implementation of the
                                                                                     Afghan First Initiative.


The U.S. Congress established SIGAR to provide independent and objective            NEW AUDITS
oversight of U.S. funds appropriated or otherwise made available for the recon-
                                                                                    ··Oversight of A-TEMP for the ANP.
struction of Afghanistan. In accordance with its legislative mandate, SIGAR
conducts audits and investigations to (1) promote economy, efficiency, and effec-
                                                                                    ··Implementation of the AIP.
tiveness in the administration of programs and operations using reconstruction
funds, and (2) prevent and detect waste, fraud, and abuse in these programs and
                                                                                    NEW INSPECTIONS
operations. The enabling legislation also requires SIGAR to keep the Secretary      ··Four USACE Construction Projects.
of State and the Secretary of Defense fully informed about problems relating
to the administration of reconstruction programs and to submit a report to the      ONGOING AUDITS
Congress on SIGAR’s oversight work and on the status of the U.S. reconstruction
effort no later than 30 days after the end of each fiscal quarter.                  ··USAID Contracts for LGCD Project.
   This section summarizes SIGAR’s activities this quarter. SIGAR highlights this   ··USAID’s Task Order in Support of
quarter include the following:                                                       Afghanistan Stabilization Initiative.
•	 created a joint strategy group with other oversight agencies to enhance audit    ··USAID’s Cooperative Agreement in
    planning.                                                                        Support of an Agriculture Program.
•	 established an inspections program.                                              ··USACE O&M Contracts for ANSF
•	 completed three audits, including one that resulted in annual savings of          Facilities.
    $5 million.                                                                     ··USAID’s Financial Audit Coverage of
•	 participated in investigations resulting in two individuals sentenced for         Incurred Costs.
    bribery; one was ordered to pay $115,000 in restitution.
                                                                                    ··Reliability of Data on Prime Reconstruc-
•	 supported an investigation resulting in three guilty pleas.                       tion Vendors.
•	 opened 20 new investigations.
                                                                                    ··USAID’s Costs for Private Security
                                                                                     Support Services.
AUDITS                                                                              ··Outcomes of DoS Public Diplomacy
This quarter, SIGAR published three audit reports. Two were reviews of the           Grants.
Department of Defense’s (DoD) accountability for vehicles provided to the
Afghan National Security Forces (ANSF) and the implementation of the Afghan         FORENSIC AUDITS
First Initiative. The third examined a U.S. implementing agency’s use of private
security contractors (PSCs). At the request of the agency, which considered         ··DoD Transaction Data Related to
certain information in the report particularly sensitive, SIGAR is not publicly      Reconstruction.
releasing the third audit report. SIGAR also began work on two new audits,          ··USAID Transaction Data Related to
bringing the number of ongoing audits to eight. In addition, SIGAR auditors con-     Reconstruction.
tinued to analyze forensic data from three major reconstruction funds.              ··DoS Transaction Data Related to
   During this quarter, SIGAR launched two new initiatives to improve over-          Reconstruction.
sight in Afghanistan. It established an inspections program under the Audit



        REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2012        33
                                      SIGAR OVERSIGHT




                                      Directorate to conduct assessments of infrastructure projects. It also initiated
                                      a joint undertaking by the oversight community to develop a strategic audit
                                      plan that leverages each agency’s strengths and provides a more comprehensive
                                      assessment of the U.S. reconstruction effort for the Congress, implementing
                                      agencies, and the public.

                                      New Strategic Planning Group
                                      This quarter, SIGAR invited representatives from the Offices of Inspector
                                      General (OIGs) of DoD, the Department of State (DoS), and the U.S. Agency for
                                      International Development (USAID) to discuss ways to enhance coordination
                                      and oversight planning for Afghanistan reconstruction. Given the significant
                                      funding involved and the importance of the reconstruction effort to the U.S. mis-
                                      sion in Afghanistan, SIGAR believes that the oversight community must do more
                                      than de-conflict audit plans. A more comprehensive strategic plan will help over-
                                      sight agencies better coordinate their work to address key issues and provide
                                      the Congress with more coherent assessments of reconstruction programs and
                                      progress in order to better protect taxpayer dollars.
                                         To implement a strategic planning process, SIGAR and the other agencies with
                                      oversight responsibility for reconstruction agreed to form a strategic planning
                                      group under the Southwest Asia Joint Planning Group. This new group intends
                                      to develop an audit plan for FY 2013. SIGAR is leading this effort because its
                                      legislative mandate stipulates that audits and investigations must be coordinated
                                      among the inspectors general with oversight responsibility for Afghanistan
                                      reconstruction.
                                         As part of an overall effort to bring key reconstruction issues into better
                                      focus, SIGAR and other members of the joint strategic planning group will
                                      produce “capstone” reports that synthesize audit findings from a body of work in
                                      key areas of reconstruction, such as sustainability, capacity building, and stabil-
                                      ity operations.

                                      Inspections
NEW INSPECTIONS                       This quarter, SIGAR launched an inspections program to provide more timely
                                      assessments of U.S.-funded infrastructure projects in Afghanistan. U.S. agencies
··Four USACE Construction Projects.   are implementing infrastructure projects in every development sector—from
                                      ANSF facilities to courthouses, prisons, schools, and clinics. SIGAR audits have
                                      found that in the security sector alone, the U.S. government plans to have built at
                                      least 900 facilities for the Afghan National Army (ANA) and the Afghan National
                                      Police (ANP) by the end of FY 2012. DoD has provided $8 billion for the con-
                                      struction of ANSF facilities for FY 2010 through FY 2012. Earlier SIGAR audits
                                      identified a number of issues that put the U.S. investment in infrastructure at
                                      risk, including sustainability.
                                         This quarter, SIGAR initiated four inspections of construction projects con-
                                      tracted by the U.S. Army Corps of Engineers (USACE) for ANSF facilities in
                                      three provinces: Kunduz, Nangarhar, and Wardak. SIGAR will inspect the quality




                                        34               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                SIGAR OVERSIGHT




of construction and determine whether the facilities are being operated and
maintained for the purposes intended.

Completed Audit Reports
The three audit reports that SIGAR completed this quarter identified a number of
reconstruction challenges and made 10 recommendations. One of the audits was
not released publicly, at the request of the agency, because of security concerns.              COMPLETED AUDITS
                                                                                                ··Audit 12-4: DoD Improved Its
Audit 12-4: Security                                                                             Accountability for Vehicles Provided
DoD Improved Its Accountability for Vehicles Provided to the Afghan National Security Forces,    to the Afghan National Security Forces,
but Should Follow Up on End-Use Monitoring Findings                                              but Should Follow Up on End-Use
A key objective of coalition efforts in Afghanistan is to build the country’s capac-             Monitoring Findings.
ity to provide for its own security by training and equipping the ANSF. Through                 ··Audit 12-5: Private Security Contract.
December 2010, the Combined Security Transition Command - Afghanistan                           ··Audit 12-6: Afghan First Initiative Has
(CSTC-A) had provided the ANSF with 52,000 vehicles, valued at approximately                     Placed Work with Afghan Companies,
$4 billion. Most of these vehicles were provided through an adaptation of the                    but Is Affected by Inconsistent Contract
Foreign Military Sales program, a government-to-government program for selling                   Solicitation and Vetting, and Employ-
U.S. defense equipment, services, and training to foreign entities. TACOM Life                   ment Data Is Limited.
Cycle Management Command (TACOM LCMC) procures most of the vehicles
for the ANSF. Vehicles are transported to Afghanistan by contractors for the
U.S. Military Surface Deployment and Distribution Command. CSTC-A plans to
provide thousands more vehicles, which will be purchased primarily through the
Afghanistan Security Forces Fund (ASFF).

OBJECTIVES
This audit had two objectives:
•	 Determine whether CSTC-A could account for the vehicles it provided to the
   ANSF.
•	 Assess CSTC-A’s oversight for the vehicles provided.

FINDINGS
1.	 To prepare for SIGAR’s audit, CSTC-A conducted a nationwide inventory of
    U.S.-provided vehicles and discovered that it was giving fuel to the ANA for
    destroyed vehicles. As a result, CSTC-A has reduced its deliveries of fuel to
    the ANA. SIGAR estimates the fuel reduction will total about 2.68 million
    liters in FY 2012 and potentially save CSTC-A $5 million a year.
2.	 TACOM LCMC provided records for about 17,800 ANA and 8,900 ANP vehi-
    cles shipped between October 2007 and December 2010. Of these, CSTC-A
    provided evidence of the disposition of about 99% of the ANA vehicles and
    100% of the ANP vehicles.
3.	 Although TACOM LCMC and CSTC-A were able to account for nearly all
    vehicles provided to the ANSF, CSTC-A did not regularly file claims for
    damages or missing equipment. Instead of being reimbursed by the transpor-
    tation contractors, CSTC-A was paying for repairs and the replacement of




          REPORT TO THE UNITED STATES CONGRESS      I   JANUARY 30, 2012               35
SIGAR OVERSIGHT




    missing equipment and parts. After SIGAR identified this issue in May 2011,
    CSTC-A took steps to submit claims by filing transportation discrepancy
    reports. As of November 2011, claims valued at more than $339,000 had been
    approved; additional claims valued at $250,000 were in process. Filing claims
    will help ensure that the United States is not expending funds unnecessarily
    for repairs and for the replacement of missing equipment and parts.
4.	 CSTC-A generally met oversight requirements for routine end-use monitoring
    of U.S.-provided vehicles. Following SIGAR’s fieldwork, CSTC-A instituted
    additional monitoring requirements for vehicles, including reviews of ANA
    and ANP property books and maintenance records, and accounting for
    destroyed vehicles. Although CSTC-A has identified issues regarding ANSF
    vehicles, it did not have a system in place to ensure that monitoring findings
    were addressed. For example, monitoring teams noted that vehicle repairs
    at two ANA locations were taking more than a year, but CSTC-A did not have
    any record of whether this matter was resolved.

RECOMMENDATIONS
Because CSTC-A took steps during the course of SIGAR’s audit to conduct an
inventory of ANSF vehicles and file transportation discrepancy reports, SIGAR
is not making any recommendations addressing these matters. However, to
enhance oversight of vehicles provided by the United States, SIGAR recommends
that the Commanding General, CSTC-A, take the following action:
 1.	 Establish a system to track and follow up on vehicle issues identified in end-
     use monitoring inspections, including status updates by the parties involved
     to ensure resolution of the findings.

AGENCY COMMENTS
CSTC-A provided comments on a draft of this report and concurred with the
recommendation, noting that it had already taken steps to address it.

Audit 12-6: Economic and Social Development
Afghan First Initiative Has Placed Work with Afghan Companies, but Is Affected by
Inconsistent Contract Solicitation and Vetting, and Employment Data Is Limited
U.S. Forces - Afghanistan (USFOR-A) and the U.S. Embassy Kabul have imple-
mented the Afghan First Initiative (AFI), which encourages the use of Afghan
companies, where appropriate. The key aim of the AFI is to support U.S. coun-
ter-insurgency objectives by helping create job opportunities to improve the
economy, thereby decreasing the incentive for individuals to join the insurgents’
ranks.

OBJECTIVES
The audit had three objectives:
•	 Assess how agencies identified and documented that Afghan companies were
   eligible for the AFI.




  36               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




•	 Assess progress made on selected contracts with Afghan companies.
•	 Assess how the agencies were measuring progress toward the AFI’s overall
   goal of increasing employment opportunities.

FINDINGS
1.	 U.S. contracting authorities used at least six different methods to
    announce contract solicitations to the Afghan business community and at
    least seven separate databases to vet contractor ownership and capacity. The
    announcement methods provided numerous opportunities for Afghan busi-
    nesses to identify U.S. contract opportunities; however, most U.S. agencies
    did not use a website that consolidated this information in a single location.
    Similarly, a wide variety of databases were available to vet Afghan com-
    panies for ownership, resource capacity, and past performance. However,
    many U.S. agencies did not use the full range of information available to vet
    companies prior to award. For example, although U.S. agencies obtained
    business licenses at the time of award to confirm Afghan ownership, they did
    not independently verify these licenses with Afghan authorities or monitor
    the validity of the licenses throughout the contract’s period of performance.
    SIGAR found four instances where non-Afghan companies were awarded
    an AFI contract. As a result of the inconsistent approaches in selecting and
    vetting Afghan companies, access to contract opportunities may have been
    limited, and some companies may not have been eligible for AFI contracts.
2.	 More than 90% of the AFI awards SIGAR reviewed were for construction
    projects, of which 20 Afghan companies received nearly 80% of the
    $654.4 million awarded. SIGAR reviewed 29 AFI construction contracts
    valued at $133 million and found that the companies generally met contract
    requirements. SIGAR reviewed 19 construction projects that had cost and
    schedule variances and found that they were generally justifiable and sup-
    ported by approved modifications. Of the 10 construction projects SIGAR
    inspected, only a police station in Farah province had significant construc-
    tion deficiencies. The contracting authority recently took corrective action.
3.	 The absence of both a standard definition of employment and a systematic
    requirement to track and verify employment figures resulted in an inability
    to fully assess the effect of $654.4 million in AFI contract awards over the
    last three years. U.S. agencies collect data on Afghan employment, related to
    their procurement awards, for a variety of purposes by a variety of means.
    These collection efforts are not designed to gauge agency progress toward
    promoting Afghan employment through the AFI award process. Aggregate
    data on Afghan employment, resulting from all coalition partners’ contracting
    activities, is available only in the International Security Assistance Force’s
    (ISAF) “scorecard,” which includes broad indicators of how ISAF countries’
    contracts affect Counter-Insurgency (COIN) Contracting Guidance objec-
    tives. For a variety of reasons, this data does not provide a suitable basis for
    measuring how U.S. procurement efforts affect short- and long-term employ-
    ment gains in Afghanistan in support of U.S. goals.



         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2012          37
                                         SIGAR OVERSIGHT




                                         RECOMMENDATIONS
                                         To help broaden the base of participating Afghan companies and ensure that
                                         only qualified companies receive AFI awards, SIGAR recommends that the
                                         Commander, USFOR-A, and the U.S. Ambassador to Afghanistan—in coor-
                                         dination with the U.S. Central Command Joint Theater Support Contracting
                                         Command (C-JTSCC), USACE, and the USAID Mission Director—take the fol-
                                         lowing actions:
                                          1.	 Promote the use of a designated website, such as AfghanFirst.org, as an
                                              information portal for linking sources of U.S. procurement information in
                                              one location.
                                          2.	 Develop guidelines to encourage U.S. contracting authorities to adopt a more
                                              systematic approach to considering all available and relevant vetting sources
                                              to assess Afghan ownership, sufficiency of resources, and past performance.
                                          3.	 Immediately require U.S. contracting authorities to verify whether current
                                              AFI award recipients are Afghan-owned and have current licenses to operate
                                              in Afghanistan.
                                             To help assess whether AFI awards are generating Afghan employment
                                         opportunities, SIGAR recommends that the Commander USFOR-A and the
                                         U.S. Ambassador to Afghanistan—in coordination with the C‑JTSCC, USACE,
                                         and the USAID Mission Director—take the following action:
                                          1.	 Develop guidelines that define employment generation; delineate the employ-
                                              ment data needed, including collection and verification standards; and
                                              develop an assessment process to measure Afghan employment levels result-
                                              ing from AFI procurement activities.

                                         AGENCY COMMENTS
                                         At the time this quarterly report went to press, the agencies were still preparing
                                         formal comments on a draft of the audit report. The final audit report contains
                                         the agency comments and response to the findings and recommendations. To
                                         read the report, see the SIGAR website (www.sigar.mil).

                                         New Audits Announced This Quarter
NEW AUDITS                               This quarter, SIGAR began two new audits. One will examine vehicle mainte-
                                         nance for the ANP under the Afghanistan - Technical Equipment Maintenance
··Oversight and Costs Associated with    Program (A-TEMP); the other is an audit of the Afghanistan Infrastructure
 the Afghanistan - Technical Equipment   Program (AIP).
 Maintenance Program for the ANP.
··Implementation of the Afghanistan      Oversight and Costs Associated with the Afghanistan - Technical
 Infrastructure Program.                 Equipment Maintenance Program for the ANP
                                         To support the ANP under A-TEMP, CSTC-A is funding contracts with
                                         Automotive Management Services and PAE Government Services, Inc. This
                                         quarter, SIGAR began an audit that will focus on government oversight of the
                                         prime contractors and any subcontractors, the costs associated with the con-
                                         tracts, accountability for vehicle parts and maintenance supplies, and the status
                                         of efforts to transition vehicle maintenance to the ANP.



                                           38                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                            SIGAR OVERSIGHT




Implementation of the Afghanistan Infrastructure Program
This quarter, SIGAR began a performance audit of the AIP. The Congress
created the AIP in FY 2011 and authorized DoD and DoS to jointly develop
high-priority, large infrastructure projects to support the civil-military campaign
in Afghanistan. The Congress has provided $800 million for the Afghanistan
Infrastructure Fund, which supports the AIP. The audit will focus on proj-
ect selection; cost, schedule, and outcomes; and compliance with legislative
requirements.

Ongoing Audits
SIGAR has eight additional ongoing audits. These audits are assessing contracts
and programs funded by DoD, USAID, and DoS—the three principal implement-
ing agencies involved in reconstruction in Afghanistan.                                ONGOING AUDITS

USAID Contracts for Local Governance and Community                                     ··USAID Contracts for Local Governance
                                                                                        and Community Development Project.
Development Project
SIGAR is examining the performance, costs, and outcomes of USAID’s contracts           ··USAID’s Task Order in Support of the
                                                                                        Afghanistan Stabilization Initiative–East
in support of its Local Governance and Community Development project. This              Program.
$373 million project was intended to help the Afghan government extend its
reach into remote districts, encourage local communities to take an active role
                                                                                       ··USAID’s Cooperative Agreement in
                                                                                        Support of an Agriculture Program.
in their own development, and create incentives for stability in critical border
provinces.                                                                             ··USACE Operations and Maintenance
                                                                                        Contracts with ITT Corporation for ANSF
                                                                                        Facilities.
USAID’s Task Order in Support of the Afghanistan Stabilization
                                                                                       ··USAID’s Financial Audit Coverage of
Initiative–East Program                                                                 Contracts, Cooperative Agreements, and
In June 2009, USAID’s Office of Transition Initiatives awarded a three-year task        Grants for Afghanistan Reconstruction.
order with a funding ceiling of $151 million to Development Alternatives, Inc., to
                                                                                       ··Reliability of Funding and Contract Data
support the U.S. government’s Afghanistan Stabilization Initiative program in the       Maintained by the U.S. Central
eastern regions of the country. The initiative seeks to improve the economic and        Command Joint Theater Support
social environment in target districts of Afghanistan through small community-          Contracting Command (C-JTSCC) on
enhancement projects. SIGAR is assessing the cost, schedule, and outcomes of            Prime Vendors for Major Reconstruction
the initiative, as well as oversight and progress made toward transitioning to the      Contracts in Afghanistan.
build phase of the COIN strategy.                                                      ··Costs of Private Security Contractors
                                                                                        Utilized by USAID Contractors for
USAID’s Cooperative Agreement in Support of an                                          Reconstruction in Afghanistan.
Agriculture Program                                                                    ··Outcomes of DoS’s Public Diplomacy
In July 2009, USAID modified its cooperative agreement with International Relief        Grants in Support of Reconstruction in
and Development to create the Afghanistan Vouchers for Increased Production             Afghanistan.
in Agriculture (AVIPA) Plus program. AVIPA Plus ended in September 2011;
more than $400 million was spent on the program. Key program components
included seed and fertilizer distribution, cash-for-work projects to stimulate local
economies, small grant programs to provide farming equipment, and training and
capacity development programs. SIGAR is looking at the extent to which AVIPA
Plus achieved its goals and whether it incorporated lessons learned into the
follow-on program.



         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2012          39
SIGAR OVERSIGHT




USACE Operations and Maintenance Contracts with ITT
Corporation for ANSF Facilities
In July 2010, USACE awarded two firm-fixed-price contracts, valued at a total of
$800 million, to ITT Systems Corporation to provide operations and maintenance
for ANSF facilities. These contracts cover Afghan army and police facilities in
northern and southern Afghanistan. The contracts consist of one base year plus
four option years. According to the program manager, these contracts may cover
more than 660 sites. These contracts also require that the contractor train Afghan
workers in all aspects of operations and maintenance. SIGAR is assessing cost,
schedule, compliance with contract terms, contract oversight, and sustainability.
DoD OIG is conducting a separate audit on the training aspect of the contracts.

USAID’s Financial Audit Coverage of Contracts, Cooperative
Agreements, and Grants for Afghanistan Reconstruction
USAID’s obligations for reconstruction in Afghanistan totaled approximately
$11.7 billion for FY 2002–2010, according to the USAID OIG. USAID provided
most of these funds to contractors and nonprofit organizations through con-
tracts, cooperative agreements, and grants. Financial audits of costs incurred
under these financial mechanisms provide valuable oversight of appropriated
funds by determining the appropriateness of direct and indirect costs, as well
as identifying weaknesses in internal controls and compliance with applicable
laws and regulations. This audit will assess USAID’s efforts to conduct required
financial audits of its project awards.

Reliability of Funding and Contract Data Maintained by the U.S.
Central Command Joint Theater Support Contracting Command
(C-JTSCC) on Prime Vendors for Major Reconstruction Contracts
in Afghanistan
This audit will follow up on certain data provided by the C-JTSCC, which identi-
fied the contractors it contracts with using the ASFF. Specifically, the C-JTSCC
may have reported obligations that differed significantly from total contract
values. In June, the Senate Committee on Homeland Security and Governmental
Affairs, Subcommittee on Contracting Oversight cited specific concerns about
the accuracy and reliability of the C-JTSCC data provided to SIGAR. This audit
will determine the cause of the discrepancies, the measures that the C-JTSCC has
taken to address the discrepancies, and any additional steps that the C-JTSCC
needs to take to ensure the accuracy and reliability of its contract data.

Costs of Private Security Contractors Utilized by USAID
Contractors for Reconstruction in Afghanistan
The U.S. government has relied on PSCs to provide security for reconstruction
programs in Afghanistan, but information about their costs is limited. This audit
will identify the PSCs used by USAID’s implementing partners and determine their
costs and their status in light of the Afghan government’s intention to transfer PSC
security functions to the Afghan Public Protection Force in March 2012.



  40                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                          SIGAR OVERSIGHT




Outcomes of DoS’s Public Diplomacy Grants in Support of
Reconstruction in Afghanistan
SIGAR has identified 21 DoS public diplomacy grants totaling $78 million in
reconstruction funding and may identify additional public diplomacy grants for
reconstruction during fieldwork. This audit will review the cost, schedule, and
outcomes, as well as the administration and oversight of the grants.

Forensic Audits
Public Law 110-181, as amended, requires that before SIGAR is terminated, it
must prepare and submit to the appropriate congressional committees a final
forensic audit report on programs and operations funded with amounts appro-         FORENSIC AUDITS
priated or otherwise made available for the reconstruction of Afghanistan. To
                                                                                    ··Forensic Review of DoD Transaction Data
identify waste, fraud, and abuse of taxpayer dollars, SIGAR is conducting foren-     Related to Afghanistan Reconstruction.
sic reviews of three major reconstruction funds:
                                                                                    ··Forensic Review of USAID Transaction
 •	 the Afghanistan Security Forces Fund (ASFF), managed by DoD.                     Data Related to Afghanistan
 •	 the Economic Support Fund (ESF), managed by USAID.                               Reconstruction.
 •	 the International Narcotics Control and Law Enforcement (INCLE) account,
                                                                                    ··Forensic Review of DoS Transaction Data
    managed by DoS.                                                                  Related to Afghanistan Reconstruction.

Forensic Review of DoD Transaction Data Related to Afghanistan
Reconstruction
In March 2010, SIGAR initiated a review of DoD appropriation, obligation, and
expenditure transaction data related to the ASFF. As of December 31, 2011,
Congress had appropriated nearly $50.7 billion to the ASFF since the fund was
created in FY 2005.
   Obtaining data to perform testing has been a challenge because when DoD
obligates ASFF funds, it transfers a significant amount of these funds immedi-
ately to a Foreign Military Sales trust-fund account to await disbursement. In
November 2011, the Defense Finance and Accounting Service accounted for
more than 97% of the transaction data associated with disbursements processed
through FY 2010 and provided this transactional data to SIGAR. Only a limited
forensic review is possible for these files because they do not include a number
of data fields.
   SIGAR has conducted a forensic analysis of approximately $11.2 billion,
including $9.5 billion of disbursements through FY 2010, and $1.7 billion in
disbursements from the USACE through FY 2009. The review covered more than
80,000 transactions. SIGAR screened the results, using a risk-scoring methodol-
ogy to identify high-risk transactions that warranted additional review. SIGAR is
assessing and reviewing exceptions related to contractors on the Excluded Party
List, potential duplicate payments, and other payment anomaly trends, such as
payments in round dollar amounts and payments on weekends and holidays.
Preliminary requests for source documentation have been submitted, and DoD
is evaluating whether to provide direct access to its electronic document system
for the SIGAR team. Direct access would enable the team to pull source docu-
mentation independently for review.



        REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2012        41
SIGAR OVERSIGHT




Forensic Review of USAID Transaction Data Related to
Afghanistan Reconstruction
SIGAR has completed a secondary review of USAID transactional disbursement
data totaling approximately $10 billion in disbursements from FY 2002 through
FY 2011. The data covers more than 100,000 transactions. SIGAR has screened
the results, using a risk-scoring methodology to identify high-risk transactions
that warranted additional review. SIGAR is assessing and reviewing exceptions
related to duplicate vendors, potential duplicate payments, and other payment
trending anomalies—such as round dollar amounts, payments processed on
weekends and holidays, vendors with only one transaction, and upward trends
in vendor pricing. On January 13, 2012, SIGAR submitted requests to USAID for
source documentation to further confirm exceptions. SIGAR continues to receive
quarterly data feeds from USAID for continuous testing. 	
   SIGAR also completed its review of source documentation for the initial
USAID review of more than 73,000 transactions—amounting to $7.4 billion in dis-
bursements—from 2002 through July 2010. Based on the review, SIGAR’s audit
team is considering its next steps. Several original documentation requests to
USAID for further exception verification are still outstanding. In addition, SIGAR
identified a number of data nuances in the first review and has applied this infor-
mation to the second round of testing to fine-tune results and identify additional
anomalies.

Forensic Review of DoS Transaction Data Related to Afghanistan
Reconstruction
SIGAR has completed an initial forensic review of $2.4 billion in DoS transac-
tional disbursement data from 2002 through June 2011. The review covered
25,000 transactions. SIGAR screened these results, using a risk-scoring meth-
odology to identify high-risk transactions that warranted additional review.
Preliminary results revealed a number of unexpected transactions. Consequently,
on December 22, 2011, SIGAR sent a limited request for source documentation
to obtain a better understanding of the data and to verify that DoS pulled the
correct dataset. Exceptions that might warrant further review include anomalies,
such as vendors on the Excluded Party List, duplicate vendors, potential dupli-
cate payments, transactions with no description, an unexpected description or
other unexpected characteristics, significant differences between invoice and
payment dates, and other payment trending anomalies—such as round dollar
amounts, payments on weekends and holidays, and payments with the same date
as the invoice.

INVESTIGATIONS
During this reporting period, SIGAR’s participation in criminal investigations
resulted in two sentences and three guilty pleas. One of the individuals sen-
tenced was ordered to pay restitution of $115,000 and serve a 15-month sentence
for soliciting bribes; the other was sentenced to 22 months in prison. In addition,




  42                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                          SIGAR OVERSIGHT




SIGAR assisted other agencies in investigations that resulted in the sentencing of
two U.S. military personnel for receiving bribes.
    From October 1 to December 30, SIGAR opened 20 cases and closed 6 cases
due to unsubstantiated claims. In addition, SIGAR made 40 referrals for the
suspension and debarment of individuals and companies for fraud, other illegal
activity, or poor performance. SIGAR’s aggressive suspension and debarment
program is focused on making all contractors more accountable—U.S., Afghan,
and third-country nationals. This quarter, SIGAR received 37 complaints through
its Hotline program.

Ongoing Investigations
                                                                                     FIGURE 2.1
SIGAR is working on 125 ongoing investigations. As shown in Figure 2.1, about
59% of these investigations involve contract and procurement fraud, and 28%          SIGAR INVESTIGATIONS:
involve public corruption and bribery. The remaining 13% involve theft of prop-      NUMBER OF OPEN INVESTIGATIONS,
erty and services, miscellaneous criminal activities, and other issues.              AS OF DECEMBER 31, 2011

DoD Employee Pleads Guilty to Bribery                                                                         Total: 125
On December 21, 2011, Desi Wade, the former chief of Fire and Emergency
Services with USFOR-A, pled guilty to one count of 18 U.S.C. 201, bribery of
a public official, in U.S. District Court for the Northern District of Georgia.
SIGAR supported the investigation, which was conducted by members of the                            Public            Contract and
International Contract Corruption Task Force (ICCTF). The investigation origi-                      Corruption        Procurement
                                                                                                    and Bribery       Fraud
nated in Afghanistan and culminated in Wade’s arrest and plea bargain. In August                    35                74
2011, Wade was arrested in Atlanta after accepting a $100,000 payoff from a gov-
ernment contractor during a sting operation. SIGAR reported the investigation
and arrest of Wade in its October 30, 2011 quarterly report.
                                                                                                                      Theft of Property
Australian Citizen Sentenced to 22 Months for Theft and Bribery                                                       and Servicesa
                                                                                                                      16
On December 20, 2011, Neil Patrick Campbell, an Australian citizen who formerly
worked as a senior construction manager for a non-governmental organization in       a. Includes miscellaneous criminal activity.
Afghanistan, was sentenced by the U.S. District Court in the District of Columbia    Source: SIGAR Investigations Directorate, 1/20/2012.

to 22 months of incarceration and 24 months of supervised release. Campbell
pled guilty to charges of bribery on October 4, 2011.
    In July 2010, an ICCTF investigation led by the USAID Office of Inspector
General, with assistance from SIGAR and the Federal Bureau of Investigation
(FBI), had developed information that Campbell had solicited a bribe from a
subcontractor to inappropriately award contracts funded by USAID. In August
2010, Campbell met an undercover USAID investigator posing as the subcontrac-
tor’s representative and accepted $10,000 in cash. In October 2010, Campbell
traveled to New Delhi, India, where he believed he would receive an additional
$180,000. Instead, Campbell was arrested by agents of the Indian Central Bureau
of Investigation. After several months in an Indian jail, Campbell was extradited
to the United States, where he remained in custody in the District of Columbia
jail. At sentencing, Campbell was remanded to the custody of the U.S. Bureau of
Prisons, where he will serve the remainder of his time.



         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2012        43
SIGAR OVERSIGHT




U.S. Army Sergeant Pleads Guilty to Stealing More than $200,000
On December 13, 2011, Philip Stephen Wooten, a U.S. Army sergeant, pleaded
guilty to conspiracy to commit fraud and theft of government property—approxi-
mately $210,000 of funds. Wooten was a Field Ordering Officer with the 7th
Special Forces Group based at Fort Bragg, North Carolina. On the conspiracy
charge, Wooten faces a maximum of five years of imprisonment, three years of
supervised release, and a $250,000 fine. For theft of government property, he also
faces a maximum of 10 years of imprisonment, 3 years of supervised release, and
a $250,000 fine. Wooten agreed to forfeit all assets derived from his illegal activi-
ties—jewelry with an appraised value of $88,500; real property; and $62,419 in
currency. Sentencing is scheduled for March 26, 2012.
   This case grew out of a project SIGAR started in November 2010 to assess
and evaluate the use of postal money orders (PMOs) as a vehicle for converting
and transferring currency from Afghanistan to the United States. SIGAR deter-
mined that PMOs are used to launder proceeds from illegal activities and may
be a viable indicator of fraud, waste, and abuse involving reconstruction funds.
Through further investigation, SIGAR identified individuals who have conducted
numerous suspicious money order transactions involving funds from unknown
sources.
   In September 2011, Wooten was questioned by a team of three agents from
SIGAR, the FBI, and the Postal Inspection Service regarding the suspicious trans-
actions. During the interview at Fort Bragg, Wooten admitted to stealing U.S.
government funds intended for reconstruction projects while stationed at an out-
post in Khas, in Uruzgan province. The scheme involved defrauding local Afghan
contractors and falsifying receipts to avoid detection during mandatory audits.
   Through data analysis, SIGAR determined that while deployed in Afghanistan
from July 2009 through January 2010, Wooten and a co-conspirator serving as a
pay agent had purchased and sent PMOs totaling more than $100,000 back to the
United States. The investigation also found numerous wire transfers of funds by
the same two individuals.

Former U.S. Army National Guard Captain Sentenced and Ordered
To Pay $115,000 in Restitution
On December 12, 2011, U.S. District Judge Matthew Kennelly in the Northern
District of Illinois sentenced John Mihalczo, a captain in the Army National
Guard, to 15 months in prison for receiving bribes from military contractors in
return for the award of DoD contracts during his deployment to Bagram Airfield,
Afghanistan. In addition to his prison term, Mihalczo was sentenced to one year
of supervised release and ordered to pay DoD $115,000 in restitution. SIGAR
provided investigative support and administrative personnel to the trial team.




  44                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




   According to documents filed in the case, Mihalczo was deployed from March
2003 until March 2004. He served as both a motor pool officer who controlled a
large fleet of leased vehicles and a contracting officer’s representative who over-
saw the delivery of various goods at Bagram Airfield, including concrete barriers.
   While serving in Afghanistan, Mihalczo accepted approximately $35,000 in
cash and money orders from two military contractors in return for exercising his
influence in the award of DoD contracts. Mihalczo also participated in another
scheme with another military contractor in which Mihalczo fraudulently verified
the delivery of concrete barriers that were never delivered to Bagram Airfield.
As part of this scheme, Mihalczo and the military contractor split $80,000 in
overpayments made by DoD. In total, the loss to the United States from these
offenses was at least as much as $115,000. Mihalczo is the ninth defendant sen-
tenced in this investigation; nine additional defendants remain to be sentenced.
   This case is being prosecuted by Department of Justice Trial Attorney Mark W.
Pletcher of the Criminal Division’s Fraud Section. SIGAR supported the investi-
gation, which included the Army Criminal Investigations Division, the Defense
Criminal Investigative Service, and the Department of the Air Force, Office of
Special Investigations.

Afghan Contractors Sentenced for Theft of Fuel
On November 29, 2011, an Afghan court convicted five Afghan citizens for their
involvement in a scheme to steal truckloads of fuel from a forward operating base
in Kunar province. Two were sentenced to five years and one month in prison
for stealing fuel; three were convicted of lesser crimes and fined. These convic-
tions resulted from a SIGAR investigation of fuel theft at Forward Operating
Base Wright. SIGAR worked closely with members of the U.S. military, DoS’s rule
of law advisor, and the ANP to build the case that members of Bakhtar Relief
Association Trucking were stealing fuel. On September 11, 2011, the ANP arrested
five suspects in the act of stealing fuel from the base.

SIGAR Investigation Leads to $887,835 Recovery
for Afghan Company
During this reporting period, SIGAR initiated a joint investigation with the
Afghan Attorney General’s Office after receiving a complaint that a U.S. company
contracted by the Air Force Center for Engineering and the Environment to build
an ANA barracks had not paid its Afghan subcontractor. The Afghan authorities
issued arrest warrants for 11 individuals involved in this case and put the U.S.
contractors on a “no-fly list.” SIGAR helped negotiate an amicable settlement,
and the U.S. contractor paid the Afghan subcontractor the $887,835 it was owed.




         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2012         45
                                                         SIGAR OVERSIGHT




                                                         Suspensions and Debarments
                                                         This quarter, SIGAR referred 40 cases for suspension or debarment, bringing the
                                                         total number of referrals during 2011 to 81—50 individuals and 31 companies
                                                         working on U.S.-funded reconstruction programs. By the end of 2011, these refer-
                                                         rals had resulted in 20 suspensions, 33 proposals for debarment, and 3 finalized
                                                         debarments, as shown in Figure 2.2. SIGAR makes referrals for suspensions and
FIGURE 2.2
                                                         debarments—actions taken by U.S. agencies to exclude companies or individuals
SIGAR INVESTIGATIONS: RESULTS OF                         from receiving federal contracts or assistance because of misconduct—based on
REFERRALS FOR SUSPENSION AND                             completed investigations and provides all of the documentation needed for an
DEBARMENT, AS OF DECEMBER 31, 2011                       agency to take action.
                                                            In addition to continuing to make referrals for action by other agencies,
                        Total: 56                        SIGAR has taken steps to promote suspension and debarment as a remedy in
                                                         reconstruction-related cases. During October 2011, SIGAR sent its counsel for
                                            Finalized    investigations to Kabul and Kandahar to conduct on-site training on investiga-
                                            Debarments   tions of procurement fraud cases and poor contractor performance. SIGAR
                                            3
                                                         trained its deployed investigative and audit staff and some personnel from
                Suspensions
                                                         SIGAR’s agency partners. This training included instruction on how to build
                20
                                Proposals                suspension and debarment cases in the absence of the filing of a criminal indict-
                                for                      ment, what evidentiary burdens the government must meet, and what types of
                                Debarment
                                33                       evidence are best able to support suspension and debarment. This training for
                                                         deployed staff members was complemented in December 2011 by training for all
                                                         investigators based in Washington, D.C. SIGAR expects to begin additional sus-
Source: SIGAR Investigations Directorate, 1/20/2012.
                                                         pension and debarment training of its audit staff in early 2012; refresher training
                                                         for all personnel will begin soon after.
                                                            Suspensions and debarments are an important tool for ensuring that agencies
                                                         award contracts only to responsible entities. SIGAR’s program addresses three
                                                         challenges posed by U.S. policy and the contingency contracting environment
                                                         in Afghanistan: the need to act quickly, the limited U.S. jurisdiction over Afghan
                                                         nationals and Afghan companies, and the vetting challenges inherent in the use
                                                         of multiple tiers of subcontractors.

                                                         SIGAR Hotline and Complaints Management System
                                                         From October 1, 2011, to December 30, 2011, SIGAR received 37 Hotline com-
                                                         plaints. SIGAR has referred 12 of them for further investigation by its own agents
                                                         and 1 to another agency, is reviewing 10, is coordinating 12, and has closed 2.
                                                         SIGAR investigators have 30 days to evaluate complaints and decide whether
                                                         they merit further review and referral; they have 10 days to open criminal actions
                                                         if merited. Since 2009, the SIGAR Hotline has received 716 complaints. This total
                                                         reflects corrected data since last quarter.




                                                           46                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




SIGAR BUDGET
During this reporting period, the Congress provided SIGAR with its full bud-
get request of $44.4 million for FY 2012. With these funds, SIGAR intends to
aggressively hire and support additional highly specialized staff with expertise
in audits, inspections, investigations, and information management to provide
effective oversight of the growing U.S. investment in reconstruction.

SIGAR STAFF
SIGAR’s staff consists of 133 federal employees. Because of the significant
increase in reconstruction funding in FY 2011 and FY 2012, SIGAR plans to build
its staff to 180 full-time employees in FY 2012. SIGAR has refined its recruitment
strategy, which successfully increased the number and quality of applicants for
critical positions. The changes continue to reduce recruitment time.
    SIGAR has 33 positions for personnel at the U.S. Embassy Kabul and 16 at mil-
itary bases outside Kabul. In August 2011, SIGAR and the Embassy signed a new
memorandum of understanding to expand SIGAR’s presence to four additional
locations in Afghanistan. By the end of December 2011, SIGAR staff members
were stationed in several locations across the country, including Kandahar and
Bagram airfields, Camp Stone, Camp Leatherneck, and Forward Operating Base
Salerno. SIGAR is considering establishing an office in Mazar-e Sharif. SIGAR
employs three local Afghans in its Kabul office—two investigators and one
translator/Hotline administrator. In addition, SIGAR supports its work with staff
assigned to short-term temporary duty in Afghanistan: this quarter, SIGAR had
nine personnel on temporary duty in Afghanistan for a total of 179 days.




         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2012         47
Developing Partnerships
A villager exchanges views with a U.S. soldier in Mullayan,
Kandahar province, on November 1. The two discussed
recent events in the village and how the people are faring.
Credit: U.S. Army photo, SPC Kristina Truluck.
Section 3
RECONSTRUCTION UPDATE




3           RECONSTRUCTION
            UPDATE




                        49
          RECONSTRUCTION UPDATE




  “Responsibility for the future of
  Afghanistan rests with Afghans,
and we Afghans will not fail or falter
  in assuming that responsibility.
However, your continued solidarity,
 commitment, and support will be
 crucial, particularly in the period
between 2014 and 2024, so that we
   can consolidate our gains and
      continue to address the
      challenges that remain.”
                                         —Afghan President
                                             Hamid Karzai




          Source: President Hamid Karzai, “Statement at the Bonn Conference,” 12/5/2011.




              50                        SPECIAL INSPECTOR GENERAL |   AFGHANISTAN RECONSTRUCTION
                       RECONSTRUCTION UPDATE




OVERVIEW
Section 3 presents a holistic view of reconstruction efforts in Afghanistan during
this reporting period. Updates on accomplishments, challenges, and local initia-
tives provide context for the oversight that is needed in reconstruction efforts.
Sidebars throughout the section identify SIGAR audits—both completed and
ongoing—related to those efforts; for ongoing audits, cross-references direct the
reader to more information in Section 1.
   Section 3 is divided into four subsections: Status of Funds, Security,
Governance, and Economic and Social Development. The Security, Governance,
and Economic and Social Development subsections mirror the three pillars
reflected in the Prioritization and Implementation Plan announced by the Afghan
government in 2010 and originally set forth in the 2008 Afghanistan National
Development Strategy.

TOPICS
Section 3 discusses four broad topics: historical and current information on fund-
ing, security conditions, governance-related activities, and economic and social
development programs. The section also provides information on the progress of
efforts to reduce corruption and combat the narcotics trade in Afghanistan.
   The Status of Funds subsection contains a comprehensive discussion of
the monies appropriated, obligated, and disbursed for Afghanistan reconstruc-
tion. It includes specific information on major U.S. funds and international
contributions.
   The Security subsection details U.S. efforts to bolster the Afghan National
Security Forces and highlights developments affecting the security environment
in the country. This subsection focuses on programming to build the capacity
of the Afghan National Army and Afghan National Police. It reviews the status
of private security contractors. It also discusses the ongoing battle against the
narcotics trade in Afghanistan.
   The Governance subsection provides an overview of the Afghan govern-
ment’s progress toward achieving good governance. This subsection focuses on
the status of reconciliation and reintegration. It also reviews the level of Afghan
government control in various eastern and southern provinces. It discusses
capacity-building efforts, rule of law initiatives, and human rights development.
This subsection also reviews U.S. and Afghan government initiatives to combat
corruption.



         REPORT TO THE UNITED STATES CONGRESS |   JANUARY 30, 2012           51
RECONSTRUCTION UPDATE




   The Economic and Social Development subsection looks at reconstruction
activities by sector, ranging from energy to mining to health. It provides a snap-
shot of the state of the economy and updates on progress in regulating financial
networks, achieving fiscal sustainability, and delivering essential services.

METHODOLOGY
Section 3 was compiled using information and data from open sources and U.S.
agencies. All data and information is attributed to the reporting organization in
endnotes to the text or notes to the tables and figures; because multiple organiza-
tions provide the data, numbers may conflict. Except for references to SIGAR
audits or investigations in the text or in sidebars, SIGAR has not verified this
data, and it does not reflect SIGAR opinions. For a complete discussion of SIGAR
audits and investigations this quarter, see Section 1.

Data Call
The data call is a series of questions directed to U.S. agencies about their contri-
butions and involvement in reconstruction programming, and the state of affairs
in Afghanistan. The U.S. agencies that participated in the data call for this quar-
terly report include the following:
 •	 U.S. Department of State.
 •	 U.S. Department of Defense.
 •	 U.S. Agency for International Development.
 •	 U.S. Department of the Treasury.
A preliminary draft of the report was provided to the responding agencies before
publication to allow these agencies to verify and clarify the content of this
section.

Open-Source Research
Open-source research draws on the most current, publicly available data from
reputable sources. A representative list of sources used in this quarterly report
includes the following:
 •	 U.S. agencies represented in the data call.
 •	 International Security Assistance Force.
 •	 United Nations (and relevant branches).
 •	 International Monetary Fund.
 •	 World Bank.
 •	 Afghan ministries and other government organizations.
 •	 U.K. Foreign and Commonwealth Office.
 •	 Asia Foundation.
Most of the open-source research is included in the preliminary draft that is
distributed to agencies participating in the data call for review before this report
is published.




  52                SPECIAL INSPECTOR GENERAL |   AFGHANISTAN RECONSTRUCTION
                                                   GRAPHICS KEY




UNDERSTANDING THE GRAPHICS AND DATA TERMS
                                                                       ASFF    CERP DoD CN        ESF     INCLE
All figures and tables report data for this quarter, except where identified in titles or notes.

                                                                              DoD                 USAID   DoS
BAR CHARTS                                                      UNITS IN BILLIONS AND MILLIONS
This report discusses many funds and projects with              Because this report details funding in both billions
dollar values ranging from millions to billions. To             and millions of dollars, it uses a visual cue to distin-
provide an accurate graphical representation of these           guish the two measurement units. Dollars reported in
numbers, some bar graphs appear with a break (a                 billions are represented in blue, and dollars reported
wavy line) to indicate a jump between zero and a                        ASFF are depicted in green.
                                                                in millions
larger number.

                                                                                DoD
     $500                         $200

     $450
                                  $150
     $400
                                  $100
     $350                                                                      CERP

                                   $50
                                                                       Pie ChartDoD
                                                                                 in Billions                Pie Chart in Millions
       $0                           $0

            Bar chart with a             Bar chart without
             break in scale              a break in scale

                                                                                         DoD CN
CALENDAR AND SOLAR YEARS                                        FUNDING MARKERS
The Afghan government follows the solar Hejri calen-            Funding markers identify individual funds discussed in
dar, which began in 622 A.D. SIGAR converts these               the text. The DoD
                                                                              agency responsible for managing the
years to the Gregorian calendar. The current Afghan             fund is listed in the tan box below the fund name.
solar year is 1390; it began on March 21, 2011, and
will end on March 20, 2012.

                                                                                                  ESF
    2011                            2012
     • • • • • • • • •
                                                                                                  USAID
            1390                             1391




                                                                                                          INCLE



                                                                                                          DoS

         REPORT TO THE UNITED STATES CONGRESS |   JANUARY 30, 2012                  53
                                                                    STATUS OF FUNDS




STATUS OF FUNDS
To fulfill SIGAR’s legislative mandate, this section details the status of U.S.
funds appropriated, obligated, and disbursed for reconstruction activities in
Afghanistan. As of December 31, 2011, the United States had appropriated nearly
$85.54 billion for relief and reconstruction in Afghanistan since FY 2002. This
total has been approximately allocated as follows:
•	 $52.14 billion for security.
•	 $20.28 billion for governance and development.
•	 $5.67 billion for counter-narcotics efforts.
•	 $2.24 billion for humanitarian aid.
•	 $5.20 billion for oversight and operations.
Figure 3.1 shows the major U.S. funds that contribute to these efforts.




FIGURE 3.1

U.S. FUNDS SUPPORTING AFGHANISTAN RECONSTRUCTION EFFORTS ($ BILLIONS)                                                               Definition

                                                                                                                                     ASFF: Afghanistan Security Forces Fund
                                         FUNDING SOURCES (TOTAL: $85.54)
                                                                                                                                     CERP: Commander’s Emergency
                                                                                                                                     Response Program
   ASFF         CERP          AIF         TFBSO       DoD CN              ESFa                 INCLEa                 Othera
                                                                                                                                     AIF: Afghanistan Infrastructure Fund
  $50.63        $3.44        $0.80        $0.51        $2.28            $13.02                  $3.26                $11.60
                                                                                                                                     TFBSO: Task Force for Business and
                                                                                                                                     Stability Operations
                                                           AGENCIES
                                                                                                                                     DoD CN: DoD Drug Interdiction and
                                                                                           Department of        Distributed to
                Department of Defense (DoD)                             USAID                                                        Counter-Drug Activities
                                                                                            State (DoS)        Multiple Agenciesb
                         $57.66                                         $13.02                 $3.26                $11.60
                                                                                                                                     ESF: Economic Support Fund
Note: Numbers affected by rounding.                                                                                                 INCLE: International Narcotics Control
a. Consolidated Appropriations Act of 2012 signed 12/23/2011; Afghanistan funding level for many accounts not yet determined.
b. Multiple agencies include DoJ, DoS, DoD, USAID, Treasury, and USDA.                                                               and Law Enforcement
Sources: DoD, responses to SIGAR data call, 1/17/2012, 1/13/2012, 1/4/2012, 1/2/2012, 10/14/2009, and 10/1/2009;
DoS, responses to SIGAR data call, 1/10/2012, 1/9/2012, and 4/14/2011; Treasury, response to SIGAR data call, 10/13/2011;            Other: Other Funding
OMB, response to SIGAR data call, 7/19/2011; USAID, responses to SIGAR data call, 1/5/2012, 10/15/2010, 1/15/2010, and
10/9/2009; DoJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; P.L. 112-74, 12/23/2011;
P.L. 112-10, 4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement.




              REPORT TO THE UNITED STATES CONGRESS                        I   JANUARY 30, 2012                            55
                                                                 STATUS OF FUNDS




                                                                 U.S. RECONSTRUCTION FUNDING FOR AFGHANISTAN
 ASFF    CERP   AIF    TFBSO DoDCN    ESF     INCLE              As of December 31, 2011, cumulative appropriations for relief and reconstruction in
                                                                 Afghanistan totaled approximately $85.54 billion. This total can be divided into five
                                                                 major categories of reconstruction funding: security, governance and development,
                DoD                  USAID DoS
                                                                 counter-narcotics, humanitarian, and oversight and operations. For complete infor-
                                                                 mation regarding U.S. appropriations, see Appendix B.
                                                                    As of December 31, 2011, cumulative appropriations through FY 2012 had
The amount provided to the seven major
                                                                 increased by more than 17.3% over cumulative appropriations through FY 2011,
U.S. funds represents approximately 86.4%
(nearly $73.94 billion) of total reconstruction                  as shown in Figure 3.2. Efforts to build and train the Afghan National Security
assistance
  ASFF      in Afghanistan since FY 2002.                        Forces (ANSF) have received the majority of reconstruction funding since FY 2002.
Of this amount, more than 73.3% (nearly                          Cumulative appropriations for security (more than $52.14 billion) account for nearly
$54.23 billion) has been obligated, and more                     61.0% of total U.S. reconstruction assistance.
than 62.1% DoD
             (more than $45.94 billion) has                         On December 23, 2011, President Obama signed the Consolidated Appropriations
been disbursed. The following pages provide                      Act of 2012, appropriating funds to operate the government for the rest of the fis-
additional details on these funds.                               cal year. FY 2012 appropriations for Afghanistan relief and reconstruction amount

FIGURE 3.2

    CERP
CUMULATIVE APPROPRIATIONS BY FUNDING CATEGORY, AS OF DECEMBER 31, 2011 ($ BILLIONS)

    $90
                DoD                                                                                                                                                $85.54
    $85
    $80
    $75                                                                                                                                           $72.89
    $70
    $65
                           DoD CN
    $60
                                                                                                                        $56.24
    $55
    $50         DoD
    $45
                                                                                                   $39.60
    $40
    $35
    $30                                                                          $29.21
                                      ESF
    $25                                                    $23.01
    $20
    $15                              USAID
                                        $12.99
    $10               $9.50

        $5
        $0
                2002–2005a                  2006            2007                  2008              2009                 2010                     2011             2012b
                                              INCLE
                         Security       Governance/Development           Counter-Narcotics       Humanitarian          Oversight and Operations            Total
Note: Numbers affected by rounding.
a. Bonn Process reconstruction phase. For more information on reconstruction phases, see Section 1.
                                               DoS12/23/2011; Afghanistan funding level for many accounts not yet determined.
b. Consolidated Appropriations Act of 2012 signed
Sources: DoD, responses to SIGAR data call, 1/17/2012, 1/13/2012, 1/4/2012, 1/2/2012, 10/14/2009, and 10/1/2009; DoS, responses to SIGAR data call, 1/10/2012, 1/9/2012, and 4/14/2011;
Treasury, response to SIGAR data call, 10/13/2011; OMB, response to SIGAR data call, 7/19/2011; USAID, responses to SIGAR data call, 1/5/2012, 10/15/2010, 1/15/2010, and 10/9/2009; DoJ,
response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY
2010 Defense Explanatory Statement.

                AIF


                                                                    56                       SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                DoD
                                                                   STATUS OF FUNDS




to more than $12.64 billion. This figure will increase when appropriated amounts
allocated to Afghanistan from the Economic Support Fund (ESF), International
Narcotics Control and Law Enforcement (INCLE) account, and other assistance
accounts are determined.
   Section 1 of this report focuses on the 10 years of Afghanistan reconstruction
efforts in three phases: the Bonn Process (2001–2005), the Reconstruction Surge
(2006–2011), and the Transition (2011–2014). Afghanistan reconstruction appro-
priations for FY 2007, FY 2009, FY 2010, FY 2011, and FY 2012 each exceed the
combined appropriations made during the Bonn Process, as shown in Figure 3.3.
This figure displays annual appropriations by funding category from FY 2002 to
FY 2012. The bars show the dollar amounts appropriated, and the pie charts show
the proportions of the total appropriated by category. These figures reflect amounts
as reported by the respective agencies and amounts appropriated in legislation.


FIGURE 3.3

APPROPRIATIONS BY FISCAL YEAR AND FUNDING CATEGORY                                 ($ BILLIONS AND PERCENT)


   $17                                                                                                                          $16.65                     $16.65                      $17
   $16                                                                                                                                                                                 $16
   $15                                                                                                                                                                                 $15
   $14                                                                                                                                                                                 $14
   $13                                                                                                                                                                      $12.64     $13
   $12                                                                                                                                                                                 $12
   $11                                                                                                    $10.39                                                                       $11
                                                              $10.03
   $10             $9.50                                                                                                                                                               $10
     $9                                                                                                                                                                                 $9
     $8                                                                                                                                                                                 $8
     $7                                                                              $6.19                                                                                              $7
     $6                                                                                                                                                                                 $6
     $5                                                                                                                                                                                 $5
     $4                                  $3.49                                                                                                                                          $4
     $3                                                                                                                                                                                 $3
     $2                                                                                                                                                                                 $2
     $1                                                                                                                                                                                 $1
     $0                                                                                                                                                                                 $0
               2002–2005a                2006                  2007                  2008                  2009                   2010                     2011             2012b




                       Security          Governance/Development              Counter-Narcotics         Humanitarian             Oversight and Operations            Total
Note: Numbers affected by rounding.
a. Bonn Process reconstruction phase. For more information on reconstruction phases, see Section 1.
b. Consolidated Appropriations Act of 2012 signed 12/23/2011; Afghanistan funding level for many accounts not yet determined.
Sources: DoD, responses to SIGAR data call, 1/17/2012, 1/13/2012, 1/4/2012, 1/2/2012, 10/14/2009, and 10/1/2009; DoS, responses to SIGAR data call, 1/10/2012, 1/9/2012, and
4/14/2011; Treasury, response to SIGAR data call, 10/13/2011; OMB, response to SIGAR data call, 7/19/2011; USAID, responses to SIGAR data call, 1/5/2012, 10/15/2010, 1/15/2010, and
10/9/2009; DoJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011; P.L. 111-212, 10/29/2010;
P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement.




              REPORT TO THE UNITED STATES CONGRESS                       I   JANUARY 30, 2012                             57
 ASFF    CERP   AIF    TFBSO DoDCN    ESF    INCLE
                                                       STATUS OF FUNDS

                DoD                  USAID DoS




                                                       AFGHANISTAN SECURITY FORCES FUND
  ASFF                                                 The Congress created the Afghanistan Security Forces Fund (ASFF) to
                                                       provide the ANSF with equipment, supplies, services, and training, as well
                                                       as facility and infrastructure repair, renovation, and construction. 62 The primary
                DoD                                    organization responsible for building the ANSF is the North Atlantic Treaty
                                                       Organization (NATO) Training Mission - Afghanistan/Combined Security Transition
                                                       Command - Afghanistan. 63
ASFF FUNDS TERMINOLOGY                                    The Consolidated Appropriations Act of 2012 provided $11.20 billion for
DoD reported ASFF funds as available,                  the ASFF, bringing the total cumulative appropriations for this fund to nearly
obligated,
       CERPor disbursed.                               $50.63 billion. 64 As of December 31, 2011, more than $35.69 billion of this amount
Available: Total monies available for                  had been obligated, of which more than $30.96 billion had been disbursed. 65
commitments                                            Figure 3.4 displays the amounts made available for the ASFF by fiscal year.
Obligations:DoD
              Commitments to pay monies                   DoD reported that cumulative obligations as of December 31, 2011, increased
Disbursements: Monies that have been                   by more than $2.35 billion over cumulative obligations as of September 30, 2011.
expended                                               Cumulative disbursements as of December 31, 2011, increased by nearly
                                                       $1.31 billion over cumulative disbursements as of September 30, 2011. 66
Source: DoD, response to SIGAR data call, 4/13/2010.
                                                       Figure 3.5 provides a cumulative comparison of amounts made available,
                          DoD CN
                                                       obligated, and disbursed for the ASFF.

                DoD

                                                       FIGURE 3.4                                              FIGURE 3.5

                                                       ASFF AVAILABLE FUNDS BY FISCAL YEAR                     ASFF FUNDS, CUMULATIVE COMPARISON
                                                       ($ BILLIONS)                                            ($ BILLIONS)
                                     ESF
                                                                                                                                                               Available
                                                                                                                                                                Available
                                                       $12.0
                                                        $12.0                                                  $50.0
                                                                                                                $50.0                                          $50.63
                                                                                                                                                                $50.63
                                     USAID

                                                       $10.0
                                                        $10.0                                                  $45.0
                                                                                                                $45.0



                                             INCLE      $8.0
                                                         $8.0                                                  $40.0
                                                                                                                $40.0              Available
                                                                                                                                    Available
                                                                                                                                   $39.45
                                                                                                                                    $39.45
                                                                                                                                                               Obligated
                                                                                                                                                                Obligated
                                                        $6.0
                                                         $6.0                                                  $35.0
                                                                                                                $35.0                                          $35.69
                                                                                                                                                                $35.69
                                             DoS                                                                                   Obligated
                                                                                                                                    Obligated
                                                                                                                                   $33.34
                                                                                                                                    $33.34
                                                                                                                                                               Disbursed
                                                                                                                                                                Disbursed
                                                        $4.0
                                                         $4.0                                                  $30.0
                                                                                                                $30.0              Disbursed
                                                                                                                                    Disbursed                  $30.96
                                                                                                                                                                $30.96
                                                                                                                                   $29.65
                                                                                                                                    $29.65
                AIF
                                                        $2.0
                                                         $2.0                                                  $25.0
                                                                                                                $25.0


                DoD
                                                          $0$0                                                   $0$0
                                                               2005 0606 0707 0808 0909 1010 1111 1212
                                                              2005                                                      AsAsofofSep
                                                                                                                                 Sep30,
                                                                                                                                     30,2011
                                                                                                                                         2011     AsAsofofDec
                                                                                                                                                           Dec31,
                                                                                                                                                               31,2011
                                                                                                                                                                   2011

                                                       Note: Numbers affected by rounding.                      Note: Numbers affected by rounding.
                                                       Sources: DoD, response to SIGAR data call, 1/13/2012;    Sources: DoD, response to SIGAR data call, 1/13/2012;
                      TFBSO                            P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011.         P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011.




                DoD
                                                           56                        SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                                                            STATUS OF FUNDS



                                                                                                                        Definition
ASFF Budget Activities
DoD allocates funds to three budget activity groups within the ASFF:                                                      Budget Activity Groups: categories within
•	 Defense Forces (Afghan National Army, ANA).                                                                            each appropriation or fund account that
•	 Interior Forces (Afghan National Police, ANP).                                                                         identify the purposes, projects, or types of
•	 Related Activities (primarily Detainee Operations).                                                                    activities financed by the appropriation or
                                                                                                                          fund
Funds for each budget activity group are further allocated to four sub-activity
groups: Infrastructure, Equipment and Transportation, Training and Operations,
                                                                                                                          Sub-Activity Groups: accounting groups
and Sustainment. 67
                                                                                                                          that break down the command’s disburse-
   As of December 31, 2011, DoD had disbursed more than $30.96 billion for                                                ments into functional areas
ANSF initiatives. Of this amount, more than $19.81 billion was disbursed for the
ANA, and more than $10.98 billion was disbursed for the ANP; the remaining
                                                                                                                        Sources: DoD, “Manual 7110.1-M Department of Defense
more than $0.16 billion was directed to related activities. 68                                                          Budget Guidance Manual,” accessed 9/28/2009;
                                                                                                                        Department of the Navy, “Medical Facility Manager
   As shown in Figure 3.6, the largest portion of the funds disbursed for the                                           Handbook,” p. 5, accessed 10/2/2009.
ANA—nearly $8.91 billion—supported Equipment and Transportation. Of the
funds disbursed for the ANP, the largest portion—nearly $3.53 billion—sup-
ported Sustainment, as shown in Figure 3.7. 69




FIGURE 3.6                                                  FIGURE 3.7

ASFF DISBURSEMENTS FOR THE ANA                              ASFF DISBURSEMENTS FOR THE ANP
BY SUB-ACTIVITY GROUP,                                      BY SUB-ACTIVITY GROUP,
FY 2005–DECEMBER 31, 2011 ($ BILLIONS)                      FY 2005–DECEMBER 31, 2011 ($ BILLIONS)


                    Total: $19.81                                              Total: $10.98

Infrastructure                               Training and   Infrastructure                               Training and
$2.78               Equipment and            Operations     $1.65             Equipment and              Operations
                    Transportation           $1.86                            Transportation             $2.32
                    $8.91                                                     $3.48



                    Sustainment                                                Sustainment
                    $6.27                                                      $3.53



Note: Numbers affected by rounding.                         Note: Numbers affected by rounding.
Source: DoD, response to SIGAR data call, 1/13/2012.        Source: DoD, response to SIGAR data call, 1/13/2012.




                 REPORT TO THE UNITED STATES CONGRESS         I   JANUARY 30, 2012                           57
                                                         STATUS OF FUNDS
  ASFF



                DoD




                                                         COMMANDER’S EMERGENCY RESPONSE PROGRAM
         CERP                                            The Commander’s Emergency Response Program (CERP) enables U.S.
                                                         commanders in Afghanistan to respond to urgent humanitarian relief and recon-
                                                         struction requirements in their areas of responsibility by supporting programs
                DoD
                                                         that will immediately assist the local population. Funding bunder
                                                                                                                     b      this program is
                                                         intended for small projects that are estimated to cost less than $500,000 each. 70
                                                         Projects with cost estimates exceeding $1.00 million are permitted, but they
CERP FUNDS TERMINOLOGY
                                                         require approval from the Commander of U.S. Central Command; projects over
OMB reported CERP funds as appropriated.                 $5.00 million require approval from the Deputy Secretary of Defense. CERP-
Appropriations: TotalDoD CN
                      monies available for               funded projects may not exceed $20.00 million. 71
commitments                                                 As of December 31, 2011, DoD reported that the total cumulative funding
DoD reportedDoDCERP funds as appropriated,               for CERP amounted to nearly $3.44 billion. 72 DoD reported that of this amount,
obligated, or disbursed.                                 nearly $2.20 billion had been obligated, of which nearly $1.94 billion had been
Appropriations: Total monies available for               disbursed. 73 Figure 3.8 shows CERP appropriations by fiscal year.
commitments                                                 DoD reported that cumulative obligations as of December 31, 2011, decreased
Obligations: Commitments to pay monies                   by nearly $1.39 million over cumulative obligations as of September 30, 2011.
                             ESF been
Disbursements: Monies that have                          Cumulative disbursements as of December 31, 2011, increased by more than
expended                                                 $80.01 million over cumulative disbursements as of September 30, 2011. 74
                                                         Figure 3.9 provides a cumulative comparison of amounts appropriated, obli-
Sources: OMB, response to SIGAR dataUSAID
                                      call, 4/19/2010;
DoD, response to SIGAR data call, 4/14/2010.             gated, and disbursed for CERP projects.


                                                         FIGURE 3.8                                                      FIGURE 3.9

                                           INCLE         CERP APPROPRIATIONS BY FISCAL YEAR                              CERP FUNDS, CUMULATIVE COMPARISON
                                                         ($ MILLIONS)                                                   ($ BILLIONS)



                                            DoS
                                                         $1,000
                                                          $1,000                                                        $3.5
                                                                                                                         $3.5                                           Appropriated
                                                                                                                                                                         Appropriated
                                                                                                                                                                        $3.44
                                                                                                                                                                         $3.44
                                                                                                                                            Appropriated
                                                                                                                                             Appropriated
                                                                                                                        $3.0
                                                                                                                         $3.0
                                                          $800
                                                           $800                                                                             $3.04
                                                                                                                                             $3.04
                AIF
                                                                                                                        $2.5
                                                                                                                         $2.5
                                                                                                                                            Obligated
                                                                                                                                             Obligated                  Obligated
                                                                                                                                                                         Obligated
                                                          $600
                                                           $600                                                                             $2.20
                                                                                                                                             $2.20                      $2.20
                                                                                                                                                                         $2.20
                                                                                                                        $2.0
                                                                                                                         $2.0
                DoD                                                                                                                         Disbursed
                                                                                                                                             Disbursed                  Disbursed
                                                                                                                                                                         Disbursed
                                                                                                                        $1.5
                                                                                                                         $1.5               $1.86
                                                                                                                                             $1.86                      $1.94
                                                                                                                                                                         $1.94
                                                          $400
                                                           $400

                                                                                                                         $1.0
                                                                                                                        $1.0
                      TFBSO                               $200
                                                           $200
                                                                                                                         $0.5
                                                                                                                        $0.5


                DoD                                         $0
                                                             $0                                                          $0
                                                                                                                          $0
                                                                   2004
                                                                    200405
                                                                         05 06
                                                                             06 07
                                                                                 07 08
                                                                                     08 09
                                                                                         09 10
                                                                                             10 11
                                                                                                 11 12
                                                                                                     12                          As
                                                                                                                                  AsofofSep
                                                                                                                                         Sep30,
                                                                                                                                             30,2011
                                                                                                                                                 2011       As
                                                                                                                                                             AsofofDec
                                                                                                                                                                    Dec31,
                                                                                                                                                                        31,2011
                                                                                                                                                                            2011

                                                         Notes: Numbers affected by rounding. Data may include inter-    Notes: Numbers affected by rounding. Data may include inter-
                                                         agency transfers.                                               agency transfers.
                                                         Sources: DoD, response to SIGAR data call, 1/17/2012;           Sources: DoD, responses to SIGAR data call, 1/17/2012 and
                                                         P.L. 112-74, 12/23/2011; OMB, response to SIGAR data call,      10/20/2011; P.L. 112-74, 12/23/2011; OMB, response to
                                                         7/19/2011; P.L. 112-10, 4/15/2011.                              SIGAR data call, 7/19/2011; P.L. 112-10, 4/15/2011.




                                                             56                         SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
                                                                                                                                                                     USAID

                                                                STATUS OF FUNDS
                                                                                                                                                                              INCLE



                                                                                                                                                                               DoS



AFGHANISTAN INFRASTRUCTURE FUND
The Ike Skelton National Defense Authorization Act for FY 2011 established                                                                        AIF
the Afghanistan Infrastructure Fund (AIF) to pay for high-priority, large-scale
infrastructure projects that support the U.S. civilian-military effort. Thirty days
                                                                                                                                                 DoD
before obligating or expending funds on an AIF project, the  b Secretary of Defense

is required to notify the Congress with details of the proposed project, including
a plan for its sustainment and a description of how it supports the counter-                                                      AIF FUNDS TERMINOLOGY
insurgency strategy in Afghanistan. 75
    The Consolidated Appropriations Act of 2012 appropriated $400.00 million                                                      DoD reported AIFTFBSO
                                                                                                                                                    funds as appropriated,
for the AIF, bringing the total cumulative appropriations for this fund to                                                        obligated, or disbursed.
$800.00 million. DoD reported that as of December 31, 2011, more than                                                             Appropriations: Total monies available for
                                                                                                                                  commitments  DoD
$224.65 million of this amount had been obligated, of which nearly $10.05 million
had been disbursed. 76 Figure 3.10 shows AIF appropriations by fiscal year.                                                       Obligations: Commitments to pay monies
                                                                                                                                  Disbursements: Monies that have been
    DoD reported that cumulative obligations as of December 31, 2011, increased
                                                                                                                                  expended
by more than $8.85 million over cumulative obligations as of September 30, 2011.
Cumulative disbursements as of December 31, 2011, increased by nearly
                                                                                                                                  Source: DoD, response to SIGAR data call, 4/13/2010.
$6.97 million over cumulative disbursements as of September 30, 2011. 77
Figure 3.11 provides a cumulative comparison of amounts appropriated,
obligated, and disbursed for AIF projects.



FIGURE 3.10                                                    FIGURE 3.11

AIF APPROPRIATIONS BY FISCAL YEAR
($ MILLIONS)
                                                               AIF FUNDS, CUMULATIVE COMPARISON
                                                               ($ MILLIONS)
                                                                                                                                      SIGAR AUDIT
                                                                                                                                      In an ongoing audit, SIGAR is focusing
$800                                                            $800                                               Appropriated       on selection, inter-agency coordination,
                                                                                                                   $800.00            and sustainability of projects in the
                                                                                                                                      Afghanistan Infrastructure Program
                                                                                                                                      (AIP), which is supported by the AIF.
$600                                                            $600
                                                                                                                                      For more information, see Section 2,
                                                                                                                                      page 37.

$400                                                            $400                  Appropriated
                                                                                      $400.00


                                                                                      Obligated                   Obligated
$200                                                            $200                  $215.80                     $224.65


                                                                                      Disbursed                   Disbursed
                                                                                      $3.08                       $10.05
   $0                                                             $0
           2011                               2012                         As of Sep 30, 2011        As of Dec 31, 2011

Notes: Numbers affected by rounding. Data may include inter-      Notes: Numbers affected by rounding. Data may include inter-
agency transfers.                                                 agency transfers.
Sources: P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011.         Sources: DoD, responses to SIGAR data call, 1/17/2012
                                                                  and 10/20/2011; P.L. 112-74, 12/23/2011; P.L. 112-10,
                                                                  4/15/2011.




               REPORT TO THE UNITED STATES CONGRESS                    I   JANUARY 30, 2012                            57
                                            DoS

                                                       STATUS OF FUNDS
               AIF



              DoD



                                                       TASK FORCE FOR BUSINESS AND STABILITY OPERATIONS
                     TFBSO                             The Task Force for Business and Stability Operations (TFBSO) was established
                                                       in June 2006 and operated for several years in Iraq. In 2010, the TFBSO began
                                                       operations in Afghanistan aimed at stabilizing the country and countering
              DoD                                      economically motivated violence by decreasing unemployment  bb    and creating eco-
                                                       nomic opportunities for Afghans. TFBSO projects include activities that facilitate
TFBSO FUNDS TERMINOLOGY                                private investment, industrial development, banking and financial system devel-
                                                       opment, agricultural diversification and revitalization, and energy development. 78
DoD reported TFBSO funds as appropriated,                 For FY 2012, the TFBSO received funding of $199.16 million, bringing the
obligated, or disbursed.                               total cumulative funding for the task force to nearly $512.66 million. 79 As of
Appropriations: Total monies available for             December 31, 2011, more than $321.90 million of this amount had been obligated,
commitments                                            of which nearly $136.91 million had been disbursed. 80 Figure 3.12 displays the
Obligations: Commitments to pay monies
                                                       amounts appropriated for TFBSO projects by fiscal year.
Disbursements: Monies that have been
expended                                                  DoD reported that cumulative obligations as of December 31, 2011, increased
                                                       by more than $30.83 million over cumulative obligations as of September 30,
Source: DoD, response to SIGAR data call, 4/13/2010.
                                                       2011. Cumulative disbursements as of December 31, 2011, increased by more
                                                       than $23.21 million over cumulative disbursements as of September 30, 2011. 81
                                                       Figure 3.13 provides a cumulative comparison of amounts appropriated, obli-
                                                       gated, and disbursed for TFBSO projects.



                                                       FIGURE 3.12                                                    FIGURE 3.13


                                                       TFBSO APPROPRIATIONS BY FISCAL YEAR                            TFBSO FUNDS, CUMULATIVE COMPARISON
                                                       ($ MILLIONS)                                                   ($ MILLIONS)



                                                                                                                                                                       Appropriated
                                                                                                                                                                        Appropriated
                                                        $250
                                                         $250                                                         $500
                                                                                                                      $500                                             $512.66
                                                                                                                                                                        $512.66


                                                        $200
                                                         $200                                                         $400
                                                                                                                      $400

                                                                                                                                           Appropriated
                                                                                                                                            Appropriated               Obligated
                                                                                                                                                                       Obligated
                                                        $150
                                                         $150                                                         $300
                                                                                                                      $300                 $313.50
                                                                                                                                            $313.50                    $321.90
                                                                                                                                                                       $321.90
                                                                                                                                           Obligated
                                                                                                                                           Obligated
                                                                                                                                           $291.07
                                                                                                                                           $291.07
                                                        $100
                                                         $100                                                         $200
                                                                                                                      $200

                                                                                                                                                                       Disbursed
                                                                                                                                                                       Disbursed
                                                                                                                                           Disbursed
                                                                                                                                           Disbursed                   $136.91
                                                                                                                                                                       $136.91
                                                         $50
                                                          $50                                                         $100
                                                                                                                      $100
                                                                                                                                           $113.69
                                                                                                                                           $113.69


                                                           $0
                                                           $0                                                           $0
                                                                                                                        $0
                                                                2009
                                                                2009          2010
                                                                              2010          2011
                                                                                            2011          2012
                                                                                                          2012                 As
                                                                                                                                AsofofSep
                                                                                                                                      Sep30, 20111
                                                                                                                                          30,201           As
                                                                                                                                                            AsofofDec
                                                                                                                                                                  Dec31, 20111
                                                                                                                                                                      31,201

                                                       Notes: Numbers affected by rounding. Data may include inter-   Notes: Numbers affected by rounding. Data may include
                                                       agency transfers.                                              inter-agency transfers.
                                                       Sources: DoD, response to SIGAR data call, 1/2/2012;          Sources: DoD, responses to SIGAR data call, 1/2/2012 and
                                                       P.L. 112-74, 12/23/2011; OMB, response to SIGAR data call,     10/3/2011; P.L. 112-74, 12/23/2011; OMB, response to
                                                       7/19/2011; P.L. 112-10, 4/15/2011.                             SIGAR data call, 7/19/2011; P.L. 112-10, 4/15/2011.




                                                           56                         SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
                                                        STATUS OF FUNDS
                                                                                                                              CERP



                                                                                                                                     DoD




DoD DRUG INTERDICTION AND COUNTER-DRUG ACTIVITIES
DoD’s Drug Interdiction and Counter-Drug Activities fund (DoD CN) supports                                                                    DoD CN
efforts to stabilize Afghanistan by combating the drug trade and related activi-
ties. DoD uses the DoD CN to provide assistance to the counter-narcotics effort
by supporting military operations against drug traffickers; expanding Afghan                                                         DoD
interdiction operations; and building the capacity of Afghan law enforcement
bodies—including the Afghan Border Police—with specialized training, equip-                                           DoD CN FUNDS TERMINOLOGY
ment, and facilities. 82
   Figure 3.14 shows DoD CN appropriations by fiscal year. DoD reported cumu-                                         DoD reported DoD CN funds as appropri-
                                                                                                                                                     ESF
lative appropriations, obligations, and disbursements as of December 30, 2011.                                        ated, obligated, or disbursed.
These amounts increased by nearly $392.55 million over cumulative appropria-                                          Appropriations: Total monies available for
tions, obligations, and disbursements as of September 30, 2011, bringing total                                        commitments                  USAID
                                                                                                                      Obligations: Commitments to pay monies
cumulative appropriations, obligations, and disbursements for this fund to more
                                                                                                                      Disbursements: Monies that have been
than $2.28 billion. 83 Figure 3.15 provides a cumulative comparison of amounts
                                                                                                                      expended
appropriated, obligated, and disbursed for DoD CN projects.
                                                                                                                                                                   INCLE
                                                                                                                      Source: DoD, response to SIGAR data call, 4/13/2010.




                                                                                                                                                                  DoS




FIGURE 3.14                                             FIGURE 3.15
                                                                                                                                     AIF
DoD CN APPROPRIATIONS BY                                DoD CN FUNDS,
FISCAL YEAR ($ MILLIONS)                                CUMULATIVE COMPARISON ($ BILLIONS)
                                                                                                                                     DoD

$400                                                    $2.3                                           Appropriated
$400                                                    $2.3                                           Appropriated
                                                                                                       $2.28
                                                        $2.2                                           $2.28
$350                                                    $2.2                                           Obligated
$350                                                                                                   Obligated
                                                                                                       $2.28                               TFBSO
                                                        $2.1                                           $2.28
                                                        $2.1                                           Disbursed
$300                                                                                                   Disbursed
$300                                                    $2.0                                           $2.28
                                                        $2.0                                           $2.28
$250                                                                         Appropriated                                            DoD
$250                                                    $1.9                 Appropriated
                                                        $1.9                 $1.89
                                                                             $1.89
$200                                                    $1.8                 Obligated
$200                                                    $1.8                 Obligated
                                                                             $1.89
                                                        $1.7                 $1.89
                                                        $1.7                 Disbursed
$150                                                                         Disbursed
$150                                                                         $1.89
                                                        $1.6                 $1.89
                                                        $1.6
$100
$100
                                                        $1.5
                                                        $1.5
 $50
 $50

  $0                                                     $0
  $0                                                     $0
       2004 05 06 07 08 09 10 11 12                                As of Sep 30, 2011       As of Dec 31, 2011
       2004 05 06 07 08 09 10 11 12                                As of Sep 30, 2011       As of Dec 31, 2011

Notes: Numbers affected by rounding. Data may include   Note: Numbers affected by rounding.
inter-agency transfers.                                 Source: DoD, responses to SIGAR data call, 1/4/2012 and
Source: DoD, response to SIGAR data call, 1/4/2012.     10/4/2011.




             REPORT TO THE UNITED STATES CONGRESS              I   JANUARY 30, 2012                         57
              DoD




                                                        STATUS OF FUNDS
                        DoD CN



              DoD




                                                        ECONOMIC SUPPORT FUND
                                    ESF                 Economic Support Fund (ESF) programs advance U.S. interests by helping
                                                        countries meet short- and long-term political, economic, and security needs. ESF
                                                        programs support counter-terrorism; bolster national economies; and assist in
                                   USAID                the development of effective, accessible, independent legal systems for a more
                                                        transparent and accountable government. 84
ESF FUNDS TERMINOLOGY
                                                           Although the Consolidated Appropriations Act of 2012 appropriated FY 2012
                                                        funds for the ESF, the amount allocated for reconstruction in Afghanistan had
USAID reported ESF funds as appropriated,
                                   INCLE                not been determined at press time. As of December 31, 2011, USAID reported
obligated, or disbursed.                                that the total cumulative funding for the ESF amounted to nearly $13.02 billion.
Appropriations: Total monies available                  Of this amount, nearly $10.66 billion had been obligated, of which nearly
for commitments                     DoS                 $8.54 billion had been disbursed. 85 Figure 3.16 shows ESF appropriations by
Obligations: Commitments to pay monies                  fiscal year.
Disbursements: Monies that have been                       USAID reported that cumulative obligations as of December 31, 2011,
expended                                                decreased by more than $8.85 million over cumulative obligations as of
               AIF
Sources: OMB, response to SIGAR data call, 4/19/2010;
                                                        September 30, 2011. Cumulative disbursements as of December 31, 2011,
USAID, response to SIGAR data call, 4/15/2010.          increased by more than $355.92 million over cumulative disbursements as of
              DoD                                       September 30, 2011. 86 Figure 3.17 provides a cumulative comparison of the
                                                        amounts appropriated, obligated, and disbursed for ESF programs.

                                                        FIGURE 3.16                                                 FIGURE 3.17
                     TFBSO
                                                        ESF APPROPRIATIONS BY FISCAL YEAR                           ESF FUNDS, CUMULATIVE COMPARISON
                                                        ($ BILLIONS)                                                ($ BILLIONS)


              DoD
                                                                                                                    $13.0
                                                                                                                    $13.0                Appropriated
                                                                                                                                         Appropriated                 Appropriated
                                                                                                                                                                      Appropriated
                                                        $3.5
                                                        $3.5
                                                                                                                                         $13.02
                                                                                                                                         $13.02                       $13.02
                                                                                                                                                                      $13.02

                                                        $3.0
                                                        $3.0                                                        $12.0
                                                                                                                    $12.0


                                                                                                                    $11.0
                                                                                                                    $11.0
                                                        $2.5
                                                        $2.5                                                                             Obligated
                                                                                                                                         Obligated                    Obligated
                                                                                                                                                                      Obligated
                                                                                                                                         $10.67
                                                                                                                                         $10.67                       $10.66
                                                                                                                                                                      $10.66
                                                                                                                    $10.0
                                                                                                                    $10.0
                                                        $2.0
                                                        $2.0

                                                                                                                     $9.0
                                                                                                                     $9.0
                                                        $1.5
                                                        $1.5                                                                                                          Disbursed
                                                                                                                                                                      Disbursed
                                                                                                                                        Disbursed
                                                                                                                                        Disbursed                     $8.54
                                                                                                                                                                      $8.54
                                                                                                                     $8.0
                                                                                                                     $8.0               $8.18
                                                                                                                                        $8.18
                                                        $1.0
                                                        $1.0
                                                                                                                     $7.0
                                                                                                                     $7.0
                                                        $0.5
                                                        $0.5


                                                          $0
                                                          $0                                                           $0
                                                                                                                       $0
                                                               2002
                                                               2002 03
                                                                    03 04
                                                                       04 05
                                                                          05 06
                                                                             06 07
                                                                                07 08
                                                                                   08 09
                                                                                      09 10 11aa
                                                                                         10 11                               As
                                                                                                                             As of
                                                                                                                                of Sep
                                                                                                                                   Sep 30,
                                                                                                                                       30, 2011
                                                                                                                                           2011           As
                                                                                                                                                          As of
                                                                                                                                                             of Dec
                                                                                                                                                                Dec 31, 2011aa
                                                                                                                                                                    31, 2011

                                                        Notes: Numbers affected by rounding. Data may include         Notes: Numbers affected by rounding. Data may include inter-
                                                        inter-agency transfers.                                       agency transfers. Updated data resulted in a lower obligation
                                                        a. Consolidated Appropriations Act of 2012 signed             figure than reported last quarter.
                                                        12/23/2011; Afghanistan FY 2012 funding level for ESF not     a. Consolidated Appropriations Act of 2012 signed 12/23/2011;
                                                        yet determined.                                               Afghanistan FY 2012 funding level for ESF not yet determined.
                                                        Sources: USAID, response to SIGAR data call, 1/5/2012;        Sources: USAID, responses to SIGAR data call, 1/5/2012 and
                                                        OMB, response to SIGAR data call, 7/19/2011                   10/3/2011; OMB, response to SIGAR data call, 7/19/2011.




                                                            56                        SPECIAL INSPECTOR GENERAL               I    AFGHANISTAN RECONSTRUCTION
                                                                                                                                                   DoD



                                                                  STATUS OF FUNDS
                                                                                                                                                                        ESF



                                                                                                                                                                       USAID




INTERNATIONAL NARCOTICS CONTROL AND LAW
ENFORCEMENT                                                                                                                                                                     INCLE
The U.S. Bureau of International Narcotics and Law Enforcement Affairs (INL)
manages an account for advancing rule of law and combating narcotics produc-
                                                                                                                                                                                DoS
tion and trafficking—the International Narcotics Control and Law Enforcement
(INCLE) account. INCLE supports several INL program groups, including police,
counter-narcotics, and rule of law and justice. 87                                                                                  INL FUNDS TERMINOLOGY
   Although the Consolidated Appropriations Act of 2012 appropriated FY 2012                                                                        AIF
funds for the INCLE account, the amount allocated for reconstruction in Afghanistan                                                 INL reported INCLE and other INL funds as
had not been determined at press time. As of December 31, 2011, DoS reported that                                                   allotted, obligated, or liquidated.
the total cumulative funding for INCLE amounted to nearly $3.26 billion. Figure 3.18                                                Allotments: Total
                                                                                                                                                 DoD monies available
displays INCLE allotments by fiscal year. Of this amount, nearly $2.85 billion had                                                  for commitments
been obligated, of which more than $2.07 billion had been liquidated. 88                                                            Obligations: Commitments to pay monies
   INL reported that cumulative obligations as of December 31, 2011, increased                                                      Liquidations: Monies that have been ex-
by nearly $8.17 million over cumulative obligations as of September 30, 2011.                                                       pended           TFBSO
Cumulative liquidations as of December 31, 2011, increased by nearly                                                                Source: DoS, response to SIGAR data call, 4/9/2010.
$109.76 million over cumulative liquidations as of September 30, 2011. 89
                                                                                                                                                  DoD
Figure 3.19 provides a cumulative comparison of amounts allotted, obligated,
and liquidated for INCLE.


FIGURE 3.18                                                    FIGURE 3.19


INCLE ALLOTMENTS BY FISCAL YEAR                                INCLE FUNDS, CUMULATIVE COMPARISON
($ MILLIONS)                                                   ($ BILLIONS)



$700                                                           $3.5
                                                                                        Allotted                     Allotted
                                                                                        $3.25                        $3.26
$600
                                                               $3.0
                                                                                        Obligated                    Obligated
$500                                                                                    $2.84                        $2.85
                                                                                                                     Liquidated
                                                               $2.5                                                  $2.07
$400


$300                                                           $2.0                     Liquidated
                                                                                        $1.96
$200
                                                               $1.5
$100


  $0                                                             $0
       2002 03 04 05 06 07 08 09 10 11a                                     As of Sep 30, 2011         As of Dec 31, 2011a

Notes: Numbers affected by rounding. Data may include          Notes: Numbers affected by rounding. Data may include inter-agency
inter-agency transfers. Updated data resulted in a higher      transfers.
appropriation figure for FY 2005 than reported last quarter.   a. Consolidated Appropriations Act of 2012 signed 12/23/2011;
a. Consolidated Appropriations Act of 2012 signed              Afghanistan funding level for INCLE not yet determined.
12/23/2011; Afghanistan funding level for INCLE not yet        Sources: DoS, responses to SIGAR data call, 1/10/2012 and
determined.                                                    10/13/2011.
Source: DoS, response to SIGAR data call, 1/10/2012.




               REPORT TO THE UNITED STATES CONGRESS                     I   JANUARY 30, 2012                            57
                                                        STATUS OF FUNDS




                                                        INTERNATIONAL RECONSTRUCTION FUNDING FOR
                                                        AFGHANISTAN
                                                        In addition to assistance provided by the United States, the international commu-
                                                        nity provides a significant amount of funding to support Afghanistan relief and
                                                        reconstruction efforts. As noted in previous SIGAR quarterly reports, most of the
                                                        international funding provided is administered through trust funds. Contributions
                                                        provided through trust funds are pooled and then distributed for reconstruction
                                                        activities. The two main trust funds are the Afghanistan Reconstruction Trust
                                                        Fund (ARTF) and the Law and Order Trust Fund for Afghanistan (LOTFA). 90

                                                        Contributions to the Afghanistan Reconstruction Trust Fund
                                                        The largest share of international contributions to the Afghan operational and
                                                        development budgets comes through the ARTF. From 2002 to December 21,
                                                        2011, the World Bank reported that 33 donors had pledged more than $5.15 bil-
                                                        lion, of which nearly $4.56 billion had been paid in. 91 The United States and the
FIGURE 3.20                                             United Kingdom are the two biggest donors to the ARTF, together contributing
                                                        nearly 43% of total ARTF funding, as shown in Figure 3.20. According to the
ARTF CONTRIBUTIONS PAID IN BY                           World Bank, donors have pledged $913.67 million to the ARTF for the current
DONORS SINCE SY 1381,                                   Afghan fiscal year—solar year 1390—which runs from March 21, 2011, to March 20,
AS OF DECEMBER 21, 2011 (PERCENT)                       2012. 92 Figure 3.21 shows the 12 largest donors to the ARTF for SY 1390.
                                                           Contributions to the ARTF are divided into two funding channels—the
                Total Paid In: $4.6 billion             Recurrent Cost (RC) Window and the Investment Window. 93 As of December
                                                        21, 2011, according to the World Bank, nearly $2.30 billion of ARTF funds had
                      United States                     been disbursed to the Afghan government through the RC Window to assist with
                      24%                               recurrent costs such as salaries of civil servants. 94 The RC Window supports the
                                   United               operating costs of the Afghan government because the government’s domestic
                                   Kingdom
                Others             19%                  revenues continue to be insufficient to support its recurring costs. To ensure
                28%
                                  Canada                that the RC Window receives sufficient funding, donors to the ARTF may not
                                  12%                   “preference” (earmark) more than half of their annual contributions for desired
                                                        projects. 95
       Netherlands                     EC/EU               The Investment Window supports the costs of development programs. As of
       9%                              8%               December 21, 2011, according to the World Bank, more than $1.98 billion had
                                                        been committed for projects funded through the Investment Window, of which
Notes: Numbers affected by rounding. SY = solar year.
SY 1381 = 3/21/2002–3/20/2003. “Others” includes       more than $1.50 billion had been disbursed. The World Bank reported 20 active
 28 donors.
Source: World Bank, “ARTF: Administrator’s Report on
                                                        projects with a combined commitment value of $981.55 million, of which approx-
Financial Status as of December 21, 2011,” p. 5.        imately $497.40 million had been disbursed. 96

                                                        Contributions to the Law and Order Trust Fund for Afghanistan
                                                        The United Nations Development Programme administers the LOTFA to pay
                                                        ANP salaries and build the capacity of the Ministry of Interior. 97 Since 2002,
                                                        donors had pledged nearly $2.13 billion to the LOTFA, of which more than
                                                        $2.12 billion had been paid in as of September 30, 2011, according to the most
                                                        recent data available. 98




                                                          56               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                     STATUS OF FUNDS




FIGURE 3.21


ARTF CONTRIBUTIONS FOR SY 1390 BY DONOR, AS OF DECEMBER 21, 2011 ($ MILLIONS)

                                               Total Commitments: $914           Total Paid In: $317


    United States                                                              100                                    400
 United Kingdom 0                                                                                       133
         Germany 0                                                    79
          Canada                  24                  49
           Norway                                49 49
           EC/EU         9                       42
         Australia                          37 37
     Netherlands                        33 33
          Sweden                       29 29
            Japan             20 20
              Italy 3        11
         Denmark 0           10
           Others        14            23
                     0                              50                           100                          150   400

                                                           Paid In             Commitments


Notes: Numbers affected by rounding. SY = solar year. SY 1390 = 3/21/2011–3/20/2012.
Source: World Bank, “ARTF: Administrator’s Report on Financial Status as of December 21, 2011,” p. 1.



   The LOTFA’s sixth support phase started on January 1, 2011, and will run                                                 FIGURE 3.22

through March 31, 2013. In Phase VI, the LOTFA has transferred more than
                                                                                                                            DONORS’ CONTRIBUTIONS TO THE LOTFA SINCE
$356.35 million to the Afghan government to cover ANP salaries, nearly                                                      2002, AS OF SEPTEMBER 30, 2011 (PERCENT)
$11.60 million for Central Prisons Department staff remunerations, and an addi-
tional $6.67 million for capacity development and other LOTFA initiatives for
the first nine months of 2011. 99 As of September 30, 2011, donors had committed
more than $598.35 million to the LOTFA for Phase VI. Of that amount, the United                                                             United States
States had committed more than $257.07 million, and Japan had committed                                                                     38%                 Japan
                                                                                                                                                                27%
$240.00 million. Their combined commitments make up more than 83% of LOTFA
Phase VI commitments as of September 30, 2011. 100 The United States had con-                                                                Others
tributed nearly $812.74 million to the LOTFA since the fund’s inception. 101                                                                 13%         EC/EU
                                                                                                                                                         18%
Figure 3.22 shows the four largest donors to the LOTFA since 2002.
                                                                                                                                                         Canada
                                                                                                                                                         4%
                                                                                                                            Notes: Numbers affected by rounding. EC/EU = European
                                                                                                                            Commission/European Union.
                                                                                                                            Source: UNDP, “LOTFA Phase VI Quarterly Progress Report
                                                                                                                            Q3/2011,” 10/27/2011; SIGAR analysis of UNDP’s quarterly
                                                                                                                            and annual LOTFA reports, 1/20/2012.




              REPORT TO THE UNITED STATES CONGRESS                         I   JANUARY 30, 2012                     57
                                                             ENDNOTES




62. 	 P.L. 111-32, Supplemental Appropriations Act 2009, 6/24/2009.

63. 	 DoD, response to SIGAR vetting, 7/20/2009.

64. 	 See Appendix B of this report.

65. 	 DoD, response to SIGAR data call, 1/13/2012.

66. 	 DoD, responses to SIGAR data call, 1/13/2012 and 10/17/2011.

67. 	 DoD OIG, “Distribution of Funds and the Validity of Obligations for the Management of the Afghanistan Security Forces Fund - Phase I,”
      11/5/2007, p. 2.

68. 	 DoD, response to SIGAR data call, 1/13/2012.

69. 	 DoD, response to SIGAR data call, 1/13/2012.

70. 	 DoD, Financial Management Regulation, “Commander’s Emergency Response Program: Vol. 12, Ch. 27,” 1/2009, p. 27-3.

71. 	 DoD, response to SIGAR vetting, 4/21/2010; P.L. 112-74, 12/23/2011.

72. 	 See Appendix B of this report.

73. 	 DoD, response to SIGAR data call, 1/17/2012.

74. 	 DoD, responses to SIGAR data call, 1/17/2012 and 10/20/2011.

75. 	 U.S. Senate Committee on Armed Services, press release, “Senate Passes Ike Skelton National Defense Authorization Act for Fiscal Year 2011,”
      12/22/2010.

76. 	 DoD, response to SIGAR data call, 1/17/2012; P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011.

77. 	 DoD, responses to SIGAR data call, 1/17/2012 and 10/20/2011.

78. 	 TFBSO, “About TFBSO,” accessed 10/20/2011; DoD, response to SIGAR data call, 7/22/2011.

79. 	 See Appendix B of this report.

80. 	 DoD, response to SIGAR data call, 1/2/2012.

81. 	 DoD, responses to SIGAR data call, 1/2/2012 and 10/17/2011.

82. 	 DoD, “Drug Interdiction and Counter-Drug Activities, Defense FY 2009 Supplemental Request Drug Interdiction and Counterdrug Activities,”
      accessed 4/13/2010.

83. 	 DoD, responses to SIGAR data call, 1/4/2012 and 10/4/2011.

84. 	 OMB, response to SIGAR vetting, 7/16/2009.

85. 	 USAID, response to SIGAR data call, 10/3/2011.

86. 	 USAID, responses to SIGAR data call, 10/3/2011 and 7/13/2011.

87. 	 DoS, response to SIGAR data call, 10/13/2009.

88. 	 DoS, response to SIGAR data call, 1/10/2012.

89. 	 DoS, responses to SIGAR data call, 1/10/2012 and 10/13/2011.

90. 	 SIGAR, “Quarterly Report to the U.S. Congress,” 7/30/2010, p. 51.

91. 	 World Bank, “ARTF: Administrator’s Report on Financial Status as of December 21, 2011,” p. 5.

92. 	 World Bank, “ARTF: Administrator’s Report on Financial Status as of December 21, 2011,” p. 1.

93. 	 World Bank, “Quarterly Country Update: Afghanistan,” 4/2011, p. 16.

94. 	 World Bank, “ARTF: Administrator’s Report on Financial Status as of December 21, 2011,” p. 7.




                                                       68                   SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                              ENDNOTES




95. 	 World Bank, “Quarterly Country Update: Afghanistan,” 4/2011, p. 16.

96. 	 World Bank, “ARTF: Administrator’s Report on Financial Status as of December 21, 2011,” p. 7.

97. 	 EC, “Afghanistan: State of Play, January 2011,” 3/31/2011, p. 7.

98. 	 UNDP, “LOTFA Phase VI Quarterly Progress Report Q3/2011,” Table 1, 10/27/2011; SIGAR analysis of UNDP’s quarterly and annual LOTFA
      reports, 1/20/2012.

99. 	 UNDP, “LOTFA Phase VI Quarterly Progress Report Q3/2011,” Table 2, 10/27/2011.

100. 	 UNDP, “LOTFA Phase VI Quarterly Progress Report Q2/2011,” p. 1, accessed 6/22/2011.

101. 	 UNDP, “LOTFA Phase VI Quarterly Progress Report Q3/2011,” Table 1, 10/27/2011; SIGAR analysis of UNDP’s quarterly and annual LOTFA
       reports, 1/20/2012.




        REPORT TO THE UNITED STATES CONGRESS            I   JANUARY 30, 2011              69
                                                                SECURITY




SECURITY
As of December 31, 2011, the U.S. Congress had appropriated more than
$52.1 billion to support the Afghan National Security Forces (ANSF). Most of
these funds ($50.6 billion) were appropriated through the Afghanistan Security
Forces Fund (ASFF)—including $11.2 billion appropriated for FY 2012 and
signed into law on December 23, 2011. 102 ASFF funds are provided through
the Combined Security Transition Command - Afghanistan (CSTC-A) to build,
equip, train, and sustain the ANSF—the Afghan National Army (ANA) and the
Afghan National Police (ANP). Of the $50.6 billion appropriated for the ASFF,
approximately $35.7 billion had been obligated and $31.0 billion disbursed as of
December 31, 2011. 103
   This section discusses assessments of the ANSF and the ministries of Defense
and Interior. It provides an overview of U.S. funds used to build, equip, train, and
sustain the ANSF and an update on efforts to combat the cultivation and trade
of illicit narcotics in Afghanistan. In addition, this section examines progress on
security-related reconstruction issues during the 10 years since the start of U.S.
operations in Afghanistan.
                                                                                                     RECONS
10 YEARS OF RECONSTRUCTION                                                                        OF
                                                                                                          TR
                                                                                          YEARS




During the Bonn Process, the Afghan government and the international com-
                                                                                                            UCTION

munity had relatively modest targets for force strength: 70,000 for the ANA and
63,000 for the ANP. In response to deteriorating security, the Afghan govern-
                                                                                       10




ment and the international community steadily increased end-strength targets,
                                                                                            20
                                                                                                   0 1 –2011
                                                                                                          •
                                                                                          •




more than doubling the size of the ANSF—from 132,000 to 305,000—during the
Reconstruction Surge. In recent years, the United States also increased its focus
on building the capacity of the ministries of Defense and Interior to support and
sustain these forces. In October 2011, the North Atlantic Treaty Organization
(NATO) Training Mission - Afghanistan (NTM-A) noted that despite “extraordi-
nary success in equipping [and] training the ANSF,” continued high attrition rates
in the ANA threaten long-term sustainability and require an Afghan-generated
solution. 104 As the international community began to transition responsibility for
security to the ANSF, it set a new end-strength goal of 352,000—195,000 for the
ANA and 157,000 for the ANP.



         REPORT TO THE UNITED STATES CONGRESS |   JANUARY 30, 2012            71
SECURITY




KEY EVENTS THIS QUARTER
On November 25–26, 2011, U.S. and Pakistani military forces fired at each other
across the Afghanistan border, resulting in the deaths of 24 Pakistani soldiers.
In response to the incident, Pakistan closed two routes that NATO used to move
supplies through Pakistan to troops in Afghanistan. 105
   On December 22, 2011, the Department of Defense (DoD) released the find-
ings of its investigation into the incident and shared the report with the Pakistani
and Afghan governments, and NATO leaders. Although DoD found that U.S.
forces acted in self-defense and appropriately, it also found that inadequate coor-
dination by U.S. and Pakistani officers resulted in a misunderstanding about the
location of Pakistani units. Other gaps in information about unit activities and
placement on both sides also contributed to the tragedy. 106

ANSF ASSESSMENT
This quarter, the operational effectiveness of the ANA continued to improve,
according to the International Security Assistance Force (ISAF) Joint Command
(IJC). This assessment was based on a December 2011 Commander’s Unit
Assessment Tool (CUAT) report, which rated 214 units of the ANA’s six corps,
the Special Operations Force, the 111th Capital Division, and the Headquarters
Security and Support Brigade. The total number of units reported was 216—an
increase of 55 since the August 2011 CUAT report. The report also stated that
within the highest rating categories, 7 units were rated “independent with advi-
sors” (compared with 1 unit in the August report), 85 units were rated “effective
with advisors” (compared with 56 units), and 89 units were rated “effective with
partners” (compared with 58 units). 107 Nearly half of the units rated “indepen-
dent” were in the 205th Corps, as shown in Figure 3.23.
   The operational effectiveness of the ANP also continued to improve this quar-
ter. Within the three main ANP components—the Afghan Uniform Police (AUP),
the Afghan Border Police (ABP), and the Afghan National Civil Order Police
(ANCOP)—29 units received the “independent with advisors” rating, according
to IJC. Last quarter, no units received that rating. 108 The number of ANP units
also increased this quarter, as shown in Table 3.1.


CUAT Ratings
According to ISAF, the CUAT uses five ratings in assessing the readiness of ANA
and ANP units: 109
•	 Independent with Advisors: plans and executes missions, maintains com-
   mand and control of subordinates, calls on and coordinates quick reaction
   forces and medical evacuations, exploits intelligence, and operates in a
   wider intelligence system.
•	 Effective with Advisors: conducts effective planning, synchronizing,
   directing, and reporting of operations and status with only limited, occa-
   sional guidance from coalition forces and enablers as needed, and occasional
   augmentation from coalition forces.



  72                SPECIAL INSPECTOR GENERAL |   AFGHANISTAN RECONSTRUCTION
                                                                                                      SECURITY



FIGURE 3.23

ANA UNITS BY ASSESSMENT RATING, AS OF DECEMBER 8, 2011


Independent with
         Advisors
   Total Units: 7




    Effective with
         Advisors
  Total Units: 85




    Effective with
         Partners
  Total Units: 89




  Developing with
         Partners                                                                              111th Capital Division
  Total Units: 19                                                                              201st Corps
                                                                                               203rd Corps
                                                                                               205th Corps
                                                                                               207th Corps
     Established
   Total Units: 2                                                                              209th Corps
                                                                                               215th Corps
                                                                                               Commando
                                                                                               HSSB

    Not Assessed
  Total Units: 12



                     0                   5                      10                    15                      20                   25


Notes: Rating categories are explained on page 68. HSSB = Headquarters Security and Support Brigade (Ministry-level unit).
Source: ISAF-IJC, response to SIGAR data call, 1/3/2012.


TABLE 3.1

ANP UNIT ASSESSMENTS: QUARTERLY CHANGE
                                                          AUP                            ABP                            ANCOP
Rating                                       10/2011         12/2011        10/2011            12/2011       10/2011         12/2011
Independent with Advisors                             0              19              0                6                 0          4
Effective with Advisors                              59              106            10              20             11              8
Effective with Partners                              53              91             14              14                  3          3
Developing with Partners                             22              19              3                4                 2          3
Established                                           3              12              0                2                 0          1
Not Assessed                                         22              68             12                0                 4          2
Total Units Reported                              159             315              39              46              20            21
Notes: Rating categories are explained on page 68. AUP = Afghan Uniform Police. ABP = Afghan Border Police. ANCOP = Afghan
National Civil Order Police.
Source: ISAF-IJC, responses to SIGAR data call, 1/3/2012 and 10/4/2011.




               REPORT TO THE UNITED STATES CONGRESS |   JANUARY 30, 2012                                                      73
                                                               SECURITY




                                                               •	 Effective with Partners: requires routine mentoring for planning, syn-
                                                                  chronizing, directing, and reporting operations and status; coordinating and
                                                                  communicating with other units; and maintaining effective readiness reports.
                                                                  Unit enablers are augmented by coalition force enablers.
                                                               •	 Developing with Partners: requires partnering and assistance for planning,
                                                                  synchronizing, directing, and reporting operations and status; coordinating
                                                                  and communicating with other units; and maintaining effective readiness
                                                                  reports. Some effective unit enablers provide support, but most enablers and
                                                                  support provided from coalition forces.
                                                               •	 Established: beginning to organize but barely capable of planning, synchro-
                                                                  nizing, directing, or reporting operations and status, even with assistance of
                                                                  a partner unit. Barely able to coordinate and communicate with other units.
                                                                  Few effective unit enablers, providing little or no support. Coalition forces
Definition                                                        provide most support.
                                                               As noted in previous SIGAR quarterly reports, ISAF has used the CUAT to rate
  Enablers: specialized units that support                     the ANSF since April 2010, when it phased out the original assessment tool, the
  combat units such as engineering, civil                      Capability Milestone (CM) rating system. (The CM rating system is still used to
  affairs, military intelligence, helicopter,                  assess ministerial readiness.)
  military police, and intelligence, surveil-
  lance, and reconnaissance assets.                            CUAT Utility for ANA Development
                                                               This quarter, the DoD Office of Inspector General (DoD OIG) released an audit
                                                               report on U.S. and coalition efforts to develop the ANA’s logistical capabilities.
Source: DoD, “Mullen Tours Forward Outposts in Afghanistan,”   A portion of that report considered CUAT reporting. The report noted a lack
4/22/2009, accessed 1/4/2012.
                                                               of feedback on CUAT trend analysis, data, and recommendations from IJC to
                                                               the ANSF Development Directorates in the ISAF Regional Commands (RCs).
                                                               According to DoD OIG, the result is that the directorates may not be effective
                                                               in monitoring the output and eventual outcome of CUAT-related guidance and
                                                               resource decisions. That could delay the transition from ISAF to ANA leadership
                                                               of logistics and maintenance operations. The report also noted that the CUAT did
                                                               not capture the capability and effectiveness of ANA logistics and maintenance
                                                               systems at or below the Corps level. As a result, IJC was unable to adequately
                                                               measure progress toward the development of an enduring logistics and mainte-
                                                               nance capability in ANA corps, brigades, and kandaks (battalions). 110

                                                               MINISTRY OF DEFENSE AND MINISTRY OF INTERIOR
                                                               ASSESSMENTS
                                                               Assessments of the Ministry of Defense (MoD) and the Ministry of Interior (MoI)
                                                               this quarter showed continued progress in both. To rate the operational capabil-
                                                               ity of these ministries, NTM-A uses the CM rating system. This system assesses
                                                               staff sections (such as the offices headed by assistant or deputy ministers) and
                                                               cross-functional areas (such as general staff offices) using four primary and two
                                                               secondary ratings: 111
                                                                •	 CM-1A: capable of autonomous operations.
                                                                •	 CM-1B: capable of executing functions with coalition oversight only.



                                                                 74               SPECIAL INSPECTOR GENERAL |   AFGHANISTAN RECONSTRUCTION
                                                                                                SECURITY




•	   CM-2A: capable of executing functions with minimal coalition assistance.
•	   CM-2B: can accomplish its mission but requires some coalition assistance.
•	   CM-3: cannot accomplish its mission without significant coalition assistance.
•	   CM-4: exists but cannot accomplish its mission.
   At the MoD, 42 of 47 staff sections and cross-functional areas were assessed
this quarter. Of those, 26% had achieved a rating of CM-2A, and 33% had achieved
a rating of CM-2B, as shown in Figure 3.24. Six staff sections and cross-functional
areas improved (one achieved a CM-1B rating—the second highest rating), 36
were stable, and none regressed this quarter. According to CSTC-A, 10 staff
sections and cross-functional areas are expected to reach the CM-1A rating
(“capable of autonomous operations”) in October 2012; that number is expected
to reach 22 in October 2013, and 34 in October 2014. 112
   At the MoI, 26 of 30 staff sections were assessed this quarter; 15% had
achieved a rating of CM-2A or higher. Two staff sections improved, 24 were
stable, and none regressed this quarter. Most staff sections were rated CM-2B
(7 sections) or CM-3 (11 sections), as shown in Figure 3.24. The first staff section
is expected to achieve a CM-1A rating in April 2012, according to CSTC-A. The
number of staff sections to achieve that rating is expected to rise to 4 in October
2012, to 13 in October 2013, and to 25 in October 2014. 113


FIGURE 3.24

CAPABILITY MILESTONE RATINGS OF MoD AND MoI

                                                          0
CM-1A: capable of autonomous operations       CM-1A
                                                          0
CM-1B: capable of executing functions with                      1
coalition oversight only                      CM-1B
                                                                     2

CM-2A: capable of executing functions with                                                                  11
minimal coalition assistance
                                              CM-2A
                                                                     2

CM-2B: can accomplish its mission but                                                                             14
                                              CM-2B
requires some coalition assistance                                                      7

CM-3: cannot accomplish its mission without                                                       9
                                              CM-3
significant coalition assistance                                                                            11

CM-4: exists but cannot accomplish its                                                  7
                                              CM-4
mission                                                                       4
                                                      0                           5                   10              15
                                                              MoD Staff Sections and   MoI Staff Sections
                                                              Cross-Functional Areas

Source: CSTC-A, response to SIGAR data call, 1/3/2012.




               REPORT TO THE UNITED STATES CONGRESS |   JANUARY 30, 2012                                         75
SECURITY




TABLE 3.2

ANSF FORCE STRENGTH AGAINST TARGET GOALS
                                                                                                                 Change Since
Priority                       Targets                                        Status This Quarter                 Last Quarter
Afghan National Army           171,600 troops by 10/2011                      176,354 personnel                          +7,278
                               195,000 troops by 10/2012                      (as of 11/2011)
Afghan National Police         134,000 personnel by 10/2011                   143,797 personnel                          +7,675
                               157,000 personnel by 10/2012                   (as of 12/2011)
Sources: CSTC-A, response to SIGAR data call, 1/3/2012; CSTC-A, ANP PERSTAT, 12/2011; CENTCOM, response to SIGAR data call,
10/3/2011; DoD, “Report on Progress Toward Security and Stability in Afghanistan,” 10/2011, p. 4; ISAF-IJC, ANP PERSTAT, 8/2011.




ANSF STRENGTH GOALS
This quarter, the force strength of the ANSF was 320,151 (176,354 in the ANA;
143,797 in the ANP). 114 In June 2011, the Afghan government approved an
increase to 352,000 by October 2012—195,000 in the ANA and 157,000 in the
ANP. According to DoD, the ANA and ANP are on track to achieve those goals. 115
Table 3.2 shows the progress in achieving strength goals since last quarter.


SECURITY HIGHLIGHTS
Throughout 2011, the rate of civilian casualties improved slightly, although secu-
rity-related events had risen throughout the year. Overall, the number of civilian
casualties from January through November 2011 declined 7% from the same
period in 2010, according to the most recent report from the United Nations (UN)
Secretary-General. According to ISAF, insurgents caused more than 85% of civil-
ian casualties in 2011; improvised explosive devices (IEDs) caused more than
60% of those casualties. The number of civilian casualties caused by ISAF from
January through November rose by 7% over the same period in 2010; however,
the number of civilian deaths decreased by 8%. 116
   In his December 13, 2011, report to the UN Security Council, the UN
Secretary-General stated that the number of security-related events declined in
September, October, and November 2011, compared with the previous three-
month reporting period and with the same months in 2010. However, he noted
that this trend should be placed in the context of the first 11 months of 2011. As
of the end of November, the average monthly number of security-related events
was up 21% over the first 11 months of 2010. According to the UN Secretary-
General, 65% of the events from September through November were armed
clashes or incidents involving IEDs. 117
   As noted in SIGAR’s October 2011 quarterly report, the data reported by
the UN differs in category and coverage from the data reported by ISAF. ISAF
includes only attacks initiated by insurgent elements; the UN includes all inci-
dents. For example, the UN includes a range of events—cache finds, arrests,
assassinations, intimidation, and others—that ISAF does not. 118




   76                         SPECIAL INSPECTOR GENERAL |   AFGHANISTAN RECONSTRUCTION
                                                                SECURITY




Transition Progress
As noted in SIGAR’s July 2011 quarterly report, the first provinces and districts
began transitioning to ANSF-led security on July 20, 2011: the provinces of Bamiyan,
Balkh (partial), Panjshir, and Kabul (except the district of Sarobi); the cities
of Mazar-e Sharif and Herat; and the districts of Lashkar Gah in Helmand and
Mehtar Lam in Laghman. According to DoD, these areas represent “Tranche 1” of
the transition. Tranche 1 areas contain approximately 25% of Afghanistan’s popu-
lation and reflect a geographic and ethnic balance of areas that have begun the
transition process. Although challenges remain, the security situation remained
generally stable in those areas. DoD expected those areas to complete the transi-
tion process within the next 10–22 months; however, the agency noted that the
process may take longer in the districts of Mehtar Lam and Lashkar Gah. As of
December 31, 2011, all Tranche 1 areas have entered at least the second of four
stages of security; Kabul, Bamiyan, and Mazar-e Sharif are the most advanced. 119
    In addition to Tranche 1 areas, one province in Tranche 2—Parwan—also has
begun the process of transition. Tranche 2 areas include cities and districts in 18
provinces throughout the country. 120
    According to DoD, those cities and districts should begin the transition pro-
cess in January 2012. DoD does not anticipate any subsequent tranches to begin
the process before March 31, 2012. Following the implementation of transition
in Tranche 2 areas, approximately 50% of the population will live in areas where
Afghans lead security efforts. 121
    The UN Secretary-General noted that in areas that transitioned to Afghan-
led security in July 2011, “no significant deterioration in public order occurred”
from September through November 2011. The ANSF carried out greater numbers
and more complex operations—some of which were conducted unaided—but
still required logistical support from international forces, according to the UN
Secretary-General. 122

AFGHAN NATIONAL ARMY
As of December 31, 2011, the United States had obligated $22.8 billion and
disbursed $19.8 billion from the ASFF to build, train, and sustain the ANA. 123
Appropriations by category and sub-category were not available as this report
went to press.

ANA Strength
On November 25, 2011, the ANA’s strength was 176,354—an increase of 7,278
since last quarter—according to CSTC-A. Of those personnel, 110,543 were
present for duty; 29,147 were in training or awaiting assignment to authorized
positions; 23,316 were on leave, sick, or assigned to temporary duty; and 13,348
were absent without leave (AWOL). The ANA consists of 23,484 officers; 49,074
noncommissioned officers; 100,182 soldiers; and 3,614 cadets. 124
   Most ANA personnel are assigned to the ANA’s six corps, its Special
Operations Force, and its 111th Capital Division, as noted in previous SIGAR



         REPORT TO THE UNITED STATES CONGRESS |   JANUARY 30, 2012            77
                                                                     SECURITY




FIGURE 3.25                                                                                                                    FIGURE 3.26

ANA PERSONNEL STRENGTH, SELECTED COMPONENTS, ON NOVEMBER 25, 2011                                                             ANA PERSONNEL PRESENCE, SELECTED
                                                                                                                               COMPONENTS, ON NOVEMBER 25, 2011
                                                                                                                               (PERCENT)




 205th Corps                                       13,424                                            4,833         18,257       205th Corps                  74                 10 16
 205th Corps                                       13,424                                            4,833         18,257       205th Corps                  74                 10 16
 203rd Corps                                      13,068                                          4,631          17,699         203rd Corps                  74                 15 11
 203rd Corps                                      13,068                                          4,631          17,699         203rd Corps                  74                 15 11
 215th Corps                                11,084                                     3,817        14,901                      215th Corps                  74                 11 15
 215th Corps                                11,084                                     3,817        14,901                      215th Corps                  74                 11 15
 201st Corps                                10,923                                    3,578       14,501                        201st Corps                  75                 11 14
 201st Corps                                10,923                                    3,578       14,501                        201st Corps                  75                 11 14
 207th Corps                         8,548                               4,132           12,680                                 207th Corps                67              11        22
 207th Corps                         8,548                               4,132           12,680                                 207th Corps                67              11        22
 209th Corps                        7,763                            4,239            12,002                                    209th Corps                65              15        20
 209th Corps                        7,763                            4,239            12,002                                    209th Corps                65              15        20
111th Capital                                                                                                                  111th Capital
111thDivision
      Capital                  5,983                    3,046       9,029                                                      111thDivision
                                                                                                                                     Capital               66              11        23
                               5,983                    3,046       9,029                                                                                  66              11        23
     Division                                                                                                                       Division
 SOF Division                  6,094                   2,709       8,803                                                        SOF Division               69               7        24
 SOF Division                  6,094                   2,709       8,803                                                        SOF Division               69               7        24
                 0                        5,000                      10,000                    15,000                 20,000                   0      20      40      60        80        100
                 0                        5,000                      10,000                    15,000                 20,000                   0      20      40      60        80        100

                      Present for Duty            Assigned but Not Present for Duty                                                                PDY            AWOL          Other
                      Present for Duty            Assigned but Not Present for Duty                                                                PDY            AWOL          Other
Notes: SOF = Special Operations Force. PDY = present for duty. Assigned but not PDY = on medical, training, or                 Notes: Numbers affected by rounding. SOF = Special Operations
authorized leave, as well as absent without leave.                                                                             Force. PDY = present for duty. AWOL = absent without leave.
Source: CSTC-A, response to SIGAR data call, 1/3/2012.                                                                         Other = on medical, training, or authorized leave.
                                                                                                                               Source: CSTC-A, response to SIGAR data call, 1/3/2012.


                                                                     quarterly reports. According to CSTC-A, 107,872 personnel were assigned to
                                                                     these forces as of November 25, 2011. 125 However, the number of troops assigned
                                                                     does not necessarily equal the number of troops present for duty, as noted in pre-
                                                                     vious SIGAR quarterly reports and shown in Figure 3.25. Of these forces, 7–15%
                                                                     were AWOL, as shown in Figure 3.26.
                                                                        ANA personnel represent all of Afghanistan’s main ethnic groups. Pashtuns
                                                                     and Tajiks make up more than 79% of the force and nearly 82% of the officers,
                                                                     according to CSTC-A. Other ethnic groups that are well represented in the ANA
                                                                     are the Hazara (10.4%) and the Uzbeks (6.1%). 126

                                                                     ANA Sustainment
                                                                     As of December 31, 2011, the United States had obligated $7.0 billion and dis-
                                                                     bursed $6.3 billion of ASFF funds for ANA sustainment. 127 These funds are used
                                                                     to provide logistical items (such as fuel), maintenance services, clothing, indi-
                                                                     vidual equipment, ammunition, and personnel salary and incentive programs. 128

                                                                     ANA Salaries
                                                                     This quarter, the United States spent approximately $111.1 million on ANA
                                                                     salaries, according to CSTC-A. 129 SIGAR’s October 2011 quarterly report cited
                                                                     a CSTC-A estimate that the United States had spent approximately $1.1 billion



                                                                         78                          SPECIAL INSPECTOR GENERAL |   AFGHANISTAN RECONSTRUCTION
                                                                SECURITY




on ANA salaries from 2008 through September 30, 2011. According to CSTC-A,
that figure included contributions made by the Afghan government. The updated
figure for FY 2008 through December 31, 2011 ($830.4 million) reflected only U.S.
contributions for ANA salary remuneration. 130
                                                                                      SIGAR AUDIT
ANA Equipment and Transportation                                                      In its audit of DoD accountability
As of December 31, 2011, the United States had obligated and disbursed $8.9 billion   for vehicles provided to the ANSF by
from the ASFF for ANA equipment and transportation. 131 These funds are used to       CSTC-A, SIGAR found that although
purchase vehicles, aircraft, and weapons: 132                                         nearly all the vehicles were accounted
•	 vehicles: armored personnel carriers, high-mobility multi-purpose wheeled          for, CSTC-A did not regularly file claims
   vehicles (HMMWVs), tractors, etc.                                                  for damaged or missing equipment.
•	 aircraft: helicopters, fixed-wing aircraft, etc.                                   As a result, CSTC-A was providing
•	 weapons: M16A2 rifles, M240B machine guns.                                         fuel to the ANA for vehicles that had
•	 communications equipment: radios.                                                  been destroyed. SIGAR estimates that
   As of December 31, 2011, the United States had provided the ANA with               CSTC-A will save nearly $5 million in FY
190,574 weapons (at a cost of $381.8 million), 36,313 vehicles ($3.5 billion), and    2012 by reducing fuel delivery to the
80,762 pieces of communications equipment ($414.7 million). Together, these           ANA. For more information, see Section
costs represent approximately 76% of the total cost of equipment required to          2, page 33.
meet ANA needs. 133
   This quarter, according to CSTC-A, the United States provided the ANA with
4,368 weapons (valued at $9.0 million), 1,034 vehicles ($179.0 million), and 6,627
pieces of communications equipment ($20.5 million). 134
   As of December 31, 2011, the Afghan Air Force inventory consisted of 76
aircraft: 135
•	 33 Mi-17s (transport helicopters).
•	 11 Mi-35s (attack helicopters).
•	 14 C-27s (cargo planes).
•	 6 MD-530Fs (light helicopters).
•	 6 C-182Ts (four-person trainers).
•	 6 C-208Bs (light transport planes).


ANA Infrastructure
As of December 31, 2011, the United States had obligated $5.1 billion and dis-        SIGAR AUDIT
bursed $2.8 billion from the ASFF for ANA infrastructure. 136 These funds support
                                                                                      In an ongoing audit, SIGAR is
these key activities: 137
                                                                                      focusing on the reliability of funding
•	 building new or expanded facilities for training, Afghan Air Force, and force
                                                                                      and contract data maintained by
   protection uses, as well as garrisons and storage depots
                                                                                      the CENTCOM Joint Theater Support
•	 converting coalition force installations for ANA use
                                                                                      Contracting Command (C-JTSCC) on
According to CSTC-A, 43% of planned, U.S.-funded infrastructure projects for the
                                                                                      prime vendors for major reconstruction
ANA had been completed (158 projects valued at approximately $1.8 billion), and
                                                                                      contracts in Afghanistan. For more
57% were either in progress or had not yet been awarded (210 projects, approxi-
                                                                                      information, see Section 2, page 38.
mately $4.4 billion), as of December 31, 2011. 138
   This quarter, 7 ANA infrastructure projects were awarded (valued at
$88.1 million), 124 were ongoing ($2.6 billion), 3 were completed ($63.6 million),



         REPORT TO THE UNITED STATES CONGRESS |   JANUARY 30, 2012           79
                                         SECURITY




                                         FIGURE 3.27

                                         ANA TRAINING GRADUATES BY PROGRAM


                                             Total Graduates: 28,818                                                                 Other Training Programs: 7,024


                                                                             NCO                       Up-Armored HMMWV                    1,078
                                                                             Development
                                                                             4,281                                   Literacy           741
                                             Basic                           Other Training
                                             Warrior                                                             Engineering         334
                                                                             Programs
                                             Training                        7,024
                                             15,186                                                                  Artillery       274
                                                                             Infantry Specialty
                                                                             Training                                Signals         207
                                                                             1,580
                                                                                                  Other Specialized Training                                     4,390
                                                                             Officer
                                                                             Development
                                                                             747                                                 0    1,000 2,000 3,000 4,000 5,000

                                         Notes: Graduates as of 12/31/2011. HMMWV = high-mobility, multi-purpose wheeled vehicle.

                                         Source: CSTC-A, response to SIGAR data call, 1/3/2012.




                                         and 3 were terminated, according to CSTC-A. Of the ongoing projects, those
                                         with the highest cost were the first phase of construction of the Afghan Defense
SIGAR AUDIT                              University in Kabul (approximately $95.2 million), an ANA garrison in Paktika for
In an ongoing audit, SIGAR is focusing   the 203rd Corps ($94.4 million), and an ANA garrison in Helmand for the 215th
on U.S. Army Corps of Engineers opera-   Corps ($90.4 million). Phase 1 construction of the Afghan Defense University is
tions and maintenance contracts for      scheduled for completion in February 2012; the garrison in Paktika, March 2012;
ANSF facilities. For more information,   and the garrison in Helmand, January 2013. 139
see Section 2, page 38.
                                         ANA Training and Operations
                                         As of December 31, 2011, the United States had obligated and disbursed $1.9 billion
                                         from the ASFF for ANA operations and training. 140 These funds were used to
                                         provide ANA and MoD personnel with training and train-the-trainer programs.
                                         Training subjects included leadership development, medicine, communications,
                                         intelligence, and air operations. 141
                                            This quarter, 28,818 ANA personnel—2,632 more than last quarter—graduated
                                         from training courses funded by the ASFF, according to CSTC-A. Of that number,
                                         4,281 graduated from training and development courses for noncommissioned
                                         officers (NCOs), and 747 graduated from courses for officers, as shown in
                                         Figure 3.27. 142

                                         ANA Literacy
                                         According to CSTC-A, the literacy rate of the ANA alone is unknown; however,
                                         CSTC-A noted that the UN Educational, Scientific, and Cultural Organization
                                         (UNESCO) estimated the literacy rate for the entire ANSF at approximately
                                         14%. 143



                                             80                        SPECIAL INSPECTOR GENERAL |   AFGHANISTAN RECONSTRUCTION
                                                                      SECURITY




An Afghan graduate of an ANA Basic Warrior Training course in Herat shows off his certificate
on December 29, 2011. The nine-week course prepares new ANA recruits by teaching them
drill, weapons, and patrol skills and training them to man checkpoints and conduct convoy
operations. This quarter, 15,186 ANA soldiers graduated from Basic Warrior Training, according
to CSTC-A. Credit: ISAF photo, SGT Bryon Boyes.


    CSTC-A identifies three levels of literacy, using the UNESCO definition for
level 3: 144
 •	 Level 1: read and write single words, count to 1,000, add and subtract whole
    numbers.
 •	 Level 2: read and write sentences, multiply and divide numbers, identify units
    of measurement.
 •	 Level 3: “identify, understand, interpret, create, communicate, compute and
    use printed and written materials associated with varying contexts”.
At levels 1 and 2, individuals are classified as functionally illiterate. According
to CSTC-A, functional literacy is achieved only upon completing level 3 literacy
training. 145
   The current goal is 100% level 1 literacy and 50% level 3 literacy by January
2015, according to CSTC-A. As noted in SIGAR’s October 2011 quarterly report,
the previous goal was 100% level 3 literacy by 2014.  146
   To provide literacy training to the ANA and the ANP, the United States funds
three contracts—one awarded to a U.S. company and two to Afghan companies,
according to CSTC-A. Together, the three contracts, which include a base year
and four one-year options, are capped at $200 million. The contracts began in
August 2010, and the first one-year options were exercised in August 2011. If all
options are exercised, these contracts will end in August 2015. 147 



          REPORT TO THE UNITED STATES CONGRESS |   JANUARY 30, 2012                    81
SECURITY




    According to CSTC-A, as of December 1, 2011, three contractors were provid-
ing 1,224 literacy trainers—471 fewer than last quarter—to the ANA: 148
 •	 OT Training Solutions (a U.S. company) was providing 468 trainers.
 •	 Insight Group (an Afghan company) was providing 216 trainers.
 •	 The Higher Education Institute of Karwan (an Afghan company) was provid-
    ing 540 trainers.


Women in the ANA
As of December 31, 2011, ANA personnel included 335 women—210 officers, 104
noncommissioned officers, 7 soldiers, and 14 cadets in training—according to
CSTC-A. The current target is for women to make up 10% of the ANA. 149
   CSTC-A identified two U.S. goals for supporting gender integration: to help
the ANA lay the foundation for establishing a culture supportive of women and
to institutionalize mechanisms for recruiting, training, assigning, and retaining
women. CSTC-A noted that a key component of NTM-A’s Gender Integration
Ministerial Development Plan (MDP) is a plan to create a Human Rights, Ethnic
Balancing, and Gender Integration Office within the MoD in March 2012. That
plan was proposed during the ANA’s command plan review process. The office
would be led by a high-ranking civilian who would report to the Minister of
Defense as a special advisor. The office would consist of three branches: 150
•	 Oversight and Inspections.
•	 Plans, Policy, and Coordination.
•	 Recruiting, Training, and Assigning.
   As part of the MDP, a curriculum for the female NCO course is being devel-
oped; enrollment is scheduled for January 2011, according to CSTC-A. In addition,
an Afghan-led Women’s Integration Committee at the National Military Academy
of Afghanistan is preparing for the first full-time enrollment of women in March
2012. In conjunction with the ANA Training Command, NTM-A is developing
training on gender integration, sexual harassment, and assault prevention to be
delivered to ANA leaders and to all units and headquarters where women cur-
rently work or will be assigned in the near future. 151
   The MDP also focuses on recruiting, according to CSTC-A. The MoD issued
recruiting targets for officer and NCO training and tasked female ANA soldiers
from the Religious and Cultural Affairs Office to recruit candidates for officer
training schools from high schools. Moreover, NTM-A is funding a $1.4 million
recruiting media campaign that is expected to air throughout the nation. 152

U.S. Support for the Ministry of Defense
As of December 31, 2011, the United States had spent approximately $378 million
on the development of the MoD, according to CSTC-A. For the MoD develop-
ment plan, $572 million will be required in FY 2013–2017, CSTC-A noted. As of
December 31, 2011, NTM-A had 187 advisors and mentors—117 fewer than last
quarter—assigned to the MoD: 153




  82               SPECIAL INSPECTOR GENERAL |   AFGHANISTAN RECONSTRUCTION
                                                                SECURITY




•	 109 U.S. personnel.
•	 15 coalition personnel.
•	 63 contractors.
    According to CSTC-A, the Master Ministerial Development Plan (MMDP) was
implemented in December 2011 to strengthen five areas in the MoD: 154
 •	 executive leadership and defense policy.
 •	 lines of operation.
 •	 human resource management.
 •	 national logistics.
 •	 resource management.
CSTC-A noted that development plans for offices within the MoD and the ANA
General Staff will be grouped for better integration of results. As part of the
revised MMDP, advisors will provide updated assessments of ministerial capac-
ity in the five areas noted above while producing new development plans that for
the first time will be linked to the ability of the ministry and the general staff to
function at a strategic level. According to CSTC-A, this alignment should help the
coalition prioritize ministerial capacity-building efforts. It should also help focus
the limited availability of advisors on critical, transition-related objectives. 155
    This quarter, CSTC-A identified challenges in the following areas: 156
 •	 improving the quality of key leaders through the engagement of ISAF, IJC,
    and NTM-A leaders with their counterparts in the MoD and ANA General
    Staff.
 •	 synchronizing ISAF and IJC combined campaign planning and geographic
    transition with ministerial development plans and programs.
 •	 clarifying coalition strategic-operational-tactical coordination of national
    logistics capacity building.
 •	 improving civilian-led national command structures.

AFGHAN NATIONAL POLICE
As of December 31, 2011, the United States had obligated $12.7 billion and dis-
bursed $11.0 billion from the ASFF to build, train, and sustain the ANP. 157

ANP Strength
This quarter, the total strength of the ANP was 143,797, according to CSTC-A. Of
that number, 80,718 were assigned to the AUP; 21,203 were assigned to the ABP;
and 15,540 were assigned to the ANCOP, as shown in Table 3.3 on the next page.
   The total strength exceeded the number of ANP personnel authorized by the
tashkil; however, many of these “over-tashkil” personnel were in training and had
not yet been assigned to tashkil positions. The number of tashkil-authorized posi-
tions has changed over time in line with ANP needs and overall strength goals.
For example, since August 2011, the number of positions authorized for ANP
training centers increased while the number for MoI headquarters decreased. 158




         REPORT TO THE UNITED STATES CONGRESS |   JANUARY 30, 2012             83
SECURITY




TABLE 3.3

ANP FORCE STRENGTH, DECEMBER 2011
                                                                                     Assigned to Tashkil        Not Assigned to Tashkil
                                                 Authorized (Tashkil)                         Positions                      Positions
ANP (Total Strength: 143,797)                                 138,121a                            135,957                           7,840c
Breakdown By ANP Component
AUP                                                              80,275                             80,718                                 —
ABP                                                              23,086                             21,203                                 —
ANCOP                                                            13,678                             15,540                                 —
Other Units                                                     21,082b                            18,496b                                 —
Note: AUP = Afghan Uniform Police. ABP = Afghan Border Police. ANCOP = Afghan National Civil Order Police. — = not available.
a. Includes authorized AUP, ABP, and ANCOP personnel in addition to authorized personnel for MoI headquarters, anti-crime, training,
counter-narcotics, traffic, medical, intelligence, and fire units.
b. Includes personnel authorized for or assigned to MoI headquarters, anti-crime, training, counter-narcotics, traffic, medical, intelligence,
and fire units.
c. Students enrolled in initial entry training programs.
Source: CSTC-A, ANP PERSTAT, 12/2011.




ANP Sustainment
As of December 31, 2011, the United States had obligated $3.9 billion and dis-
bursed $3.5 billion from the ASFF for ANP sustainment. 159 These funds are used
to provide logistical items (such as fuel), maintenance services, clothing, indi-
vidual equipment, ammunition, and personnel salaries. 160

ANP Salaries
This quarter, the United States provided approximately $49.7 million of the
$127.7 million in international donations for ANP salaries, according to CSTC-A.
According to CSTC-A, the United States paid approximately $261.0 million of
$678.3 million (38%) of ANP salaries in 2011. Since 2002, the United States has
contributed approximately $914.0 million to the UN Development Programme’s
Law and Order Trust Fund for Afghanistan (LOTFA). 161 The LOTFA supports
the establishment, payment, equipping, and training of the ANP. 162 Other nations
contributing to the LOTFA to pay ANP salaries include Japan (which pays 24%
of salaries) and the European Union (18%). The Afghan government pays 16% of
ANP salaries and food costs. 163 However, as noted previously, it relies heavily on
donor grants to fund security spending. 164
   The United States has provided approximately $19.4 million in non-LOTFA
contributions to pay the salaries of Afghan Local Police (ALP) members. 165

ANP Equipment and Transportation
As of December 31, 2011, the United States had obligated and disbursed $3.5 billion
from the ASFF for ANP equipment and transportation. 166 These funds are used to
provide the ANP (including the ALP and Afghan Public Protection Force [APPF])
with vehicles, weapons, and equipment: 167
•	 vehicles: light trucks, HMMWVs, fire trucks, etc.



   84                            SPECIAL INSPECTOR GENERAL |   AFGHANISTAN RECONSTRUCTION
                                                                SECURITY




•	 weapons: assault rifles, grenade launchers, machine guns, etc.
•	 equipment: medical, communications, and office equipment.
   This quarter, the United States provided the ANP with 11,006 weapons
(valued at $13.5 million), 711 vehicles ($49.1 million), and 3,495 pieces of com-
munications equipment ($5.7 million). The largest costs were for 123 HMMWVs
($28.3 million), 538 light tactical vehicles ($14.2 million), and 8,428 AK-47 rifles
($10.5 million). 168
   As of December 31, 2011, 100% of the weapons required by the ANP had been
procured and 99% delivered, according to CSTC-A. In addition, 95% of trans-
portation-related equipment had been procured and 73% delivered; and 95% of
communications equipment had been procured and 71% delivered. 169
   As of December 31, 2011, the ANP’s Air Interdiction Unit had an inventory of
20 Mi-17 helicopters. 170

ANP Infrastructure
As of December 31, 2011, the United States had obligated $2.9 billion and dis-
bursed $1.7 billion ASFF for ANP infrastructure. 171 These funds support these
key activities: 172
 •	 building district headquarters, new or expanded ANP and ANCOP facilities,
                                                                                       SIGAR AUDITS
    fire stations, and special police facilities.                                      This quarter, SIGAR initiated four
 •	 building enabler facilities, such as MoI administrative buildings.                 inspections of construction projects
According to CSTC-A, 43% of planned, U.S.-funded ANP infrastructure projects           contracted by the U.S. Army Corps of
have been completed (380 projects valued at approximately $1.1 billion), and 57%       Engineers for ANSF facilities in three
either are underway or have not yet been awarded (498 projects, approximately          provinces: Kunduz, Nangarhar, and
$2.9 billion), as of December 31, 2011. 173                                            Wardak. SIGAR will inspect the quality
    This quarter, 16 ANP infrastructure projects were awarded (valued at               of construction and determine whether
$122.3 million), 216 were underway ($1.2 billion), 8 were completed                    the facilities are being operated and
($21.2 million), and 2 were terminated, according to CSTC-A. Of the ongoing            maintained for the purposes intended.
projects, those with the highest costs were a national police training center in       For more information, see Section 2,
Wardak (approximately $107.1 million) and regional police training centers in          page 32.
Herat ($61.6 million) and Kandahar ($61.4 million). The national police training
center in Wardak is scheduled for completion in January 2012; the regional train-
ing center in Herat, February 2013; and the regional training center in Kandahar,
November 2012. 174

ANP Training and Operations
As of December 31, 2011, the United States had obligated $2.4 billion and dis-
bursed $2.3 billion from the ASFF for ANP training and operations. 175 These
funds support generalized, logistical, communications, intelligence, literacy, and
other specialized training for the ANP, MoI, fire department personnel, criminal
investigators, and the APPF. 176 This quarter, 7,519 students graduated from 49
ANP courses, according to CSTC-A. 177
   According to CSTC-A, the United States provides ANP training support at 14
NTM-A police training sites, as well as trainers and advisors at 18 NTM-A police




         REPORT TO THE UNITED STATES CONGRESS |   JANUARY 30, 2012             85
SECURITY




training sites, through its contract with DynCorp International (DynCorp). This
contract is staffed by 3,500 DynCorp employees, most of whom provide non-
training support services such as maintenance, health, and welfare support. Half
of the DynCorp employees on this contract are Afghan nationals, according to
CSTC-A. 178
   Of the DynCorp employees on the contract, 139 provide training, advising,
and/or mentorship at NTM-A police training sites, and 340 employees provide
mentorship to ANP operational units, according to CSTC-A. Employees who
mentor operational units are under the direction of IJC, not NTM-A, but are
funded through NTM-A under the contract. In addition, CSTC-A noted that a
training program support office provides direct oversight of the DynCorp con-
tract. The DynCorp contract is the largest but not the only training support
contract for the ANP: several contracts with local Afghan companies provide
support at training sites that are not under the DynCorp contract. 179

ANP Literacy
According to CSTC-A, the literacy rate of the ANP as a whole is unknown,
although CSTC-A noted that UNESCO estimated the literacy rate for the entire
ANSF at approximately 14%. The current goal is to reach 100% level 1 literacy
and 50% level 3 (functional) literacy by January 2015, according to CSTC-A. 180 As
noted in SIGAR’s October 2011 quarterly report, the previous goal was to achieve
level 3 literacy by 2014. However, U.S. Central Command (CENTCOM) noted last
quarter that the ANP commander for training programs had pushed the date to
2016.
    CSTC-A uses the same classifications and definitions for literacy in the ANP
as it does for literacy in the ANA: individuals are classified as illiterate at lev-
els 1 and 2. Level 1 is the ability to read and write single words, count to 1,000,
and add and subtract whole numbers. Level 2 is the ability to read and write
sentences, multiply and divide numbers, and identify units of measurement.
Functional literacy is achieved upon completing level 3 training. Level 3 literacy
is characterized by the UNESCO definition: “the ability to identify, understand,
interpret, create, communicate, compute and use printed and written materials
associated with varying contexts.” 181
    As noted earlier, the United States funds three contracts to provide literacy
training to the ANA and ANP—one awarded to a U.S. company and two to Afghan
companies. According to CSTC-A, the three contracts are capped at $200 million
in all; they include a base year and four one-year options. The contracts began in
August 2010, and the first one-year options were exercised in August 2011. If all
options are exercised, these contracts will end in August 2015. 182
    According to CSTC-A, as of December 1, 2011, three contractors were provid-
ing 1,115 literacy trainers to the ANP—371 fewer than last quarter: 183
 •	 OT Training Solutions (a U.S. company) was providing 372 trainers.
 •	 Insight Group (an Afghan company) was providing 298 trainers.
 •	 The Higher Education Institute of Karwan (an Afghan company) was provid-
    ing 445 trainers.



  86                SPECIAL INSPECTOR GENERAL |   AFGHANISTAN RECONSTRUCTION
                                                                SECURITY




Women in the ANP
According to CSTC-A, 1,244 women were serving in the ANP as of November 30,
2011—181 officers, 552 NCOs, and 511 enlisted personnel. The goal for the ANP
is to recruit 5,000 women by March 2015. 184
    This quarter, the ANP Human Rights, Child Rights, and Gender Rights
Directorate began a campaign to recruit high school and university seniors
through advertising and on-site visits, according to CSTC-A. CSTC-A noted that
an increased number of personnel authorizations in each province were desig-
nated to be filled by women. 185
    According to CSTC-A, the United States is supporting this effort by participat-
ing in NTM-A’s gender integration and mainstreaming program. Two U.S. advisors
are working with this program, two U.S. advisors are assigned to the MoI’s
Human Rights and Gender Offices, and two U.S. advisors work with the Afghan
Recruiting Command to increase the number of women in the ANP and ANA. 186

U.S. Support for the Ministry of Interior
The MoI ministerial mentoring and training program sends U.S. and coalition
subject matter experts (government and contractor) to develop police systems in
personnel, intelligence, logistics, communications, force generation and manage-
ment, finance, medical, engineering, acquisition, legal, public affairs, strategy,
and policy, according to CSTC-A. The contract for this project was awarded to
DynCorp on December 20, 2010 for a 2-year cost of $718 million with one option
year. The ministerial mentoring and training program is one of four contracts
rolled under a larger effort to integrate the ABP training (a DoD contract),
Afghan Civilian Advisory Services (a DoS contract), and Embedded Police
Mentors (a DoS contract). The DoS contracts are with the agency’s Bureau of
International Narcotics and Law Enforcement Affairs (INL). 187

Afghan Local Police
The Afghan Local Police (ALP) is the MoI’s community watch program. It enables
communities to protect themselves where there is no significant ISAF or ANSF
presence. 188 Although called “police,” ALP members do not have arrest author-
ity. In addition, they are not counted in tallies of the ANP’s strength, according
to DoD. 189 However, U.S. funding through the ASFF pays for U.S. efforts to build,
equip, train, and sustain the ALP. 190
    As of December 31, 2011, the ALP had 10,594 members, according to the
Combined Forces Special Operations Component Command - Afghanistan
(CFSOCC-A). The goal is 30,000 members in 99 districts and at ALP headquar-
ters in Kabul by 2014. To support the ALP and cover its salaries, CSTC-A and
CFSOCC-A had obligated $37.9 million of ASFF funds as of December 31, 2011.
According to CFSOCC-A, ALP members operate at 150 sites; they are men-
tored by the Combined Joint Special Operations Task Force and ISAF Regional
Commands East and Southwest. 191




         REPORT TO THE UNITED STATES CONGRESS |   JANUARY 30, 2012           87
                                          SECURITY




                                             According to the UN Secretary-General, local defense forces—including the
                                          ALP—have contributed to stability in some areas; however, concerns remain
                                          over issues such as human rights abuses and the potential re-emergence of
                                          ethnically or politically biased militias. The UN Secretary-General noted that the
                                          UN Assistance Mission - Afghanistan had voiced these concerns to the relevant
                                          authorities and had been advised that they would increase their efforts to pro-
                                          vide strict oversight. 192

                                          Private Security Contractors and the Afghan Public
                                          Protection Force
                                          This quarter, 20,375 private security contractor (PSC) personnel were working
                                          for DoD in Afghanistan—33% more than last quarter, according to CENTCOM. 193
SIGAR AUDIT                               The number of Afghan PSC personnel increased by nearly 42% while the number
In an ongoing audit, SIGAR is identify-   of U.S. and third-country national PSC personnel declined, as shown in Table 3.4.
ing the PSCs used by USAID’s imple-       U.S. officials have told SIGAR that the APPF is making progress; however, the
menting partners and determining their    latest assessment was not available at the time this report went to press.
costs and status in light of the Afghan      As noted in previous SIGAR quarterly reports, in August 2010, President
government’s intention to transfer PSC    Karzai had decreed that all national and international PSCs would be disbanded
security functions to the APPF in March   by the end of the year. Instead, the MoI announced in December 2010 that PSCs
2012. For more information, see Sec-      could continue to operate with new restrictions that would prevent them from
tion 2, page 38.                          conducting actions that fall within the authority of Afghan law enforcement
                                          agencies. In March 2011, the Afghan government released its bridging strategy for
                                          transitioning the lead on security from PSCs to the APPF. This strategy allowed
                                          PSCs that were licensed by the MoI and had agreed to certain staffing limitations
                                          to operate and perform security for diplomatic and ISAF projects; however, PSCs
                                          that perform security services for development and humanitarian projects were
                                          to be replaced by the APPF by March 2012. 194
                                             In September 2011, the MoI, ISAF, and representatives of the U.S. Embassy
                                          Kabul completed a six-month assessment of the effectiveness of the bridging
                                          strategy and the capacity of the APPF, according to DoD. Specifically, the assess-
                                          ment reviewed whether the APPF will be able to effectively manage and provide
                                          security to ISAF and ANSF construction sites and ISAF bases at the end of the
                                          TABLE 3.4

                                          PSC PERSONNEL WORKING FOR DoD IN AFGHANISTAN
                                                                                     As of 7/7/2011                 As of 12/9/2011              5-Month Difference
                                                                                     PSC Contractors                 PSC Contractors                PSC Contractors
                                          U.S. citizens                                            693                             570                           -123
                                          Third-country nationals                                1,282                             897                           -385
                                          Afghan nationals                                      13,330                         18,908                         +5,578
                                          Total                                               15,305                          20,375                         +5,070
                                          Sources: CENTCOM, “Contractor Support of U.S. Operations in the USCENTCOM Area of Responsibility, Iraq, and Afghanistan,”
                                          7/7/2011, accessed 10/13/2011; CENTCOM, “Contractor Support of U.S. Operations in the USCENTCOM Area of Responsibility, Iraq,
                                          and Afghanistan,” 1/2012, accessed 1/14/2012.




                                             88                        SPECIAL INSPECTOR GENERAL |   AFGHANISTAN RECONSTRUCTION
                                                                SECURITY




bridging period. According to the assessment, the APPF was unable to carry out
a number of tasks: 195
•	 Execute and maintain the business operations necessary to remain a viable
    and solvent business.
•	 Recruit, vet, train, pay, equip, deploy, and sustain guard forces to meet con-
    tract requirements.
•	 Negotiate and establish legal and enforceable contracts with customers for
    security services.
•	 Command and control security operations across Afghanistan.
•	 Meet the requirements of the bridging strategy.
In addition, the APPF had not created a functioning state-owned entity to sup-
port the business operations that are essential to manage and execute contracted
security services. 196
    As of December 31, 2011, the APPF had 6,558 personnel, according to CSTC-A.
Of those, 5,624 were assigned and present for duty—221 on the LOTFA tashkil
(funded through the LOTFA) and 5,403 on the MoI tashkil. According to CSTC-A,
all LOTFA-funded assigned APPF personnel are trained; however, training data
for personnel on the MoI tashkil was not available, specifically for those assigned
to security contracts. CSTC-A assumes that all APPF personnel on the MoI tash-
kil are trained either through ANP courses, the APPF training center, or through
on-the-job training. 197
    According to CSTC-A, the MoI is in the process of expanding the LOTFA tash-
kil to meet the requirements associated with the implementation of Presidential
Decree 62. 198 That decree, which President Karzai issued in August 2010, placed
the responsibility for the provision of security services under the direct authority
and oversight of the Afghan government through the APPF. 199 PSCs previously
provided these services. Pending approval, the expanded tashkil is expected to
authorize billets for 516 uniformed APPF members—including staff for the APPF
Training Center and operational staff—to provide the expertise needed to pro-
vide security services to the international development community and ISAF. The
MoI is also expected to add billets for 130 civilians to support business opera-
tions within the APPF. 200


U.S. FORCES
According to U.S. Forces - Afghanistan (USFOR-A), 98,933 U.S. forces were serv-
ing in the country as of December 31, 2011: 201
 •	 71,742 to ISAF.
 •	 2,780 to NTM-A/CSTC-A.
 •	 14,565 to USFOR-A.
 •	 9,846 to other assignments (CENTCOM).




         REPORT TO THE UNITED STATES CONGRESS |   JANUARY 30, 2012            89
                                                                 SECURITY




                                                                 REMOVING UNEXPLODED ORDNANCE
                                                                 From 2002 through December 31, 2011, DoS provided more than $212.6 million in
                                                                 funding for the Non-Proliferation, Anti-Terrorism, Demining, and Related pro-
                                                                 grams in Afghanistan, according to the DoD Political-Military Affairs’ Office of
                                                                 Weapons Removal and Abatement (PM/WRA). 202 DoS directly funds five Afghan
                                                                 non-governmental organizations (NGOs), five international NGOs, and one U.S.
                                                                 company (DynCorp) to carry out sustained clearance operations and remove and
                                                                 mitigate abandoned and at-risk weapons. In addition, DoS assists the ANSF with
                                                                 the destruction of its excess, unserviceable, and at-risk weapons and ordnance.
                                                                 It also provides technical assistance for maintaining the physical security and
                                                                 managing the stockpile of ANSF weapons and ordnance. 203
                                                                     This quarter, the PM/WRA noted successes in the mine action program over
                                                                 the past four quarters. The number of hazardous areas and contaminated areas
                                                                 remaining has steadily declined, as shown in Table 3.5. The PM/WRA attrib-
                                                                 uted this success, in part, to enhanced coordination between the Mine Action
                                                                 Coordination Center of Afghanistan (MACCA) and the U.S. Embassy Kabul.
                                                                 However, the PM/WRA noted that reduced contributions to the Afghan demin-
                                                                 ing and weapons destruction programs have forced the MACCA to revise its
                                                                 strategic goal and near-term objectives. Its goal is to clear 90% of all known
                                                                 areas contaminated by mines and other explosive remnants of war by the end of
                                                                 2015. It projects that 70% of the contamination will be eliminated by March 2013,
                                                                 assuming that U.S. and international donor funding is sustained at no less than
                                                                 $80 million per year. 204
                                                                     From October 1, 2010, to September 30, 2011, DoS-funded implementing
                                                                 partners had cleared 31.6 million square meters of contaminated land, according
                                                                 to the most recently available data from PM/WRA. An estimated 602.0 million
                                                                 square meters remain to be cleared. 205



TABLE 3.5

CONVENTIONAL WEAPONS DESTRUCTION PROGRAM METRICS, OCTOBER 1, 2010–SEPTEMBER 30, 2011
                                        AT/AP                      UXO                     SAA                Fragments      Minefields   Estimated Contaminated Area
Date Range                           Destroyed                Destroyed               Destroyed                  Cleared   Cleared (m2)                Remaining (m2)
10/1–12/31/2010                           2,219                100,866                1,204,036               3,549,023      5,704,116                   641,000,000
1/1–3/31/2011                             2,171                  55,005                   80,156              5,899,573     11,405,068                   627,000,000
4/1–6/30/2011                             4,043                  68,542                 481,877               6,259,343      6,799,279                   612,000,000
7/1–9/30/2011                             2,071                120,616                  627,656               6,258,408      7,735,897                   602,000,000
Total                                  10,504                 345,029              2,393,725                21,966,347     31,644,360                 602,000,000
Notes: AT/AP = anti-tank/anti-personnel ordnance. UXO = unexploded ordnance. SAA = small-arms ammunition.
Source: DoS, PM/WRA, response to SIGAR data call, 1/4/2012.




                                                                     90                         SPECIAL INSPECTOR GENERAL |   AFGHANISTAN RECONSTRUCTION
                                                                SECURITY




COUNTER-NARCOTICS
From 2002 to September 30, 2011, the United States had appropriated $5.7 billion
for counter-narcotics initiatives in Afghanistan. Most of these funds were appro-
priated through two sources: the DoS International Narcotics Control and Law
Enforcement (INCLE) account ($3.3 billion), and the DoD Drug Interdiction and
Counter-Drug Activities (DoD CN) fund (nearly $2.3 billion). 206
    According to INL, the narcotics trade threatens Afghanistan’s political stabil-
ity, economic growth, and rule of law, as well as its capacity to address internal
security problems. Furthermore, it threatens to undermine the overall effort to
fight the insurgents. 207
    The provision of sustainable, licit alternatives to opium poppy cultivation is a
cornerstone of U.S. counter-narcotics strategy, INL noted. U.S. agricultural pro-
grams—such as USAID’s Southern Regional Agricultural Development Project
in Helmand and Kandahar, and similar programs in other parts of Afghanistan—
promote high-value horticultural crops that provide farmers with economically
viable alternatives to poppy production. According to INL, other U.S. agricultural
activities that indirectly support the counter-narcotics effort include capacity
building of national and provincial institutions, cash-for-work programs, agricul-
tural voucher packages, value chain development, infrastructure development,
and agricultural credit extension. 208
    INL stated that illegal narcotics are still a significant source of funding and
support for insurgents. It noted that U.S. counter-narcotics efforts do not focus
solely on stemming the flow of illegal drugs: they also aim to deny the Taliban
and anti-government elements a key funding source. INL also noted that corrup-
tion undermines U.S. efforts to transfer as much responsibility as possible to
Afghans at the national and the sub-national levels and to reduce the need for a
direct U.S. presence in economic development and security initiatives. 209

U.S. Counter-Narcotics Programs
INL works with the Ministry of Counter-Narcotics (MCN) to achieve and sustain
poppy-free provinces through several programs. The MCN’s Good Performer’s
Initiative (GPI), funded by INL, offers incentives to governors to achieve and
sustain reductions in poppy cultivation in their provinces. According to INL,
a province is deemed poppy-free when the UN Office on Drugs and Crime
(UNODC), in cooperation with MCN, verifies that poppy is cultivated on fewer
than 100 hectares a year. In 2011, only 17 provinces are cultivating poppy—down
from a high of 32 in 2004 during the Bonn Process, as shown in Figure 3.28 on the
following page. Under the terms of the GPI, in each year that a province is poppy-
free, it becomes eligible for $1 million in GPI development projects. Completion
of GPI projects shows provincial leaders and citizens the tangible benefits of
permanently shifting away from poppy cultivation. Since the start of the program
in 2007, more than 90 development projects have been completed or initiated in
32 provinces—including school construction, road and bridge projects, irrigation
structures, farm machinery projects, and hospitals and clinic construction. 210




         REPORT TO THE UNITED STATES CONGRESS |   JANUARY 30, 2012            91
SECURITY




FIGURE 3.28

POPPY CULTIVATION BY PROVINCE, 2001–2011

                          Bonn Process                                         Reconstruction Surge                 Transition
35
                                         32
30                           28                                 28
                                                    26
25               24
                                                                            21
                                                                                                     20        20
20                                                                                         18
                                                                                      16                             17 17
15                                                                               13             14        14
          10
10
                                                         7           6
 5
                                  2
     —                —                       —
 0
     2001         2002       2003        2004        2005       2006        2007      2008      2009      2010        2011
         Poppy Cultivated
         Poppy-free

Notes: Poppy-free = fewer than 100 hectares under poppy cultivation. — = no data.
Sources: UNODC, “Afghanistan Opium Survey,” 2001, 2002, 2003, 2004, 2005, 2006, 2007, 2008, 2009, 2010, 2011,
accessed 1/10/2012.




   The Counter-Narcotics Public Information (CNPI) program aims to ensure
that poppy-free provinces maintain that status. The Colombo Plan Drug Advisory
Program (CPDAP) implements the CNPI in close coordination with the MCN.
Through a nationwide public awareness and media campaign, the CPDAP
ensures that preventive messages are distributed in the media and at provincial
conferences, shuras, scholarly events, and youth outreach events. 211
   INL also administers a grant to the Aga Khan Foundation to help sustain the
shift away from poppy cultivation in four key northern provinces: Bamiyan,
Takhar, Badakhshan, and Baghlan. Through this grant, the foundation works
with district-level development councils, local NGOs, and provincial departments
to increase opportunities for work in licit crops to sustain those who transition
away from poppy cultivation. The grant aims to promote community buy-in to
the Afghan National Drug Control Strategy and the Afghan National Development
Strategy. 212
   This quarter, INL noted that its counter-narcotics efforts remained centered
on interdiction and law enforcement, as well as on supporting licit agricultural
business. According to INL, U.S. assistance supports public information efforts,
capacity-building programs for key counter-narcotics ministries, rule of law, and
demand reduction activities. U.S. programs are planned and implemented jointly
with the Afghan government and other international partners. INL emphasized




     92                        SPECIAL INSPECTOR GENERAL |   AFGHANISTAN RECONSTRUCTION
                                                                    SECURITY




Seized heroin is displayed by a member of the Counter-Narcotics Police of Afghanistan in
Lashkar Gah, Helmand. In 2011, the ANSF partnered with ISAF in conducting 521 interdiction
operations, which resulted in 644 arrests. Credit: MOD/RAF photo, SAC Neil Chapman.4



that parallel and coordinated improvements in security, governance, and rural
development can produce a sustainable shift away from poppy cultivation. 213
    INL also supports MCN programs to reduce poppy supply throughout the
illicit cultivation cycle. The Ministry’s CNPI program engages Afghan leaders and
citizens on the dangers of narcotics cultivation, trade, and use through direct
engagement, radio, TV, and print. Although the CNPI campaign is a year-round
effort, INL noted that particular emphasis is placed on the pre-planting season,
when farmers and communities decide which crops to grow. 214

Counter-Narcotics Operations
In October 2011, the Counter-Narcotics Police of Afghanistan (CNPA) and
Drug Enforcement Administration (DEA) mentors conducted an operation in
Kandahar. They seized 10,000 kg of morphine base, 10,000 kg of sodium bicarbon-
ate, and 5,000 kg of morphine/opium precursor materials, according to INL. 215
   In November 2011, the ANP, the National Interdiction Unit (a specialized unit
of the CNPA) and their DEA mentors, the U.S. military, and ISAF Special Forces
targeted four narcotics production laboratories in Helmand. The joint effort
resulted in the seizure and destruction of approximately $4.6 million worth of
equipment and tools, precursor chemicals, and drugs. 216




          REPORT TO THE UNITED STATES CONGRESS |   JANUARY 30, 2012                    93
SECURITY




Counter-Narcotics Police of Afghanistan
This quarter, the force strength of the CNPA was 2,542, with 292 positions still
open, according to DoD. The United States provides 19 mentors to the CNPA;
7 others come from Canada, France, and the United Kingdom. DoD noted that
CENTCOM will support several CNPA-related programs in FY 2012, including
the following: 217
•	 Technical Investigative Unit (TIU): supports the Judicial Wire Intercept
   Program with interpreters, translators, and maintenance personnel. U.S.
   funding will allow the unit to purchase necessary system upgrades and
   replacement equipment. The TIU is a key actor in the successful identifica-
   tion and prosecution of narcotics traffickers.
•	 CNPA Advisor Program: mentors CNPA senior management with U.S. law
   enforcement executives. It also provides operational support teams of
   communications and medical personnel to accompany specialized counter-
   narcotics teams on missions. In addition, it trains the CNPA beyond the
   Counter-Narcotics Basic Course.
•	 Counter-Narcotics Training Academy: provides facilities and instructors for
   the basic 5-week counter-narcotics training course. Graduates of an 8-week
   police academy learn investigative techniques and study drug precursor
   chemicals and counter-narcotics laws.
•	 Facilities Sustainment: supports the operational and maintenance costs of
   CNPA facilities; an interim measure during the transition to Afghan responsi-
   bility for counter-narcotics efforts.
•	 Inter-agency Operations and Coordination Center (IOCC): aims to support
   IOCC intelligence analysts in producing time-sensitive counter-narcotics and
   counter-terrorism intelligence.
•	 Consolidated Heroin Database: supports the development of a database
   similar to the types being used in South America and the Caribbean to track
   cocaine trafficking.
•	 Joint Wire Intercept Program: enables the Joint Wire Intercept Program to
   continue working with the TIU in collecting and analyzing telephonic inter-
   cepts as evidence in criminal cases dealing with narcotics traffickers.
•	 Program Management Support: supports CNPA program management func-
   tions in Kabul, providing proper oversight by subject matter experts to all
   counter-narcotics programs in Afghanistan.
•	 Fixed-Wing Aviation: supports a fixed-wing aircraft used to move people and
   equipment to remote areas by U.S. counter-narcotics agencies and Afghan
   counter-narcotics and border agencies.
•	 DEA Air Transportation: supports DEA requirements for transporting people
   and equipment.




  94               SPECIAL INSPECTOR GENERAL |   AFGHANISTAN RECONSTRUCTION
                                                                SECURITY




   In addition, INL provides operations and maintenance support, mentoring,
and salary support for the DEA-mentored TIU, National Interdiction Unit (NIU),
and Sensitive Investigative Unit (SIU). NIU officers are now able to conduct
operations, request warrants, and execute them, according to INL. In addition,
evidence gathered by the TIU through court-ordered surveillance operations
increased the number of large-scale drug trafficking and related corruption cases
that were brought to the Criminal Justice Task Force. 218

Interdiction Operations and Eradication
From January 1 to December 31, 2011, the ANSF partnered with ISAF in conduct-
ing 521 narcotics interdiction operations, according to DoD. These operations
included partnered patrols, cordon-and-search actions, detentions, and over-
watch operations. They resulted in 644 arrests and led to the seizure of the
following narcotics contraband: 219
 •	 152,997 kg of hashish.
 •	 65,537 kg of opium.
 •	 21,275 kg of morphine.
 •	 7,045 kg of heroin.
 •	 139,349 kg of narcotics-related chemicals.
   Despite these operations, the amount of opium produced increased from
3.6 million kg in 2010 to 5.8 million kg in 2011, according to the UNODC. 220 Its
December 2011 Opium Survey noted that the total area under opium cultivation
had risen from 123,000 hectares in 2010 to 131,000 hectares in 2011. To conduct
this survey, the UNODC works with the MCN. 221
   This quarter, DoD noted that U.S. forces continued to provide transportation,
intelligence, airlift, and quick reaction support for interdiction operations, and
the DEA continued to mentor specialized Afghan counter-narcotics units. In
addition, the U.S. intelligence community continued to provide targeting and ana-
lytical support to Afghan law enforcement and military personnel at the strategic,
operational, and tactical levels. The Combined Joint Inter-agency Task Forces
Shafafiyat and Nexus, in coordination with the IOCC, also supported Afghan law
enforcement and military personnel. All operations were coordinated with and
received assistance from U.S. and coalition forces commanders on the ground. 222
   INL does not conduct eradication of poppy fields. Instead it provides financial
support to the Afghan government’s Governor-Led Eradication program to do so.
During the 2011 season, poppy was eradicated from 2,316 hectares through the
program. These figures were verified through satellite monitoring conducted by
the UNODC. 223




         REPORT TO THE UNITED STATES CONGRESS |   JANUARY 30, 2012          95
                                                             ENDNOTES




102. 	 See Appendix B; White House, “Statement of the President on H.R. 2055,” 12/23/2011.
103. 	 See Appendix B; DoD, response to SIGAR data call, 1/13/2012.
104. 	 NTM-A, “Afghan National Security Forces (ANSF) Strategic Review (ASR),” 10/26/2011, p. 36; NTM-A, “DCOM-Programs Overview,” 10/27/2011,
       p. 40.
105. 	 DoD, “Department of Defense Statement Regarding Investigation Results into Pakistan Cross-Border Incident,” 12/22/2011, accessed
       12/29/2011; DoD, “DoD Works to Repair Pakistan Relationship,” 12/2/2011, accessed 12/29/2011.
106. 	 DoD, “Department of Defense Statement Regarding Investigation Results into Pakistan Cross-Border Incident,” 12/22/2011, accessed
       12/29/2011; DoD, “DoD Works to Repair Pakistan Relationship,” 12/2/2011, accessed 12/29/2011.
107. 	 ISAF-IJC, response to SIGAR data call, 1/3/2012.
108. 	 ISAF-IJC, responses to SIGAR data call, 1/3/2012 and 10/4/2011.
109. 	 ISAF-IJC, response to SIGAR data call, 1/3/2012.
110. 	 DoD OIG, “Assessment of U.S. Government and Coalition Efforts To Develop the Logistics Sustainment Capability of the Afghan National
       Army,” DODIG-2012-028, 12/9/2011, p. v.
111. 	 NTM-A, “MoD/GS Assessment ACG-AD Jan–Mar 2011,” p. 3.
112. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
113. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
114. 	 CSTC-A, response to SIGAR data call, 1/3/2012; CSTC-A, ANP PERSTAT, 12/2011.
115. 	 DoD, “Report on Progress Toward Security and Stability in Afghanistan,” 10/2011, p. 4.
116. 	 ISAF, “ISAF Monthly Data: Trends through November 2011,” 12/20/2011, pp. 5–6, accessed 1/13/2012.
117. 	 UN Secretary General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/13/2011, p. 3.
118. 	 SIGAR, “Quarterly Report to the United States Congress,” 10/30/2011, p. 63.
119. 	 OSD, response to SIGAR data call, 1/5/2012.
120. 	 OSD, response to SIGAR data call, 1/5/2012.
121. 	 OSD, response to SIGAR data call, 1/5/2012.
122. 	 UN Secretary General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/13/2011, p. 4.
123. 	 DoS, response to SIGAR data call, 1/13/2012.
124. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
125. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
126. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
127. 	 DoS, response to SIGAR data call, 1/13/2012.
128. 	 DoD, “Department of Defense Budget, Fiscal Year 2012,” 2/2011, pp. 36–37, 41.
129. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
130. 	 CSTC-A, response to SIGAR data call, 1/9/2012.
131. 	 DoS, response to SIGAR data call, 1/13/2012.
132. 	 DoD, “Department of Defense Budget, Fiscal Year 2012,” 2/2011, p. 13.
133. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
134. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
135. 	 CSTC-A, response to SIGAR data call, 1/3/2012.




                                                        96                 SPECIAL INSPECTOR GENERAL |   AFGHANISTAN RECONSTRUCTION
                                                           ENDNOTES




136. 	 DoS, response to SIGAR data call, 1/13/2012.
137. 	 DoD, “Department of Defense Budget, Fiscal Year 2012,” 2/2011, p. 5.
138. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
139. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
140. 	 DoS, response to SIGAR data call, 1/13/2012.
141. 	 DoD, “Department of Defense Budget, Fiscal Year 2012,” 2/2011, pp. 24, 26.
142. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
143. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
144. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
145. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
146. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
147. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
148. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
149. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
150. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
151. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
152. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
153. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
154. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
155. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
156. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
157. 	 DoS, response to SIGAR data call, 1/13/2012.
158. 	 CSTC-A, ANP PERSTAT, 12/2011; CSTC-A, ANP PERSTAT, 9/2011.
159. 	 DoS, response to SIGAR data call, 1/13/2012.
160. 	 DoD, “Department of Defense Budget, Fiscal Year 2012,” 2/2011, p. 72.
161. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
162. 	 UNDP, “Law and Order Trust Fund for Afghanistan,” 4/2011, accessed 1/9/2012.
163. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
164. 	 IMF, Country Report No. 11/330, 11/2011, p. 4.
165. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
166. 	 DoS, response to SIGAR data call, 1/13/2012.
167. 	 DoD, “Department of Defense, Budget Fiscal Year 2012,” 2/2011, p. 55.
168. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
169. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
170. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
171. 	 DoS, response to SIGAR data call, 1/13/2012.
172. 	 DoD, “Department of Defense Budget, Fiscal Year 2012,” 2/2011, p. 50.




         REPORT TO THE UNITED STATES CONGRESS |   JANUARY 30, 2012                    97
                                                             ENDNOTES




173. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
174. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
175. 	 DoS, response to SIGAR data call, 1/13/2012.
176. 	 DoD, “Department of Defense Budget, Fiscal Year 2012,” 2/2011, p. 65.
177. 	 CSTC-A, response to SIGAR data call, 1/17/2012.
178. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
179. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
180. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
181. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
182. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
183. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
184. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
185. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
186. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
187. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
188. 	 OSD, response to SIGAR data call, 4/3/2011.
189. 	 DoD, “Department of Defense Budget, Fiscal Year 2012,” 2/2011, p. 82.
190. 	 DoD, “Department of Defense Budget, Fiscal Year 2012,” 2/2011, p. 3.
191. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
192. 	 UN Secretary General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/13/2011, pp. 4–5.
193. 	 CENTCOM, “Contractor Support of U.S. Operations in the USCENTCOM Area of Responsibility, Iraq, and Afghanistan,” 4/6/2011, accessed
       10/13/2011; CENTCOM, “Contractor Support of U.S. Operations in the USCENTCOM Area of Responsibility, Iraq, and Afghanistan,” 7/7/2011,
       accessed 10/13/2011.
194. 	 SIGAR, “Quarterly Report to the United States Congress,” 10/30/2010, p. 64; SIGAR, “Quarterly Report to the United States Congress,”
       4/30/2011, p. 55; SIGAR, “Quarterly Report to the United States Congress,” 7/30/2011, p. 59.
195. 	 DoD, “Report on Progress Toward Security and Stability in Afghanistan,” 10/2011, pp. 71–72.
196. 	 DoD, “Report on Progress Toward Security and Stability in Afghanistan,” 10/2011, pp. 71–72.
197. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
198. 	 CSTC-A, response to SIGAR data call, 1/3/2012.
199. 	 NTM-A, “ISAF Welcomes Afghan Government’s Private Security,” 3/26/2011, accessed 1/12/2012.
200. 	 CSTC-A, response to SIGAR data call, 1/3/2012; CSTC-A, response to SIGAR vetting, 1/19/2012.
201. 	 USFOR-A, response to SIGAR data call, 1/3/2012.
202. 	 DoS, PM/WRA, response to SIGAR data call, 1/4/2012.
203. 	 DoS, PM/WRA, response to SIGAR data call, 1/4/2012.
204. 	 DoS, PM/WRA, response to SIGAR data call, 1/4/2012.
205. 	 DoS, PM/WRA, response to SIGAR data call, 1/4/2012.
206. 	 See Appendix B.




                                                        98                 SPECIAL INSPECTOR GENERAL |   AFGHANISTAN RECONSTRUCTION
                                                                  SECURITY




207. 	 INL, response to SIGAR data call, 1/3/2012.
208. 	 INL, response to SIGAR data call, 1/3/2012.
209. 	 INL, response to SIGAR data call, 1/3/2012.
210. 	 INL, response to SIGAR data call, 1/3/2012.
211. 	 INL, response to SIGAR data call, 1/3/2012.
212. 	 INL, response to SIGAR data call, 1/3/2012.
213. 	 INL, response to SIGAR data call, 1/3/2012.
214. 	 INL, response to SIGAR data call, 1/3/2012.
215. 	 INL, response to SIGAR data call, 1/3/2012.
216. 	 INL, response to SIGAR data call, 1/3/2012.
217. 	 DoD, response to SIGAR data call, 1/4/2012.
218. 	 INL, response to SIGAR data call, 1/3/2012.
219. 	 DoD, response to SIGAR data call, 1/4/2012.
220. 	 UNODC, “Afghanistan Opium Survey 2011,” 12/2011, p. 1.
221. 	 UNODC, “Afghanistan Opium Survey 2011,” 12/2011, p. 1.
222. 	 DoD, response to SIGAR data call, 1/4/2012.
223. 	 INL, response to SIGAR data call, 1/3/2012.




           REPORT TO THE UNITED STATES CONGRESS |   JANUARY 30, 2012   99
GOVERNANCE




100
                                                       GOVERNANCE




GOVERNANCE
As of December 31, 2011, the United States had provided nearly $20.3 billion to
support governance and economic development in Afghanistan. 224 This quarter,
U.S.-funded programs continued to address persistent problems related to corrup-
tion, reintegration, governmental control, rule of law, and governmental capacity.

10 YEARS OF RECONSTRUCTION                                                                         RECONS
During the first phase of the reconstruction effort, the Afghan government and                  OF




                                                                                                        TR
                                                                                        YEARS
the international community concentrated on implementing the Bonn Agreement,




                                                                                                          UCTION
which provided a political roadmap to achieve a representative, democrati-
cally elected government under a new constitution. This period ended with the




                                                                                     10
inauguration of a National Assembly on December 5, 2005. Although the Afghan
                                                                                          20
                                                                                                 0 1 –2011




                                                                                                        •
                                                                                        •
government made progress standing up institutions and began to create a legal
framework, it did not have the capacity to manage programs, project authority,
or deliver most basic services. During the reconstruction surge, the United States
and the international community implemented programs to build governing
capacity, advance the rule of law, promote accountability, deter corruption, and
support local governance. These efforts have had mixed results, undermined by
pervasive corruption, continued lack of security, and repeated attacks on govern-
ment officials. On the eve of transition, improving governance remained a critical
and elusive goal of the reconstruction effort.

KEY EVENTS THIS QUARTER
This quarter, a number of events took place that affected Afghanistan’s domes-
tic and international political future. International conferences in Germany and
Turkey and a consultative Loya Jirga in Kabul all reached important recommen-
dations and conclusions on the future direction of governance in Afghanistan. In
addition, the 2010 elections controversy effectively ended this quarter when the
Wolesi Jirga established a quorum.

Special Tribunal and Wolesi Jirga Controversies
On October 5, 2011, the Coalition for Rule of Law ended its boycott of the Wolesi
Jirga, enabling that body to establish a quorum three days later. This concluded
the dispute that had taken place since the September 2010 elections, according
to both the U.K. Foreign and Commonwealth Office and the United Nations (UN)




         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2012       101
                                                             GOVERNANCE




                                                             Secretary-General. 225 However, the coalition reiterated its opposition to the
                                                             Independent Election Commission’s replacement of nine sitting members of the
                                                             Wolesi Jirga. 226


                                                             Loya Jirga
                                                             In November, at a traditional Loya Jirga in Kabul, President Hamid Karzai secured
                                                             the Jirga’s support for a strategic partnership with the United States, according
                                                             to the Department of State (DoS). Once signed, the executive branch planned to
The Afghan government described the                          present the partnership agreement to the National Assembly for final approval. 227
November gathering as a “traditional Loya                    Despite speculation in the media about his intentions, Karzai reiterated his com-
Jirga,” rather than a “constitutional Loya                   mitment to stand down as president in 2014, according to the U.K. Foreign and
Jirga.” This designation meant that the                      Commonwealth Office. 228
gathering was consultative and not legally                      The Loya Jirga published 76 recommendations, including the need to seek an
binding. The Constitution allows for this                    agreement with the United States that gives the Afghan government more control
type of Jirga, according to DoS. About 20%                   over the use and conduct of night raids and the operations of detention centers. 229
of the 2,000 Afghan representatives invited                  Among other resolution issues, it resolved that the process of reconciliation with
to attend were women, and at least one
                                                             former insurgents should continue and, in the face of difficulties in establish-
woman participated in each of the Loya
                                                             ing dialogue with the Taliban, that talks between Afghanistan, Pakistan, and the
Jirga’s 41 committees, according to the U.K.
Foreign and Commonwealth Office.                             Taliban should be held at a “known address.” It also recommended a review of the
                                                             budget and structure of the High Peace Council. 230 DoS noted that the gathering
Sources: DoS, response to SIGAR data call, 12/30/2011;       called for the Council to broaden its composition to better reflect the diversity of
U.K. Foreign and Commonwealth Office, “Afghanistan Monthly
                                                             opinions on reconciliation. 231 In addition, the gathering agreed to assure neighbor-
Progress Report: November 2011,” 12/8/2011, p. 2.
                                                             ing countries that foreign troops operating in Afghanistan would not be allowed
                                                             to conduct operations outside the country. 232
                                                                The UN Secretary-General said that—despite insurgent threats to the large
                                                             gathering of high-level officials—the Loya Jirga attracted only two security inci-
                                                             dents: an attack on a selection meeting for representatives, and two rockets fired
                                                             at the main meeting that caused minimal damage to the surrounding area. 233 DoS
                                                             agreed that the Jirga was a security success. 234

                                                             Bonn Conference
                                                             On December 5, 2011, at the Bonn Conference in Germany, representatives of
                                                             the Afghan government and the international community agreed on a number of
                                                             issues that will affect post-transition Afghanistan. DoS noted that this was the
                                                             first major conference led independently by Afghanistan which demonstrated the
                                                             increased capacity and responsibility of the Afghan government. Women made up
                                                             about 25% of Afghanistan’s official delegation. 235 Participants agreed on a number
                                                             of conclusions related to governance, including the following: 236
                                                              •	 The Afghan Constitution will remain the basis of the political system, and the
                                                                 Afghan government will uphold its obligations on international human rights,
                                                                 including gender equality.
                                                              •	 Democratic institutions require legitimate and effective civilian authority
                                                                 embodied in a democratically elected government and served by quality insti-
                                                                 tutions. Although Afghanistan has made progress, work is still required to




                                                              102                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




   bolster state institutions and improve governance; state institutions should
   become more responsive to Afghans’ civil and economic needs.
•	 Consistent with the transition process, international partners and donors will
   continue to shift from delivering direct services to supplying support for and
   building capacity in Afghan institutions. This shift will include phasing out all
   Provincial Reconstruction Teams (PRTs).
•	 The decade from 2015 to 2024 will be one of transformation, during which
   the international community will continue to contribute to security and
   economic development to ensure that the transition is sustainable and
   irreversible.
•	 An Afghan-led reconciliation process should continue, be inclusive, and be
   regionally supported.
    DoS stated that the United States would work with the Afghan government and
its international partners to make progress on formalizing mutual commitments at
two upcoming events: the May 2012 NATO Summit in Chicago and the July 2012
Donor Coordination Conference in Tokyo. 237

Istanbul Conference
On November 2, 2011, representatives of Afghanistan and regional nations—
including Turkey, Iran, Pakistan, Tajikistan, Russia, India, and China—adopted
a series of commitments at the Istanbul Process on Regional Security and
Cooperation for a Secure and Stable Afghanistan. 238 The U.K. Foreign and
Commonwealth Office noted that this conference established the first regional
framework for cooperation on political and security issues instead of just eco-
nomic considerations. 239 The regional nations agreed to support a sovereign,
independent, and democratic Afghanistan, according to DoS, and agreed to the
following priorities: 240
 •	 an Afghan-led reconciliation process.
 •	 the transition of responsibility for security.
 •	 respect for territorial borders.
 •	 non-intervention in the internal affairs of other states.
 •	 the dismantling of terrorist sanctuaries.
 •	 a dignified and orderly return of Afghan refugees.
 •	 regionally integrated economic growth through endeavors such as the New
    Silk Road initiative.
DoS noted that the United States supported the conference, welcomed the
agreements, and will continue to support deeper regional cooperation between
Afghanistan and its neighbors. 241

Partnership with India
On October 4, 2011, President Karzai signed a partnership agreement between
Afghanistan and India that covers political, security, trade, and economic coop-
eration. The agreement will be implemented under a partnership council headed
by each country’s Minister of Foreign Affairs; the council will convene annually.



         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2012         103
GOVERNANCE




The council aims to improve capacity development and education, and to estab-
lish greater social, cultural, and civil society relations, according to the UN
Secretary-General. 242

UN General Assembly Resolution
On November 21, 2011, the UN General Assembly adopted a wide-ranging resolu-
tion aimed at moving Afghanistan closer to a stable economic and political future.
The Assembly also urgently appealed to the international community to maintain
all types of assistance to the Afghan government. The resolution stressed the need
for input from a wide array of groups in the country, including minorities and
women, and praised the government’s reconciliation and reintegration efforts.
The resolution also recognized the need for further international support in the
development, training, and professionalization of the Afghan National Security
Forces (ANSF) after the 2014 transition of responsibility for security. 243
    During the discussion of the resolution, the head of the European Union’s UN
delegation noted that although the Afghan government was making progress in
implementing its National Priority Programs, it also needed to follow through on
reforms in the public administration and justice systems. 244

RECONCILIATION AND REINTEGRATION
The assassination in September 2011 of the head of the High Peace Council,
Burhanuddin Rabbani, had significant political and security ramifications this
quarter, according to the UN Secretary-General. Rabbani’s death intensified
internal political maneuvering and weakened trust between ethnic groups. His
death also sparked debate on the future of the peace process and the strategic
partnership with the United States. Speculation about the responsibility for the
assassination had a negative impact on relations with Pakistan. 245 On November 1,
2011, a trilateral meeting between Afghanistan, Pakistan, and Turkey produced
some progress in rebuilding the relationship between Afghanistan and Pakistan
by establishing a joint mechanism to investigate the assassination. 246 The National
Assembly also called for international cooperation in investigating the attack. 247
   The attack did not, however, derail the reintegration process. The leader of the
Afghan Peace and Reintegration Program (APRP), who was injured in the attack
on Rabbani, returned to lead the program this quarter. 248 The pace of reintegration
remained fairly consistent, and the program continued to progress in developing
capacity and support for reintegration, DoS noted. 249 More than 650 insurgents
formally reintegrated this quarter—mostly in the north and west. 250
   The assassination of Rabbani did slow the work of the High Peace Council.
The General Assembly of the Council failed to meet until November 28, 2011,
when the Council and the APRP’s Joint Secretariat held a three-day workshop to
review the Loya Jirga’s recommendations on the peace process. Later that month,
the Council met with President Karzai to offer suggestions on how to alter the
makeup of the Council and broaden its activities in the provinces. 251




 104                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                           GOVERNANCE




   In other developments, on January 3, 2012, the Taliban reached an initial agree-
ment with the international community to establish its first political overseas
office in Qatar. It will be a liaison office for discussing reconciliation issues with
the Afghan government and the international community, according to Voice of
America and the Civil-Military Fusion Centre. Members of the High Peace Council
welcomed the announcement, according to Voice of America. 252

Afghan Peace and Reintegration Program
This quarter, according to DoS, 650 former insurgents enrolled in the APRP.
That brought the total number of enrollees to 2,970. The number enrolled has
increased steadily since the program began, as shown in Figure 3.29. The United
States and its international partners provide funding for the APRP, which began in
September 2010. As of October 2011, about $20 million of the APRP Trust Fund’s
$94 million budget for the current Afghan fiscal year had been disbursed. DoS
expected the pace of disbursement to increase as more projects begin. 253
   Reintegration is an essential part of the International Security Assistance
Force’s (ISAF) broader counter-insurgency campaign. The ISAF Force
Reintegration Cell (F-RIC) noted that recent increased military force has put
added pressure on insurgents to consider reintegration to avoid being killed or
captured. 254 DoS noted that as a result of the September 2011 reintegration confer-
ence in Kandahar, all the provinces were producing action plans this quarter on
how to implement and accelerate reintegration. 255
   Reintegration efforts in the south and east concentrated on conducting out-
reach and establishing formal reintegration structures, according to DoS. 256 The
ISAF F-RIC noted that the number of reintegrees in the south and east has grown


FIGURE 3.29

REINTEGREES UNDER THE APRP, 2010–2011

3,000


2,500


2,000


1,500


1,000

  500
As of      Dec 31                     Mar 31               Jun 30                  Sep 30                Dec 31
            2010                      2011                  2011                    2011                  2011
Note: Numbers affected by rounding.

Sources: DoS, responses to SIGAR data call, 12/30/2011, 10/6/2011, 7/1/2011, 4/15/2011, and 1/12/2011.




              REPORT TO THE UNITED STATES CONGRESS                  I   JANUARY 30, 2012                 105
GOVERNANCE




slowly, although many local negotiations are taking place in those areas. 257 It
estimated that about 80% of insurgents in the south are fighting for reasons other
than ideology. The ISAF F-RIC noted that if insurgents’ grievances are addressed
appropriately, it should be possible to draw them back into society and make the
remaining, ideologically motivated fighters irrelevant. 258 Various local reintegra-
tion bodies and peace committees were working on identifying grievances and
resolutions, although these efforts had not yet produced significant increases in
numbers of reintegrees. 259 As of December 8, 2011, the APRP had conducted out-
reach and discussion with an additional 1,200 potential reintegrees. 260
   According to the ISAF F-RIC, four factors should help the APRP gain momen-
tum in the coming quarter: 261
•	 ISAF’s 2011 surge had a debilitating effect on the insurgency, particularly in
   the southwest.
•	 Events such as the Bonn and Istanbul conferences and the Loya Jirga have
   demonstrated international and domestic political support for the peace
   process (22 of the Loya Jirga’s 76 final resolution articles related to the peace
   process).
•	 The APRP has improved its capacity and has expanded its presence to every
   province.
•	 During the winter in Afghanistan, many insurgent leaders leave the country,
   which leaves lower-level insurgents without direct leadership.

Capacity Development for Reintegration
The capacity of the Provincial Joint Secretariat Teams (PJSTs), which administer
the APRP regionally, varies considerably by province—as does the implementa-
tion of the program. Some PJSTs, like the one in Kunar, actively conduct outreach
and promote grievance resolution, according to DoS. Capacity at other PJSTs is
significantly limited. To address the problem, the APRP’s Joint Secretariat plans to
hold a series of training sessions throughout 2012. 262
   The United States supports the APRP’s national and provincial teams. U.S.
personnel in ISAF assist with the Joint Secretariat’s training programs, and U.S.
military and civilian personnel aid PJST capacity building. Working with the
UN Development Programme (UNDP) and the U.S. Agency for International
Development (USAID), ISAF has developed a program to build capacity in the
PJSTs. According to USAID, ISAF is reviewing whether this program can be
funded through DoD’s Afghanistan Reintegration Program. 263

Reintegration Progress
Almost 90% of the 2,970 reintegrees come from the north and the west, as shown
in Figure 3.30. Reintegration efforts in the southern provinces faced a number
of challenges this quarter, according to DoS. Rabbani’s assassination caused the
High Peace Council and Joint Secretariat of the APRP to enter a mourning pro-
cess; as a result, their support to reintegration officials slowed and they did not
offer guidance on issues such as a policy on weapons for reintegrees.




 106                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                          GOVERNANCE




   In Kandahar, disbursement of funding for the PJSTs by the central govern-
ment remained ineffective; however, the central government was working toward
providing workshops and training to improve disbursements. DoS noted that
major shuras held in October 2011 in Kandahar City facilitated more dialogue
about reintegration between all levels of government. It added that provincial and
district governments in Kandahar provided more support for reintegration this
quarter than the central government, according to DoS. 264
   Reintegration efforts in the east also made uneven progress this quarter. In
Nangarhar, a dispute between the provincial governor and the High Peace Council
over the composition of the provincial peace council stalled efforts, accord-
ing to DoS. The governor tried to establish a peace council on his own, but the
High Peace Council declared it illegitimate. While provincial officials awaited a
resolution, outreach efforts began at the district level and had positive results. In
Paktika this quarter, DoS noted that only one senior commander and his fighters

FIGURE 3.30

REINTEGREES BY REGIONAL COMMAND




                                                                        RC-NORTH
                                                                           TOTAL:

                                                                        1,684

                       RC-WEST
                           TOTAL:                                           RC-EAST
                        979                                                    TOTAL:

                                                                            157
                                                        RC-SOUTH
                                                          TOTAL:
                                                                                                0–500
                                                         131
                  RC-SOUTHWEST                                                                  501–1,000
                          TOTAL:

                         19                                                                     1,000+




Source: DoS, response to SIGAR data call, 12/30/2011.




             REPORT TO THE UNITED STATES CONGRESS                  I   JANUARY 30, 2012   107
GOVERNANCE




reintegrated. It was unclear whether the central government had provided any
support or guidance for reintegration efforts since the initial training of the
PJST. However, DoS noted that the governor and other officials recognized the
importance of reintegration for stabilizing the province. In Paktiya, the provincial
governor has publicly endorsed the APRP, but district officials have not. 265

Reintegrees
Successful reintegration relies on building trust with seasoned insurgents who
have been fighting for many years. Political, social, and religious leaders across
provinces are engaged throughout the process to build insurgents’ confidence in
reintegration, according to the ISAF F-RIC. These confidence-building measures
are often carried out village by village. 266 They include addressing economic
opportunities for reintegrees and their personal safety and legal status after
reintegration.

Economic Opportunities
Although some unsuccessful peace programs in the past paid insurgents to stop
fighting, the APRP aims to provide an alternative path to reintegration by provid-
ing support services to the individual and the community. According to the ISAF
F-RIC, those previous programs failed because most insurgents resumed fighting
after the pay stopped. 267
    The APRP gives reintegrees a transitional allowance of $120 per month for
three months. The ISAF F-RIC noted that this money is not given in exchange for
a halt to fighting but as a means of supporting the fighter and his family during the
process of disengagement. 268 DoS noted that this allowance had been provided to
2,659 reintegrees as of December 30, 2011. 269
    The APRP also provides community recovery benefits that include demining,
agricultural, small grants, the National Solidarity Program, and vocational and
literacy projects, according to DoS. Because the APRP provides these benefits to
communities rather than just to reintegrees, the APRP’s Joint Secretariat reported
that more than 29,000 community members and reintegrees had benefited from
these programs by the end of December 2011. 270

Safety Post-Reintegration
Retaliation against reintegrees by insurgents remained low this quarter, according
to DoS; however, it noted that many potential reintegrees are concerned about
their safety. To address security concerns, the APRP’s Joint Secretariat is encour-
aging more coordination between the program and the ANSF. The NATO Training
Mission - Afghanistan (NTM-A) is training ANSF personnel in how the APRP oper-
ates. In addition, the Joint Secretariat and the Afghan National Army are working
to cooperate more closely to improve the security of reintegration events and to
improve logistical support for APRP provincial personnel. 271




 108                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




Criminal Prosecution and Recidivism
Insurgents enrolled in the APRP are not immune from prosecution. There is no
uniform policy for how to deal with all insurgents. According to the ISAF F-RIC,
the Afghan government makes prosecution decisions case by case. 272
   The ISAF F-RIC noted that the recidivism rate in the program is extremely
low: less than 10 of the 2,970 enrollees have rejoined the insurgency. The low
rate stems from the reintegration process; when an insurgent enrolls, he makes
a commitment to rejoin Afghan society, and his community then brings him back
into its society. This process establishes a moral contract based on the Pashtun
code of afwa. Under the code, when a person asks for forgiveness from his com-
munity, and the community forgives that person, they are then locked together in
a contract. 273

Public Perception of Reintegration
A large majority of Afghans (82%) support their government’s efforts in the rec-
onciliation and reintegration process, according to an annual Asia Foundation
survey that is partially funded by USAID. The survey, published in October 2011,
found that the high level of support is virtually unchanged from the 2010 survey.
That support is highest among Pashtuns (86%) and lowest among Hazaras (70%).
The survey found that Afghans are largely optimistic about the ability of the
reconciliation process to stabilize the country: 73% thought the process would be
successful, similar to the proportion who thought so in 2010. 274

NATIONAL AND SUBNATIONAL GOVERNANCE
The Asia Foundation survey found that a large majority of Afghans (73%) have a
positive assessment of the central government, the same as in 2010—despite the
general perceptions of high levels of corruption. A slightly larger share (80%) have
a positive assessment of their provincial governments. The highest concentration
of positive assessments for provincial governments was in the northwest (88%),
and the lowest was in the southwest (70%). 275
   The survey found that 62% of Afghans had confidence in public administration,
the highest share since 2007. A majority of respondents also had confidence in
the government’s ministers (56%), municipal governments (55%), and provincial
councils (67%). 276

National Assembly
On October 15, 2011, the Wolesi Jirga approved a $51 million supplemental
budget to recapitalize Kabul Bank, according to the UN Secretary-General. 277
DoS considered this the most important legislation passed by the lower house
this quarter. The Wolesi Jirga also confirmed the nominees to head the National
Directorate of Security and the Central Bank (Da Afghanistan Bank, or DAB). DoS
noted that the Wolesi Jirga’s confirmation votes and bank recapitalization legisla-
tion demonstrated a return to normalcy and an improvement in relations between
the legislature and the executive. 278 As of December 13, 2011, however, at least



         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2012         109
                                                             GOVERNANCE




                                                             seven acting Assembly members and three new Supreme Court justices remained
                                                             unconfirmed, according to the UN Secretary-General. 279
                                                                The Asia Foundation survey found that a sizeable majority of Afghans (70%)
                                                             believe that the National Assembly is addressing the major problems of the coun-
                                                             try. 280 Slightly fewer (59%) believe that their Assembly member is addressing their
                                                             problems. Rural residents were more likely to believe that their Assembly mem-
                                                             ber was addressing their issues (62%) than were urban residents (51%). 281

                                                             USAID’s Afghanistan Parliamentary Assistance Program
                                                             This quarter, USAID extended its Afghanistan Parliamentary Assistance Program
                                                             (APAP) until June 30, 2012; the budget for the extension is more than $4.1 million,
                                                             bringing the total budget for the program to $41.1 million. USAID noted that it
                                                             expects another extension of the APAP until 2015 so the program can continue its
                                                             support throughout the National Assembly’s current term. 282
                                                                The APAP provides technical assistance to help National Assembly members
                                                             and staff carry out effective legislation, oversight, and outreach. USAID noted
                                                             that the Assembly has improved its oversight and legislative capabilities and
                                                             conducted more competent reviews of the budget and ministerial candidates.
                                                             The APAP also established a budget office and training institute for the Assembly.
                                                             According to USAID, the Assembly requires a great deal of assistance from the
                                                             APAP: technical assistance to the budget committee, capacity building for legisla-
                                                             tive committees, and development training for Assembly members. To make the
                                                             results of such assistance sustainable, USAID has planned for the Assembly to
                                                             take over some responsibilities from the APAP in FY 2012, including legislation
                                                             tracking. 283

                                                             Budget Execution
                                                             This quarter, the U.S. Department of Treasury (Treasury) noted that government
                                                             ministries continue to have trouble executing their development budgets. 284
                                                                Treasury cited several challenges ministries face: 285
                                                             •	 They lack the technical capacity to manage and implement projects.
                                                             •	 They face long and arduous procurement processes.
                                                             •	 They establish unrealistic and exaggerated budgets for projects.
Afghanistan’s operating budget funds                         •	 They do not properly monitor and close out donor funds from previous
wages and salaries, goods and services,
                                                                years.
and acquisition of assets. Its development
budget covers capital expenditures in                           Treasury and other international advisors partner with the Ministry of Finance
governance, rule of law, infrastructure,                     (MoF) to provide technical assistance to underperforming ministries on budget
education, health, agriculture, rural                        monitoring, evaluation, and execution; the allotment process; and other areas.
development, and other areas.                                These training partners have also educated ministries on procurement and project
                                                             planning to improve the technical capabilities of staff. Treasury pointed to a num-
Source: Treasury, responses to SIGAR data call, 12/30/2011
and 9/24/2009.                                               ber of activities that its technical assistance supports: 286
                                                             •	 Implementing the provincial budget pilot for the SY 1391 (2012/2013) finan-
                                                                cial year: For the first time, the MoF issued detailed directions to four line
                                                                ministries and an independent agency on how provincial governments should



                                                              110                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




   submit specified programs to the national budget so that there are clear,
   transparent links between provincial requirements and central government
   programs. Early evidence suggests that the provincial budget pilot signifi-
   cantly improved provincial governments’ knowledge of the Afghan financial
   system, how to improve coordination with their line ministry, and how to
   access resources through the system.
•	 Providing provincial and district officials with reference material, presenta-
   tions, and focused meetings on numerous topics: Treasury advisors traveled
   to more than 21 provinces to increase local officials’ understanding of the
   Afghan budget system and to advise officials on their role in that system.
•	 Encouraging increased use of the reporting functions of the Afghanistan
   Financial Management Information System (AFMIS): Treasury guidance
   has emphasized the importance of financial reports for understanding what
   fiscal resources are available locally and for monitoring budget execution.
   Treasury noted that provincial governments are increasing their use of
   AFMIS reports, which has encouraged discussions on how to improve budget
   and expenditure management at the provincial level.
   Treasury expected that ministries will gradually improve their execution of
the developmental budget over the next Afghan fiscal year. In the long term, the
Afghan government may need to move to a more automated system for budget
                                                                                         FIGURE 3.31
development and execution, and procurement. 287
                                                                                         PROVINCES IN EASTERN AFGHANISTAN
Provincial and District Governance
The extent of local governmental control continued to fluctuate throughout south-
ern and eastern Afghanistan. Local officials often faced difficulties reaching and
governing in more rural and less secure areas. In addition, PRTs and Development
Support Teams (DSTs) continued to develop a framework for the transition
process.


Eastern Afghanistan
The security situation varied across the eastern provinces this quarter (Figure 3.31).
Significant areas in Paktika remained too dangerous for government officials to
travel, especially where the road infrastructure is poor. However, some improve-                                          NANGARHAR
ments in security in the north of the province allowed officials to travel more
freely between Sharana and Orgun. 288
                                                                                                           PAKTIYA
   Farther north, in Paktiya, security remained poor in rural areas, preventing
government officials from traveling throughout the province. Assassinations and                                      KHOWST

targeting of provincial and district officials have undermined officials’ willingness
to travel to rural areas without a significant ANSF guard. 289
   In Nangarhar, security continued to improve around Jalalabad and in the
                                                                                                 PAKTIKA
adjacent districts of Beshud, Surkh Rod, Kama, and Kuz Kunar; however, it deteri-
orated in the rural areas outside these districts. DoS noted that district governors
in the outlying areas are taking actions on their own to extend the government’s
reach. 290



         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2012           111
GOVERNANCE




   In Khowst, governmental control remained unchanged from previous quarters.
The Afghan government controlled Khowst City and nearby built-up areas—
mostly along the Gardez-Khowst-Ghulam Khan road corridor—and the nearby
district of Jaji Maidan. Control was limited in the rural districts of Musa Khel,
Qalandar, Bak, Sabari, and Terezayi in the north and Spera in the south. 291

Helmand Province
Throughout central Helmand, Afghan officials were able to travel in urban areas;
however, more senior officials typically required ISAF and ANSF support in rural
areas, according to DoS. This quarter, officials were able to travel on significantly
more of the major roads into the northern districts of Kajaki and Musa Qala, but
mobility decreased in the northern district of Now Zad. Local officials maintained
a very active outreach effort to build support for the government, which is criti-
cally important in northern Helmand. To further this effort, Helmand’s PRT and
DSTs regularly engaged local government leaders and also provided budgeting
and planning training to district officials. 292

Kandahar Province
The Kandahar PRT continued to assist with meetings that facilitate stronger
ties between the provincial and district governors, line directors, the provincial
council, and ministry officials in districts. According to DoS, these meetings were
driven more by Afghans and were less reliant on the PRT for facilitation. In addi-
tion, security improvements in Kandahar this quarter allowed provincial officials
to travel by road to districts outside Kandahar City. 293

PRT and DST Transition
When areas of Afghanistan transition to full Afghan control, the PRTs and DSTs
in those areas will shut down, according to DoS. The U.S. Embassy Kabul and the
implementing partners will shift to monitoring and implementing the development
projects that remain unfinished in each area. Personnel at “enduring presence
locations”—the nature of which is still under negotiation with the Afghan
government—will also help in the monitoring and implementing of remaining
development projects. All U.S.-led PRTs and DSTs have developed action plans
that outline how they can transition to achieve U.S. goals. The Embassy was also
creating PRT plans that outline a strategic framework for how the U.S. presence
will evolve throughout the transition process. 294

Capacity Building for Public Administration
This quarter, the UN-supported Afghanistan Subnational Governance Program
established agreements to give technical expertise and procure goods and
services for directorates of the Independent Directorate of Local Governance
(IDLG), 32 provincial governors’ offices, provincial councils, and municipalities.
According to the UN Secretary-General, these agreements are an important step
toward establishing methods for delegating some financial authority to the sub-
national governments. 295



 112                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




Afghanistan Civil Service Support
On October 31, 2011, the MoF and USAID signed a $15 million, 15-month grant
agreement to improve the ability of the Afghan Civil Service Commission (CSC)
to provide basic government services. USAID noted that adequate government
service delivery requires quality civil servants. Through the grant, USAID seeks to
(1) bolster the capacities necessary to expand the civil service and (2) make
reforms within the CSC in the critical areas of human resources, financial and
procurement management, and organizational governance. 296
   As of October 31, 2011, USAID considered that CSC staff members were dem-
onstrating strong planning and budgeting skills. The CSC aims to become more
efficient and effective in its services to citizens. USAID has expanded its on-
budget assistance to the CSC because of the Commission’s improvements; USAID
has worked closely with the CSC since 2007. 297

USAID’s Subnational Governance Structures Project
USAID’s Subnational Governance Structures Project, which began in June 2008,
aids the development of provincial councils but has been hampered by poor
security conditions. As of December 31, 2011, USAID had disbursed more than           SIGAR AUDIT
$9.4 million of the $11.8 million project ceiling. Project staff had facilitated 93
                                                                                      In an ongoing audit, SIGAR is assessing
events held by provincial councils, including stakeholder meetings, development
                                                                                      USAID’s efforts to conduct required
project visits, and planning sessions, according to USAID. They had advised
                                                                                      financial audits of its project awards.
IDLG leaders on formulating and implementing the local governance aspects of
                                                                                      USAID’s obligations for reconstruction
the National Priority Program, which is designed to expand social and economic
                                                                                      in Afghanistan totaled approximately
opportunities. They had also conducted a series of capacity-development work-
                                                                                      $11.7 billion for FY 2002–2010,
shops with the IDLG. The project’s implementers are coordinating with the UN’s
                                                                                      according to the USAID Office
Afghanistan Subnational Governance Program to ensure that the two similar
                                                                                      of Inspector General. For more
programs do not overlap or promote different strategies to provincial councils. 298
                                                                                      information, see Section 2, page 38.
   USAID noted that the deterioration of security in several provinces, includ-
ing Kabul, has forced postponements and cancellations of project meetings and
events. These growing security challenges are the main obstacle to successful
project implementation, according to USAID. 299

Afghanistan Social Outreach Program
In November 2011, USAID downsized the Afghanistan Social Outreach Program
(ASOP). As of December 1, 2011, the program had expended $33.5 million of the
$34.5 million that USAID had obligated for it and was in its close-out stage. USAID
noted that it is designing a new program to meet the ongoing challenges of district
representation in the government. 300

Performance-Based Governor’s Fund
In October 2011, USAID granted an 18-month extension of its Performance-Based
Governor’s Fund (PBGF), following last quarter’s release of the congressional
hold on the program. Implemented by the Asia Foundation, the PBGF will assist
the work of provincial governor offices and help fund their operating expenses.




         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2012         113
GOVERNANCE




The PBGF will include two new pilots: a financial management information sys-
tem and a provincial council fund. The extension stipulated that no PBGF monies
will be used for a previously proposed provincial development committee fund. 301

USAID Initiative To Promote Afghan Civil Society
USAID’s Initiative To Promote Afghan Civil Society II (I-PACS II) program had
accrued costs of almost $10.8 million as of December 31, 2011. The second phase
of I-PACS began in October 2010. It is designed to enable Afghan citizens to
participate more effectively in the political process, solve community problems,
and demand good governance from their leaders. From October 2010 to October
2011, the I-PACS II met all but two of its performance indicators. USAID noted
that security constraints continue to limit the staff’s ability to travel to support the
program. 302

JUDICIAL REFORM AND RULE OF LAW
This quarter, the nongovernmental organization Human Rights Watch (HRW)
reported that after a decade of international support, the Afghan formal justice
system remains weak and compromised. To resolve disputes, a large proportion
of the population relies on traditional justice mechanisms and sometimes Taliban
courts. HRW noted that human rights abuses are endemic within the traditional
justice system and that many outlawed practices persist. 303
    The Asia Foundation survey found that Afghans’ trust in the justice system was
at its highest since 2006, with 55% of respondents saying they had some level of
confidence in the system. 304

Courts
In October 2011, the Supreme Court swore in 11 new judges for provincial and
district courts in Helmand. For the first time, some district courts in the province
will have a panel of three judges, according to the U.K. Foreign and Commonwealth
Office. It noted that this should improve the delivery of justice and limit opportu-
nities for corruption. 305 Since the fall of the Taliban, the international community
has trained more than 1,000 judges, including 200 women, according to the
Congressional Research Service. 306

Criminal Procedure Code
In December 2011, the Minister of Justice announced that a draft of the Criminal
Procedure Code had been approved, but as of December 31, DoS did not have
access to a translated version of it. According to DoS, the Ministry of Justice
(MoJ) will need to submit the draft to the Council of Ministers for approval. 307

Afghan Attorneys
This quarter, the Afghan Independent Bar Association held its second general
assembly. The Association, which was founded in 2008, had more than 1,200
members as of December 13, 2011, according to the UN Secretary-General. Law



 114                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                          GOVERNANCE




enforcement agencies, prosecutors, and the courts are increasingly recognizing
the role and importance of an independent legal profession. 308

U.S. Justice Sector Support Program
This quarter, 217 Afghan police, prosecutors, defense attorneys, judges, and inves-           On June 1, 2011, the JSSP’s Focused
tigators graduated from training in the Advanced Continuing Legal Education                   District Development-Law program was
for Afghanistan (ACLEA) program run by the Justice Sector Support Program                     modified slightly and renamed the Advanced
(JSSP). The JSSP is run by the DoS Bureau of International Narcotics and Law                  Continuing Legal Education for Afghanistan
Enforcement Affairs (INL). Training topics included anti-corruption and gender                (ACLEA) program. With the ACLEA, the JSSP
issues, and interview and interrogation practices. 309                                        aims to increase its focus on providing
                                                                                              sustainable legal education that Afghan
    This quarter, JSSP assistance also helped Afghan legal institutions in other areas: 310
                                                                                              institutions can eventually deliver to legal
 •	 The MoJ’s first juvenile rehabilitation conference and the Afghanistan
                                                                                              professionals. The program, which draws on
    Independent Bar Association’s second general assembly were held.
                                                                                              experience from the JSSP’s work, consists
 •	 Training courses for provincial justice personnel were held on forced mar-                of 240 hours of classroom instruction on
    riage, the law on the Elimination of Violence Against Women (EVAW), ethics                the basics of law. Since 2006, 14,244
    and professional conduct, the case management system, the role of defense                 Afghans have graduated from JSSP training
    attorneys, and other topics.                                                              programs.
As of November 30, 2011, attorneys and advisors for the JSSP included 146 U.S.,
                                                                                              Source: DoS/INL, responses to SIGAR data call, 1/19/2012
Afghan, and third-country nationals, according to INL. The current contract for               and 1/4/2012.
the JSSP expires on May 30, 2012. 311

Prison/Detention Center Operations
Following President Karzai’s spring 2011 decree to move the Central Prison
Directorate (CPD) away from the MoJ, the Ministry of Interior (MoI) had adminis-
trative control of the CPD. 312 On January 10, 2012, a signing ceremony took place
for the initial transfer of the CPD; according to DoS, it was unclear whether the
National Assembly will address the move in upcoming sessions. DoS noted that the
MoI’s leadership had committed to maintaining the independence of the CPD. 313



ANTI-CORRUPTION                                                                               Transparency International’s corruption
Corruption and organized crime remain grave threats to ISAF’s mission and the                 perception index ranks countries according
viability of the Afghan government, according to DoD. Criminal patronage networks             to their perceived levels of public-sector
continue to penetrate and subvert critical state functions and institutions. 314 This         corruption. The index draws on various
quarter, Transparency International released its annual corruption perception index           independent assessments from groups such
rankings. Afghanistan tied with Myanmar for the third most corrupt country in the             as the Asian Development Bank and the
                                                                                              World Bank, and business opinion surveys.
world. The only countries that ranked lower were North Korea and Somalia. 315
                                                                                              These surveys and assessments consider
   According to the Asia Foundation survey, despite a relatively positive per-
                                                                                              the bribery of public officials, kickbacks in
ception of the government, a large majority of Afghans (76%) see corruption as                public procurement, the embezzlement of
a major problem in the country; only 5% said it was not a problem. Corruption                 public funds, and the effectiveness of anti-
frequently affects Afghans in their daily life: 56% saw it as a major daily problem,          corruption efforts.
and an additional 31% saw it as a minor daily problem. The type of corruption that
affected individuals the most was administrative corruption (39%), which was                  Source: Transparency International, Corruption Perceptions
                                                                                              Index 2011, 12/1/2011.




          REPORT TO THE UNITED STATES CONGRESS     I   JANUARY 30, 2012            115
                                                              GOVERNANCE




FIGURE 3.32                                                   identified significantly more often than moral corruption, bribes, and corruption
                                                              in the legal and education systems, as shown in Figure 3.32.316
PERCEPTIONS OF CORRUPTION:
FORMS THAT AFFECT RESPONDENTS MOST                              This quarter, an initiative facilitated by the UN Assistance Mission in Afghanistan
                                                              (UNAMA) that brought together 1,500 Afghans in 65 focus groups found further
Administrative                                  Bribes        evidence about the extent of the corruption problem. Afghans themselves see cor-
39%                                             17%
                                                              ruption as pervasive; it affects nearly every aspect of their lives and leads to security
                                                              concerns, limited economic development, and human rights abuses, according to the
                                                              UN Secretary-General. Afghans also said that ISAF and international development
                                                Moral
                                                13%           partners need to play larger roles in efforts to address the problem. 317

                                                Police
                                                8%            U.S. and International Assistance for Anti-Corruption Efforts
                                                Courts
                                                              ISAF and U.S. Forces - Afghanistan (USFOR-A) have made progress in contract
Other/Don’t Know                                7%            oversight and in vetting and disbarment of vendors, especially in areas where the
11%                                                           coalition had the greatest control, according to DoD. As of December 28, 2011,
                                                Education
                                                5%            USFOR-A and its partners had expanded their vetting of vendors and oversight of
Notes: Numbers affected by rounding. Based on 6,348
                                                              contracts, reviewing 1,200 high-value and high-risk contracts worth $27 billion. In
responses to survey question about which form of corruption
affects respondents the most.
                                                              addition, they had disbarred 79 U.S., international, and Afghan companies. 318
Source: Asia Foundation, “Afghanistan in 2011: A Survey of       This quarter, ISAF gained greater understanding of the many facets of inter-
the Afghan People,” 10/2011, p. 99.
                                                              national corruption and organized crime in Afghanistan, according to DoD. To
                                                              combat these problems U.S. agencies need to establish greater strategic coor-
                                                              dination and urgency. U.S. agencies must work together to pursue and develop
                                                              cases, track illicit finance, initiate targeted financial sanctions, pursue U.S. and
                                                              international designations of individuals on charges of corruption, and facilitate
                                                              cooperative international efforts. 319
                                                                 DoD noted that ISAF’s increased understanding of the criminal patronage
                                                              networks has enabled it to disrupt drug-trafficking organizations and develop
                                                              leads for Afghan and international law enforcement. ISAF has also gotten more
                                                              Afghan leaders to understand the seriousness of corruption, according to DoD.
                                                              That understanding was demonstrated by two events this quarter: President
                                                              Karzai’s remarks on corruption at the Bonn Conference and his establishment of
                                                              a presidential executive commission this quarter. In coordination with ISAF and
                                                              the U.S. Embassy Kabul, the commission will assess and address corruption at
                                                              Afghanistan’s borders, airports, and customs depots. 320

                                                              Monitoring and Evaluation Committee
                                                              In November 2011, the independent Monitoring and Evaluation Committee (MEC)
                                                              completed its third two-week session in Afghanistan. The six Afghan and inter-
                                                              national members of this anti-corruption body were all appointed by presidential
                                                              decree. The MEC has finalized 31 recommendations and benchmarks for steps
                                                              to fight corruption, according to the U.K. Foreign and Commonwealth Office and
                                                              UN Secretary-General. These recommendations and benchmarks will eventually
                                                              be discussed and agreed to with the Afghan government and the international
                                                              community. 321




                                                                116                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




High Office of Oversight for Anti-Corruption
The High Office of Oversight for Anti-Corruption (HOOAC) remains a low-
capacity operation that has not fully utilized outside technical assistance, lacks
standard operating procedures, and faces uncooperative government agen-
cies, according to USAID. In addition, senior leaders in the Afghan government
continue to show little political will to combat corruption, which has led to low
morale within the HOOAC. 322
   On October 1, 2011, USAID’s Assistance to Anti-Corruption Authority (4A) pro-              “…[T]he permeation
gram began its first option year. The program now has approximately $2 million in               of corruption and
funding—50% below its first year of operation. USAID also shifted the focus of the
program from supporting the HOOAC to supporting efforts to increase demand
                                                                                              a culture of impunity
for better transparency and accountability in the government. However, 4A sup-                  have undermined
port continued to support the HOOAC this quarter by assisting it in conducting                  the development
10 asset verification workshops in various ministries and government agencies.                   of institutions in
In two months, the program processed 436 asset registrations from government
                                                                                                terms of strength
officials. It also organized a workshop for HOOAC technical staff on how to
safely encrypt, transmit, and receive financial data between officials through the               and credibility.”
Financial Transactions and Reports Analysis Center. In addition, 4A provided                                        —Afghan President
advisory and oversight services to the HOOAC’s complaints management and case                                           Hamid Karzai
tracking operations. This quarter, the HOOAC forwarded 53 complaints cases to
the Attorney General’s Office (AGO), referred 90 to the relevant ministers and         Source: Office of the President-Islamic Republic of Afghanistan,
                                                                                       “Statement By His Excellency Hamid Karzai President of the
agencies, and resolved 43. 323                                                         Islamic Republic of Afghanistan: The International Afghanistan
                                                                                       Conference in Bonn, Germany,” 12/5/2011.


Anti-Corruption Unit
At the end of this quarter, mentors from the JSSP and the DoJ had not yet resumed
their training of personnel in the Anti-Corruption Unit (ACU) of the AGO. That
training was suspended last quarter because of government interference in pros-
ecutions. As noted in previous SIGAR quarterly reports, DoS has considered the
AGO a hindrance in pursuing corruption cases. However, at the request of the
Afghan Attorney General, DoS will work with the ACU to review a limited number
of high-profile cases that have been identified by the Task Force Shafafiyat and the
U.S. Embassy Kabul. According to DoS, several high-level meetings with President
Karzai, his senior advisor, and the Attorney General made it possible for the review
to take place. The Attorney General has asked for the Embassy’s advice on coun-
tering corruption in his office. 324

Major Crimes Task Force
The Major Crimes Task Force (MCTF) continued to face difficulties in pros-
ecuting corruption cases this quarter. From October 1 to December 21, 2011,
the MCTF referred four corruption cases to the AGO, but it did not receive any
responses from the AGO on the status of the prosecutions, according to DoS. In
addition, none of the cases the MCTF had referred to the AGO before this quar-
ter have been prosecuted. DoS noted that in October 2011 an ACU prosecutor




         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2012         117
                                      GOVERNANCE




                                      demanded that the MCTF turn over to the ACU a case file on a prosecutor who
                                      may be corrupt. As of December 21, 2011, the MCTF had heard nothing from the
SIGAR AUDIT                           ACU about the status of the case. 325
In its July 2011 audit of the MCTF,
SIGAR made recommendations to         Anti-Corruption Efforts in the ANSF
improve accountability and ensure     ISAF continues to support efforts to reduce corruption in the ANSF, according to
that the United States is properly    DoD. This quarter, ISAF conducted a joint assessment and planning effort with
reimbursed for costs associated       the Office of the National Security Council and the Ministry of Defense (MoD).
with MCTF support. For details, see   Senior MoD officials pledged to accomplish specific actions by set deadlines to
SIGAR Audit 11-12, “U.S. Agencies     improve transparency and accountability within the security ministries and their
Have Provided Training and Support    forces. A similar effort continued at the MoI this quarter. 326
to Afghanistan’s Major Crimes
Task Force, but Reporting and         HUMAN RIGHTS
Reimbursement Issues Need To Be       HRW’s recent report predicts an uncertain future for Afghans because the Afghan
Addressed” at www.sigar.mil.          government and the international community have failed to make human rights
                                      a top priority in the decade since the fall of the Taliban. The group reported that
                                      Afghans still struggle, often unsuccessfully, to exercise basic human rights and
                                      freedoms. Although human rights have improved, Afghanistan is still hindered by
                                      poor governance, lack of rule of law, impunity for militias and police, laws and
                                      policies that harm women, and conflict-related abuses. 327

                                      Gender Equity
                                      Although Afghan women have recovered some of their rights in the post-Taliban
                                      era, there is a great deal of room for improvement. HRW noted that in the past
                                      10 years Afghan women have become members of parliament, judges, prosecu-
                                      tors, defense attorneys, police officers, soldiers, civil society officials, and human
                                      rights activists. However, many of these women have become targets of threats
                                      and violence. Afghan women lack the most basic human rights protections in the
                                      face of attacks and threats focused on women in public life, female students, and
                                      the staff of girls’ schools, according to HRW. 328
                                         The Afghan government continues to incarcerate women and girls for “moral
                                      crimes” ­that are not prohibited by statutory law, such as running away from
                                      home. About half of the approximately 700 women and girls in Afghan prisons
                                      face such moral charges. HRW noted that recent reforms, like the 2009 EVAW
                                      law, have largely failed to improve the lives of ordinary women because of poor
                                      enforcement. 329

                                      Underage and Forced Marriages
                                      A December 2011 seminar for legal practitioners from a variety of Afghan gov-
                                      ernment and civil society institutions concluded that about 54% of women in the
                                      country are affected by forced and underage marriage—despite provisions in the
                                      Constitution, the EVAW law, and civil laws against such practices. These mar-
                                      riages have severe negative consequences for the health of the victims. 330




                                       118                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




   At the seminar, according to UNAMA, more than 80 legal practitioners made
recommendations on implementing the EVAW law to the Afghan government,
police, and judicial institutions, and to the international community. They
emphasized the need for greater individual and institutional awareness about pro-
tections against gender rights abuses, and the need for the authorities to enforce
the law. They unanimously agreed that customary laws have been the origin and
driver of the underage marriage practice problem. The participants noted that
the formal legal system should be the final arbitrator and should work to coor-
dinate better in pursuing cases in remote areas that lack formal justice system
institutions. 331

UN Women Initiative
On October 20, 2011, UN Women (the UN’s entity for gender equality and the
empowerment of women), the Afghan Ministry of Women’s Affairs, and the
Japanese government launched projects aimed at curbing violence against women
and girls in six provinces—Bamiyan, Balkh, Herat, Nangarhar, Parwan, and
Badakhshan. UN Women noted that these provinces have high rates of violence
against women, owing in part to limited support from international organizations
and lackluster performance by subnational commissions in curtailing violence.
The initiative aims to build the capacity of the subnational commissions that work
to end violence against women, as well as the capacity of the provincial depart-
ments of women’s affairs. It will also strive to increase protection services for
survivors of violence and hopes to advance implementation of the EVAW law. The
program is adapted from a similar UN Women initiative in Kabul. 332
   UN Women will also support the Afghan Department of Women’s Affairs in
establishing six community resource centers that will provide space for women
in the community and serve as hubs for dissemination of information about the
EVAW law. 333

Displaced Persons
As of October 28, 2011, the number of refugees returning to Afghanistan had
dropped substantially from 2010. In the first 10 months of 2011, about 60,000
returned, compared with more than 100,000 in the same period in 2010, according      Since the overthrow of the Taliban, about a
to the UN High Commissioner for Refugees (UNHCR). Almost all the returnees           quarter of Afghanistan’s population—
this year came from either Pakistan (43,000) or Iran (17,000). The number of         5.7 million refugees—has returned from
returnees from Pakistan was 59% lower than last year. As of October 28, 2011,        Pakistan and Iran. As of October 28, 2011,
Pakistan was still home to 1.7 million Afghan refugees, many of whom have lived      almost 3 million were in exile; 1.7 million of
                                                                                     them were in Pakistan; 1 million, in Iran.
in exile for more than 25 years; half were born outside Afghanistan. The number
of returnees from Iran is more than double the number last year (7,500). UNHCR       Source: UNAMA, “Number of UN-Assisted Returns to
                                                                                     Afghanistan Drops in 2011,” 10/28/2011.
attributed this acceleration to economic pressures and the Iranian government’s
discontinuation of subsidies for basic goods and services for refugees. UNHCR
called for international support to help Afghans return to their homeland. 334




         REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2012       119
                                                            ENDNOTES




224. 	 See Appendix B.
225. 	 U.K. Foreign and Commonwealth Office, “Afghanistan Monthly Progress Report: October 2011,” 11/2011, p. 2; UN Secretary-General, “The
       Situation in Afghanistan and Its Implications for International Peace and Security,” 12/13/2011, p. 2.
226. 	 U.K. Foreign and Commonwealth Office, “Afghanistan Monthly Progress Report: October 2011,” 11 /2011, p. 2.
227. 	 DoS, response to SIGAR data call, 12/30/2011.
228. 	 U.K. Foreign and Commonwealth Office, “Afghanistan Monthly Progress Report: November 2011,” 12/8/2011, p. 2.
229. 	 DoS, response to SIGAR data call, 12/30/2011.
230. 	 U.K. Foreign and Commonwealth Office, “Afghanistan Monthly Progress Report: November 2011,” 12/8/2011, p. 2; DoS, response to SIGAR data
       call, 12/30/2011.
231. 	 DoS, response to SIGAR data call, 12/30/2011.
232. 	 UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/13/2011, p. 3.
233. 	 UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/13/2011, p. 3.
234. 	 DoS, response to SIGAR data call, 12/30/2011.
235. 	 International Afghanistan Conference in Bonn, “Conference Conclusions,” 12/5/2011; DoS, response to SIGAR data call, 12/30/2011.
236. 	 International Afghanistan Conference in Bonn, “Conference Conclusions,” 12/5/2011; DoS, response to SIGAR data call, 12/30/2011.
237. 	 DoS, response to SIGAR data call, 12/30/2011; DoS, “Remarks at the Bonn Conference Center, Secretary of State Hillary Rodham Clinton,”
       12/5/2011.
238. 	 “Declaration of the Istanbul Process on Regional Security and Cooperation for a Secure and Stable Afghanistan,” 11/2/2011.
239. 	 U.K. Foreign and Commonwealth Office, “Afghanistan Monthly Progress Report: November 2011,” 12/8/2011, p. 3.
240. 	 “Declaration of the Istanbul Process on Regional Security and Cooperation for a Secure and Stable Afghanistan,” 11/2/2011; DoS, “United States
       Welcomes Istanbul Conference for Afghanistan Declaration,” 11/2/2011.
241. 	 DoS, “United States Welcomes Istanbul Conference for Afghanistan Declaration,” 11/2/2011.
242. 	 UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/13/2011, p. 3.
243. 	 UN General Assembly, “Adopting Wide-Ranging Text, General Assembly Pledges Continued Support to Afghan Government, People, Urges
       Cooperation To Ensure Success of ‘Kabul Process’,” 11/21/2011.
244. 	 UN General Assembly, “Adopting Wide-Ranging Text, General Assembly Pledges Continued Support to Afghan Government, People, Urges
       Cooperation To Ensure Success of ‘Kabul Process’,” 11/21/2011.
245. 	 UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/13/2011, p. 2.
246. 	 UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/13/2011, p. 5.
247. 	 UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/13/2011, p. 1.
248. 	 U.K. Foreign and Commonwealth Office, “Afghanistan Monthly Progress Report: November 2011,” 12/8/2011, p. 2.
249. 	 DoS, response to SIGAR data call, 12/30/2011.
250. 	 DoS, response to SIGAR data call, 12/30/2011.
251. 	 DoS, response to SIGAR data call, 12/30/2011.
252. 	 VoA, “Taliban Reaches ‘Preliminary Deal’ to Open Office in Qatar,” 1/3/2012; Civil-Military Fusion Centre, “Afghanistan Review,” 1/4/2012, p. 2.
253. 	 DoS, response to SIGAR data call, 12/30/2011.
254. 	 DoD, “DoD News Briefing with Maj. Gen. Hook via Teleconference from Afghanistan,” 12/8/2011.
255. 	 DoS, response to SIGAR data call, 12/30/2011.
256. 	 DoS, response to SIGAR data call, 12/30/2011.
257. 	 DoD, “DoD News Briefing with Maj. Gen. Hook via Teleconference from Afghanistan,” 12/8/2011.
258. 	 DoD, “DoD News Briefing with Maj. Gen. Hook via Teleconference from Afghanistan,” 12/8/2011.
259. 	 DoS, response to SIGAR data call, 12/30/2011.
260. 	 DoD, “DoD News Briefing with Maj. Gen. Hook via Teleconference from Afghanistan,” 12/8/2011.
261. 	 DoD, “DoD News Briefing with Maj. Gen. Hook via Teleconference from Afghanistan,” 12/8/2011.
262. 	 DoS, response to SIGAR data call, 12/30/2011.
263. 	 DoS, response to SIGAR data call, 12/30/2011; USAID, response to vetting, 1/17/2012.
264. 	 DoS, response to SIGAR data call, 12/30/2011.
265. 	 DoS, response to SIGAR data call, 12/30/2011.
266. 	 DoD, “DoD News Briefing with Maj. Gen. Hook via Teleconference from Afghanistan,” 12/8/2011.
267. 	 DoD, “DoD News Briefing with Maj. Gen. Hook via Teleconference from Afghanistan,” 12/8/2011.




                                                     120                   SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                               ENDNOTES




268. 	   DoD, “DoD News Briefing with Maj. Gen. Hook via Teleconference from Afghanistan,” 12/8/2011.
269. 	   DoS, response to SIGAR data call, 12/30/2011.
270. 	   DoS, response to SIGAR data call, 12/30/2011.
271. 	   DoS, response to SIGAR data call, 12/30/2011.
272. 	   DoD, “DoD News Briefing with Maj. Gen. Hook via Teleconference from Afghanistan,” 12/8/2011.
273. 	   DoD, “DoD News Briefing with Maj. Gen. Hook via Teleconference from Afghanistan,” 12/8/2011.
274. 	   Asia Foundation, “Afghanistan in 2011: A Survey of the Afghan People,” 10/2011, pp. 43, 44.
275. 	   Asia Foundation, “Afghanistan in 2011: A Survey of the Afghan People,” 10/2011, pp. 72, 79.
276. 	   Asia Foundation, “Afghanistan in 2011: A Survey of the Afghan People,” 10/2011, p. 71. Note: Add 5 and 6
277. 	   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/13/2011, p. 2.
278. 	   DoS, response to SIGAR data call, 12/30/2011.
279. 	   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/13/2011, p. 2.
280. 	   Asia Foundation, “Afghanistan in 2011: A Survey of the Afghan People,” 10/2011, p. 84.
281. 	   Asia Foundation, “Afghanistan in 2011: A Survey of the Afghan People,” 10/2011, pp. 84, 86.
282. 	   USAID, response to SIGAR data call, 1/5/2012.
283. 	   USAID, response to SIGAR data call, 1/5/2012.
284. 	   Treasury, response to SIGAR data call, 12/30/2011.
285. 	   Treasury, response to SIGAR data call, 12/30/2011.
286. 	   Treasury, response to SIGAR data call, 12/30/2011.
287. 	   Treasury, response to SIGAR data call, 12/30/2011.
288. 	   DoS, response to SIGAR data call, 12/30/2011.
289. 	   DoS, response to SIGAR data call, 12/30/2011.
290. 	   DoS, response to SIGAR data call, 12/30/2011.
291. 	   DoS, response to SIGAR data call, 12/30/2011.
292. 	   DoS, response to SIGAR data call, 12/30/2011.
293. 	   DoS, response to SIGAR data call, 12/30/2011.
294. 	   DoS, responses to SIGAR data call, 12/30/2011 and 1/9/2011.
295. 	   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/13/2011, p. 10.
296. 	   U.S. Embassy Kabul, “USAID Investments Expected to Improve Afghan Civil Service,” 10/31/2011.
297. 	   U.S. Embassy Kabul, “USAID Investments Expected to Improve Afghan Civil Service,” 10/31/2011.
298. 	   USAID, response to SIGAR data call, 1/5/2012; USAID, “Support to Sub-National Governance Institutions,” accessed online 1/17/2012.
299. 	   USAID, response to SIGAR data call, 1/5/2012.
300. 	   USAID, response to SIGAR data call, 1/5/2012.
301. 	   USAID, response to SIGAR data call, 1/5/2012; USAID, response to SIGAR vetting, 1/18/2012.
302. 	   USAID, response to SIGAR data call, 1/5/2012; USAID, “Initiative to Promote Afghan Civil Society II,” 12/2010.
303. 	   Human Rights Watch, “Afghanistan: A Decade of Missed Opportunities,” 12/4/2011.
304. 	   Asia Foundation, “Afghanistan in 2011: A Survey of the Afghan People,” 10/2011, p. 71.
305. 	   U.K. Foreign and Commonwealth Office, “Afghanistan Monthly Progress Report: November 2011,” 11/2011, p. 3.
306. 	   CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” 11/22/2011, p. 4.
307. 	   DoS/INL, response to SIGAR data call, 1/4/2012.
308. 	   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/13/2011, p. 9.
309. 	   DoS/INL, response to SIGAR data call, 1/4/2012.
310. 	   DoS/INL, response to SIGAR data call, 1/4/2012.
311. 	   DoS/INL, response to SIGAR data call, 1/4/2012.
312. 	   DoS/INL, response to SIGAR data call, 1/4/2012; DoS/INL, response to SIGAR vetting, 7/18/2011.
313. 	   DoS/INL, response to SIGAR data call, 1/4/2012.
314. 	   DoD/OSD, response to SIGAR data call, 1/3/2012.
315. 	   Transparency International, “Corruption Perceptions Index 2011,” 12/1/2011.
316. 	   Asia Foundation, “Afghanistan in 2011: A Survey of the Afghan People,” 10/2011, pp. 95, 98–99.
317. 	   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 12/13/2011, pp. 7–8.




             REPORT TO THE UNITED STATES CONGRESS          I   MONTH 30, 2012                 121
                                                           ENDNOTES




318. 	   DoD/OSD, response to SIGAR data call, 1/3/2012.
319. 	   DoD/OSD, response to SIGAR data call, 1/3/2012.
320. 	   DoD/OSD, response to SIGAR data call, 1/3/2012.
321. 	   U.K. Foreign and Commonwealth Office, “Afghanistan Monthly Progress Report: November 2011,” 12/8/2011, p. 4; UNAMA, “Joint Independent
         Committee Convenes To Combat Corruption,” 5/11/2011; UN Secretary-General, “The Situation in Afghanistan and Its Implications for
         International Peace and Security,” 12/13/2011, p. 10.
322. 	   USAID, response to SIGAR data call, 1/5/2012.
323. 	   USAID, response to SIGAR data call, 1/5/2012.
324. 	   DoS, response to SIGAR data call, 12/30/2011; DoS/INL, response to SIGAR data call, 10/4/2011.
325. 	   DoS, response to SIGAR data call, 12/30/2011.
326. 	   DoD/OSD, response to SIGAR data call, 1/3/2012.
327. 	   HRW, “Afghanistan: A Decade of Missed Opportunities,” 12/4/2011.
328. 	   HRW, “Afghanistan: A Decade of Missed Opportunities,” 12/4/2011.
329. 	   HRW, “Afghanistan: A Decade of Missed Opportunities,” 12/4/2011.
330. 	   UNAMA, “54 Percent of Women Affected by Forced and Underage Marriage in Afghanistan,” 12/21/2011.
331. 	   UNAMA, “54 Percent of Women Affected by Forced and Underage Marriage in Afghanistan,” 12/21/2011.
332. 	   UN Women, “UN Women Launches Multi-Province Project on Ending Violence against Women in Afghanistan,” 10/20/2011.
333. 	   UN Women, “UN Women Launches Multi-Province Project on Ending Violence against Women in Afghanistan,” 10/20/2011.
334. 	   UNAMA, “Number of UN-Assisted Returns to Afghanistan Drops in 2011,” 10/28/2011.




                                                    122                  SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                                           ENDNOTES




REPORT TO THE UNITED STATES CONGRESS   I   MONTH 30, 2012   123
ECONOMIC AND SOCIAL DEVELOPMENT




124
ECONOMIC AND SOCIAL DEVELOPMENT




  ECONOMIC AND SOCIAL DEVELOPMENT
  As of December 31, 2011, the U.S. government had provided nearly $20.3 billion
  to support governance and economic development in Afghanistan. 335 Concerns
  remained that the drawdown of U.S. troops in 2014 and the expected reduction
  in international donor assistance will undermine economic growth and the sus-
  tainability of the gains made so far. The withdrawal of the first 10,000 U.S. troops
  this quarter heightened these concerns.

  10 YEARS OF RECONSTRUCTION                                                                           RECONS
  During the first two years of the Bonn Process, most U.S. funding went to                         OF




                                                                                                            TR
                                                                                            YEARS
  alleviate a humanitarian crisis. At the end of 2003, the United States shifted its




                                                                                                              UCTION
  resources to programs to establish the rule of law, improve governance, build
  infrastructure, and increase access to health and education. The U.S. Agency



                                                                                         10
  for International Development (USAID), the principal agency implementing                    20
                                                                                                     0 1 –2011




                                                                                                            •
                                                                                            •
  development programs, funded the first major road construction contract; by
  2011, it had funded the rehabilitation of more than 2,000 km of roads. During the
  Reconstruction Surge, from 2006 to 2011, the United States provided more than
  $15 billion to fund a broad spectrum of development and governance programs.
  Short-term projects were designed to support the U.S. counter-insurgency
  strategy by helping to stabilize communities in areas that had been cleared of
  insurgents. Long-term development goals were to help the Afghan government
  build the foundation necessary for a self-sustaining economy that has the con-
  fidence of its citizens and encourages private-sector investment. As a result of
  these U.S. efforts, Afghanistan saw steady economic growth, increased revenues,
  and greater government capacity to deliver essential services. However, the
  Afghan government remains overwhelmingly dependent on foreign assistance—
  and likely to remain so through the Transition and into the Transformation
  Decade.

  KEY EVENTS THIS QUARTER
  This quarter, the United States and its international partners continued to pro-
  mote Afghanistan’s economic growth and development to minimize anticipated
  budgetary shortfalls after 2014. Several high-level international and regional
  stakeholder meetings took place that had potential economic impacts; in order
  of importance:




           REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2012         125
ECONOMIC AND SOCIAL DEVELOPMENT




•	 The International Afghanistan Conference in Bonn (Bonn Conference)
   on December 5 sought, in part, to advance Afghanistan’s economic
   sustainability. 336
•	 The Istanbul Process on Regional Security and Cooperation for a Secure and
   Stable Afghanistan (Istanbul Conference) on November 2 reaffirmed regional
   and international commitments and support. 337
•	 At the annual London Mines and Money Conference on December 6–7, the
   Afghan Ministry of Mines highlighted tenders for four mines and promoted
   national mining programs. 338
•	 The 7th annual U.S.-Afghanistan Business Matchmaking Conference in
   Washington, D.C., held November 13–15, promoted information sharing and
   provided business networking opportunities. 339
•	 The 12th session of the International Contact Group on Afghanistan, held
   November 15 in Astana, Kazakhstan, discussed the transition to Afghan-led
   security, reconciliation, and policy outlines for the Bonn Conference. 340
   At the Bonn Conference, representatives from 85 countries and 15 inter-
national organizations discussed their commitment to Afghanistan during its
“Transition to Transformation Decade of 2015–2024.” One of their core con-
clusions was that the country’s long-term economic growth will depend on
successfully developing the agriculture and mining sectors. They highlighted
the need for export-oriented agriculture and a strong regulatory mining frame-
work. 341 In the near term, participants pledged continued economic support until
2024, when they believe increased revenues from mining and taxes will help put
Afghanistan on a path to economic sustainability. 342 After that time, additional
funding will still be required. The World Bank projected that Afghanistan will
need $7 billion per year in donor assistance until 2021/2022 and warned that
additional funding, albeit on a smaller scale, will be necessary thereafter due to
significant budgetary gaps. 343
   At Bonn, the United States continued to pursue regional economic, transporta-
tion, and trade integration through the New Silk Road initiative. Representatives
from the Department of State (DoS) highlighted two examples of such
regional integration—the implementation of the Afghan-Pakistan Transit Trade
Agreement and the awarding of mining rights. 344 U.S. officials met with the
Minister of Finance to discuss the expansion of Afghan control of the economy,
as well as job and revenue creation, according to DoS. 345 Pakistan—an integral
partner in this vision—did not attend the conference. 346

ECONOMIC IMPACT OF DECLINING DONOR ASSISTANCE
There are a number of challenges to assessing the economic impact of the
drawdown of U.S. and coalition forces on the Afghan economy. From Treasury’s
perspective, the main challenge is the poor quality of Afghanistan’s economic
and demographic data, which is the cornerstone of economic analysis. This data
remains incomplete and unreliable. In addition, there is no standardized process
for tracking funds provided for the external budget (as opposed to on-budget




 126               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  funds, which go directly through the Afghan government). Treasury pointed
  out that donors may track their expenditures for reconstruction but may not
  necessarily know what share of those expenditures affect the Afghan economy
  and to what extent. If analysts cannot ascertain the economic impact of current
  donor assistance, it will be difficult to assess the economic impact of reduced
  assistance. 347
     USAID stated that political stability, the harbinger of a country’s economic
  direction, is and will continue to be difficult to assess. USAID also thinks that
  once donor assistance declines, Afghanistan will likely increase its dependence
  on the illicit economy, like opium production, the effects of which are equally
  difficult to predict. 348 The World Bank noted that increased violence as a result
  of the military drawdown could undermine Afghanistan’s development programs
  and future investment. This quarter, Afghanistan’s representative to the annual
  meeting of the United Nations (UN) General Assembly on Afghanistan echoed
  this sentiment, underscoring the need to eradicate terrorism and violence to
  sustain social and economic development gains. 349

  KEY INDICATORS
  This section provides updates on key economic, social, and infrastructure devel-
  opments in Afghanistan this quarter:
  •	 GDP declined slightly from its 10-year average, while inflation and food
     prices jumped higher from 2010 levels.
  •	 Government revenues continued to improve but remained well below
     expenditures.
  •	 The International Monetary Fund (IMF) approved a three-year Extended
     Credit Facility agreement with the Afghan government.
  •	 Banking sector audits and government ministry assessments progressed.
  •	 The mobile phone banking industry continued to expand and integrate.

  GDP and Economic Growth
  Economic growth in Afghanistan remains strong despite preliminary World Bank
  data showing that growth in gross domestic product (GDP) dropped to 8.4% in
  fiscal year (FY) 2010/2011 from 21% the previous year. As shown in Figure 3.33 on
  the following page, this 21% was an anomaly that the Bank attributed to record         Definition
  harvests and a substantial increase in donor grants. The current 8.4% more
  closely resembles the lower, but stable GDP average of 9.1% since FY 2003/2004;
  that rate was largely driven by U.S. and coalition troop consumption spending,           Purchasing power parity: the economic
  military spending on civilian programs, and the expansion of services. 350 The IMF       concept that exchange rates between
                                                                                           currencies should be based on their rela-
  projected that real GDP growth will decline to 6% in FY 2011/2012, mostly due
                                                                                           tive purchasing power in their domestic
  to this year’s drought, and that future growth will slow down as coalition troop
                                                                                           markets for a fixed basket of goods and
  strength and donor assistance decrease. 351                                              services.
     Per capita GDP in 2010/2011 was $528, ranking Afghanistan among the 10 poor-
  est countries in the world. 352 In purchasing power parity, the Central Intelligence
  Agency ranked Afghanistan 111th out of 227 countries in 2010 ($27.4 billion), and      Source: Business Dictionary.com, accessed 12/30/2011.




           REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2012         127
ECONOMIC AND SOCIAL DEVELOPMENT




FIGURE 3.33

REAL GDP GROWTH, 2003/2004–2010/2011 (PERCENT)

25
                                                                                                           21.0
20

15                                                                       13.7
                                        11.2
10      8.4

                                                                                                                  8.4
5
                        1.1                              5.6
                                                                                           3.6
0
     2003/2004     2004/2005 2005/2006 2006/2007 2007/2008                            2008/2009 2009/2010 2010/2011a

Notes: Numbers affected by rounding. Years are Afghan fiscal years, which run from March 21 to March 20.
a. Preliminary.
Source: World Bank, “Transition in Afghanistan: Looking Beyond 2014,” 11/21/2011, accessed 1/5/2012.



218th per capita ($900). 353 As noted in previous quarterly reports, the growth in
GDP comes largely from strong agricultural yields and harvests, the construc-
tion and transportation sectors, spending associated with donor assistance, and
governmental expansion of services.
   According to the IMF, foreign direct investment remained unchanged since
2010/2011, at 2.1%. In 2006/2007, the IMF put foreign direct investment at 2.7% of
GDP. 354


Revenue Collection
Revenue collection by the Afghan government continued to improve upon previ-
ous quarters, totaling $1.7 billion in 2010/2011. This number represents 11% of
GDP (compared with 3% in 2002/2003). These revenues were driven by taxes and
customs duties, which increased 29% over the previous year. 355 The World Bank
projects that domestic revenue will continue increasing from current levels to
17.5% of GDP in 2021/2022, driven by the government’s plan to introduce a value-
added tax in 2014/2015 and by the burgeoning mining sector. 356 Despite these
changes, World Bank estimates published this quarter suggest that expenditures
will continue to outpace revenues, leaving significant budgetary shortfalls,
as shown in Figure 3.34. The shortfalls will be further exacerbated by donor
assistance decreases in the coming years as Afghanistan takes on additional
obligations to sustain donor-initiated programs. Consequently, the World Bank
warned the international community against a sharp cutoff of aid, fearing that it
could collapse the economy and government. Instead, the Bank recommended
that any reductions in assistance be gradual and scheduled. 357
   USAID has embarked on several programs to promote good governance and
economic opportunity and to increase government revenue. During this reporting
period, in concert with the Kabul municipality, USAID introduced an advertis-
ing campaign to encourage the city’s residents to pay the monthly homeowners




     128                       SPECIAL INSPECTOR GENERAL                 I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  FIGURE 3.34

  GIRoA REVENUES AND EXPENDITURES, 2006/2007–2011/2012 (PERCENT OF GDP)

  20
                                                                                                                       17.6
                                                                                                      15.1
  15                                                                             14.5
                                                           13.1
                12.3
                                     11.6                                                                       11.5
                                                                                               11.0
                                                                          10.3
  10
          8.2                  7.7                   7.8


    5


    0
        2006/2007            2007/2008             2008/2009            2009/2010             2010/2011a       2011/2012b


            Domestic Revenues
            Operating Expenditures
  Notes: Numbers affected by rounding. Years are Afghan fiscal years, which run from March 21 to March 20. 
  a. Preliminary.
  b. Projected.

  Source: IMF, “Country Report No. 11/330,” 11/2011.




  Safa’i (cleaning) tax, which was not being collected consistently, resulting in
  lost revenue and diminishing city services. USAID also worked to improve the
  municipality’s financial management and revenue collection operations by imple-
  menting a property tax database and training staff. As a result, USAID projected
  city revenues to increase 14% over last year. 358
     This quarter, USAID continued to promote land reform, highlighting the
  economic importance of legally recognized and enforceable property rights
  as a fundamental prerequisite for private-sector investment and job creation.
  Recognizing this requirement, in 2010 the Ministry of Agriculture, Irrigation,
  and Livestock created the Afghanistan Land Authority to encourage the leasing
  of government land to investors in the agriculture sector. To advance this goal,
  USAID implemented the Land Reform in Afghanistan (LARA) program in March
  2011. This quarter, USAID held a three-day, well-attended land reform workshop
  in Kabul. According to USAID, the goal of the workshop was to establish a settle-
  ment process so that local governments can record properties and collect taxes,
  and subsequently provide residents with basic infrastructure and services. 359
     USAID stated that LARA is piloting its first project with the Jalalabad munici-
  pality and signed a Project Implementation Letter this quarter. The immediate
  goals of this project are to design title deed and property registration systems.
  USAID said that it will continue to help the Afghan government generate land-
  based revenues while the pilot progresses. 360




                REPORT TO THE UNITED STATES CONGRESS                         I   JANUARY 30, 2012                       129
ECONOMIC AND SOCIAL DEVELOPMENT




Inflation
According to the most recent IMF data, the 12-month rate of inflation reached
18% in January–April 2011, but leveled out at 11% in August 2011, with a final
projection of 11.7% for 2011 (compared with 2% in June 2010). Similarly, core
inflation reached 13%, compared with 5% the year before. This double-digit
inflation was caused mainly by rising international food prices, regional uncer-
tainty, and the central bank’s monetary intervention to spur economic growth.
According to the IMF, the central bank understands that it must tighten its mon-
etary policy if it is to reach its target inflation rate of 4–6%. 361

Long-term Strategy
The Afghan government has identified the following long-term goals for devel-
oping a fiscally sustainable economy that will decreasingly depend on foreign
assistance: 362
•	 improving government capacity, transparency, budget execution, and deliv-
   ery of public services.
•	 enhancing regional economic integration.
•	 strengthening financial management systems and revenue collection.
•	 increasing agriculture productivity and growth.
   As part of continuing assistance to Afghanistan, the IMF and the World Bank
staffs have identified several medium- to long-term objectives to help preserve
Afghanistan’s fiscal sustainability as well as its economic viability: 363
•	 sustaining macroeconomic, fiscal, and financial stability.
•	 improving prioritization and management of government expenditures.
•	 ensuring rule of law, improving governance, and reducing bureaucracy and
   corruption.
•	 promoting private sector development and trade.
•	 developing mineral resources.

Budgets
According to Treasury, the government has the ability to execute about 90% of
its operating budget (which covers salaries, goods and services, and procure-
ment). By contrast, the government can execute only 30–40% of its development
budget. As noted in the “Governance” section, this occurs mostly because of a
lack of management capacity and technical experience at the ministries, as well
as the lack of an automated budgetary process. Through the donor assistance
and training described in “Governance,” Treasury expects budget execution rates
to improve. To that end, for example, the provincial budgeting pilot program
brought together provincial and national leaders, introduced local officials to the
formal budget process, and provided provincial input into the national budget. 364




 130               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  Food Prices
  Wheat, wheat flour, and cooking oil prices continue to rise over pre-year levels. The
  World Food Program reported that prices for these commodities in Afghanistan’s
  major cities were higher in November 2011 than in November 2010. The price of
  wheat increased by 21.2%; wheat flour, by 6%; and cooking oil, by 18.3%. 365

  BANKING AND FINANCE
  This quarter, several new developments underscored the international commu-
  nity’s commitment to strengthen and grow Afghanistan’s banking and finance
  sectors. Efforts to infuse transparency, accountability, and efficiency into the
  process continued apace with ongoing bank audits, ministry assessments,
  increased reliance on electronic payment transfers, and a new IMF loan agree-
  ment—on which many donors, including the United States, conditioned their
  renewed contributions to the Afghanistan Reconstruction Trust Fund (ARTF).

  IMF Extended Credit Facility Agreement
  On October 19, 2011, before the IMF vote on a new Extended Credit Facility
  (ECF) arrangement, the Afghan Attorney General’s Office (AGO) announced a
  public prosecution update and a strategy to hold accountable those responsible          Definition
  for economic crimes through Kabul Bank. The AGO stated that 17 people have
  been indicted on charges of forgery, money laundering, and embezzlement. Nine             Extended Credit Facility (ECF): provides
  cases were in progress, including those of Kabul Bank’s founder and its former            financial assistance to countries with pro-
  chief executive officer, who are alleged to be responsible for more than half the         tracted balance-of-payments problems. It
  bank’s losses and remain in Kabul under Afghan government supervision. 366 The            makes the IMF’s financial support more
  AGO strategy includes an investigation into the failures leading up to the Kabul          flexible and better tailored to the needs of
                                                                                            low-income countries, with higher levels
  Bank crisis, the introduction of new laws to strengthen and protect Afghanistan’s
                                                                                            of access, more concessional financing
  financial and banking sectors, legal and judicial training to enforce the laws, and
                                                                                            terms, more flexible program design fea-
  better inter-agency coordination. 367 As noted in past SIGAR quarterly reports, the
                                                                                            tures, as well as streamlined and more
  AGO has hindered previous attempts to prosecute high-level officials on corrup-           focused conditionality.
  tion charges.
      This quarter, efforts continued to recover the $935 million needed to recapi-
  talize the central bank—Da Afghanistan Bank (DAB)—to cover the losses from              Source: IMF, “ECF Factsheet,” 11/2011, accessed 1/7/2012.

  Kabul Bank. As of October 2011, the government had collected $36 million in
  cash and recovered $153 million in assets available for sale (of $483 million in
  assets the Afghan government expected to be able to recover). These assets
  include real estate in Afghanistan and Dubai. The government has also signed 21
  repayment agreements worth $270 million, $232 million of which is in pledged
  collateral. The IMF pointed out that the agreements are not as detailed as might
  be preferred and warned that the judicial system has not yet tested the agree-
  ments’ enforceability. 368
      Last quarter, the IMF and Afghan government reached a staff-level agreement
  based on government action. On November 14, 2011, the Executive Board of
  the IMF approved a three-year, $133.6 million loan under the ECF. It made its
  first disbursement of approximately $18.9 million on November 21. 369 The IMF



           REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2012           131
                                                             ECONOMIC AND SOCIAL DEVELOPMENT




As part of U.S. efforts to help Afghanistan                  conditioned the agreement on several further structural changes to the banking
prosecute economic crimes, an Economic                       and financial sectors through the following efforts: 370
Crimes Team advisor from OTA assists the                      •	 submitting an amended banking law to the National Assembly.
Major Crimes Task Force in building the                       •	 completing a public inquiry into the Kabul Bank crisis.
capacity of Afghan investigators to conduct                   •	 finalizing additional repayment agreements with Kabul Bank shareholders.
investigations of economic crime and cor-
                                                              •	 creating a transparent process for the sale of the New Kabul Bank.
ruption, such as money laundering, bribery,
                                                              •	 ensuring DAB’s capital strength and stability.
fraud, and counterfeiting.
                                                              •	 finalizing the prudential and forensic audits of Afghan banks.
Source: Treasury, response to SIGAR data call, 12/30/2011.    •	 implementing measures to reduce and respond to the risks of criminal
                                                                 recurrence.
                                                             The ECF arrangement released the $100 million previously withheld in the
                                                             ARTF for the payment of non-security civil servant salaries, and operations and
                                                             maintenance accounts. As a consequence, Secretary of State Hillary Clinton
                                                             announced at the Bonn Conference in December that the United States would
                                                             resume its funding of the ARTF.371 The arrangement also propelled the ARTF
                                                             Steering Committee to draft a financing strategy for solar years (SY) 1391–1393
                                                             (2012/2013–2014/2015). The strategy, which sets a new direction for the fund,
                                                             includes the following elements: 372
                                                              •	 approximately $3.2 billion in donor assistance (up from $1.8 billion in the
                                                                 three preceding years).
                                                              •	 a greater emphasis on investments, rather than recurrent costs.
                                                              •	 a targeted focus on the agriculture, rural development, infrastructure, human
                                                                 development, and governance sectors.

                                                             Prudential Audits
                                                             Last quarter, the World Bank announced a $19 million grant to build capacity at
                                                             the central bank to regulate the commercial banking sector and fund prudential
                                                             audits of 10 Afghan commercial banks.373 Prudential audits examine a bank’s
Definition                                                   policies and procedures to assess credit, liquidity, and operational risks.374 This
                                                             quarter, those audits began; the Afghan government committed to completing
  Inception reports: descriptions of the                     them by March 2012. Furthermore, inception reports for the forensic audits of
  conceptual framework an evaluator                          Kabul Bank and Azizi Bank have been completed, and the Afghan government
  will use in undertaking an evaluation,                     pledged to complete these audits in March 2012.375
  the methodology, and a work plan that
  shows phases, key deliverables, and                        Mobile Money
  milestones.
                                                             As noted in previous SIGAR quarterly reports, “mobile money” is the use of cell
                                                             phones to store currency, pay for goods, and receive and transfer funds. More
Source: UNESCO, “Guidelines for Inception Reports,”          than half of Afghan households own a mobile phone; therefore, U.S. agencies
3/2008, accessed 1/7/2012.
                                                             continue to encourage greater access to mobile money services as a way to
                                                             spur economic growth and reduce corruption. 376 This quarter, USAID opened an
                                                             avenue for greater collaboration between banks and mobile money operators,
                                                             announcing three grants to Afghan mobile network carriers totaling approxi-
                                                             mately $2.1 million. The agency estimated that the grants will bring mobile




                                                              132                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  money services to 100,000 Afghans and spur new technological advances. The
  funding supports services from three Afghan carriers: 377
  •	 Etisalat’s M-Hawala service enables customers to use mobile money to
     receive and pay their electricity bills.
  •	 Mobile Telecommunications Network Afghanistan’s (MTN) partnership with
     the Ministry of Education expands mobile money services to rural areas and
     pays teachers’ salaries.
  •	 Roshan M-Paisa’s mobile money service will enable borrowers from the
     Mutahid Development Finance Institution (a microfinance consortium) to
     receive and repay loans through their phones.
     This type of support helped spur the creation of the Afghan Mobile Money
  Operators Association, one of the first organizations of its kind worldwide,
  according to USAID. Founding members include Etisalat, MTN, Roshan, and
  Afghan Wireless. 378 The association plans to address common areas of concern
  such as regulatory structures and network interoperability—areas that the Task
  Force for Business and Stability Operations (TFBSO) identified last quarter as
  major impediments to lowering industry costs and customer fees, and expand-
  ing customer services. 379 In partnership with USAID, the association sponsored
  a contest in 2011, challenging university students to come up with the most inno-
  vative mobile money application ideas in several categories. The contest ends
  during the coming quarter. 380
     To address the lack of network interoperability and to strengthen the overall
  financial sector in the wake of the Kabul Bank crisis, the World Bank is preparing
  an $11 million grant through the Afghanistan Financial Sector Rapid Response
  Project to modernize the national payment system, which is the main means of
  making payments, including the salaries of civil servants and security personnel.
  Last quarter, the World Bank called the national payment system inadequate and
  said its modernization is a key priority in strengthening and instilling confidence
  in Afghanistan’s financial sector by injecting greater efficiency and transparency
  in the payment process. 381
     The Financial Sector Rapid Response Project will do this, in part, by reduc-
  ing the use of cash transactions and instead transitioning to electronic, card or
  mobile payments requiring network interoperability between banks, payment
  cards and mobile money services, according to the World Bank and USAID, two
  of the partners of the grant. 382

  DIRECT ASSISTANCE
  As noted in SIGAR’s last two quarterly reports, the capacity of Afghan ministries
  to administer funds responsibly and transparently is fundamental to enduring
  direct donor assistance. Public financial management and public internal finan-
  cial control reviews continued this quarter. In the first phase of these reviews,
  assessment reports were completed for the Ministry of Finance (MoF), the
  Ministry of Mines (MoM), the Ministry of Public Health (MoPH), and the Ministry
  of Public Works (MoPW). Assessment reports were scheduled to be complete in




           REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2012        133
ECONOMIC AND SOCIAL DEVELOPMENT




January 2012 for the Ministry of Education, Ministry of Rural Rehabilitation and
Development (MRRD), and Ministry of Agriculture, Irrigation, and Livestock. In
the second phase, seven additional ministries—Justice, Transportation, Higher
Education, Urban Development, Communication, Counter Narcotics, and Energy
and Water—will be assessed. According to Treasury, that phase is expected to be
completed in December 2012. 383
   As noted in SIGAR’s October 2011 quarterly report, the initial MoM review was
sent back for expanded evaluation because of the significance of mining to the
economy. This quarter, the MoM and MoPW assessments were completed and
made available for public review. Among the draft findings: 384
   At the MoM:
•	 New information technology systems are being developed, but there is no
   unified inter- or intra-agency approach to managing or accessing them.
•	 There is no formal procedure to respond to the recommendations of audi-
   tors, monitors, and reviewers, and there are few controls and assigned
   responsibilities for employees, making it impossible to evaluate the effective-
   ness of internal controls.
•	 To manage donor grants effectively, processes should be implemented to
   enable information sharing between the teams working on the development
   budget and the operating budget.
   At the MoPW:
•	 The ministry does not routinely report budget execution and does not suffi-
   ciently prioritize development projects, which undermines its ability to most
   effectively allocate resources.
•	 An updated Strategic Plan is needed to formalize the ministry’s roles, objec-
   tives, and responsibilities; few formalized policies, procedures, and internal
   controls are in place or properly documented to aid the transition of owner-
   ship from the international donor community to the Afghan government.
•	 An information technology organizational framework has not been devel-
   oped, and there are no policies or formal procedures for basic equipment
   maintenance and safety, which diverts resources away from the effort to
   centralize management and administration of information technology.

AGRICULTURE
This quarter, the Minister of Agriculture said that drought, insecurity, and rising
food prices will cause 30% or more of the population to fall under the poverty
line as winter comes on. He added that the 2011 harvest declined by 28% from
2010 and called for a $1 billion investment over the next 10 years to increase
agricultural productivity. Furthermore, the minister declared that the availability
of food is essential for social stability and security. To help stabilize food prices
in Afghanistan, the World Food Program is providing food storage facilities and a
strategic grain reserve. 385
   According to DoS, about 8 in 10 Afghans work in agriculture; DoS deems
investment in this sector imperative for long-term economic growth. As of




 134                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  November 2011, the U.S. Department of Agriculture (USDA) had conducted
  1,335 agribusiness-related programs, while USAID had provided training to more
  than 300,000 farmers, 1,058 government staff, and 5,500 businesses. Through
                                                                                         SIGAR AUDIT
  these kinds of U.S. agricultural assistance programs, licit agricultural cultivation   In its audit of U.S. efforts to improve
  increased by 190,000 hectares since 2009, according to DoS. 386                        the long-term sustainability of U.S.-
     An example of this focus on agriculture’s dominant role in the economy was          funded agriculture projects and help
  USAID’s Accelerated Sustainable Agriculture Program (ASAP), which sought               build the capacity of the Ministry of
  to improve agriculture production and exports by strengthening value chains.           Agriculture, Irrigation, and Livestock,
  This quarter, the final report on the program noted that it helped Afghan com-         SIGAR identified the challenges of
  panies improve their competitive standing and boost sales by providing them            coordination and integration efforts.
  with capacity-building training in best farming practices and with inputs such as      For details, see SIGAR Audit 12-1,
  agrochemicals, seeds, medicines and vaccines, and cashmere-harvesting combs.           “Actions Needed To Better Assess and
  In total, USAID reported that ASAP facilitated more than $29 million in sales,         Coordinate Capacity-Building Efforts
  and approximately $28 million in exports. It also created almost 8,000 full-time       at the Ministry of Agriculture, Irrigation,
  jobs, and improved close to 23,000 hectares of land—all of which benefited an          and Livestock” at www.sigar.mil.
  estimated 1.2 million Afghan families. 387


  ESSENTIAL SERVICES
  This quarter, several significant developments showcased the United States’
  continued pursuit of achieving greater regional economic integration, improv-
  ing government services capacities, and creating an environment conducive to
  increased private-sector investment. Of note, substantial progress has been made
  in the health, mining, transportation, and education sectors.

  Energy
  The Turkmenistan-Afghanistan-Pakistan-India pipeline proposes to deliver gas
  from Turkmenistan through Afghanistan to Pakistan and India. It is a regional
  economic cooperation initiative of the type envisioned in the New Silk Road
  initiative. According to DoS, the pipeline remains stalled because it lacks the
  commercial framework needed to move forward, and because Turkmenistan
  needs international financing and technical assistance in developing its gas fields.
  In addition, gas pricing agreements have yet to be worked out. 388 Transit fees and
  gas price negotiations were held at the MoM in December 2011, but no agree-
  ment was reached. 389

  Electricity
  On average, at least 10% of USAID funds for Afghanistan have been spent on
  power projects since 2002, according to a report by the Congressional Research
  Service (CRS) this quarter. The goal of extending electricity access to 65% of
  households in urban areas and 25% in rural areas by 2010 was not realized. In
  Kabul, however, the power supply has improved. 390
     As of November 22, 2011, USAID had allocated $500 million for the continued
  refurbishment of the Kajaki Dam. The two operational turbines have doubled
  electricity production in the south, but plans to install a third turbine remain



           REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2012          135
ECONOMIC AND SOCIAL DEVELOPMENT




Two hydroelectric turbines at the Kajaki power plant produce 16.5 megawatts of electricity.
Since 2009, plans to install a third turbine have been delayed by a lack of security. This
quarter, U.S. Marines cleared the road to Kajaki, allowing the first convoy carrying equipment to
reach the dam and return safely. Credit: U.S. Navy photo, MC Jonathan David Chandler.

stalled, largely because of the lack of security. 391 As noted in SIGAR’s October
2011 quarterly report, refurbishment of the Kajaki substation was delayed when
no contractor bids were received.
    This quarter, responsibility for the substation rehabilitation was given to the
U.S. Army Corps of Engineers (USACE) after a joint USAID-USACE assessment.
USAID noted that U.S. Marines have cleared Route 611 around Kajaki, and the
first equipment convoy reached the dam and returned without incident—and
without a major security presence. 392
    In other developments this quarter, the TFBSO partnered with the MRRD to
restore the Tira Koh hydroelectric power plant in Parwan and link it to a stan-
dardized grid capable of inter-connecting with other energy grids. The TFBSO
noted that doing so should improve the reliability of electricity access. The
TFBSO is also rehabilitating the Shah Delir micro-hydroelectric system to similar
capabilities and specifications. 393


Education
From January 2010 to August 2011, the United Nations Assistance Mission in
Afghanistan (UNAMA) recorded 588 attacks on students, educational staff, and
school infrastructure. According to DoS, that represents a 14% decrease com-
pared with the same period last year. In unsafe districts, many schools are not
functional, and militants often use them to stage and plan attacks. 394
   As noted in previous SIGAR quarterly reports, under Taliban rule, fewer than
1 million children were in school and girls were not permitted to attend. Since



  136                  SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  2002, more than 8 million youths and more than 63,000 university students—41%
  of them female—have attended schools, according to USAID: 395
  •	 general education: 7.1 million (62% male, 38% female).
  •	 literacy education: 720,000 (20% male, 80% female).
  •	 Islamic education: 149,239 (90% male, 10% female).
  •	 teacher education: 49,216 (59% male, 41% female).
  •	 technical and vocational education: 44,232 (85% male, 15% female).
  •	 university: 63,000 (80.5% male, 19.5% female).
     USAID noted that during the 10 years of the reconstruction effort, 614 schools
  were built: 396
  •	 200 (primary).
  •	 132 (middle).
  •	 217 (high).
  •	 40 (teacher training colleges).
  •	 25 (other).
                                                                                                                                         Afghan girls attend class at a school
  Health                                                                                                                                 in Kabul. During the rule of the Taliban,
                                                                                                                                         schools were closed to girls. Since the
  This quarter, USAID released the Afghanistan Mortality Survey 2010, which
                                                                                                                                         fall of the regime, enrollment rates of girls
  showed promising improvements over the previous year’s results. USAID pointed
                                                                                                                                         have risen steadily. One of the goals of
  out that the survey shows that Afghan children and adults are living longer, with                                                      reconstruction is to improve access to
  fewer maternal deaths during childbirth. This is likely due to improved access to                                                      education. Credit: ISAF photo, SSG Stacey
  prenatal and antenatal care, as well as to skilled attendants at births, as shown in                                                   Haga.
  Table 3.6. As a result of sustained international assistance, adult life expectancy
  has improved significantly, by as much as 15–20 years over previous estimates,
  according to the Minister of Public Health. Nevertheless, USAID pointed out that
  much work remains and that Afghanistan continues to lag behind all its regional
  neighbors in health indicators. 397
     As SIGAR noted in its October 2011 quarterly report, although most of
  Afghanistan is polio-free, the disease is still present in 13 districts, primarily in


  TABLE 3.6

  MATERNAL HEALTH CARE PROGRESS, 2002–2003 TO 2010
  Indicators                                                                   2002–2003                                     2010
  Mortality
   Maternal (per 100,000 births)                                                    1,600                                      327
   Under 5 (per 1,000 live births)                                                    172                                           97
   Infant (per 1,000 live births)                                                     257                                           77
  Modern contraceptive prevalence (%)                                                   10                                          16
  Total fertility per woman                                                            6.3                                      5.1
  Prenatal care coverage (%)                                                            16                                          60
  Skilled attendants at birth (% of deliveries)                                         14                                          34
  Notes: Data for 2002–2003 is from the UN-supported Reproductive Age Mortality Survey, 2002 and Statistics & Monitoring Multiple
  Indicators Cluster Survey. Data for 2010 is from the Afghanistan Mortality Survey conducted by USAID.
  Source: USAID, “Afghanistan Mortality Survey,” accessed 1/6/2012.




               REPORT TO THE UNITED STATES CONGRESS                        I   JANUARY 30, 2012                           137
                                            ECONOMIC AND SOCIAL DEVELOPMENT




                                            the south. This quarter, Japan donated $9.3 million for polio eradication efforts
                                            to help meet the international goal of complete eradication in 2012. 398 According
                                            to the MoPH, there were 80 polio cases in 2011—three times as many as in 2010;
                                            more than three-quarters were in the south, which has a significant Taliban
                                            presence. On January 17, 2012, President Karzai stated his concern about the
                                            lingering cases and called on religious and community leaders and armed oppo-
                                            nents to allow vaccination teams to immunize children without interference. 399
                                            The Taliban have been opposed to anti-polio campaigns in the past and have
                                            kidnapped and attacked health workers, according to the former secretary of the
                                            U.S. Department of Health and Human Services. 400


                                            Trade
                                            The successful implementation of the Afghanistan-Pakistan Transit Trade
                                            Agreement (APTTA) will be significant for the New Silk Road initiative and
                                            Afghanistan’s revenue generation. According to the Civil-Military Fusion Centre,
                                            the agreement is crucial to the agriculture sector, which accounts for more than
                                            half the country’s legal exports. It is also crucial to the burgeoning mining and
                                            energy sectors because mining and energy companies will need to import equip-
                                            ment and export minerals through Pakistan regularly. 401
                                               The APTTA was officially implemented last quarter, including some of the
Fewer Afghan mothers die in childbirth     more controversial aspects related to insurance and collateral requirements.
than in previous years, according to
                                            However, several remaining differences have delayed the full realization of the
the Afghanistan Mortality Survey 2010,
released by USAID this quarter. Since
                                            agreement, according to DoS. Two month-long exemptions to the insurance
2002, the maternal mortality rate has       provision were granted so the Afghanistan-Pakistan Transit Trade Coordination
decreased by nearly 80%. The decline        Authority (APTTCA) could resolve the outstanding issues. According to DoS,
is attributed in part to improved access    when these exemptions expired, shipments were delayed, sometimes by several
to health care before and after delivery.   weeks. The next meeting of the APTTCA was scheduled for January 2012. 402
Credit: MOD/Crown photo, Sqn Ldr Dee
                                               The 8th Pakistan Afghanistan Joint Economic Commission met on January
Taylor.
                                            16–17, 2012, in Islamabad to further discuss transit and bilateral trade, as well
                                            as reconstruction and economic cooperation. The Afghan delegation used the
                                            forum to bring up the challenges of the APTTA and sought Pakistan’s coopera-
                                            tion in releasing 700 shipping containers that were held up in Pakistani ports.
                                            Although Pakistan vowed to resolve the container issue, no formal resolution
                                            was reached for the APTTA. However, Pakistan did commit to completing con-
                                            struction of the 74-km, two-lane Torkham-Jalalabad Carriageway within a year. It
                                            also agreed to offer training in media and postal services. 403

                                            Transportation
                                            The primary transportation network connecting major Afghan cities is the Ring
                                            Road. Since 2004, the international community has built or refurbished almost
                                            the entire length of the 2,700-km road, as shown in Figure 3.35. As noted in
                                            SIGAR’s April 2011 quarterly report, the Asian Development Bank has provided
                                            $340 million to complete the last section, which will connect three towns in the
                                            northwest. Construction remains delayed.




                                             138               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




     This quarter, Uzbekistan’s national railway began operating a 75-km freight
  rail line from Afghanistan’s Hairatan freight terminal by the Uzbek border to
  Mazar-e Sharif. The Afghan Railway Department, which will take over the line
  after three years of training, plans to extend the lines from Herat to Iran and
  from Torkham to Pakistan. According to the World Bank, the line will also extend
  into Tajikistan. The Hairatan terminal—already at peak capacity at 4,000 tons of
  cargo a month—will likely see increased volume from this freight line. It will also
  have to contend with what the World Bank projects will be a rise of imports from
  Central Asia of 25,000–40,000 tons a month in the near future. 404

  FIGURE 3.35

  RING ROAD PROGRESS: SECTIONS COMPLETED, 2002–2011



                                           2010
                                           Asian Development Bank
                                                                                UZBEKISTAN
                                                            2008                        2009                                              TAJIKISTAN     CHINA
                                                            Asian Development Bank      Asian Development Bank



                                                                      JOWZJAN
                        TURKMENISTAN                                                                  KUNDUZ               BADAKHSHAN
      2010                                                                                                        TAKHAR
      Islamic Development Bank                                                       BALKH


      2004                                                                              SAMANGAN             BAGHLAN                     2010
      Iran                                                FARYAB                                                                         United States
                                                                      SAR-E PUL                                   PANJSHIR NURISTAN
                                                  BADGHIS
                                                                                                                                         2005
                                                                                                     PARWAN         KAPISA      KUNAR    World Bank
                                                                                     BAMYAN                             LAGHMAN
                                                                                                                 KABUL
                                                                                                WARDAK
                 HERAT                                                                                                    NANGARHAR
                                                        GHOR                                                 LOGAR
                                                                       DAYKUNDI                                 PAKTIYA
                                                                                         GHAZNI
                                                                                                                     KHOWST

                                                                                                                                         2004
                                                                    URUZGAN                                                              United States
                        FARAH
                                                                                ZABUL
                                                                                                       PAKTIKA


                                                                                                                              PAKISTAN
      IRAN                 NIMROZ
                                            HELMAND
                                                                                             2009
                                                               KANDAHAR                      United States
                                                                                             Saudi Arabia
                                                                                             Japan




  Source: CFC, “Afghanistan Review,” 1/18/2012, p. 4.




                REPORT TO THE UNITED STATES CONGRESS                   I   JANUARY 30, 2012                          139
ECONOMIC AND SOCIAL DEVELOPMENT




   In related developments, the MoM announced this quarter that the Metallurgical
Corporation of China, which was awarded the extraction rights to the Aynak
copper mine in 2007, will carry out the technical studies needed for the Kabul−
Mazar-e Sharif and Kabul-Torkham rail lines. The line from Kabul to Mazar-e
Sharif will pass through Parwan and Bamiyan provinces and connect with the
Mazar-e Sharif−Hairatan rail line. According to CRS, the eventual goal of the
Afghan railway is to link to the system in Central Asia, thereby improving its
regional economic integration. 405

Commercial Aviation
As noted in previous SIGAR quarterly reports, safety concerns caused the
European Commission (EC) to ban all Afghan commercial airlines from landing
in the European Union. As of November 23, 2011, that ban remained in place. 406
However, the EC did mandate that the European Aviation Safety Agency assist
Afghanistan in a technical capacity to improve air safety. 407
    Treasury’s Revenue Policy and Revenue Administration team has an advisor
working with the Ministry of Transport and Civil Aviation (MoTCA) to increase
non-tax revenues, including commercial aviation user fees. 408 In November 2011,
the MoTCA posted security, boarding, and landing fees on its website and at
airports. The new, transparent, and standardized fee structure is intended to help
reduce corruption and increase government revenue, as will the shift from cash
to electronic payments for aviation user fees that is scheduled to start January 15,
2012, according to Treasury. 409
    Aside from these efforts, Treasury noted, the MoTCA does not have a credible
plan to collect $13 million in taxes owed by Afghan-based airlines, nor can it ensure
that future taxes will be paid. These revenues are needed to offset the loss of fund-
ing from the government of the United Arab Emirates (UAE) for airport security
at the Kabul and Kandahar airports in March 2012. Like the initial UAE deadline in
March 2011, the MoTCA this quarter had yet to submit a plan to take over security
costs to meet international standards—approximately $14.3 million a year. 410

Mining
This quarter, the Afghan government claimed that the mineral sector will gen-
erate $1.4 billion in annual revenue by 2016 and $2.2 billion by 2020; however,
in its economic transition strategy report, the government stated that it had
deviated from the World Bank’s analysis by incorporating higher numbers for
expected mineral revenue in its forecast models. 411 According to the Afghanistan
Investment Support Agency, more than 1,400 mineral deposits have been identi-
fied in the country: 412
 •	 energy: oil, gas, and coal
 •	 metallic and non-precious ores: lead, cement-grade limestone, gemstones,
    copper, iron, gold, salt, and industrial minerals (for use in the glass, ceramic,
    construction, chemical, and fertilizer industries)
 •	 precious and semi-precious stones: emerald, jade, amethyst, alabaster, beryl,
    lapis lazuli, tourmaline, ruby, quartz, and sapphire



 140                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  The TFBSO has estimated these deposits at $1 trillion. 413 It is not clear how much
  of that figure the Afghan government will realize in revenue.
      This quarter, the TFBSO announced that it will provide training and equipment
  to the Afghan Geological Survey (AGS) to help Afghanistan identify and respon-
  sibly develop the deposits. 414 It will train AGS scientists in collecting, processing,
  and interpreting high-resolution geophysical data, and will provide equipment for
  airborne geophysical exploration so the Afghan government can offer accurate
  information to international investors. 415
      In other efforts to help generate international private-sector development in
  the mineral sector, the U.S. Geological Survey (USGS) digital data packages for
  24 mineral areas of interest were transferred this quarter to the state-of-the-art
  AGS data center. Funded by the TFBSO, the center archives 50 years of compiled
  mineral exploration information. On December 6, using the USGS data pack-
  ages, the TFBSO helped the MoM tender five mineral exploration packages at the
  London Mines and Money Conference: 416
   •	 Balkhab (Sar-e Pul): copper.
   •	 Badakhshan: gold.
   •	 Zarkashan (Ghazni): copper and gold.
   •	 Shaida (Herat): copper.
   •	 Namaskar-e-Herat (Herat): lithium.
     In two important mining developments this quarter, the MoM awarded China
  National Petroleum Corporation International (CNPC) the rights to develop three
  oil blocks in the Amu Darya Basin in the north. The MoM estimated that the
  basin contains more than 80 million barrels of crude oil reserves, plus a potential
  of 80 million barrels in yet-to-be discovered reserves. CNPC agreed to pay the
  government a 15% royalty and has partnered with Watan Oil and Gas Afghanistan
  Ltd. to begin production within a year. 417
     The MoM also awarded an Indian-led consortium the development rights to
  four of five blocks in the Hajigak iron ore deposit. The ministry expected that the
  project will bring in billions of dollars in investments and thousands of Afghan
  jobs. Led by state-owned Steel Authority India Ltd, the consortium proposed
  building mines, a steel plant, rail infrastructure, and a power plant, as well as
  providing education and training programs. 418

  Communications
  Afghanistan’s telecommunications industry continues to grow at an acceler-
  ated pace. As noted in SIGAR’s October 2011 quarterly report, the Afghan
  Telecommunication Regulatory Authority is working to upgrade the country’s
  telecommunication network and opened the bidding process for a nationwide
  3G license. This quarter, according to the World Bank, all three bids received by
  the November 15 closing date were rejected and deemed unqualified. Therefore,
  as predetermined by the conditions in the Ministry of Communication and
  Information Technology’s tender, the 3G license will be issued to the incumbent
  GSM companies. 419




           REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2012            141
                                                             ENDNOTES




335. 	 See Appendix B.

336. 	 DoS, “Background Briefing: the Bonn Conference on Afghanistan and Meeting with European Partners,” 12/5/2011, accessed 1/4/2012.

337. 	 Istanbul Conference, “Declaration of Istanbul Conference on Afghanistan Held on November 02, 2011,” 11/3/2011, accessed 12/22/2011.

338. 	 MoM, Message from the Minister, “Mines and Money Conference Held in London,” 12/13/2011, accessed 12/28/2011; Mines and Money London
       2011, brochure, accessed 1/14/2012.

339. 	 Afghan-American Chamber of Commerce, press release, “7th Annual U.S.-Afghanistan Business Matchmaking Conference,” 11/29/2011,
       accessed 12/28/2011.

340. 	 Ministry of Foreign Affairs, Republic of Kazakhstan, “Astana Calling,” Issue #199, 11/15/2011, accessed 12/27/2011.

341. 	 International Afghanistan Conference in Bonn, “Conference Conclusions,” 12/5/2011, accessed 12/27/2011.

342. 	 CFC, “Second International Bonn Conference on Afghanistan,” 12/5/2011, accessed 1/4/2011; IMF, Country Report No. 11-330, 11/2011,
       accessed 12/28/2011.

343. 	 World Bank, “Transition in Afghanistan Looking Beyond 2014,” 11/21/2011, accessed 12/21/2011; IMF, Country Report No. 11-330, 11/2011,
       accessed 12/28/2011.

344. 	 DoS, “Background Briefing: the Bonn Conference on Afghanistan and Meeting With European Partners,” 12/5/2011, accessed 12/9/2011.

345. 	 DoS, “Next Steps on the Silk Road, Remarks by Geoffrey Pyatt, Principal Deputy Assistant Secretary, Bureau of South and Central Asian
       Affairs, Chennai, India,” 11/15/2011, accessed 12/5/2011; DoS, “Background Briefing: the Bonn Conference on Afghanistan and Meeting With
       European Partners,” 12/5/2011, accessed 12/9/2011.

346. 	 DoS, “Remarks at the Bonn Conference Center,” 12/5/2011, accessed 1/17/2012.

347. 	 Treasury, response to SIGAR data call, 12/30/2011.

348. 	 USAID, response to SIGAR data call, 1/5/2012.

349. 	 UN General Assembly, press release, “Adopting Wide-Ranging Text, General Assembly Pledges Continued Support to Afghanistan, “ 11/21/2011,
       accessed 12/12/2011; World Bank, “Transition in Afghanistan Looking Beyond 2014, Executive Summary,” 11/18/2011, accessed 1/9/2012.

350. 	 World Bank, “Afghanistan Economic Update,” 10/2011, accessed 12/28/2011; IMF, Country Report No. 11-330, 11/2011, accessed 12/28/2011.

351. 	 IMF, Country Report No. 11-330, 11/2011, accessed 12/28/2011; World Bank, “Transition in Afghanistan Looking Beyond 2014,” 11/21/2011,
       accessed 12/21/2011.

352. 	 World Bank, “Transition in Afghanistan Looking Beyond 2014,” 11/21/2011, accessed 12/21/2011.

353. 	 CIA, “Afghanistan,” World Factbook, 12/20/2011, accessed 1/12/2012.

354. 	 IMF, Country Report No. 11-330, 11/2011, p. 31, accessed 12/28/2011.

355. 	 IMF, Country Report No. 11-330, 11/2011, accessed 12/28/2011; World Bank, “Afghanistan Economic Update,” 10/2011, accessed 12/28/2011.

356. 	 World Bank, “Transition in Afghanistan Looking Beyond 2014,” 11/21/2011, accessed 12/21/2011.

357. 	 IMF, Country Report No. 11-330, 11/2011, accessed 12/28/2011; World Bank, “Afghanistan Economic Update,” 10/2011, accessed 12/28/2011;
       World Bank, “Transition in Afghanistan Looking Beyond 2014,” 11/21/2011, accessed 12/21/2011.

358. 	 USAID, “Snapshot: Responsible Citizenship in Kabul,” 1/18/2012, accessed 1/11/2012; USAID, “Snapshot: Land Reform in Afghanistan Will Make
       Beneficial Changes,” 10/25/2011, accessed 1/11/2012.

359. 	 USAID, “USAID Holds Workshop on Land Reform in Afghanistan,” 11/27/2011, accessed 1/11/2012; USAID, “Snapshot: Land Reform in
       Afghanistan Will Make Beneficial Changes,” 10/25/2011, accessed 1/11/2012; USAID, response to SIGAR data call, 1/5/2012.




                                                       142                    SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                                                               ENDNOTES




360. 	 USAID, response to SIGAR data call, 1/5/2012.

361. 	 IMF, Country Report No. 11-330, 11/2011, accessed 12/28/2011.

362. 	 GIRoA, “Toward a Self-Sustaining Afghanistan,” 11/29/2011, accessed 1/14/2012.

363. 	 IMF, Country Report No. 11-330, 11/2011, accessed 12/28/2011.

364. 	 Treasury, response to SIGAR data call, 12/30/2011.

365. 	 WFP, “Afghanistan Market Price Bulletin,” 12/2011.

366. 	 DoS, response to SIGAR data call, 12/30/2011; GIRoA, “Public Statement by Office of the Attorney General,” 10/19/2011, accessed 1/9/2012.

367. 	 GIRoA, “Public Statement by Office of the Attorney General,” 10/19/2011, accessed 1/9/2012.

368. 	 DoS, response to SIGAR data call, 12/30/2011; IMF, Country Report No. 11-330, 11/2011, accessed 12/28/2011.

369. 	 IMF, Country Report No. 11-330, 11/2011, p. 40, accessed 1/7/2012; IMF, “Currency units per SDR for 11/2011,” accessed 1/7/2012; IMF,
       “Transcript of a Conference Call on Afghanistan,” 11/15/2011, accessed 1/7/2012.

370. 	 Treasury, response to SIGAR data call, 12/30/2011.

371. 	 DoS, “Remarks at Afghanistan Conference First Working Session [Bonn, Germany],” 12/5/2011, accessed 1/9/2012; USAID, response to SIGAR
       data call, 1/5/2012.

372. 	 World Bank, “ARTF Financing Strategy: SY1391–1393, Draft for Steering Committee discussion,” 11/29/2011, accessed 1/9/2012.

373. 	 World Bank, press release, “Auditing Commercial Banks and Modernizing the National Payment System Are Core Focuses of $19 Million World
       Bank Grant,” 8/25/2011, accessed 1/17/2012.

374. 	 FDIC, “Law, Regulations, Related Acts,” 7500-FRB Regulations, Part 206.3, accessed 1/17/2012.

375. 	 Treasury, response to SIGAR data call, 12/30/2011.

376. 	 USAID, “USAID Grants Will Enable More Than 100,000 Afghans To Use Mobile Money Services,” 11/30/2011, accessed 1/8/2012; World Bank,
       “Afghanistan Economic Update,” 10/2011, accessed 12/28/2011.

377. 	 USAID, “USAID Grants Will Enable More Than 100,000 Afghans To Use Mobile Money Services,” 11/30/2011, accessed 1/8/2012; USAID, press
       release, “Innovating in Afghanistan,” 11/27/2011, accessed 1/8/2012.

378. 	 USAID, press release, “Mobile Money Operators Organize,” 11/4/2011, accessed 1/8/2012.

379. 	 TFBSO, response to SIGAR data call, 10/19/2011.

380. 	 USAID, press release, “Mobile Money Operators Organize,” 11/4/2011, accessed 1/8/2012.

381. 	 World Bank, “Emergency Project Paper on a Proposed Emergency Recovery Grant in the Amount of SDR 11.9 Million to the Islamic Republic
       of Afghanistan for a Financial Sector Rapid Response Project,” 8/3/2011, accessed 1/9/2012; USAID, response to SIGAR data call, 1/5/2012.

382. 	 World Bank, press release, “Auditing Commercial Banks and Modernizing the National Payment System Are Core Focuses of $19 Million
       World Bank Grant,” accessed 1/14/2012; USAID, response to SIGAR data call, 1/5/2012; World Bank, “Emergency Project Paper on a Proposed
       Emergency Recovery Grant in the Amount of SDR 11.9 Million to the Islamic Republic of Afghanistan for a Financial Sector Rapid Response
       Project,” 8/3/2011, accessed 1/9/2012.

383. 	 Treasury, response to SIGAR data call, 12/30/2011.

384. 	 Treasury, response to SIGAR data call, 12/30/2011.




        REPORT TO THE UNITED STATES CONGRESS             I   JANUARY 30, 2012              143
                                                             ENDNOTES




385. 	 UNAMA, “Afghanistan: Poor Harvest Endangering Nearly One-third of Population, Top Agricultural Official Predicts,” 10/18/2011, accessed
       1/12/2012.

386. 	 DoS, “Status Report: Afghanistan and Pakistan Civilian Engagement,” 11/2011, accessed 1/11/2012.

387. 	 USAID, “Accelerating Sustainable Agriculture, ASAP Final Report,” 10/31/2011, accessed 1/11/2012.

388. 	 DoS, response to SIGAR data call, 12/30/2011.

389. 	 MoM, “A Summit Was Held in Kabul To Finalize TAPI Subcontracts,” 12/13/2011, accessed 1/10/2012.

390. 	 CRS, “Afghanistan: Post-Taliban Governance, Security and U.S. Policy,” Report #RL30588, 11/22/2011.

391. 	 CRS, “Afghanistan: Post-Taliban Governance, Security and U.S. Policy,” Report #RL30588, 11/22/2011.

392. 	 USAID, response to SIGAR data call, 1/5/2012.

393. 	 TFBSO, response to SIGAR data call, 1/2/2012; TFBSO, “Afghanistan Fact Sheet,” 10/26/2011, accessed 1/12/2012.

394. 	 DoS, response to SIGAR data call, 12/30/2011.

395. 	 USAID, response to SIGAR data call, 1/4/2012.

396. 	 USAID, response to SIGAR data call, 1/4/2012.

397. 	 USAID, “Afghanistan Mortality Survey 2010,” 11/2011, accessed 1/5/2012; USAID, response to SIGAR data call, 1/4/2012; Foreign Policy, “On
       the Road to Recovery,” 12/9/2011, accessed 1/18/2012.

398. 	 UN Reliefweb, “Government of Japan Commits $9.3 Million to Polio Eradication Efforts in Afghanistan,” 12/11/2011, accessed 1/10/2012.

399. 	 GIRoA, “President Karzai Calls on Armed Opposition to Allow Anti-polio Vaccine to Administer,” 1/17/2012, accessed 1/17/2012.

400. 	 HHS, “Health Diplomacy: From the American People,” 10/17/2008, accessed 1/19/2012.

401. 	 CFC, “Transit Trade in Transition: The APTTA & The Afghan Economy,” 11/2011, accessed 1/9/2012.

402. 	 DoS, response to SIGAR data call, 12/30/2011.

403. 	 GIRoA, Ministry of Finance, “8th Pakistan Afghanistan Joint Economic Commission Meeting,” 1/18/2012, accessed 1/18/2012.

404. 	 World Bank, “Afghanistan Economic Update,” 10/2011, accessed 12/28/2011; NATO, “Afghan Cargo Train on Track for Success,” 11/8/2011,
       accessed 1/11/2012.

405. 	 MoM, “Technical Research for Kabul-Mazar and Kabul-Torkham Railways Begins Soon,” 10/18/2011, accessed 1/11/2012; CRS, “Afghanistan:
       Post-Taliban Governance, Security and U.S. Policy,” Report #RL30588, 11/22/2011.

406. 	 EC, “List of Banned Carriers Within the EU,” 11/23/2011, accessed 1/8/2012.

407. 	 Europa, “Aviation: Commission Updates the EU List of Air Carriers Subject to an Operating Ban,” 11/21/2011, accessed 1/8/2012.

408. 	 Treasury, response to SIGAR data call, 12/30/2011.

409. 	 MoTCA, News, “Notice - End of the Acceptance of Cash for Aviation Fees,” 11/24/2011, accessed 1/8/2012.

410. 	 Treasury, response to SIGAR data call, 12/30/2011.

411. 	 CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” Report #RL30588, 11/22/2011, p. 70; GIRoA, “Toward a Self-Sustaining
       Afghanistan,” 11/29/2011, accessed 1/14/2012.

412. 	 AISA, “Market Prospects,” 6/19/2006, accessed 12/30/2011.




                                                       144                 SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                             ENDNOTES




413. 	 DoD, “Airborne Geophysical Exploration Program Launched in Afghanistan,” News Release No. 987-11, 11/29/2011.

414. 	 USGS, “Projects in Afghanistan: A Brief History,” accessed 1/3/2011; DoD, “Airborne Geographical Exploration Program Launched in
       Afghanistan,” News Release No. 987-11, 11/29/2011, accessed 12/27/2011.

415. 	 DoD, “Airborne Geophysical Exploration Program Launched in Afghanistan,” News Release No. 987-11, 11/29/2011.

416. 	 TFBSO, response to SIGAR data call, 1/2/2012.

417. 	 MoM, “Afghanistan, CNPC International Reach Agreement for Amu Darya Oil Tender,”1/26/2011, accessed 1/10/2012.

418. 	 MoM, “Afghanistan Ministry of Mines Announces the Winning Bidders for the Hajigak Iron Ore Project Tender,”1/28/2011, accessed 1/10/2012.

419. 	 Afghanistan Telecom Regulatory Authority, “Result of 3G Bidding Process,” accessed 1/11/2012; World Bank, “Afghanistan Economic Update,”
       10/2011, accessed 12/28/2011.




        REPORT TO THE UNITED STATES CONGRESS           I   JANUARY 30, 2012              145
Afghans First
This quarter, Kabul Melli Trading, an Afghan company, won a
multi-million-dollar contract from the U.S. military to produce
200,000 boots for the Afghan National Army. The firm hired
700 workers, who are working 12-hour shifts, 24 hours a
day, to meet the deadlines—keeping jobs and profits in
Afghanistan. Credit: ISAF Photo
Section 4
OTHER AGENCY OVERSIGHT




4           OTHER AGENCY
            OVERSIGHT




                    147
OTHER AGENCY OVERSIGHT




148    SPECIAL INSPECTOR GENERAL |   AFGHANISTAN RECONSTRUCTION
                               OTHER AGENCY OVERSIGHT




OTHER AGENCY OVERSIGHT
SIGAR’s enabling legislation requires it to keep the Secretary of State and the
Secretary of Defense fully informed about problems relating to the administra-
tion of reconstruction programs and to submit a report on SIGAR’s oversight
work and on the status of the U.S. reconstruction effort to Congress no later than
30 days after the end of each fiscal quarter. Each quarter, SIGAR requests updates
from other agencies on completed and ongoing oversight activities. This section
contains these updates. The descriptions appear as they were submitted, with
these changes for consistency with other sections of this report: acronyms and
abbreviations in place of full names; standardized capitalization, hyphenation,
punctuation, and preferred spellings; and third-person instead of first-person
construction.
    These agencies are performing oversight activities in Afghanistan and provid-
ing results to SIGAR:
 •	 Department of Defense Office of Inspector General (DoD OIG)
 •	 Department of State Office of Inspector General (DoS OIG)
 •	 Government Accountability Office (GAO)
 •	 U.S. Army Audit Agency (USAAA)
 •	 U.S. Agency for International Development Office of Inspector General
    (USAID OIG)

COMPLETED OVERSIGHT ACTIVITIES
Table 4.1 lists the five oversight projects related to reconstruction that the par-
ticipating agencies reported were completed this quarter.

TABLE 4.1


Recently Completed Oversight Activities of Other U.S. Agencies, as of December 31, 2011
Agency         Report Number        Date Issued         Project Title
DoD OIG        D-2012-028           12/9/2011           Assessment of U.S. Government and Coalition Efforts To Develop the Logistics Sustainment Capability of the Afghan National Army
DoD OIG        D-2012-023           11/21/2011          Management Improvements Needed in Commander’s Emergency Response Program in Afghanistan
GAO            GAO-12-13            10/17/2011          Warfighter Support: DoD Has Made Progress, but Supply and Distribution Challenges Remain in Afghanistan
USAID OIG      F-306-12-001-S 12/22/2011                Review of Responses to Internal Audit Findings on the Local Governance and Community Development Project
USAID OIG      F-306-12-001-P       11/13/2011          Audit of USAID/Afghanistan’s Afghanistan Stabilization Initiative for the Southern Region
Sources: DoD OIG, response to SIGAR data call, 12/27/2011; DoS OIG response to SIGAR data call, 12/20/2011; GAO, response to SIGAR data call, 1/2/2011; USAID OIG, response to SIGAR data call,
12/23/2011.




             REPORT TO THE UNITED STATES CONGRESS |   JANUARY 30, 2012                                               149
OTHER AGENCY OVERSIGHT




U.S. Department of Defense Office of Inspector General
During this quarter, DoD OIG issued two reports related to Afghanistan
reconstruction.

Assessment of U.S. Government and Coalition Efforts To Develop
the Logistics Sustainment Capability of the Afghan National Army
(Report No. D-2012-028, Issued December 9, 2011)
The International Security Assistance Force (ISAF) has taken initiative across a
broad front to close the gap between Afghan National Army (ANA) operational
support needs and the ANA logistical system’s capacity to meet them. These
coalition actions include ANA logistical system planning and design, training,
infrastructure, and equipping, as well as accountability and control over nec-
essary contracting, equipment, and services. Specifically, the North Atlantic
Treaty Organization Training Mission-Afghanistan/Combined Security Transition
Command-Afghanistan (NTM-A/CSTC-A) has been constructing supply depots
across the regional commands closer to forward-deployed ANA corps and
brigades. A new Army Logistics Command, being established this year under the
General Staff, will integrate parts of logistics organizations/ functions from the
Logistics Support Operations Center’s (LSOC) Forward Support Group, along
with the Forward Support Depots (FSDs), and Corps Logistics Kandaks (the
Afghan equivalent to a U.S. Army battalion). This new command, and its subor-
dinate Regional Logistics Support Commands, will better support the transport
and maintenance needs of ANA combat brigades. With NTM-A/CSTC-A support,
the Ministry of Defense (MoD) has progressed in its capacity to plan, program,
and successfully expend annual budgets to provide for ANA logistical require-
ments. Ministerial functions in the areas of logistics management are being
fortified. In addition, the International Security Assistance Force Joint Command
(IJC) has deployed its Support Battalions and the Joint Sustainment Command-
Afghanistan (JSC-A) has deployed its Sustainment Brigades as partners
supporting ANA logistical development, an undertaking comparable to a success-
ful effort in Iraq that achieved impressive results.
   Nonetheless, there are significant vulnerabilities and weaknesses in the logisti-
cal system, which are identified in the report observations. Among them remains
the challenge of establishing a more effective system of oversight with respect
to ANA equipment, supplies, and installations. The ability of the ANA to provide
this oversight is fundamental to being able to sustain the operational readiness
of its forces; prevent fraud, waste, and abuse of ANA materiel and infrastructure;
and reduce corruption. Such a system would also contribute to instilling a new
cultural ethos of stewardship within the ANA.
   Recognizing the need to achieve that goal, ISAF has taken proactive measures,
such as an initiative underway to establish a baseline inventory of vehicles,
weapons, and communications equipment provided the ANA by the coalition.
Efforts to strengthen the capacity of the MoD/GS and ANA to maintain account-
ability and control over their logistics enterprise are proceeding. ISAF has also




 150                SPECIAL INSPECTOR GENERAL |   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




identified a parallel need to improve its own internal oversight capability with
respect to U.S. appropriated funds used to supply equipment and supplies to the
ANA and is in the process of obtaining additional qualified personnel and estab-
lishing programs to do so.

Management Improvements Needed in Commander’s Emergency
Response Program in Afghanistan
(Report No. D-2012-023, Issued November 21, 2011)
U.S. Central Command (CENTCOM) and U.S. Forces-Afghanistan (USFOR-A)
controls over Commander’s Emergency Response Program (CERP) contract pay-
ments and reporting were not adequate. Specifically, for CERP payments made
between October 2008 and February 2010, CENTCOM and USFOR-A did not
maintain and report reliable and meaningful CERP data for 6,157 of 8,509 CERP
payments (based on a projection) and did not de-obligate at least $16.7 million
of unused CERP project funds for 108 closed or terminated CERP projects. In
addition, CENTCOM and USFOR-A did not identify or prevent $1.7 million of
improper payments on 13 CERP projects and did not identify or prevent at least
30 unauthorized advance payments, totaling $3.4 million, made to vendors on
CERP contracts. Also, CENTCOM and USFOR-A did not mitigate the risk of over-
payments and underpayments because of currency rate fluctuations.
   This occurred because USFOR-A did not issue guidance on recording and rec-
onciling CERP data until May 2009 and did not properly train personnel on that
guidance. CENTCOM and USFOR-A did not provide sufficient CERP contract
oversight to prevent improper payments, payments from unauthorized sites, or
unauthorized advance payments. Also, DoD acquisition policy lacked a require-
ment for contracts to be written and paid in the same currency.
   As a result, USFOR-A had potentially up to $38.4 million in outstanding unliq-
uidated obligations, improper payments, and high-risk CERP advance payments,
and a high risk for currency exchange rate fraud and overpaying or underpaying
Afghanistan vendors.

U.S. Department of State Office of Inspector General–
Middle East Regional Office
During this quarter, DoS OIG issued no reports related to Afghanistan
reconstruction.

Government Accountability Office
During this quarter, GAO issued one report related to Afghanistan reconstruction.

Warfighter Support: DoD Has Made Progress, but Supply and
Distribution Challenges Remain in Afghanistan
(Report No. GAO-12-13, Issued October 17, 2011)
In FY 2010, DoD spent billions of dollars to move troops and materiel into
Afghanistan, a mountainous, land-locked country with poorly developed



         REPORT TO THE UNITED STATES CONGRESS |   JANUARY 30, 2012           151
OTHER AGENCY OVERSIGHT




infrastructure. The increase of 30,000 U.S. troops in Afghanistan as of August
2010, along with thousands of civilians and contractors supporting U.S. efforts,
have required further development of DoD’s already-complex distribution
network to support and sustain U.S. military presence in Afghanistan. Although
U.S. Transportation Command (TRANSCOM) has established some processes
for oversight, it does not have full oversight of the distribution of supplies and
equipment to the warfighter in Afghanistan. DoD’s distribution pipeline includes
four legs—intra-continental, inter-theater, intra-theater, and point of employ-
ment—and involves numerous organizations responsible for various aspects of
the distribution process for delivering supplies and equipment to Afghanistan.
TRANSCOM, as DoD’s distribution process owner, is responsible for oversee-
ing the overall effectiveness, efficiency, and alignment of DoD-wide distribution
activities. However, as applied and interpreted by DoD, TRANSCOM’s oversight
role does not extend all the way to final delivery to warfighters at forward-based
combat outposts.
   To enable DoD to better manage its processes for managing and using
cargo containers, the Secretary of Defense should direct the Under Secretary
of Defense for Acquisition, Technology, and Logistics to create, implement,
and enforce reporting requirements and procedures for tracking containers in
theater.

U.S. Army Audit Agency
The USAAA reported completing no new audits related to Afghanistan recon-
struction this quarter.

U.S. Agency for International Development
Office of Inspector General
During this quarter, USAID OIG issued two reports related to Afghanistan
reconstruction.

Review of Responses to Internal Audit Findings on the Local
Governance and Community Development Project
(Report No. F-306-12-001-S, Issued December 22, 2011)
USAID OIG conducted this review to assess selected problems raised in the
internal audit report and to determine whether Development Alternatives Inc.
(DAI) incurred questionable costs on the project.
   Launched in October 2006, the Local Governance and Community
Development Project sought to promote stability by (1) helping the Government
of the Islamic Republic of Afghanistan extend its reach into unstable areas and
engage populations most likely to support insurgents, (2) creating an environ-
ment that encourages local communities to take an active role in their own
stability and development, and (3) addressing the underlying causes of instabil-
ity and support for the insurgency through integrated community development
activities. The project focused on Kandahar City and Maywand District.



 152                SPECIAL INSPECTOR GENERAL |   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




   DAI implemented the project through a $349 million contract that ended
on August 31, 2011. According to mission records dated October 2011, USAID/
Afghanistan obligated $328 million and disbursed $317 million for project activi-
ties. The final report identified $6.6 million in questioned costs, stemming from
the following issues:
•	 Deficient procurement practices led to questioned costs of $748,683 rela-
    tive to vehicles leased without proper approvals and without full and open
    competition.
•	 Deficient procurement practices resulted in $352,500 in questionable lease
    payments for the Local Governance and Community Development Project
    office space and guesthouses.
•	 Deficient procurement practices led to $2,019,036 in questioned costs from
    procuring goods and services without adequate competition and supporting
    documentation.
•	 Deficient procurement practices led to questioned costs of $3,424,400
    from inadequately supported fuel purchases for the Local Governance and
    Community Development Project.
•	 DAI did not liquidate cash advances of $48,530 promptly, making them
    uncollectible.
•	 DAI improperly charged $4,782 to the project for upgraded seating on inter-
    national flights.
The report included seven recommendations to address these issues.

Audit of USAID/Afghanistan’s Afghanistan Stabilization Initiative
for the Southern Region
(Report No. F-306-12-001-P, Issued November 13, 2011)
USAID OIG conducted this audit to determine whether the Afghanistan
Stabilization Initiative for the Southern Region (ASI-SR) was achieving its main
goal of building confidence between communities and the Afghan government.
The final report includes the following issues:
•	 Program implementation was delayed. Program implementation was delayed
   by a lack of standards for evaluating the timeliness of Chemonics’ perfor-
   mance, adverse security conditions, a lack of formal work plans, inadequate
   oversight by USAID’s Office of Transition Initiatives (OTI), staffing difficul-
   ties, and poor-quality subcontractors.
•	 The program budget was not properly managed. ASI-SR did not properly
   manage its budget and began running out of funds in the first quarter of
   FY 2011. This happened because ASI-SR accepted more grants than it could
   fund and because of unanticipated operating expenses.
•	 Projects were not perceived as Afghan government efforts. According to an
   independent third-party monitoring and evaluation report of ASI-SR activi-
   ties, for 9 of 15 projects reviewed, intended beneficiaries did not believe
   that the Afghan government was involved in the projects. Rather, beneficia-
   ries credited “foreigners” or Provincial Reconstruction Teams (PRTs) with




          REPORT TO THE UNITED STATES CONGRESS |   JANUARY 30, 2012        153
                                           OTHER AGENCY OVERSIGHT




                                              implementing the projects. Afghan government branding of project sites
                                              could help create stronger perceptions of Afghan government involvement in
                                              ASI-SR projects.
                                           •	 The mission lacked a transition plan. Although USAID/OTI, USAID/
                                              Afghanistan, Chemonics, and Afghan government officials all agree that some
                                              key districts are ready for longer-term development projects, no comprehen-
                                              sive transition plan is in place. Without a comprehensive transition plan to
                                              prepare for longer-term development, key districts may not be able to sustain
                                              gains in stability, as district governors may not have the resources to meet
                                              the needs of their communities.
                                           •	 Security costs were unreasonable. Chemonics incurred and billed USAID/
                                              OTI for security costs totaling $6.5 million. These costs included (1) protec-
                                              tive details for staff stationed at forward operating bases and PRTs and
                                              (2) armored vehicle leases that exceeded needs and cost more than other
                                              available leases.
                                           •	 Chemonics’ cash controls required improvement. Contrary to best practices
                                              issued by USAID/Afghanistan and to its own internal policies, Chemonics
                                              was using cash to make large tax payments to the Afghan government
                                              because it was having trouble completing wire transfers. In May 2011, a
                                              Chemonics employee who was entrusted with $62,398 to pay taxes disap-
                                              peared with the cash. Although most of the money was ultimately recovered,
                                              this incident exposed a weakness in Chemonics’ internal controls.
                                           •	 Reported results were inaccurate. Chemonics reported planned accom-
                                              plishments instead of actual results to USAID/Afghanistan, significantly
                                              overstating its accomplishments.
                                           •	 USAID/OTI did not complete a contractor performance review of Chemonics.
                                           The report included 18 recommendations to address these issues.

                                           ONGOING OVERSIGHT ACTIVITIES
                                           As of December 31, 2011, the participating agencies reported 33 ongoing over-
                                           sight activities related to reconstruction in Afghanistan. The activities reported
                                           are listed in Table 4.2 and described in the following sections by agency.
TABLE 4.2


Ongoing Oversight Activities of Other U.S. Agencies, as of December 31, 2011
Agency       Project Number          Date Initiated   Project Title
DoD OIG      D2012-D000JB-0071.000   12/16/2011       Contract Management and Oversight of Military Construction Projects in Afghanistan
DoD OIG      D2012-DINT01-0084.000   12/13/2011       Investigation of a USCENTCOM Referral; Non-Compliance with Interrogation Policy
DoD OIG      D2012-D000AS-0075.000   12/7/2011        Task Orders for Mi-17 Overhauls and Cockpit Modifications
DoD OIG      D2012-D000AS-0031.000   11/17/2011       Afghanistan Rotary-Wing Transport Contracts for the U.S. Transportation Command
DoD OIG      D2011-D000AS-0271.000   8/12/2011        Afghan National Police Mentoring/Training and Logistics Support Contract
DoD OIG      D2011-D000AT-0246.000   7/12/2011        Adequacy of Controls Over Small Arms Contracts for the Afghan National Security Forces
DoD OIG      D2011-D000JA-0240.000   6/15/2011        Management of Pharmaceuticals Within the Afghan National Security Forces Health System
DoD OIG      D2011-D00SPO-0234.000   5/20/2011        Assessment of U.S. and Coalition Plans To Train, Equip, and Field the Afghan Air Force
DoD OIG      D2011-D000AT-0222.000   4/29/2011        Development of Individual Equipment Requirements for the Afghan National Army




                                              154                     SPECIAL INSPECTOR GENERAL |   AFGHANISTAN RECONSTRUCTION
                               OTHER AGENCY OVERSIGHT




TABLE 4.2 CONTINUED


ONGOING OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF DECEMBER 31, 2011
Agency              Project Number                       Date Initiated          Project Title
DoD OIG             D2011-D000AT-0221.000                4/29/2011               Accountability for Night Vision Devices Procured for the Afghan National Security Forces
DoD OIG             D2011-D000FD-0121.000                3/30/2011               Fees and Surcharges on Intragovernmental Orders Funded by Afghanistan Security Forces Fund
                                                                                 Appropriations
DoD OIG             D2011-D000JO-0137.000                1/18/2011               Facilities Management Training Provided Under the National Operations and Maintenance Contracts in
                                                                                 Afghanistan
DoD OIG             D2011-D000FR-0089.000                11/30/2010              Internal Controls Over Distribution and Reconciliation of Funds for the Afghanistan National Army Payroll
DoD OIG             D2011-D000JB-0068.000                11/17/2010              Requirements Development Process for Military Construction Projects in Afghanistan
DoD OIG             D2011-D000AS-0030.000                10/1/2010               Management and Oversight for DoD Acquisition and Support of Non-Standard Rotary-Wing Aircraft
DoD OIG             D2010-D000JO-0229.000                6/14/2010               Construction of the Detention Facility in Parwan, Afghanistan
DoS OIG-MERO        12AUD30                              12/2011                 Audit of the Bureau of International Narcotics and Law Enforcement Affairs’ Correction System Support
                                                                                 Program in Afghanistan
GAO                 351688                               11/19/2011              DoD’s Preparations for Drawdown of Forces in Afghanistan
GAO                 320889                               1/13/2012               Streamlining Aid to Afghanistan
GAO                 320860                               7/18/2011               Use of U.S. Government Personnel or Contractors To Train the Afghan National Police
GAO                 351613                               6/2/2011                Fuel Demand Management at Forward-Deployed Locations in Afghanistan
GAO                 320850                               6/20/2011               Cost To Sustain ANSF
GAO                 320856                               9/26/2011               Security Transition Afghanistan
GAO                 120976                               3/31/2011               State Contracting for Conflicted Countries
GAO                 351603                               3/1/2011                Intelligence, Surveillance, and Reconnaissance (ISR) Collection and Tasking Management
GAO                 320851                               2/20/2011               Screening of Afghan Security Personnel and Recruits
GAO                 351616                               2/20/2011               DoD Oversight of Private Security Contractors in Afghanistan
GAO                 320766                               5/3/2010                U.S. Civilian Presence in Afghanistan
USAAA               A-2011-ALL-0342.000                  2Q/FY2011               Commander’s Emergency Response Program−Afghanistan
USAID OIG           FF101712                             10/25/2011              Review of USAID/Afghanistan’s Use of the Commander’s Emergency Response Program Funds for
                                                                                 Selected Projects
USAID OIG           FF100411                             9/18/2011               Audit of USAID/Afghanistan’s Incentives Driving Economic Alternatives for the North, East, and West
                                                                                 Program
USAID OIG           FF101611                             7/21/2011               Audit of USAID/Afghanistan’s Skills Training for Afghan Youth (STAY) Project
USAID OIG           FF100711                             6/15/2011               Audit of USAID/Afghanistan’s Internal Controls in Administration of the Involuntary Separate
                                                                                 Maintenance Allowance
Sources: DoD OIG, response to SIGAR data call, 12/27/2011; DoS OIG, response to SIGAR data call, 12/20/2011; GAO, response to SIGAR data call, 1/2/2011; USAAA, response to SIGAR data call,
12/21/2011; USAID OIG, response to SIGAR data call, 12/23/2011.



Department of Defense Office of Inspector General
DoD continues to face many challenges in executing its Overseas Contingency
Operations (OCO). DoD OIG has identified priorities based on those challenges
and high risks and has responded by expanding its coverage of OCO operations
and its presence in Southwest Asia. In FY 2012, DoD OIG will continue to focus
oversight on overseas contingency operations with a majority of its resources
supporting operations in Afghanistan. DoD OIG focus in Afghanistan will con-
tinue to be in the areas of the management and execution of the Afghanistan
Security Forces Fund, military construction, and the administration and over-
sight of contracts supporting coalition forces.




             REPORT TO THE UNITED STATES CONGRESS |   JANUARY 30, 2012                                               155
OTHER AGENCY OVERSIGHT




    As billions of dollars continue to be spent in Afghanistan, a top priority will
continue to be the monitoring and oversight of acquisition and contracting
processes focused on training, equipping, and sustaining the Afghan National
Security Forces (ANSF). DoD OIG’s planned oversight efforts will address the
administration and oversight of contracts for equipping the ANSF, such as rotary
wing aircraft, airplanes, ammunition, radios, and night vision devices. DoD OIG
will also continue to review and assess DoD’s efforts in managing and executing
contracts to train the Afghan National Police.
    As military construction continues in Afghanistan to build or renovate new
living areas, dining and recreation facilities, medical clinics, base expansions,
and police stations, DoD OIG will continue to provide aggressive oversight of
contract administration and military construction projects. DoD OIG will also
continue to focus on the accountability of property, such as contractor-managed
government owned property and Army high-demand items; the Department’s
efforts to strengthen institutional capacity at the Afghan Ministry of Defense; and
financial management controls.
    The DoD OIG–led Southwest Asia Joint Planning Group coordinates and
deconflicts federal and DoD OCO–related oversight activities. DoD OIG is
working with SIGAR as well as fellow inspectors general and defense oversight
community members to develop a FY 2013 strategic audit plan for the entire
inspector general community working in Afghanistan.

Contract Management and Oversight of Military Construction
Projects in Afghanistan
(Project No. D2012-D000JB-0071.000, Initiated December 16, 2011)
DoD OIG is determining whether DoD is providing effective oversight of mili-
tary construction projects in Afghanistan. Specifically, DoD OIG will determine
whether DoD is properly monitoring contractor performance during construc-
tion and adequately performing quality assurance oversight responsibilities.

Investigation of a USCENTCOM Referral; Non-compliance
with Interrogation Policy
(Project No. D2012-DINT01-0084.000, Initiated December 13, 2011)
DoD OIG is conducting this investigation at the request of CENTCOM. The objec-
tives of this project are For Official Use Only.

Task Orders for Mi-17 Overhauls and Cockpit Modifications
(Project No. D2012-D000AS-0075.000, Initiated December 7, 2011)
DoD OIG is determining whether DoD officials properly awarded and admin-
istered task orders for the overhaul and modification of Mi-17 aircraft in
accordance with federal and DoD regulations and policies. Contracting officers
issued the task orders under indefinite-delivery, indefinite-quantity contract num-
ber W58RGZ-09-D-0130.




 156                SPECIAL INSPECTOR GENERAL |   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




Afghanistan Rotary-Wing Transport Contracts for the U.S.
Transportation Command
(Project No. D2012-D000AS-0031.000, Initiated November 17, 2011)
DoD OIG plans to conduct a series of audits relating to Afghanistan rotary-
wing transportation contracts to determine whether TRANSCOM officials are
properly managing and administering the contracts in accordance with Federal
Acquisition Regulation and DoD guidance while contracting for services per-
formed in a contingency environment. For this first audit in the planned series,
DoD OIG will determine whether contracting officials have adequate controls
over the transportation of supplies, mail, and passengers in Afghanistan.

Afghan National Police Mentoring/Training and
Logistics Support Contract
(Project No. D2011-D000AS-0271.000, Initiated August 12, 2011)
The audit will be the first in a series of audits on the Afghan National Police
Mentoring/Training and Logistics Support contract. DoD OIG’s overall objective
for the series of audits is to determine whether DoD officials are using appropri-
ate contracting processes to satisfy mission requirements and are conducting
appropriate oversight of the contract in accordance with federal and DoD poli-
cies. For this audit, DoD OIG will determine whether the Army is appropriately
administering the Afghan National Police Mentoring/Training and Logistics
Support contract in accordance with federal and DoD guidance.

Adequacy of Controls Over Small Arms Contracts for the Afghan
National Security Forces
(Project No. D2011-D000AT-0246.000, Initiated July 12, 2011)
DoD OIG is evaluating the contract award, pricing, and quality assurance provi-
sions for small arms, to include accessories and spare parts, acquired using the
Afghanistan Security Forces Fund (ASFF). Specifically, DoD OIG will determine
whether the contract processes were in accordance with applicable acquisition
regulations.

Management of Pharmaceuticals Within the Afghan National
Security Forces Health System
(Project No. D2011-D000JA-0240.000, Initiated June 15, 2011)
DoD OIG is determining the effectiveness of pharmaceutical distribution within
the ANSF health care system. Specifically, DoD OIG will evaluate the procure-
ment, delivery, and inventory control processes for pharmaceuticals at ANSF
medical facilities and depots.




          REPORT TO THE UNITED STATES CONGRESS |   JANUARY 30, 2012         157
OTHER AGENCY OVERSIGHT




Assessment of U.S. and Coalition Plans To Train, Equip, and Field
the Afghan Air Force
(Project No. D2011-D00SP0-0234.000, Initiated May 20, 2011)
DoD OIG is determining whether U.S. government and coalition forces goals,
objectives, plans, and guidance to train, equip, and field a viable and sustainable
Afghan Air Force are prepared, issued, operative, and relevant.

Development of Individual Equipment Requirements for the
Afghan National Army
(Project No. D2011-D000AT-0222.000, Initiated April 29, 2011)
DoD OIG is determining whether the development process for ANA individual
equipment requirements was adequate. Specifically, DoD OIG will determine the
adequacy of the acquisition, sustainment, and training requirements established
for individual equipment items for the ANA.

Accountability for Night Vision Devices Procured for the Afghan
National Security Forces
(Project No. D2011-D000AT-0221.000, Initiated April 29, 2011)
DoD OIG is evaluating the accountability for night vision devices and associated
spare parts procured for the ANSF.

Fees and Surcharges on Intragovernmental Orders Funded by
Afghanistan Security Forces Fund Appropriations
(Project No. D2011-D000FD-0121.000, Initiated March 30, 2011)
DoD OIG is determining what fees and surcharges DoD components charge on intra-
governmental orders funded by ASFF appropriations. DoD OIG will also evaluate
whether the cost data exists to support those charges.

Facilities Management Training Provided Under the National
Operations and Maintenance Contracts in Afghanistan
(Project No. D2011-D000JO-0137.000, Initiated January 18, 2011)
DoD OIG is determining whether the vocational training provided under the
National Operations and Maintenance contracts is effective in developing the
infrastructure maintenance capabilities of the ANSF.

Internal Controls Over Distribution and Reconciliation of Funds for
the Afghanistan National Army Payroll
(Project No. D2011-D000FR-0089.000, Initiated November 30, 2010)
DoD OIG is determining whether adequate controls are in place to ensure that
NTM-A/CSTC-A is distributing DoD funds accurately and timely to the Afghan
ministries for the ANA payroll. In addition, DoD OIG is determining whether
NTM-A/CSTC-A has implemented an adequate mentoring process to assist
Afghan ministries in providing accurate payments to ANA personnel.



  158                SPECIAL INSPECTOR GENERAL |   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




Requirements Development Process for Military Construction
Projects in Afghanistan
(Project No. D2011-D000JB-0068.000, Initiated November 17, 2010)
DoD OIG is evaluating the requirements development process for military con-
struction projects in Afghanistan. Specifically, DoD OIG is determining whether
the requirements development process results in statements of work that clearly
define required results, have measurable outcomes, and meet DoD needs.

Management and Oversight for DoD Acquisition and Support of
Non-Standard Rotary-Wing Aircraft
(Project No. D2011-D000AS-0030.000, Initiated October 1, 2010)
DoD OIG is determining whether DoD officials properly and effectively managed
the acquisition and support of non-standard rotary-wing aircraft, such as the
Russian Mi-17 aircraft, to include those acquired using the ASFF or any DoD-
related requirements. Multiple projects may be initiated under this objective.

Construction of the Detention Facility in Parwan, Afghanistan
(Project No. D2010-D000JO-0229.000, Initiated June 14, 2010)
DoD OIG is determining whether the U.S. Army Corps of Engineers (USACE)
and USFOR-A procured construction services and administered the construc-
tion contract for the Detention Facility in Parwan, Afghanistan, in accordance
with the Federal Acquisition Regulation and other applicable laws and regula-
tions. Specifically, DoD OIG will determine whether USACE properly monitored
contractor performance during construction of the detention facility in Parwan
and whether USACE has taken or should take recourse against the contractor
because of potential latent defects, negligence, or fraud.

Department of State Office of Inspector General–
Middle East Regional Office
This quarter, DoS OIG cancelled project 11MERO3013, “Performance Evaluation
of the Bureau of International Narcotics and Law Enforcement Affairs’ Justice
Sector.”

Audit of the Bureau of International Narcotics and Law
Enforcement Affairs’ Correction System Support Program in
Afghanistan
(Project No. 12AUD30, Initiated December 2011)
The audit objective is to evaluate the effectiveness of the Bureau of International
Narcotics and Law Enforcement Affairs’ (INL) Correction System Support
Program (CSSP) in building a safe, secure, and humane prison system that
meets international standards and Afghan cultural requirements. Specifically,
OIG will evaluate whether INL is achieving intended and sustainable results
through the following CSSP components: training and mentoring; capacity



          REPORT TO THE UNITED STATES CONGRESS |   JANUARY 30, 2012         159
OTHER AGENCY OVERSIGHT




building; Counter-Narcotics Justice Center and Judicial Security Unit compound
operations and maintenance; Pol-i-Charkhi management and stabilization team;
Central Prison Directorate engagement and reintegration team; and Kandahar
expansion and support team.

Government Accountability Office
DoD’s Preparations for Drawdown of Forces in Afghanistan
(Project No. 351688, Initiated November 19, 2011)
Key Questions: To what extent is DoD (1) prepared to execute drawdown of
forces and materiel in Afghanistan and (2) implement lessons learned in Iraq as it
prepares for the Afghanistan drawdown?

Streamlining Aid to Afghanistan
(Project No. 320889, Initiated January 13, 2012)
Key Questions: (1) To what extent do the development projects administered by
U.S. agencies in Afghanistan address similar objectives? (2) What mechanisms do
U.S. agencies use to coordinate planning and implementation of these projects?
(3) To what extent is there duplication in these projects?

Use of USG Personnel or Contractors To Train the
Afghan National Police
(Project No. 320860, Initiated July 18, 2011)
Key Questions: (1) What are the roles and responsibilities of U.S. government
personnel and contractors in the ANP training program? (2) To what extent
have DoD and DoS accessed (a) the advantages and disadvantages of using U.S.
government personnel or contractors to train the ANP and (b) the potential
impact of transferring responsibilities for ANP training from contractors to U.S.
government personnel? (3) What are the lessons learned from the execution and
oversight of past DoD foreign police training programs?

Fuel Demand Management at Forward-Deployed Locations
in Afghanistan
(Project No. 351613, Initiated June 2, 2011)
Key Questions: (1) To what extent has DoD established a viable approach to pro-
vide visibility and accountability for fuel demand management in Afghanistan?
(2) What initiatives does DoD have underway to promote fuel efficiency across
services in Afghanistan and what are the related challenges? (3) To what extent
are these efforts being coordinated across services? (4) To what extent does DoD
currently measure or have plans in place to measure the results of its energy
efficiency efforts in Afghanistan?




  160                 SPECIAL INSPECTOR GENERAL |   AFGHANISTAN RECONSTRUCTION
                       OTHER AGENCY OVERSIGHT




Cost To Sustain ANSF
(Project No. 320850, Initiated June 20, 2011)
Key Questions: (1) To what extent are the U.S. government’s and others’ esti-
mates of the costs to build and sustain the ANSF through 2014 and beyond
reliable and consistent? (2) What are the projected sources of funding to cover
the costs of ANSF through 2014 and beyond?

Security Transition Afghanistan
(Project No. 320856, Initiated September 26, 2011)
Key Questions: (1) What progress has been made in achieving the conditions
to transition security responsibility to the ANSF and security ministries? (2) To
what extent does the transition rely on U.S. military support? (3) To what extent
are the transition and drawdown of U.S. troops in Afghanistan reflected in DoD’s
budget requests, including fiscal year 2012? (4) What are the U.S. plans and esti-
mated resources needed to sustain the ANSF?

State Contracting for Conflicted Countries
(Project No. 120976, Initiated March 31, 2011)
Key Questions: (1) What is the extent and nature of DoS’s reliance on DoD for
acquisition support for Iraq and Afghanistan? (2) What factors led to this reli-
ance? (3) What efforts are under way to determine whether to continue this
reliance?

Intelligence, Surveillance, and Reconnaissance (ISR)
Collection and Tasking Management
(Project No. 351603, Initiated March 1, 2011)
Key Questions: (1) To what extent does DoD have visibility over all available
national, theater, and organic ISR capabilities used in support of military opera-
tions? (2) To what extent do DoD collection managers involved in the tasking of
ISR capabilities have access to real-time information regarding ISR capabilities
and their mission availability and use such information to guide additional task-
ing? (3) To what extent do DoD collection managers involved in the tasking of
ISR capabilities receive relevant collection management training?

Screening of Afghan Security Personnel and Recruits
(Project No. 320851, Initiated February 20, 2011)
Key Questions: (1) To what extent are recruits and other ANA-ANP person-
nel vetted or screened by the U.S. government for ties to criminal, terrorist, or
insurgent forces? (2) What challenges to these efforts exist, if any, and how have
U.S. agencies addressed these challenges? (3) To what extent have Defense and
State modified screening procedures in response to attacks? (4) What, if any,
safeguards are in place to protect U.S. personnel training or working with ANA/
ANP forces?



          REPORT TO THE UNITED STATES CONGRESS |   JANUARY 30, 2012          161
OTHER AGENCY OVERSIGHT




DoD Oversight of Private Security Contractors in Afghanistan
(Project No. 351616, Initiated February 20, 2011)
Key Questions: GAO intends to examine to what extent (1) DoD has a process
to determine if the use of private security contractors (PSCs) in Afghanistan to
meet specific missions is appropriate; (2) DoD has a process to ensure that PSCs
in Afghanistan are selecting personnel with appropriate backgrounds, train-
ing, and capabilities; (3) DoD has established a process to ensure that private
security prime contractors and subcontractors are performing their duties in
Afghanistan; and (4) DoD has begun to formulate plans to meet security require-
ments in Afghanistan without the use of PSCs.

U.S. Civilian Presence in Afghanistan
(Project No. 320766, Initiated May 3, 2010)
Key Questions: (1) To what extent and through what processes are U.S. agen-
cies prioritizing and fulfilling staffing requirements for the civilian surge in
Afghanistan? (2) What steps have U.S. agencies taken to prepare their personnel
for deployment?

U.S. Army Audit Agency
Commander’s Emergency Response Program−Afghanistan
(Project No. A-2011-ALL-0342.000, Initiated 2Q/FY 2011)
This audit will determine (1) whether the established project review and
approval processes for the CERP in Afghanistan promote selection of projects
in compliance with its stated goals of providing immediate benefit to the Afghan
people and (2) whether the process for generating CERP funding requirements
was fully supported by the approved project list.

U.S. Agency for International Development
Office of Inspector General
Review of USAID/Afghanistan’s Use of the Commander’s
Emergency Response Program Funds for Selected Projects
(Project No. FF101712, Initiated October 25, 2011)
Objective: To determine whether the CERP funds distributed by USFOR-A to
USAID for specific projects were used for their intended purposes and in com-
pliance with applicable laws and regulations and whether the costs charged to
CERP-funded projects were reasonable, allowable, and allocable.




  162                SPECIAL INSPECTOR GENERAL |   AFGHANISTAN RECONSTRUCTION
                       OTHER AGENCY OVERSIGHT




Audit of USAID/Afghanistan’s Incentives Driving Economic
Alternatives for the North, East, and West Program
(Project No. FF100411, Initiated September 18, 2011)
Objective: To determine whether USAID/Afghanistan’s Incentives Driving
Economic Alternatives for the North, East, and West Program is achieving its
main goals of increasing licit and commercially viable agricultural-based alter-
natives for rural Afghans and significantly reducing and ultimately eradicating
opium poppy production and sales.

Audit of USAID/Afghanistan’s Skills Training for Afghan Youth
(STAY) Project
(Project No. FF101611, Initiated July 21, 2011)
Objective: To determine if USAID/Afghanistan’s Skills Training for Afghan Youth
Project is accomplishing its main goals of providing technical, vocational, and
functional skills for productive work, basic education equivalency and life skills,
and youth outreach and networking activities.

Audit of USAID/Afghanistan’s Internal Controls in Administration
of the Involuntary Separate Maintenance Allowance
(Project No. FF100711, Initiated June 15, 2011)
Objective: To determine whether USAID/Afghanistan has adopted appropri-
ate internal controls to prevent improper use of the separate maintenance
allowance.

U.S. Department of Defense Office of Inspector General
The Defense Criminal Investigative Service (DCIS) continues to conduct sig-
nificant fraud and corruption investigations in Afghanistan and Southwest Asia.
Currently, there are six DCIS agents assigned to the International Contract
Corruption Task Force (ICCTF) in three locations: Kabul, Bagram, and Kandahar
Airfields. The DCIS expects to increase its ICCTF-assigned agents to seven
within the next several weeks. The DCIS continues to assign one special agent to
Task Force 2010. The DCIS and SIGAR are in partnership with seven other agen-
cies to conduct major fraud and corruption investigations that affect DoD and
Afghanistan reconstruction programs. In addition to these forward-deployed spe-
cial agents, 105 DCIS agents based in the United States and Europe are currently
conducting investigations related to fraud and corruption in Southwest Asia.
   As of December 31, 2011, the DCIS has 122 open OCO investigations involving
Afghanistan. Of its open investigations, 22 are joint with SIGAR. The DCIS has
closed 80 OCO investigations involving Afghanistan.




          REPORT TO THE UNITED STATES CONGRESS |   JANUARY 30, 2012          163
The Official Seal of SIGAR
The Official Seal of SIGAR represents the coordination of efforts
between the United States and Afghanistan to provide accountability
and oversight of reconstruction activities. The phrase along the top
side of the seal’s center is in Dari and means “SIGAR.” The phrase
along the bottom side of the seal’s center is in Pashtu and has the
same meaning.
Section 5
APPENDICES AND ENDNOTES




APPENDICES




                  165
                        APPENDICES




                        APPENDIX A
                        CROSS-REFERENCE OF REPORT TO STATUTORY
                        REQUIREMENTS
                        This appendix cross-references the pages of this report to the quarterly report-
                        ing and related requirements under SIGAR’s enabling legislation, the National
                        Defense Authorization Act for Fiscal Year 2008, P.L. No. 110-181, § 1229 (Table
                        A.1).

TABLE A.1

CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                                            SIGAR Action                    Report Section
Purpose
Section 1229(a)(3)      To provide for an independent and objective means of keeping       Ongoing; quarterly report       Full report
                        the Secretary of State and the Secretary of Defense fully and
                        currently informed about problems and deficiencies relating to
                        the administration of such programs and operations and the
                        necessity for and progress on corrective action.
Supervision
Section 1229(e)(1)      The Inspector General shall report directly                        Report to the Secretary of      All sections
                        to, and be under the general supervision                           State and the Secretary of
                        of, the Secretary of State and the Secretary of Defense            Defense
Duties
Section 1229(f)(1)      OVERSIGHT OF AFGHANISTAN RECONSTRUCTION —                          Review appropriated/            All sections
                        It shall be the duty of the Inspector General to conduct,          available funds
                        supervise, and coordinate audits and investigations of the
                                                                                           Review programs, operations,
                        treatment, handling, and expenditure of amounts appropri-
                                                                                           contracts using appropriated/
                        ated or otherwise made available for the reconstruction of
                                                                                           available funds
                        Afghanistan, and of the programs, operations, and contracts
                        carried out utilizing such funds, including subsections (A)
                        through (G) below.
Section 1229(f)(1)(A)   The oversight and accounting of the obligation and expendi-        Review obligations and          SIGAR Oversight
                        ture of such funds                                                 expenditures of appropriated/   Funding
                                                                                           available funds
Section 1229(f)(1)(B)   The monitoring and review of reconstruction activities funded      Review reconstruction activi-   SIGAR Oversight
                        by such funds                                                      ties funded by appropriations
                                                                                           and donations
Section 1229(f)(1)(C)   The monitoring and review of contracts funded by such funds        Review contracts using appro-   Note 1
                                                                                           priated and available funds
Section 1229(f)(1)(D)   The monitoring and review of the transfer of such funds and        Review internal and external    Appendix B
                        associated information between and among departments,              transfers of appropriated/
                        agencies, and entities of the United States, and private and       available funds
                        nongovernmental entities
Section 1229(f)(1)(E)   The maintenance of records on the use of such funds to facili-     Maintain audit records          SIGAR Oversight
                        tate future audits and investigations of the use of such fund[s]                                   Appendix C
                                                                                                                           Appendix D




                          166                        SPECIAL INSPECTOR GENERAL |   AFGHANISTAN RECONSTRUCTION
                                                                             APPENDICES




TABLE A.1 (CONTINUED)

CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section              SIGAR Enabling Language                                             SIGAR Action                   Report Section
Section 1229(f)(1)(F)           The monitoring and review of the effectiveness of United            Monitoring and review          Audits
                                States coordination with the Governments of Afghanistan             as described
                                and other donor countries in the implementation of the
                                Afghanistan Compact and the Afghanistan National
                                Development Strategy
Section 1229(f)(1)(G)           The investigation of overpayments such as duplicate pay-            Conduct and reporting of       Investigations
                                ments or duplicate billing and any potential unethical or           investigations as described
                                illegal actions of Federal employees, contractors, or affiliated
                                entities, and the referral of such reports, as necessary, to the
                                Department of Justice to ensure further investigations, pros-
                                ecutions, recovery of further funds, or other remedies.
Section 1229(f)(2)              OTHER DUTIES RELATED TO OVERSIGHT —                                 Establish, maintain, and       All sections
                                The Inspector General shall establish, maintain, and oversee        oversee systems, procedures,
                                such systems, procedures, and controls as the Inspector             and controls
                                General considers appropriate to discharge the duties under
                                paragraph (1)
Section 1229(f)(3)              DUTIES AND RESPONSIBILITIES UNDER INSPECTOR GENERAL                 Duties as specified in         All sections
                                ACT OF 1978 —                                                       Inspector General Act
                                In addition,. . .the Inspector General shall also have the duties
                                and responsibilities of inspectors general under the Inspector
                                General Act of 1978
Section 1229(f)(4)              COORDINATION OF EFFORTS —                                           Coordination with the          Other Agency
                                The Inspector General shall coordinate with, and receive            inspectors general of          Oversight
                                the cooperation of, each of the following: (A) the Inspector        DoD, DoS, and USAID
                                General of the Department of Defense, (B) the Inspector
                                General of the Department of State, and (C) the Inspector
                                General of the United States Agency for International
                                Development
Federal Support and Other Resources
Section 1229(h)(5)(A)           ASSISTANCE FROM FEDERAL AGENCIES —                                  Expect support as              All sections
                                Upon request of the Inspector General for information or            requested
                                assistance from any department, agency, or other entity of the
                                Federal Government, the head of such entity shall, insofar as
                                is practicable and not in contravention of any existing law, fur-
                                nish such information or assistance to the Inspector General,
                                or an authorized designee
Section 1229(h)(5)(B)           REPORTING OF REFUSED ASSISTANCE —                                   None reported                  N/A
                                Whenever information or assistance requested by the
                                Inspector General is, in the judgment of the Inspector General,
                                unreasonably refused or not provided, the Inspector General
                                shall report the circumstances to the Secretary of State or the
                                Secretary of Defense, as appropriate, and to the appropriate
                                congressional committees without delay.
Reports




            REPORT TO THE UNITED STATES CONGRESS |   JANUARY 30, 2012                                      167
                        APPENDICES




TABLE A.1 (CONTINUED)

CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                                            SIGAR Action                     Report Section
Section 1229(i)(1)      QUARTERLY REPORTS —                                                Report – 30 days after the       All sections
                        Not later than 30 days after the end of each fiscal-year           end of each calendar quarter     Appendix B
                        quarter, the Inspector General shall submit to the appropri-
                        ate committees of Congress a report summarizing, for the           Summarize activities of the
                        period of that quarter and, to the extent possible, the period     Inspector General
                        from the end of such quarter to the time of the submission of
                        the report, the activities during such period of the Inspector     Detailed statement of all
                        General and the activities under programs and operations           obligations, expenditures, and
                        funded with amounts appropriated or otherwise made avail-          revenues
                        able for the reconstruction of Afghanistan. Each report shall
                        include, for the period covered by such report, a detailed
                        statement of all obligations, expenditures, and revenues
                        associated with reconstruction and rehabilitation activities in
                        Afghanistan, including the following –
Section 1229(i)(1)(A)   Obligations and expenditures of appropriated/donated funds         Obligations and expenditures     Appendix B
                                                                                           of appropriated/donated
                                                                                           funds
Section 1229(i)(1)(B)   A project-by-project and program-by-program account-               Project-by-project and           Funding
                        ing of the costs incurred to date for the reconstruction of        program-by-program account-      Note 1
                        Afghanistan, together with the estimate of the Department          ing of costs. List unexpended
                        of Defense, the Department of State, and the United States         funds for each project or
                        Agency for International Development, as applicable, of the        program
                        costs to complete each project and each program
Section 1229(i)(1)(C)   Revenues attributable to or consisting of funds provided by        Revenues, obligations, and       Funding
                        foreign nations or international organizations to programs and     expenditures of donor funds
                        projects funded by any department or agency of the United
                        States Government, and any obligations or expenditures of
                        such revenues
Section 1229(i)(1)(D)   Revenues attributable to or consisting of foreign assets seized    Revenues, obligations, and       Funding
                        or frozen that contribute to programs and projects funded by       expenditures of funds from
                        any U.S. government department or agency, and any obliga-          seized or frozen assets
                        tions or expenditures of such revenues
Section 1229(i)(1)(E)   Operating expenses of agencies or entities receiving amounts       Operating expenses of            Funding
                        appropriated or otherwise made available for the reconstruc-       agencies or any organization     Appendix B
                        tion of Afghanistan                                                receiving appropriated funds
Section 1229(i)(1)(F)   In the case of any contract, grant, agreement, or other funding    Describe contract details        Note 1
                        mechanism described in paragraph (2)* —
                        (i) The amount of the contract or other funding mechanism;
                        (ii) A brief discussion of the scope of the contract or other
                        funding mechanism;
                        (iii) A discussion of how the department or agency of the
                        United States Government involved in the contract, grant,
                        agreement, or other funding mechanism identified and solic-
                        ited offers from potential contractors to perform the contract,
                        grant, agreement, or other funding mechanism, together with
                        a list of the potential individuals or entities that were issued
                        solicitations for the offers; and
                        (iv) The justification and approval documents on which was
                        based the determination to use procedures other than proce-
                        dures that provide for full and open competition




                           168                        SPECIAL INSPECTOR GENERAL |   AFGHANISTAN RECONSTRUCTION
                                                                                          APPENDICES




TABLE A.1 (CONTINUED)

CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section                        SIGAR Enabling Language                                                    SIGAR Action                            Report Section
Section 1229(i)(3)                        PUBLIC AVAILABILITY —                                                      Publish report as directed at           Full report
                                          The Inspector General shall publish on a publically-available              www.sigar.mil
                                          Internet website each report under paragraph (1) of this
                                                                                                                     Dari and Pashtu translation
                                          subsection in English and other languages that the Inspector
                                                                                                                     in process
                                          General determines are widely used and understood in
                                          Afghanistan
Section 1229(i)(4)                        FORM —                                                                     Publish report as directed              All sections
                                          Each report required under this subsection shall be submitted
                                          in unclassified form, but may include a classified annex if the
                                          Inspector General considers it necessary
Section 1229(j)(1)                        Inspector General shall also submit each report required under             Submit quarterly report                 Full report
                                          subsection (i) to the Secretary of State and the Secretary of
                                          Defense.

Note 1: Although this data is normally made available on SIGAR’s website (www.sigar.mil), the data SIGAR has received is in relatively raw form and is currently being reviewed,
analyzed, and organized for all future SIGAR purposes.
* Covered “contracts, grants, agreements, and funding mechanisms” are defined in paragraph (2) of Section 1229(i) of P.L. No. 110-181 as being—
“any major contract, grant, agreement, or other funding mechanism that is entered into by any department or agency of the United States Government that involves the use of
amounts appropriated or otherwise made available for the reconstruction of Afghanistan with any public or private sector entity for any of the following purposes:
To build or rebuild physical infrastructure of Afghanistan.
To establish or reestablish a political or societal institution of Afghanistan.
To provide products or services to the people of Afghanistan.”




               REPORT TO THE UNITED STATES CONGRESS |   JANUARY 30, 2012                                                      169
                                                              APPENDICES                                                                                                                                                  APPENDICES


                                                              APPENDIX B
                                                              U.S. GOVERNMENT APPROPRIATED FUNDS ($ MILLIONS)
                                                              Table B.1 lists funds appropriated for Afghanistan reconstruction by program,
                                                              per year, as of December 31, 2011.

                                                              TABLE B.1

                                                               U.S. FUNDING SOURCES                                              AGENCY        TOTAL     FY 2002        FY 2003     FY 2004      FY 2005     FY 2006       FY 2007      FY 2008      FY 2009     FY 2010      FY 2011      FY 2012a
                                                               SECURITY
                                                                 Afghanistan Security Forces Fund (ASFF)                         DoD         50,625.79       0.00            0.00        0.00       968.17     1,908.13      7,406.40    2,750.00     5,606.94     9,166.87    11,619.28    11,200.00
                                                                 Train & Equip (DoD)                                             DoD            440.00       0.00            0.00      150.00       290.00         0.00          0.00        0.00         0.00         0.00         0.00         0.00
                                                                 Foreign Military Financing (FMF)                                DoS          1,059.14      57.26          191.00      414.08       396.80         0.00          0.00        0.00         0.00         0.00         0.00         0.00
                                                                 International Military Education & Training (IMET)              DoS              9.80       0.20            0.30        0.60         0.80         0.80          1.10        1.60         1.40         1.50         1.50         0.00
                                                                 NDAA Section 1207 Transfer                                      Other            9.90       0.00            0.00        0.00         0.00         0.00          0.00        9.90         0.00         0.00         0.00         0.00
                                                               Total—Security                                                               52,144.63      57.46          191.30      564.68     1,655.77     1,908.93      7,407.50    2,761.50     5,608.34     9,168.37    11,620.78    11,200.00
                                                               GOVERNANCE & DEVELOPMENT
                                                                 Commander’s Emergency Response Program (CERP)                   DoD          3,439.00       0.00            0.00       40.00       136.00      215.00         209.00      488.33       550.67     1,000.00       400.00       400.00
                                                                 Afghanistan Infrastructure Fund (AIF)                           DoD            800.00       0.00            0.00        0.00         0.00        0.00           0.00        0.00         0.00         0.00       400.00       400.00
                                                                 Task Force for Business and Stability Operations (TFBSO)        DoD            512.66       0.00            0.00        0.00         0.00        0.00           0.00        0.00        15.00        59.26       239.24       199.16
                                                                 Economic Support Fund (ESF)                                     USAID       13,016.67     117.51          239.29      893.87     1,280.56      473.39       1,210.71    1,399.51     2,088.32     3,346.00     1,967.51         0.00
                                                                 Development Assistance (DA)                                     USAID          884.69      18.30           42.54      153.14       169.56      184.99         166.81      148.65         0.40         0.30         0.00         0.00
                                                                 Afghanistan Freedom Support Act (AFSA)                          DoD            550.00       0.00          165.00      135.00       250.00        0.00           0.00        0.00         0.00         0.00         0.00         0.00
                                                                 Child Survival & Health (CSH + GHAI)                            USAID          554.28       7.52           49.68       33.40        38.00       41.45         100.77       63.02        58.23        92.30        69.91         0.00
                                                                 Commodity Credit Corp (CCC)                                     USAID           31.66       7.48            1.33        0.00         0.00        0.00           0.00       10.77         4.22         4.22         3.09         0.55
                                                                 USAID (other)                                                   USAID           40.52       0.00            0.50        5.00         0.00        0.00           0.00       22.32         3.55         2.90         6.25         0.00
                                                                 Non-Proliferation, Anti-Terrorism, De-mining & Related (NADR)   DoS            440.90      44.00           34.70       66.90        38.20       18.20          36.60       26.60        48.60        57.80        69.30         0.00
                                                                 Provincial Reconstruction Team Advisors                         USDA             5.70       0.00            0.00        0.00         0.00        0.00           0.00        0.00         5.70         0.00         0.00         0.00
                                                                 Treasury Technical Assistance                                   Treasury         4.45       0.90            1.00        0.06         0.95        0.19           0.13        0.75         0.47         0.00         0.00         0.00
                                                               Total—Governance & Development                                               20,280.53     195.71          534.04    1,327.37     1,913.27      933.22       1,724.02    2,159.95     2,775.16     4,562.78     3,155.30       999.71
                                                               COUNTER-NARCOTICS
                                                                 International Narcotics Control and Law Enforcement (INCLE)     DoS          3,258.11      60.00           0.00       220.00       713.15      232.65        251.74      307.57       484.00       589.00        400.00         0.00
                                                                 Drug Interdiction and Counter-Drug Activities (DoD CN)          DoD          2,284.58       0.00           0.00        71.80       224.54      108.05        290.97      192.81       235.06       392.27        376.53       392.55
                                                                 Drug Enforcement Administration (DEA)                           DoJ            127.37       0.58           2.87         3.72        16.77       23.66         20.38       40.59        18.80         0.00          0.00         0.00
                                                               Total—Counter-Narcotics                                                       5,670.06      60.58            2.87      295.52       954.46      364.36        563.09      540.97       737.86       981.27        776.53       392.55
                                                               HUMANITARIAN
                                                                 P.L. 480 Title I                                                USDA             5.00       0.00            5.00        0.00         0.00        0.00          0.00        0.00         0.00         0.00          0.00         0.00
                                                                 P.L. 480 Title II                                               USAID          716.71     159.50           46.10       49.20        56.60       60.00         60.00      177.00        65.41        27.40         15.50         0.00
                                                                 Disaster Assistance (IDA)                                       USAID          443.27     197.09           85.52       11.16         4.22        0.04          0.03       17.01        27.01        29.60         66.56         5.03
                                                                 Transition Initiatives (TI)                                     USAID           35.60       8.07           11.69       11.22         1.60        0.00          0.00        0.00         0.79         0.92          1.18         0.13
                                                                 Migration & Refugee Assistance (MRA)                            DoS            670.49     135.47           61.50       63.30        47.10       41.80         53.80       44.25        76.79        81.48         65.00         0.00
                                                                 Voluntary Peacekeeping (PKO)                                    DoS             69.33      23.93            9.90       20.00        15.50        0.00          0.00        0.00         0.00         0.00          0.00         0.00
                                                                 Emergency Refugee & Migration Assistance (ERMA)                 DoS             25.20      25.00            0.00        0.00         0.00        0.00          0.00        0.00         0.20         0.00          0.00         0.00
Note: Numbers affected by rounding.                              Food for Progress                                               USDA           109.49       0.00            4.96        9.08        30.10       23.24          9.47       20.55        12.09         0.00          0.00         0.00
a. Consolidated Appropriations Act of 2012 signed
12/23/2011; Afghanistan funding level for many accounts not      416(b) Food Aid                                                 USDA            95.18      46.46           14.14       34.58         0.00        0.00          0.00        0.00         0.00         0.00          0.00         0.00
yet determined.                                                  Food for Education                                              USDA            50.49       0.00            9.27        6.12        10.02       25.08          0.00        0.00         0.00         0.00          0.00         0.00
Sources: DoD, responses to SIGAR data call, 1/17/2012,           Emerson Trust                                                   USDA            22.40       0.00            0.00        0.00         0.00        0.00          0.00       22.40         0.00         0.00          0.00         0.00
1/13/2012, 1/4/2012, 1/2/2012, 10/14/2009, and
10/1/2009; DoS, responses to SIGAR data call, 1/10/2012,       Total—Humanitarian                                                            2,243.16     595.52          248.08      204.66       165.14      150.16        123.30      281.21       182.29       139.40        148.24         5.16
1/9/2012, and 4/14/2011; Treasury, response to SIGAR
data call, 10/13/2011; OMB, response to SIGAR data call,
                                                               INTERNATIONAL AFFAIRS OPERATIONS
7/19/2011; USAID, responses to SIGAR data call, 1/5/2012,       Oversight                                                                       157.99       0.00            0.00        0.00         0.00        0.00          2.50       14.30         25.20        34.40        37.20        44.39
10/15/2010, 1/15/2010, and 10/9/2009;
DoJ, response to SIGAR data call, 7/7/2009; USDA, response      Other                                                                         5,039.30     155.60           35.30      207.60       136.10      131.90        207.80      434.40      1,060.70     1,761.70       908.20         0.00
to SIGAR data call, 4/2009; P. L. 112-74, 12/23/2011; P. L.    Total—International Affairs Operations                                        5,197.29     155.60           35.30      207.60       136.10      131.90        210.30      448.70      1,085.90     1,796.10       945.40        44.39
112-10, 4/15/2011; P. L. 111-212, 10/29/2010; P. L. 111-
118, 12/19/2009; FY 2010 Defense Explanatory Statement.
                                                               Total Funding                                                                85,535.67    1,064.87       1,011.59    2,599.83     4,824.74     3,488.57     10,028.21    6,192.33    10,389.55    16,647.92    16,646.25    12,641.81




                                                               170                       SPECIAL INSPECTOR GENERAL |   AFGHANISTAN RECONSTRUCTION                   REPORT TO THE UNITED STATES CONGRESS |   JANUARY 30, 2012                  171
APPENDICES




APPENDIX C
SIGAR AUDITS
Completed Audits
SIGAR completed three audits during this reporting period, as listed in Table C.1.

TABLE C.1

COMPLETED SIGAR AUDITS AS OF JANUARY 30, 2012
Report Identifier   Report Title                                                                          Date Issued
SIGAR Audit 12-6    Afghan First Initiative Has Placed Work with Afghan Companies, but Is Affected by          1/2012
                    Inconsistent Contract Solicitation and Vetting, and Employment Data Is Limited
SIGAR Audit 12-5    Audit of a U.S. Agency’s Private Security Contract (no public release/for official         1/2012
                    use only)
SIGAR Audit 12-4    DoD Improved its Accountability for Vehicles Provided to the Afghan National               1/2012
                    Security Forces, but Should Follow Up on End-Use Monitoring Findings


New Audits
SIGAR initiated two new audits during this reporting period, as listed in Table C.2.

TABLE C.2

NEW SIGAR AUDITS AS OF JANUARY 30, 2012
Audit Identifier    Project Title                                                                        Date Initiated
SIGAR 052A          Oversight of A-TEMP for the ANP                                                            1/2012
SIGAR 0530A         Implementation of the Afghanistan Infrastructure Program                                 11/2012


Ongoing Audits
SIGAR has eight audits in progress during this reporting period, as listed in
Table C.3.

TABLE C.3

ONGOING SIGAR AUDITS AS OF JANUARY 30, 2012
Audit Identifier    Project Title                                                                        Date Initiated
SIGAR 051A          Costs of Private Security Contractors (PSCs) Utilized by USAID Contractors for             9/2011
                    Reconstruction in Afghanistan
SIGAR 050A          Outcomes of DoS Public Diplomacy Grants in Support of Reconstruction in                    8/2011
                    Afghanistan
SIGAR 049A          USACE Operations and Maintenance Contracts with ITT Corporation for ANSF                   7/2011
                    Facilities
SIGAR 048A          Reliability of Funding and Contract Data Maintained by C-JTSCC on Prime Vendors            7/2011
                    for Major Reconstruction Contracts in Afghanistan
SIGAR 047A          USAID’s Contracts in Support of the Afghanistan Stabilization Initiative                   5/2011
SIGAR 046A          USAID’s Cooperative Agreement in Support of an Agriculture Program                         5/2011
SIGAR 044A          USAID’s Financial Audit Coverage of Costs Incurred Under Contracts, Cooperative            3/2011
                    Agreements, and Grants for Afghanistan Reconstruction
SIGAR 041A          USAID Contracts for Local Governance and Community Development Project                     1/2011




  172                     SPECIAL INSPECTOR GENERAL |   AFGHANISTAN RECONSTRUCTION
                                                                           APPENDICES




Forensic Audits
SIGAR continued work on three forensic audits during this reporting period, as
listed in Table C.4.

TABLE C.4

SIGAR FORENSIC AUDITS AS OF JANUARY 30, 2012
Audit Identifier   Project Title                                                                     Date Initiated
SIGAR-027A         Forensic Review of DoS Transaction Data Related to Afghanistan Reconstruction           6/2010
SIGAR-026A         Forensic Review of USAID Transaction Data Related to Afghanistan Reconstruction         6/2010
SIGAR-022A         Forensic Review of DoD Transaction Data Related to Afghanistan Reconstruction           2/2010




INSPECTIONS
SIGAR initiated four inspections during this reporting period, as listed in
Table C.5.

TABLE C.5

SIGAR INSPECTIONS AS OF JANUARY 30, 2012
Audit Identifier   Project Title                                                                     Date Initiated
SIGAR 1004         Wardak ANP Training Center (USACE)                                                      1/2012
SIGAR 1003         Nangarhar Border Police Company Headquarters Facilities (USACE)                         1/2012
SIGAR 1002         Jalalabad ANA Garrison (USACE)                                                          1/2012
SIGAR 1001         Kunduz ANA Facility−2/209th Headquarters (USACE)                                        1/2012




             REPORT TO THE UNITED STATES CONGRESS |   JANUARY 30, 2012                                    173
                                                              APPENDICES




                                                              APPENDIX D
FIGURE D.1
                                                              SIGAR INVESTIGATIONS AND HOTLINE
SIGAR INVESTIGATIONS: NEW INVESTIGATIONS,
OCTOBER 1–DECEMBER 31, 2011
                                                              SIGAR Investigations
                        Total: 20                             This quarter, SIGAR opened 20 new investigations and closed 6, bringing the total
                                                              number of open investigations to 125. Of Athe new investigations, most involved
     Contract and                         Public              contract fraud, public corruption, and bribery, as shown in Figure D.1. Six inves-
     Procurement                          Corruption &        tigations were closed due to unsubstantiated claims, as shown in Figure D.2.
     Fraud                                Bribery
     11                                   6

                                                              FIGURE D.2

                                                              SIGAR INVESTIGATIONS: CLOSED INVESTIGATIONS, OCTOBER 1–DECEMBER 31, 2011

                                                                                                                            Total: 6


                                                                           Unsubstantiated                                                           6
   Theft of Property                      Miscellaneous         Lack of Prosecutorial Merit 0
   and Services                           Criminal Activity
                                          2                   Suspension and Debarment 0
   1
Source: SIGAR Investigations Directorate, 1/15/2012.                    Legal Action Taken 0

                                                                                              0            1         2      3          4   5     6
                                                              Source: SIGAR Investigations Directorate, 1/15/2012.




FIGURE D.3

SOURCE OF SIGAR HOTLINE COMPLAINTS,                           SIGAR Hotline
OCTOBER 1–DECEMBER 31, 2011                                   Of the 37 Hotline complaints received this quarter, most were received by email
                                                              or telephone, as shown in Figure D.3. Of these complaints, most were coordi-
                       Total: 37
                                                              nated, referred, or under review, as shown in Figure D.4.

                                                              FIGURE D.4
                       Email 33                               STATUS OF SIGAR HOTLINE COMPLAINTS: OCTOBER 1–DECEMBER 31, 2011

                                                                                                                         Total: 37

                                                                Coordination                                                                              12
                                                                Referred (In)                                                                             12
                                        Phone 2                Under Review                                                                     10
    Unknown 1                           Written                        Closed
                                        (non-email) 1                                              2
                                                               Referred (Out)             1
Source: SIGAR Investigations Directorate, 1/11/2012.
                                                                                                           3                6              9             12

                                                              Source: SIGAR Investigations Directorate, 1/11/2012.




                                                                 174                          SPECIAL INSPECTOR GENERAL |   AFGHANISTAN RECONSTRUCTION
                                                                        APPENDICES




APPENDIX E
ABBREVIATIONS AND ACRONYMS
ACRONYM OR
ABBREVIATION              DEFINITION
4A                        Assistance to Anti-Corruption Authority
A-TEMP                    Afghanistan - Technical Equipment Maintenance Program
ABP                       Afghan Border Police
ACLEA                     Advanced Continuing Legal Education for Afghanistan
ACSS                      Afghanistan Civil Service Support
ACU                       Anti-Corruption Unit
ADT                       Agribusiness Development Team
AF OSI                    Air Force Office of Special Investigations
AFCEE                     Air Force Center for Engineering and the Environment (U.S.)
AFI                       Afghan First Initiative
AFMIS                     Afghanistan Financial Management Information System
AGO                       Attorney General’s Office (Afghan)
AGS                       Afghan Geological Survey
AIF                       Afghanistan Infrastructure Fund
AIP                       Afghanistan Infrastructure Program
ALP                       Afghan Local Police
ANA                       Afghan National Army
ANCOP                     Afghan National Civil Order Police
ANDS                      Afghanistan National Development Strategy
ANP                       Afghan National Police
ANSF                      Afghan National Security Forces
APAP                      Afghanistan Parliamentary Assistance Program
APPF                      Afghan Public Protection Force
APRP                      Afghanistan Peace and Reintegration Program
APTTA                     Afghanistan-Pakistan Transit Trade Agreement
APTTCA                    Afghanistan-Pakistan Transit Trade Coordination Authority
Army CID                  Army Criminal Investigation Command
ARP                       Afghanistan Reintegration Program (U.S.)
ARTF                      Afghanistan Reconstruction Trust Fund
ASAP                      Accelerated Sustainable Agriculture Program
ASFF                      Afghanistan Security Forces Fund
ASI-SR                    Afghanistan Stabilization Initiative for the Southern Region
ASOP                      Afghanistan Social Outreach Program
AUP                       Afghan Uniform Police
AVIPA                     Afghanistan Vouchers for Increased Production in Agriculture
AWOL                      absent without leave
C-JTSCC                   CENTCOM Joint Theater Support Contracting Command
CENTCOM                   Central Command (U.S.)
CERP                      Commander’s Emergency Response Program
CFSOCC-A                  Combined Forces Special Operations Component Command - Afghanistan
CM                        Capability Milestone




           REPORT TO THE UNITED STATES CONGRESS |   JANUARY 30, 2012                           175
APPENDICES




ACRONYM OR
ABBREVIATION       DEFINITION
CNPA               Counter-Narcotics Police of Afghanistan
CNPC               China National Petroleum Corporation International
CNPI               Counter-Narcotics Public Information
COIN               counter-insurgency
CPD                Central Prison Directorate
CPDAP              Colombo Plan Drug Advisory Program
CRS                Congressional Research Service
CSC                Civil Service Commission (Afghan)
CSSP               Correctional System Support Program
CSTC-A             Combined Security Transition Command - Afghanistan
CUAT               Commander’s Unit Assessment Tool
DAB                Da Afghanistan Bank
DAI                Development Alternatives Inc.
DCIS               Defense Criminal Investigative Service
DEA                Drug Enforcement Administration (U.S.)
DoD                Department of Defense (U.S.)
DoD CN             Department of Defense Drug Interdiction and Counter-Drug Activities fund (U.S)
DoD OIG            Department of Defense Office of Inspector General
DoS                Department of State (U.S.)
DoS OIG            DoS Office of Inspector General
DST                Development Support Team
EC                 European Commission
ECF                Extended Credit Facility
ESF                Economic Support Fund
EVAW               Elimination of Violence Against Women law
F-RIC              Force Reintegration Cell
FBI                Federal Bureau of Investigation (U.S)
FSD                Forward Support Depot
FY                 fiscal year
GAO                Government Accountability Office (U.S.)
GDP                gross domestic product
GPI                Good Performer’s Initiative
HMMWV              high-mobility, multi-purpose, wheeled vehicle
HOOAC              High Office of Oversight for Anti-Corruption (Afghan)
HRW                Human Rights Watch
I-PACS II          Initiative To Promote Afghan Civil Society II
ICCTF              International Contract Corruption Task Force
IDLG               Independent Directorate of Local Governance
IEC                Independent Election Commission (Afghan)
IED                improvised explosive device
IJC                International Security Assistance Force Joint Command
IMF                International Monetary Fund
INCLE              International Narcotics Control and Law Enforcement (U.S)




  176          SPECIAL INSPECTOR GENERAL |   AFGHANISTAN RECONSTRUCTION
                                                                       APPENDICES




ACRONYM OR
ABBREVIATION               DEFINITION
INL                        Bureau of International Narcotics and Law Enforcement Affairs (U.S.)
IOCC                       Inter-agency Operations and Coordination Center
ISAF                       International Security Assistance Force
ISR                        Intelligence, Surveillance, and Reconnaissance
JSC-A                      Joint Sustainment Command-Afghanistan
JSSP                       Justice Sector Support Program
LARA                       Land Reform in Afghanistan
LGCD                       Local Governance and Community Development
LOTFA                      Law and Order Trust Fund for Afghanistan
LSCOC                      Logistics Support Operations Center
MACCA                      Mine Action Coordination Center of Afghanistan
MCN                        Ministry of Counter-Narcotics
MCTF                       Major Crimes Task Force (Afghan)
MDP                        Gender Integration Ministerial Development Plan
MEC                        Monitoring and Evaluation Committee
MMDP                       Master Ministerial Development Plan
MoD                        Ministry of Defense (Afghan)
MoF                        Ministry of Finance (Afghan)
MoI                        Ministry of Interior (Afghan)
MoJ                        Ministry of Justice (Afghan)
MoM                        Ministry of Mines (Afghan)
MoPH                       Ministry of Public Health (Afghan)
MoPW                       Ministry of Public Works (Afghan)
MoTCA                      Ministry of Transport and Civil Aviation
MRRD                       Ministry of Rural Rehabilitation and Development
MTN                        Mobile Telecommunications Network Afghanistan
NATO                       North Atlantic Treaty Organization
NCIS                       Naval Criminal Investigative Service
NCO                        noncommissioned officer
NGO                        non-governmental organization
NIU                        National Interdiction Unit
NTM-A                      NATO Training Mission - Afghanistan
OIG                        Office of Inspector General
OTI                        Office of Transition Initiatives
PBGF                       Performance-Based Governor’s Fund
PJST                       Provincial Joint Secretariat Team
PM/WRA                     Bureau of Political-Military Affairs - Office of Weapons Removal and Abatement
                           (Afghan)
PMO                        postal money order
PRT                        Provincial Reconstruction Team
PSC                        private security contractor
RC                         Regional Command
RC Window                  Recurrent Cost Window
SIGAR                      Special Inspector General for Afghanistan Reconstruction




            REPORT TO THE UNITED STATES CONGRESS |   JANUARY 30, 2012                                 177
APPENDICES




ACRONYM OR
ABBREVIATION       DEFINITION
SIU                Sensitive Investigative Unit
STAY               Skills Training for Afghan Youth
SY                 solar year
TACOM LCMC         TACOM Life Cycle Management Command
TFBSO              Task Force for Business and Stability Operations
TIU                Technical Investigative Unit
TRANSCOM           U.S. Transportation Command
UAE                United Arab Emirates
UN                 United Nations
UNAMA              UN Assistance Mission in Afghanistan
UNDP               UN Development Programme
UNESCO             UN Educational, Scientific, and Cultural Organization
UNHCR              UN High Commissioner for Refugees
UNODC              UN Office on Drugs and Crime
USAAA              U.S. Army Audit Agency
USACE              U.S. Army Corps of Engineers
USAID              U.S. Agency for International Development
USAID OIG          USAID Office of Inspector General
USDA               U.S. Department of Agriculture
USFOR-A            U.S. Forces - Afghanistan
USGS               U.S. Geological Survey




 178           SPECIAL INSPECTOR GENERAL |   AFGHANISTAN RECONSTRUCTION
A Buddha’s legs and robe are carved out of stone at Tepe Kafiriat in Mes Aynak, Logar province,
  former site of a bin Laden training camp. Since 2010, the largest archaeological dig in the
     world has been attempting to save the treasures from this 2,600-year-old monastery
              before the site is destroyed by a huge copper mine to be built by a
                         Chinese company. (U.S. Embassy Kabul photo)
SIGAR
SPECIAL INSPECTOR GENERAL
FOR AFGHANISTAN RECONSTRUCTION


400 Army Navy Drive
Arlington, VA 22202-4704
